<html>
<title> - Memorial Tributes HELD IN THE HOUSE OF REPRESENTATIVES AND IN THE SENATE OF THE UNITED STATES TOGETHER WITH MEMORIAL SERVICES IN EULOGY OF JACOB JOSEPH CHESTNUT AND JOHN MICHAEL GIBSON U.S. CAPITOL POLICE OFFICERS One Hundred Fifth Congress Second Session Printed by authority of S. Con. Res. 112, 105th Congress U.S. GOVERNMENT PRINTING OFFICE WASHINGTON : 1998 Compiled under the direction of the Joint Committee on Printing S. Con. Res. 112 Agreed to July 27, 1998 One Hundred Fifth Congress of the United States of America AT THE SECOND SESSION Begun and held at the City of Washington on Tuesday, the twenty-seventh day of January, one thousand nine hundred and ninety-eight Concurrent Resolution Resolved by the Senate (the House of Representatives concurring), That the eulogies for Detective John Michael Gibson and Private First Class Jacob Joseph Chestnut of the United States Capitol Police, as expressed in the House of Representatives and the Senate together with the text of the memorial services, shall be printed as a tribute to Detective Gibson and Officer Chestnut, with illustrations and suitable binding. The document shall be prepared under the direction of the Joint Committee on Printing. There shall be printed 300 casebound copies; 50 to be delivered to each of the families of Detective Gibson and Officer Chestnut, and 200 for the use of the United States Capitol Police. Attest: Gary Sisco Secretary of the Senate. Attest: Robin H. Carle Clerk of the House of Representatives. CONTENTS Biographies........................................... xi Jacob Joseph Chestnut.............................. xi John Michael Gibson................................ xiii Proceedings in the House of Representatives........... 3 Tributes by Representatives: Abercrombie, Neil, of Hawaii................... 164 Aderholt, Robert B., of Alabama................ 167 Andrews, Robert E., of New Jersey.............. 64 Armey, Richard K., of Texas.................... 23, 71 Baldacci, John Elias, of Maine................. 31 Barr, Bob, of Georgia.......................... 125 Barrett, Bill, of Nebraska..................... 144 Bartlett, Roscoe G., of Maryland............... 142 Becerra, Xavier, of California................. 181 Bentsen, Ken, of Texas......................... 41 Bilirakis, Michael, of Florida................. 151 Bishop, Sanford D., Jr., of Georgia............ 130 Boehner, John A., of Ohio...................... 62 Bonior, David E., of Michigan.................. 21 Brady, Robert A., of Pennsylvania.............. 179 Brown, Corrine, of Florida..................... 63 Burr, Richard, of North Carolina............... 101 Calvert, Ken, of California.................... 136 Capps, Lois, of California..................... 97 Cardin, Benjamin L., of Maryland............... 123 Carson, Julia, of Indiana...................... 58 Castle, Michael N., of Delaware................ 109 Clay, William L., of Missouri.................. 148 Clement, Bob, of Tennessee..................... 67 Cook, Merrill, of Utah......................... 104 Costello, Jerry F., of Illinois................ 147 Coyne, William J., of Pennsylvania............. 82 Cubin, Barbara, of Wyoming..................... 60 Cunningham, Randy (Duke), of California........ 94, 113 Danner, Pat, of Missouri....................... 128 Davis, Danny K., of Illinois................... 63 Davis, Jim, of Florida......................... 125 Davis, Thomas M., of Virginia.................. 29 DeLauro, Rosa L., of Connecticut............... 42 DeLay, Tom, of Texas ............................................... .... 4, 14, 132, 168 Diaz-Balart, Lincoln, of Florida............... 42 Dicks, Norman D., of Washington................ 81 Dingell, John D., of Michigan.................. 72 Dreier, David, of California................... 129 Dunn, Jennifer, of Washington.................. 26 Edwards, Chet, of Texas........................ 71, 176 Ehrlich, Robert L., Jr., of Maryland........... 160 Everett, Terry, of Alabama..................... 145 Ewing, Thomas W., of Illinois.................. 101 Farr, Sam, of California....................... 32 Fazio, Vic, of California...................... 70 Foley, Mark, of Florida........................ 53 Forbes, Michael P., of New York................ 56 Fossella, Vito, of New York ............................................... ...... 110, 175 Fowler, Tillie K., of Florida.................. 111 Fox, Jon D., of Pennsylvania................... 48 Franks, Bob, of New Jersey..................... 176 Frelinghuysen, Rodney P., of New Jersey........ 110 Frost, Martin, of Texas........................ 78 Gejdenson, Sam, of Connecticut................. 75 Gephardt, Richard A., of Missouri.............. 18 Gibbons, Jim, of Nevada........................ 100 Gilchrest, Wayne T., of Maryland............... 50 Gillmor, Paul E., of Ohio...................... 146 Gilman, Benjamin A., of New York............... 33 Gingrich, Newt, of Georgia..................... 10, 138 Goodlatte, Bob, of Virginia.................... 156 Goss, Porter J., of Florida.................... 140 Granger, Kay, of Texas......................... 173 Green, Gene, of Texas.......................... 68 Gutknecht, Gil, of Minnesota ............................................... ... 130, 157 Hall, Tony P., of Ohio......................... 153 Hastert, J. Dennis, of Illinois................ 23 Hayworth, J. D., of Arizona.................... 55 Hill, Rick, of Montana......................... 106 Hobson, David L., of Ohio...................... 149 Hoekstra, Peter, of Michigan................... 146 Holden, Tim, of Pennsylvania................... 34 Hooley, Darlene, of Oregon..................... 136 Horn, Stephen, of California................... 46 Houghton, Amo, of New York..................... 112 Hoyer, Steny H., of Maryland .............................. 4, 25, 184, 187, 190 Hunter, Duncan, of California.................. 65 Jackson, Jesse L., Jr., of Illinois............ 171 Jackson Lee, Sheila, of Texas.................. 113 Jenkins, William L., of Tennessee.............. 152 John, Christopher, of Louisiana................ 174 Johnson, Eddie Bernice, of Texas............... 149 Kaptur, Marcy, of Ohio......................... 190 Kennedy, Joseph P., II, of Massachusetts....... 162 Kennelly, Barbara B., of Connecticut........... 66 Kildee, Dale E., of Michigan................... 141 Kilpatrick, Carolyn C., of Michigan............ 73 Kind, Ron, of Wisconsin........................ 158 Kingston, Jack, of Georgia..................... 106 Kleczka, Gerald D., of Wisconsin............... 76 Klink, Ron, of Pennsylvania.................... 48 Kucinich, Dennis J., of Ohio................... 170 LaHood, Ray, of Illinois....................... 100 Lantos, Tom, of California..................... 90 Lee, Barbara, of California.................... 83 Lewis, Jerry, of California.................... 43 Lewis, John, of Georgia........................ 38 Lipinski, William O., of Illinois.............. 93 Lowey, Nita M., of New York.................... 80 Luther, Bill, of Minnesota..................... 165 Maloney, Carolyn B., of New York............... 180 Manton, Thomas J., of New York................. 79 Manzullo, Donald A., of Illinois............... 162 Martinez, Matthew G., of California............ 91 McCarthy, Karen, of Missouri................... 84 McGovern, James P., of Massachusetts........... 77 McInnis, Scott, of Colorado.................... 39 Meek, Carrie B., of Florida.................... 36 Meeks, Gregory W., of New York................. 131 Menendez, Robert, of New Jersey................ 51 Mica, John L., of Florida...................... 40 Millender-McDonald, Juanita, of California..... 171 Minge, David, of Minnesota..................... 137 Mink, Patsy T., of Hawaii...................... 137 Moakley, John Joseph, of Massachusetts......... 95 Moran, James P., of Virginia................... 44, 186 Morella, Constance A., of Maryland............. 108 Myrick, Sue Wilkins, of North Carolina......... 192 Ney, Robert W., of Ohio........................ 191 Northup, Anne M., of Kentucky.................. 157 Ortiz, Solomon P., of Texas.................... 151 Owens, Major R., of New York................... 68 Oxley, Michael G., of Ohio..................... 136 Packard, Ron, of California.................... 155 Pallone, Frank, Jr., of New Jersey............. 66 Pappas, Michael, of New Jersey................. 52 Pascrell, Bill, Jr., of New Jersey............. 59 Payne, Donald M., of New Jersey................ 127 Pelosi, Nancy, of California................... 155 Pitts, Joseph R., of Pennsylvania.............. 159 Portman, Rob, of Ohio.......................... 89 Quinn, Jack, of New York....................... 57 Rahall, Nick J., II, of West Virginia.......... 107 Ramstad, Jim, of Minnesota..................... 86 Rangel, Charles B., of New York................ 161 Regula, Ralph, of Ohio......................... 104 Rodriguez, Ciro D., of Texas................... 166 Roemer, Tim, of Indiana........................ 54 Rogers, Harold, of Kentucky.................... 85 Ros-Lehtinen, Ileana, of Florida............... 94 Rothman, Steven R., of New Jersey.............. 87 Roukema, Marge, of New Jersey.................. 177 Roybal-Allard, Lucille, of California.......... 186 Sanders, Bernard, of Vermont................... 60 Sanford, Marshall (Mark), of South Carlina..... 87 Scott, Robert C., of Virginia.................. 124 Sensenbrenner, F. James, Jr., of Wisconsin..... 75 Serrano, Jose E., of New York.................. 154 Shays, Christopher, of Connecticut............. 45 Sisisky, Norman, of Virginia................... 52 Skaggs, David E., of Colorado.................. 39 Skeen, Joe, of New Mexico...................... 126 Skelton, Ike, of Missouri...................... 55 Solomon, Gerald B. H., of New York............. 37 Spratt, John M., Jr., of South Carolina........ 65 Stark, Fortney Pete, of California............. 143 Stearns, Cliff, of Florida..................... 74 Stokes, Louis, of Ohio......................... 65 Stupak, Bart, of Michigan...................... 119 Tanner, John S., of Tennessee.................. 172 Taylor, Charles H., of North Carolina.......... 174 Thomas, William M., of California ............................. 28, 99, 184, 187 Traficant, James A., Jr., of Ohio.............. 61, 102 Turner, Jim, of Texas.......................... 49 Vento, Bruce F., of Minnesota.................. 105 Visclosky, Peter J., of Indiana................ 92 Walsh, James T., of New York................... 103 Wamp, Zach, of Tennessee....................... 133 Waters, Maxine, of California.................. 56 Watkins, Wes, of Oklahoma...................... 179 Weldon, Curt, of Pennsylvania.................. 35, 121 Weygand, Robert A., of Rhode Island............ 148 Wicker, Roger F., of Mississippi............... 117 Wise, Robert E., Jr., West Virginia............ 29 Wolf, Frank R., of Virginia.................... 32 Woolsey, Lynn C., of California................ 106 Wynn, Albert Russell, of Maryland.............. 46 Tributes by Delegates: Christian-Green, Donna M., of Virgin Islands... 135 Faleomavaega, Eni F. H., of American Samoa..... 134 Norton, Eleanor Holmes, of District of Columbia 27, 181 Underwood, Robert A., of Guam.................. 166 Tribute by Resident Commissioner: Romero-Barcelo, Carlos A., of Puerto Rico...... 160 Proceedings in the Senate............................. 195 Tributes by Senators: Abraham, Spencer, of Michigan.................. 263 Akaka, Daniel K., of Hawaii.................... 275 Allard, Wayne, of Colorado..................... 264 Baucus, Max, of Montana........................ 259 Bennett, Robert F., of Utah.................... 210 Biden, Joseph R., Jr., of Delaware............. 261 Byrd, Robert C., of West Virginia.............. 249 Campbell, Ben Nighthorse, of Colorado ......................... 227, 248, 271 Cleland, Max, of Georgia....................... 265 Conrad, Kent, of North Dakota.................. 232 D'Amato, Alfonse M., of New York............... 233 Daschle, Thomas A., of South Dakota............ 212 Dodd, Christopher J., of Connecticut........... 208 Durbin, Richard, of Illinois................... 222 Faircloth, Lauch, of North Carolina............ 239 Feingold, Russell D., of Wisconsin............. 274 Feinstein, Dianne, of California............... 267 Frist, William H., of Tennessee................ 270 Glenn, John, of Ohio........................... 229 Graham, Bob, of Florida........................ 219 Hagel, Chuck, of Nebraska...................... 262 Hatch, Orrin G., of Utah ............................................... .......... 221, 244 Hollings, Ernest F., of South Carolina......... 225 Hutchison, Kay Bailey, of Texas ............................................ 207, 231 Johnson, Tim, of South Dakota.................. 269 Kempthorne, Dirk, of Idaho..................... 200 Kennedy, Edward M., of Massachusetts........... 219 Kerry, John F., of Massachusetts............... 237 Kohl, Herb, of Wisconsin....................... 248 Kyl, Jon, of Arizona........................... 275 Leahy, Patrick J., of Vermont.................. 245 Levin, Carl, of Michigan....................... 264 Lieberman, Joseph I., of Connecticut........... 202 Lott, Trent, of Mississippi ....................................... 195, 211, 240, 275 Mack, Connie, of Florida....................... 198 Mikulski, Barbara A, of Maryland............... 215 Moseley-Braun, Carol, of Illinois.............. 234 Moynihan, Daniel Patrick, of New York.......... 231 Murkowski, Frank H., Arkansas.................. 211 Murray, Patty, of Washington................... 267 Robb, Charles S., of Virginia.................. 205 Roth, William V., Jr., of Delaware............. 257 Santorum, Rick, of Pennsylvania................ 268 Sarbanes, Paul S., of Maryland .............................................. 207, 277 Snowe, Olympia J., of Maine.................... 235 Thompson, Fred, of Tennessee................... 230 Thurmond, Strom, of South Carolina............. 224 Warner, John W., of Virginia ............................................... ... 217, 244 Wellstone, Paul D., of Minnesota............... 258 Memorial Services..................................... 279 Capitol Rotunda, Washington, D.C................... 281 Memorial Service for Jacob Joseph Chestnut......... 291 Memorial Service for John Michael Gibson........... 295 BIOGRAPHIES JACOB JOSEPH CHESTNUT Private First Class Jacob Joseph Chestnut of the U.S. Capitol Police force was born April 28, 1940, in Myrtle Beach, South Carolina. He served 20 years in the U.S. Air Force from 1960 to 1980, including a tour of duty with the 633rd Security Police Squadron in Vietnam. Among other citations, Officer Chestnut was awarded the Vietnam Service Medal with 2 Bronze Service Stars and the Bronze Star Medal for Meritorious Service. He started his career with the U.S. Capitol Police force in January 1980, and was ultimately assigned duty guarding the Document Door of the U.S. Capitol. His file contains numerous letters of appreciation from citizens and staff for assistance provided and attention to duty. In 1994 he was given the Sustained Superior Performance Award for ``providing emergency medical assistance to a citizen suffering an allergic reaction requiring emergency hospitalization.'' While serving with the 374th Security Police Squadron at Ching Chuan Kang Air Base in Taiwan, he met Wen Ling, his wife of twenty-three years. They have five children: William, 19; Karen, 22; twins Janet and Janece, both 27; and Joseph, 35. They also have three grandchildren: Ashton, Brandy, and Joyce. JOHN MICHAEL GIBSON Detective John Michael Gibson of the Dignitary Protection Division of the U.S. Capitol Police was born March 29, 1956, in Chicago, Illinois. He graduated from Boston State College in 1979 and from the Federal Law Enforcement Training Center in 1980. Detective Gibson began his career with the U.S. Capitol Police in August of 1980. He was promoted to Detective and assigned to the Dignitary Protection Division in December 1989. Detective Gibson has received numerous letters of appreciation ranging from helping citizens change a flat tire or assisting with keys locked in vehicles to providing protective services to members for the Republican Conference. In 1988, Detective Gibson received a certificate of commendation for ``going to the aid of a citizen who had suffered possible cardiac arrest and providing CPR, possibly saving their life.'' In May 1998, Detective Gibson received a commendation from Senator Reid for quick response to his wife's medical emergency while at the Democratic Issues Conference in Williamsburg. Detective Gibson is married to Evelyn M. Gibson. They have three children: Daniel J., 14; John M., 16; and Kristen E., 17. MEMORIAL TRIBUTES FOR JACOB JOSEPH CHESTNUT AND JOHN MICHAEL GIBSON Proceedings in the House of Representatives Monday, July 27, 1998 The Chaplain, Reverend James David Ford, D.D., offered the following prayer: Let us pray. We gather together for prayer as we do every day when we ask for guidance and blessing for the day ahead. But on this day, O God, we come with hearts that are saddened and with souls distressed with the knowledge that violence has been done to our community. As we gather for our prayer we come as people who have the honor of service in this special place, but today we mourn the loss of two of our colleagues who gave their lives so others would live. From this time onward the names of Jacob Chestnut and John Gibson will be remembered with honor and dignity and praise and thanksgiving. O loving and eternal God, whose mercies are without end, we ask Your blessing upon the families of these men. Comfort them in their sorrow, strengthen them in their need, grant solace and peace in their hearts. You have promised, O God, that though we walk through the valley of the shadow of death, You are with us with Your grace and Your promise of eternal life. We also remember in our prayer Angela Dickerson and offer our prayers for her recovery. May Your spirit be with her and her family and sustain them in the days ahead. We pray, O loving God, that your strong hand will give a special blessing to those men and women who have devoted their lives to the protection of all of us who work in our Capitol, and also the many who visit this place. For all the police who serve with faithfulness and dedication and who mourn the loss of two of their own, we ask for Your healing presence. Be with them in their grief. May your peace, O God, that passes all human understanding, be with all who mourn, now and evermore. Amen. The SPEAKER pro tempore. Will the gentleman from Maryland (Mr. Hoyer) come forward and lead the House in the Pledge of Allegiance. Mr. HOYER. Mr. Speaker, I would ask all Members and guests to join me in pledging allegiance to the flag, which stands for the principles for which Detective Gibson and Officer Chestnut have so recently given their lives. Mr. HOYER led the Pledge of Allegiance. Mr. DeLAY. Mr. Speaker, I ask unanimous consent that the Committee on House Oversight be discharged from further consideration of the concurrent resolution (H. Con. Res. 310) and I ask for its immediate consideration and adoption by the House. The SPEAKER pro tempore. The Clerk will report the concurrent resolution. The Clerk read as follows: H. Con. Res. 310 Resolved by the House of Representatives (the Senate concurring), SECTION 1. AUTHORIZING USE OF ROTUNDA OF THE CAPITOL FOR MEMORIAL SERVICE FOR DETECTIVE JOHN MICHAEL GIBSON AND PRIVATE FIRST CLASS JACOB JOSEPH CHESTNUT. The rotunda of the Capitol is authorized to be used for a memorial service and proceedings related thereto for Detective John Michael Gibson and Private First Class Jacob Joseph Chestnut of the United States Capitol Police on Tuesday, July 28, 1998, under the direction of the United States Capitol Police Board. SEC. 2. PLACEMENT OF PLAQUE IN CAPITOL IN MEMORY OF DETECTIVE GIBSON AND PRIVATE FIRST CLASS CHESTNUT. The Architect of the Capitol shall place a plaque in honor of the memory of Detective John Michael Gibson and Private First Class Jacob Joseph Chestnut of the United States Capitol Police at an appropriate site in the United States Capitol, with the approval of the Speaker of the House of Representatives and the President Pro Tempore of the Senate. SEC. 3. PAYMENT OF FUNERAL EXPENSES FOR JOHN GIBSON AND JACOB JOSEPH CHESTNUT. (a) In General.</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



                         Jacob Joseph Chestnut

                                  AND

                          John Michael Gibson

                      U.S. CAPITOL POLICE OFFICERS


                           MEMORIAL TRIBUTES

                             AND ADDRESSES


JACOB JOSEPH CHESTNUT a 1940-1998

JOHN MICHAEL GIBSON a 1956-1998



    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Jacob Joseph Chestnut


                                           
             <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 
                                  Memorial Tributes

                        HELD IN THE HOUSE OF REPRESENTATIVES

                                  AND IN THE SENATE

                                OF THE UNITED STATES

                           TOGETHER WITH MEMORIAL SERVICES

                                    IN EULOGY OF

                                JACOB JOSEPH CHESTNUT

                                         AND

                                 JOHN MICHAEL GIBSON

                      U.S. CAPITOL POLICE OFFICERS

                             One Hundred Fifth Congress

                                   Second Session

        Printed by authority of S. Con. Res. 112, 105th Congress




                         U.S. GOVERNMENT PRINTING OFFICE
                                WASHINGTON : 1998

















                            Compiled under the direction

                                       of the

                             Joint Committee on Printing
               


















             S. Con. Res. 112                    Agreed to July 27, 
             1998
               

One Hundred Fifth Congress

         of the

United States of America


                         AT THE SECOND SESSION

                Begun and held at the City of Washington on Tuesday,
the twenty-seventh day of January, one thousand nine hundred 
and ninety-eight

                     Concurrent Resolution

Resolved by the Senate (the House of Representatives concurring), That the 
eulogies for Detective John Michael Gibson and Private First Class Jacob 
Joseph Chestnut of the United States Capitol Police, as expressed in the 
House of Representatives and the Senate together with the text of the 
memorial services, shall be printed as a tribute to Detective Gibson and 
Officer Chestnut, with illustrations and suitable binding. The document 
shall be prepared under the direction of the Joint Committee on Printing. 
There shall be printed 300 casebound copies; 50 to be delivered to each of 
the families of Detective Gibson and Officer Chestnut, and 200 for the use 
of the United States Capitol Police.

             Attest:
                                                       Gary Sisco      
                                             Secretary of the Senate.  

             Attest:
                                                   Robin H. Carle      
                               Clerk of the House of Representatives.  

















                                      CONTENTS
             Biographies...........................................
                                                                     xi
                Jacob Joseph Chestnut..............................
                                                                     xi
                John Michael Gibson................................
                                                                   xiii
             Proceedings in the House of Representatives...........
                                                                      3
                Tributes by Representatives:
                    Abercrombie, Neil, of Hawaii...................
                                                                    164
                    Aderholt, Robert B., of Alabama................
                                                                    167
                    Andrews, Robert E., of New Jersey..............
                                                                     64
                    Armey, Richard K., of Texas....................
                                                                 23, 71
                    Baldacci, John Elias, of Maine.................
                                                                     31
                    Barr, Bob, of Georgia..........................
                                                                    125
                    Barrett, Bill, of Nebraska.....................
                                                                    144
                    Bartlett, Roscoe G., of Maryland...............
                                                                    142
                    Becerra, Xavier, of California.................
                                                                    181
                    Bentsen, Ken, of Texas.........................
                                                                     41
                    Bilirakis, Michael, of Florida.................
                                                                    151
                    Bishop, Sanford D., Jr., of Georgia............
                                                                    130
                    Boehner, John A., of Ohio......................
                                                                     62
                    Bonior, David E., of Michigan..................
                                                                     21
                    Brady, Robert A., of Pennsylvania..............
                                                                    179
                    Brown, Corrine, of Florida.....................
                                                                     63
                    Burr, Richard, of North Carolina...............
                                                                    101
                    Calvert, Ken, of California....................
                                                                    136
                    Capps, Lois, of California.....................
                                                                     97
                    Cardin, Benjamin L., of Maryland...............
                                                                    123
                    Carson, Julia, of Indiana......................
                                                                     58
                    Castle, Michael N., of Delaware................
                                                                    109
                    Clay, William L., of Missouri..................
                                                                    148
                    Clement, Bob, of Tennessee.....................
                                                                     67
                    Cook, Merrill, of Utah.........................
                                                                    104
                    Costello, Jerry F., of Illinois................
                                                                    147
                    Coyne, William J., of Pennsylvania.............
                                                                     82
                    Cubin, Barbara, of Wyoming.....................
                                                                     60
                    Cunningham, Randy (Duke), of California........
                                                                94, 113
                    Danner, Pat, of Missouri.......................
                                                                    128
                    Davis, Danny K., of Illinois...................
                                                                     63
                    Davis, Jim, of Florida.........................
                                                                    125
                    Davis, Thomas M., of Virginia..................
                                                                     29
                    DeLauro, Rosa L., of Connecticut...............
                                                                     42
                    DeLay, Tom, of Texas 
                     ...............................................
                     ....
                                                        4, 14, 132, 168
                    Diaz-Balart, Lincoln, of Florida...............
                                                                     42
                    Dicks, Norman D., of Washington................
                                                                     81
                    Dingell, John D., of Michigan..................
                                                                     72
                    Dreier, David, of California...................
                                                                    129
                    Dunn, Jennifer, of Washington..................
                                                                     26
                    Edwards, Chet, of Texas........................
                                                                71, 176
                    Ehrlich, Robert L., Jr., of Maryland...........
                                                                    160
                    Everett, Terry, of Alabama.....................
                                                                    145
                    Ewing, Thomas W., of Illinois..................
                                                                    101
                    Farr, Sam, of California.......................
                                                                     32
                    Fazio, Vic, of California......................
                                                                     70
                    Foley, Mark, of Florida........................
                                                                     53
                    Forbes, Michael P., of New York................
                                                                     56
                    Fossella, Vito, of New York 
                     ...............................................
                     ......
                                                               110, 175
                    Fowler, Tillie K., of Florida..................
                                                                    111
                    Fox, Jon D., of Pennsylvania...................
                                                                     48
                    Franks, Bob, of New Jersey.....................
                                                                    176
                    Frelinghuysen, Rodney P., of New Jersey........
                                                                    110
                    Frost, Martin, of Texas........................
                                                                     78
                    Gejdenson, Sam, of Connecticut.................
                                                                     75
                    Gephardt, Richard A., of Missouri..............
                                                                     18
                    Gibbons, Jim, of Nevada........................
                                                                    100
                    Gilchrest, Wayne T., of Maryland...............
                                                                     50
                    Gillmor, Paul E., of Ohio......................
                                                                    146
                    Gilman, Benjamin A., of New York...............
                                                                     33
                    Gingrich, Newt, of Georgia.....................
                                                                10, 138
                    Goodlatte, Bob, of Virginia....................
                                                                    156
                    Goss, Porter J., of Florida....................
                                                                    140
                    Granger, Kay, of Texas.........................
                                                                    173
                    Green, Gene, of Texas..........................
                                                                     68
                    Gutknecht, Gil, of Minnesota 
                     ...............................................
                     ...
                                                               130, 157
                    Hall, Tony P., of Ohio.........................
                                                                    153
                    Hastert, J. Dennis, of Illinois................
                                                                     23
                    Hayworth, J. D., of Arizona....................
                                                                     55
                    Hill, Rick, of Montana.........................
                                                                    106
                    Hobson, David L., of Ohio......................
                                                                    149
                    Hoekstra, Peter, of Michigan...................
                                                                    146
                    Holden, Tim, of Pennsylvania...................
                                                                     34
                    Hooley, Darlene, of Oregon.....................
                                                                    136
                    Horn, Stephen, of California...................
                                                                     46
                    Houghton, Amo, of New York.....................
                                                                    112
                    Hoyer, Steny H., of Maryland 
                     ..............................
                                                   4, 25, 184, 187, 190
                    Hunter, Duncan, of California..................
                                                                     65
                    Jackson, Jesse L., Jr., of Illinois............
                                                                    171
                    Jackson Lee, Sheila, of Texas..................
                                                                    113
                    Jenkins, William L., of Tennessee..............
                                                                    152
                    John, Christopher, of Louisiana................
                                                                    174
                    Johnson, Eddie Bernice, of Texas...............
                                                                    149
                    Kaptur, Marcy, of Ohio.........................
                                                                    190
                    Kennedy, Joseph P., II, of Massachusetts.......
                                                                    162
                    Kennelly, Barbara B., of Connecticut...........
                                                                     66
                    Kildee, Dale E., of Michigan...................
                                                                    141
                    Kilpatrick, Carolyn C., of Michigan............
                                                                     73
                    Kind, Ron, of Wisconsin........................
                                                                    158
                    Kingston, Jack, of Georgia.....................
                                                                    106
                    Kleczka, Gerald D., of Wisconsin...............
                                                                     76
                    Klink, Ron, of Pennsylvania....................
                                                                     48
                    Kucinich, Dennis J., of Ohio...................
                                                                    170
                    LaHood, Ray, of Illinois.......................
                                                                    100
                    Lantos, Tom, of California.....................
                                                                     90
                    Lee, Barbara, of California....................
                                                                     83
                    Lewis, Jerry, of California....................
                                                                     43
                    Lewis, John, of Georgia........................
                                                                     38
                    Lipinski, William O., of Illinois..............
                                                                     93
                    Lowey, Nita M., of New York....................
                                                                     80
                    Luther, Bill, of Minnesota.....................
                                                                    165
                    Maloney, Carolyn B., of New York...............
                                                                    180
                    Manton, Thomas J., of New York.................
                                                                     79
                    Manzullo, Donald A., of Illinois...............
                                                                    162
                    Martinez, Matthew G., of California............
                                                                     91
                    McCarthy, Karen, of Missouri...................
                                                                     84
                    McGovern, James P., of Massachusetts...........
                                                                     77
                    McInnis, Scott, of Colorado....................
                                                                     39
                    Meek, Carrie B., of Florida....................
                                                                     36
                    Meeks, Gregory W., of New York.................
                                                                    131
                    Menendez, Robert, of New Jersey................
                                                                     51
                    Mica, John L., of Florida......................
                                                                     40
                    Millender-McDonald, Juanita, of California.....
                                                                    171
                    Minge, David, of Minnesota.....................
                                                                    137
                    Mink, Patsy T., of Hawaii......................
                                                                    137
                    Moakley, John Joseph, of Massachusetts.........
                                                                     95
                    Moran, James P., of Virginia...................
                                                                44, 186
                    Morella, Constance A., of Maryland.............
                                                                    108
                    Myrick, Sue Wilkins, of North Carolina.........
                                                                    192
                    Ney, Robert W., of Ohio........................
                                                                    191
                    Northup, Anne M., of Kentucky..................
                                                                    157
                    Ortiz, Solomon P., of Texas....................
                                                                    151
                    Owens, Major R., of New York...................
                                                                     68
                    Oxley, Michael G., of Ohio.....................
                                                                    136
                    Packard, Ron, of California....................
                                                                    155
                    Pallone, Frank, Jr., of New Jersey.............
                                                                     66
                    Pappas, Michael, of New Jersey.................
                                                                     52
                    Pascrell, Bill, Jr., of New Jersey.............
                                                                     59
                    Payne, Donald M., of New Jersey................
                                                                    127
                    Pelosi, Nancy, of California...................
                                                                    155
                    Pitts, Joseph R., of Pennsylvania..............
                                                                    159
                    Portman, Rob, of Ohio..........................
                                                                     89
                    Quinn, Jack, of New York.......................
                                                                     57
                    Rahall, Nick J., II, of West Virginia..........
                                                                    107
                    Ramstad, Jim, of Minnesota.....................
                                                                     86
                    Rangel, Charles B., of New York................
                                                                    161
                    Regula, Ralph, of Ohio.........................
                                                                    104
                    Rodriguez, Ciro D., of Texas...................
                                                                    166
                    Roemer, Tim, of Indiana........................
                                                                     54
                    Rogers, Harold, of Kentucky....................
                                                                     85
                    Ros-Lehtinen, Ileana, of Florida...............
                                                                     94
                    Rothman, Steven R., of New Jersey..............
                                                                     87
                    Roukema, Marge, of New Jersey..................
                                                                    177
                    Roybal-Allard, Lucille, of California..........
                                                                    186
                    Sanders, Bernard, of Vermont...................
                                                                     60
                    Sanford, Marshall (Mark), of South Carlina.....
                                                                     87
                    Scott, Robert C., of Virginia..................
                                                                    124
                    Sensenbrenner, F. James, Jr., of Wisconsin.....
                                                                     75
                    Serrano, Jose E., of New York..................
                                                                    154
                    Shays, Christopher, of Connecticut.............
                                                                     45
                    Sisisky, Norman, of Virginia...................
                                                                     52
                    Skaggs, David E., of Colorado..................
                                                                     39
                    Skeen, Joe, of New Mexico......................
                                                                    126
                    Skelton, Ike, of Missouri......................
                                                                     55
                    Solomon, Gerald B. H., of New York.............
                                                                     37
                    Spratt, John M., Jr., of South Carolina........
                                                                     65
                    Stark, Fortney Pete, of California.............
                                                                    143
                    Stearns, Cliff, of Florida.....................
                                                                     74
                    Stokes, Louis, of Ohio.........................
                                                                     65
                    Stupak, Bart, of Michigan......................
                                                                    119
                    Tanner, John S., of Tennessee..................
                                                                    172
                    Taylor, Charles H., of North Carolina..........
                                                                    174
                    Thomas, William M., of California 
                     .............................
                                                       28, 99, 184, 187
                    Traficant, James A., Jr., of Ohio..............
                                                                61, 102
                    Turner, Jim, of Texas..........................
                                                                     49
                    Vento, Bruce F., of Minnesota..................
                                                                    105
                    Visclosky, Peter J., of Indiana................
                                                                     92
                    Walsh, James T., of New York...................
                                                                    103
                    Wamp, Zach, of Tennessee.......................
                                                                    133
                    Waters, Maxine, of California..................
                                                                     56
                    Watkins, Wes, of Oklahoma......................
                                                                    179
                    Weldon, Curt, of Pennsylvania..................
                                                                35, 121
                    Weygand, Robert A., of Rhode Island............
                                                                    148
                    Wicker, Roger F., of Mississippi...............
                                                                    117
                    Wise, Robert E., Jr., West Virginia............
                                                                     29
                    Wolf, Frank R., of Virginia....................
                                                                     32
                    Woolsey, Lynn C., of California................
                                                                    106
                    Wynn, Albert Russell, of Maryland..............
                                                                     46
                Tributes by Delegates:
                    Christian-Green, Donna M., of Virgin Islands...
                                                                    135
                    Faleomavaega, Eni F. H., of American Samoa.....
                                                                    134
                    Norton, Eleanor Holmes, of District of Columbia
                                                                27, 181
                    Underwood, Robert A., of Guam..................
                                                                    166
                Tribute by Resident Commissioner:
                    Romero-Barcelo, Carlos A., of Puerto Rico......
                                                                    160
             Proceedings in the Senate.............................
                                                                    195
                Tributes by Senators:
                    Abraham, Spencer, of Michigan..................
                                                                    263
                    Akaka, Daniel K., of Hawaii....................
                                                                    275
                    Allard, Wayne, of Colorado.....................
                                                                    264
                    Baucus, Max, of Montana........................
                                                                    259
                    Bennett, Robert F., of Utah....................
                                                                    210
                    Biden, Joseph R., Jr., of Delaware.............
                                                                    261
                    Byrd, Robert C., of West Virginia..............
                                                                    249
                    Campbell, Ben Nighthorse, of Colorado 
                     .........................
                                                          227, 248, 271
                    Cleland, Max, of Georgia.......................
                                                                    265
                    Conrad, Kent, of North Dakota..................
                                                                    232
                    D'Amato, Alfonse M., of New York...............
                                                                    233
                    Daschle, Thomas A., of South Dakota............
                                                                    212
                    Dodd, Christopher J., of Connecticut...........
                                                                    208
                    Durbin, Richard, of Illinois...................
                                                                    222
                    Faircloth, Lauch, of North Carolina............
                                                                    239
                    Feingold, Russell D., of Wisconsin.............
                                                                    274
                    Feinstein, Dianne, of California...............
                                                                    267
                    Frist, William H., of Tennessee................
                                                                    270
                    Glenn, John, of Ohio...........................
                                                                    229
                    Graham, Bob, of Florida........................
                                                                    219
                    Hagel, Chuck, of Nebraska......................
                                                                    262
                    Hatch, Orrin G., of Utah 
                     ...............................................
                     ..........
                                                               221, 244
                    Hollings, Ernest F., of South Carolina.........
                                                                    225
                    Hutchison, Kay Bailey, of Texas 
                     ............................................
                                                               207, 231
                    Johnson, Tim, of South Dakota..................
                                                                    269
                    Kempthorne, Dirk, of Idaho.....................
                                                                    200
                    Kennedy, Edward M., of Massachusetts...........
                                                                    219
                    Kerry, John F., of Massachusetts...............
                                                                    237
                    Kohl, Herb, of Wisconsin.......................
                                                                    248
                    Kyl, Jon, of Arizona...........................
                                                                    275
                    Leahy, Patrick J., of Vermont..................
                                                                    245
                    Levin, Carl, of Michigan.......................
                                                                    264
                    Lieberman, Joseph I., of Connecticut...........
                                                                    202
                    Lott, Trent, of Mississippi 
                     .......................................
                                                     195, 211, 240, 275
                    Mack, Connie, of Florida.......................
                                                                    198
                    Mikulski, Barbara A, of Maryland...............
                                                                    215
                    Moseley-Braun, Carol, of Illinois..............
                                                                    234
                    Moynihan, Daniel Patrick, of New York..........
                                                                    231
                    Murkowski, Frank H., Arkansas..................
                                                                    211
                    Murray, Patty, of Washington...................
                                                                    267
                    Robb, Charles S., of Virginia..................
                                                                    205
                    Roth, William V., Jr., of Delaware.............
                                                                    257
                    Santorum, Rick, of Pennsylvania................
                                                                    268
                    Sarbanes, Paul S., of Maryland 
                     ..............................................
                                                               207, 277
                    Snowe, Olympia J., of Maine....................
                                                                    235
                    Thompson, Fred, of Tennessee...................
                                                                    230
                    Thurmond, Strom, of South Carolina.............
                                                                    224
                    Warner, John W., of Virginia 
                     ...............................................
                     ...
                                                               217, 244
                    Wellstone, Paul D., of Minnesota...............
                                                                    258
             Memorial Services.....................................
                                                                    279
                Capitol Rotunda, Washington, D.C...................
                                                                    281
                Memorial Service for Jacob Joseph Chestnut.........
                                                                    291
                Memorial Service for John Michael Gibson...........
                                                                    295












                                     BIOGRAPHIES


             JACOB JOSEPH CHESTNUT

               Private First Class Jacob Joseph Chestnut of the U.S. 
             Capitol Police force was born April 28, 1940, in Myrtle 
             Beach, South Carolina. He served 20 years in the U.S. Air 
             Force from 1960 to 1980, including a tour of duty with the 
             633rd Security Police Squadron in Vietnam. Among other 
             citations, Officer Chestnut was awarded the Vietnam 
             Service Medal with 2 Bronze Service Stars and the Bronze 
             Star Medal for Meritorious Service.
               He started his career with the U.S. Capitol Police force 
             in January 1980, and was ultimately assigned duty guarding 
             the Document Door of the U.S. Capitol. His file contains 
             numerous letters of appreciation from citizens and staff 
             for assistance provided and attention to duty. In 1994 he 
             was given the Sustained Superior Performance Award for 
             ``providing emergency medical assistance to a citizen 
             suffering an allergic reaction requiring emergency 
             hospitalization.''
               While serving with the 374th Security Police Squadron at 
             Ching Chuan Kang Air Base in Taiwan, he met Wen Ling, his 
             wife of twenty-three years. They have five children: 
             William, 19; Karen, 22; twins Janet and Janece, both 27; 
             and Joseph, 35. They also have three grandchildren: 
             Ashton, Brandy, and Joyce.







             JOHN MICHAEL GIBSON

               Detective John Michael Gibson of the Dignitary 
             Protection Division of the U.S. Capitol Police was born 
             March 29, 1956, in Chicago, Illinois. He graduated from 
             Boston State College in 1979 and from the Federal Law 
             Enforcement Training Center in 1980. Detective Gibson 
             began his career with the U.S. Capitol Police in August of 
             1980. He was promoted to Detective and assigned to the 
             Dignitary Protection Division in December 1989.
               Detective Gibson has received numerous letters of 
             appreciation ranging from helping citizens change a flat 
             tire or assisting with keys locked in vehicles to 
             providing protective services to members for the 
             Republican Conference. In 1988, Detective Gibson received 
             a certificate of commendation for ``going to the aid of a 
             citizen who had suffered possible cardiac arrest and 
             providing CPR, possibly saving their life.'' In May 1998, 
             Detective Gibson received a commendation from Senator Reid 
             for quick response to his wife's medical emergency while 
             at the Democratic Issues Conference in Williamsburg.
               Detective Gibson is married to Evelyn M. Gibson. They 
             have three children: Daniel J., 14; John M., 16; and 
             Kristen E., 17.
                 












                                  MEMORIAL TRIBUTES

                                         FOR

                                JACOB JOSEPH CHESTNUT

                                         AND

                                 JOHN MICHAEL GIBSON
                     Proceedings in the House of Representatives
                                                  Monday, July 27, 1998
               The Chaplain, Reverend James David Ford, D.D., offered 
             the following prayer:
               Let us pray.
               We gather together for prayer as we do every day when we 
             ask for guidance and blessing for the day ahead.
               But on this day, O God, we come with hearts that are 
             saddened and with souls distressed with the knowledge that 
             violence has been done to our community. As we gather for 
             our prayer we come as people who have the honor of service 
             in this special place, but today we mourn the loss of two 
             of our colleagues who gave their lives so others would 
             live.
               From this time onward the names of Jacob Chestnut and 
             John Gibson will be remembered with honor and dignity and 
             praise and thanksgiving. O loving and eternal God, whose 
             mercies are without end, we ask Your blessing upon the 
             families of these men. Comfort them in their sorrow, 
             strengthen them in their need, grant solace and peace in 
             their hearts. You have promised, O God, that though we 
             walk through the valley of the shadow of death, You are 
             with us with Your grace and Your promise of eternal life.
               We also remember in our prayer Angela Dickerson and 
             offer our prayers for her recovery. May Your spirit be 
             with her and her family and sustain them in the days 
             ahead.
               We pray, O loving God, that your strong hand will give a 
             special blessing to those men and women who have devoted 
             their lives to the protection of all of us who work in our 
             Capitol, and also the many who visit this place. For all 
             the police who serve with faithfulness and dedication and 
             who mourn the loss of two of their own, we ask for Your 
             healing presence. Be with them in their grief.
               May your peace, O God, that passes all human 
             understanding, be with all who mourn, now and evermore. 
             Amen.

               The SPEAKER pro tempore. Will the gentleman from 
             Maryland (Mr. Hoyer) come forward and lead the House in 
             the Pledge of Allegiance.

               Mr. HOYER. Mr. Speaker, I would ask all Members and 
             guests to join me in pledging allegiance to the flag, 
             which stands for the principles for which Detective Gibson 
             and Officer Chestnut have so recently given their lives.

               Mr. HOYER led the Pledge of Allegiance.

               Mr. DeLAY. Mr. Speaker, I ask unanimous consent that the 
             Committee on House Oversight be discharged from further 
             consideration of the concurrent resolution (H. Con. Res. 
             310) and I ask for its immediate consideration and 
             adoption by the House.
               The SPEAKER pro tempore. The Clerk will report the 
             concurrent resolution.
               The Clerk read as follows:
                                  H. Con. Res. 310
               Resolved by the House of Representatives (the Senate 
             concurring),
               SECTION 1. AUTHORIZING USE OF ROTUNDA OF THE CAPITOL FOR 
             MEMORIAL SERVICE FOR DETECTIVE JOHN MICHAEL GIBSON AND 
             PRIVATE FIRST CLASS JACOB JOSEPH CHESTNUT.
               The rotunda of the Capitol is authorized to be used for 
             a memorial service and proceedings related thereto for 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police 
             on Tuesday, July 28, 1998, under the direction of the 
             United States Capitol Police Board.
               SEC. 2. PLACEMENT OF PLAQUE IN CAPITOL IN MEMORY OF 
             DETECTIVE GIBSON AND PRIVATE FIRST CLASS CHESTNUT.
               The Architect of the Capitol shall place a plaque in 
             honor of the memory of Detective John Michael Gibson and 
             Private First Class Jacob Joseph Chestnut of the United 
             States Capitol Police at an appropriate site in the United 
             States Capitol, with the approval of the Speaker of the 
             House of Representatives and the President Pro Tempore of 
             the Senate.
               SEC. 3. PAYMENT OF FUNERAL EXPENSES FOR JOHN GIBSON AND 
             JACOB JOSEPH CHESTNUT.
               (a) In General.--The Sergeant at Arms of the House of 
             Representatives is authorized and directed to make such 
             arrangements as may be necessary for funeral services for 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police, 
             including payments for travel expenses of immediate family 
             members, and for the attendance of Members of the House of 
             Representatives at such services, including payments for 
             expenses incurred by Members in attending such services.
               (b) Source and Manner of Making Payments.--Any payment 
             made under subsection (a) shall be made from the 
             applicable accounts of the House of Representatives, using 
             vouchers approved in a manner directed by the Committee on 
             House Oversight.
               SEC. 4. PAYMENT OF SURVIVOR'S GRATUITY TO WIDOWS OF JOHN 
             GIBSON AND JACOB JOSEPH CHESTNUT.
               (a) In General.--In accordance with the first sentence 
             of the last undesignated paragraph under the center 
             heading ``HOUSE OF REPRESENTATIVES'' in the first section 
             of the Legislative Branch Appropriation Act, 1955 (2 
             U.S.C. 125), the Chief Administrative Officer of the House 
             of Representatives is authorized and directed to pay, from 
             the applicable accounts of the House of Representatives--
               (1) a gratuity to the widow of Detective John Michael 
             Gibson of the United States Capitol Police in the amount 
             of $51,866.00; and
               (2) a gratuity to the widow of Private First Class Jacob 
             Joseph Chestnut of the United States Capitol Police in the 
             amount of $47,280.00.
               (b) Treatment as Gift.--Each gratuity paid under 
             subsection (a) shall be held to have been a gift.
               SEC. 5. SENSE OF CONGRESS REGARDING ESTABLISHMENT OF 
             CAPITOL POLICE MEMORIAL FUND.
               It is the sense of Congress that there should be 
             established under law a United States Capitol Police 
             Memorial Fund for the surviving spouse and children of 
             members of the United States Capitol Police who are slain 
             in the line of duty.

               The SPEAKER pro tempore. Is there objection to the 
             request of the gentleman from Texas?

               Mr. HOYER. Mr. Speaker, reserving the right to object, 
             obviously I will not object, but at this time I yield to 
             the distinguished gentleman from Texas (Mr. DeLay), the 
             majority whip, who lost a good and true friend, as all of 
             us lost two good and true friends.

               Mr. DeLAY. Mr. Speaker, will the gentleman yield?

               Mr. HOYER. I yield to the gentleman from Texas.

               Mr. DeLAY. Mr. Speaker, I thank the gentleman from 
             Maryland for yielding, and I appreciate the gentleman's 
             expression of sympathy. The gentleman has always shown a 
             true regard for the Capitol community and the people that 
             work here, and particularly the Capitol Police that 
             protect us. I appreciate the gentleman joining me in this 
             resolution.
               Mr. Speaker, this resolution will do several things. I 
             want Members to understand that this is not the only 
             resolution we will be doing today. Later on today, when 
             Members come back and get into town, they will be able to 
             express themselves when we will have another resolution 
             honoring Detective Gibson and Officer Chestnut.
               Mr. Speaker, this particular resolution establishes some 
             very real principles. First of all, it authorizes the use 
             of the Rotunda for a memorial service for Detective Gibson 
             and Private First Class Chestnut. It also, for the first 
             time that I know of, authorizes the placement of a plaque 
             in honor of Detective Gibson and Officer Chestnut in the 
             general area where they lost their lives, commemorating 
             those two spots in the Capitol.
               We also obviously want to pay for their funeral 
             expenses. This resolution allows us to do that. We want to 
             make sure that their surviving widows are taken care of 
             and make sure that they do not have any concerns about 
             their future and the future of their children, and, 
             therefore, we authorize one year's annual salary to be 
             paid to the widow of Detective Gibson and to the widow of 
             Officer Chestnut. We also establish a Capitol Police 
             Memorial Fund that will be used for whatever the needs may 
             be of the families of Detective Gibson and Officer 
             Chestnut.
               Later on today, as I said, we will consider a concurrent 
             resolution that honors the memory of these two officers, 
             of these two fine, fine gentlemen. Some, probably 
             cynically, are already asking why we are using the Capitol 
             Rotunda to honor these two brave men. After all, police 
             officers are slain in the line of duty all over the 
             country; why should these two particular men receive 
             special treatment? Is it simply because they died 
             defending Members of Congress and their staff?
               Besides their personal bravery, these men died defending 
             the Capitol of the United States of America, the symbol of 
             freedom across this world. They are the first Capitol 
             Police officers to die in the line of duty since the 
             Capitol Police Department was created 170 years ago. They 
             died saving lives. They died doing their job. They died 
             being professionals and representing a fine, fine law 
             enforcement group of officers that protect this Capitol 
             and everybody in it, whether they be tourists, Americans, 
             people from other nations or Members of Congress and their 
             staffs.
               I just feel that it is absolutely fitting, and I greatly 
             appreciate the leaders of both the House and Senate in 
             agreeing to use the Rotunda to honor these two officers. 
             By paying tribute to their sacrifice, we all pay tribute 
             to the sacrifices of law enforcement officers all across 
             this country. What more fitting place to honor law 
             enforcement officers than in the Rotunda of the building 
             that is the symbol of freedom across the world?
               John Gibson and J.J. Chestnut were members of this 
             Capitol Hill community. One of the most gratifying things 
             that I know the families have received, as well as me and 
             my staff, who have had a very difficult weekend, is all 
             the calls from all across the country honoring these two 
             wonderful men as heroes. They are leaving behind many 
             grieving friends and associates here in this Capitol Hill 
             community.
               I saw J.J. Chestnut every night when I left this 
             building. He was always standing there by the document 
             door. He was always grinning, and he was always giving me, 
             in a very warm, openhearted way, a hearty, sincere, ``Good 
             night, Congressman. You take care of yourself.'' And every 
             night I would respond with, ``J.J., you be careful.''
               He was careful, but, unfortunately, not enough, and a 
             man came in and shot him. But my enduring vision of J.J. 
             will be of a professional officer who loved his job, loved 
             his post, fought to keep his post, and he was dedicated to 
             his duty in protecting the Nation's Capitol and everyone 
             that was in it.
               John Gibson was a member of my security detail, and, 
             therefore, he was a member of my staff. But, as important, 
             my wife and my daughter and I feel very strongly that he 
             was a member of our family. John and I went everywhere 
             together. We had many long talks about life, about family, 
             about duty and about country.
               John loved his detective badge. In fact, he would get in 
             trouble for wearing it, but he wore it because he was so 
             proud about the fact that he was a detective in the 
             Capitol Police Corps, that he had made detective, that he 
             was a man who believed in duty, and that he knew that it 
             would be possible some day that he would have to throw his 
             body in front of me or someone like me and my staff.
               One never thinks that that is really going to happen, 
             but it happened on Friday, and John did throw his body 
             between my staff and a shooter, and he lost his life for 
             it. The President said it so well, because it is in 
             scripture, that ``No greater gift is there than the gift 
             of laying down your life for another,'' and John gave the 
             ultimate gift.
               John loved his country. He loved sports. John Gibson was 
             a solid man. He was a patriot. He exemplified everything 
             that was good about America.
               Both John Gibson and J.J. Chestnut are also members of 
             another community, and that is the Nation's community of 
             police officers. As such, their sacrifice represents the 
             sacrifices of thousands of police officers across the 
             Nation who do their duty to serve and protect the public, 
             sometimes under great abuse, sometimes under great 
             disregard, and many times people take them for granted. It 
             all comes together when an incident like this happens and 
             we realize how much we owe to police officers all across 
             this country.
               So I think by using the Rotunda to honor these fallen 
             heroes we are honoring not only the specific acts of 
             courage that have saved so many other Americans and we are 
             not only honoring them because this was their building and 
             they were protecting it, but we also honor them, all 
             fallen law enforcement heroes who have died defending the 
             American people from evil.
               My heart goes out to the families of John Gibson and 
             J.J. Chestnut, and particularly those young kids who have 
             lost a father. We have lost two wonderful heroes who have 
             saved so many from harm, two heroes who were dedicated 
             husbands and wonderful fathers, and I urge all my 
             colleagues and the American people in general to pray for 
             these families as they try to cope with this great loss.
               Mr. Speaker, I will add that if people around this 
             country want to donate to the memorial fund created by 
             this resolution, they can send their contributions to the 
             United States Capitol Police Memorial Fund, United States 
             Capitol, Washington, D.C., 20515.
               Let me also add, if the gentleman will further yield, 
             something that really touched me just a while ago. One of 
             the pages came up to me and handed me this, and I want to 
             put it in the Record, from the pages that serve here in 
             the United States House of Representatives.
               Mr. Speaker, the pages would like to say ``We salute 
             these two fallen heroes who gave their lives for ours. In 
             the line of duty, these men stood strong and brave for 
             their country. For that, we all owe a great debt of 
             gratitude.
               ``We are all aware of their courageous sacrifice, and we 
             hold these officers deep in our hearts. God bless their 
             families, and God bless America.''
               Mr. Speaker, I appreciate the gentleman yielding, and I 
             include for the Record the tribute by our pages.
                 From the Pages of the U.S. House of Representatives
               We salute these two fallen heroes who gave their lives 
             for ours. In the line of duty, these men stood strong and 
             brave for their country. For that, we all owe a great debt 
             of gratitude.
               We are all aware of their courageous sacrifice, and we 
             hold these officers deep in our hearts. God bless their 
             families, and God bless America.

               Mr. HOYER. Mr. Speaker, under my reservation, I sadly 
             join the majority whip, whose comments are personal but 
             express as well the sentiments of his colleagues.
               More than 14,622 law enforcement officers have lost 
             their lives in the history of our country. The first one 
             lost his life in 1794. Since that time, we have asked some 
             of our fellow citizens to take upon themselves the 
             responsibility and the risk of defending freedom here at 
             home.
               When I began the Pledge of Allegiance, I said that 
             Officer Chestnut and Detective Gibson died defending the 
             principles for which it stands. That was literally and 
             figuratively true. Every morning those whom we ask to bear 
             the responsibility of maintaining order in a civil 
             society, without which we would not have freedom and 
             justice and the rule of law, put on their uniform or their 
             plain clothes and badge, and most of them attach a gun to 
             their hip or to their shoulder. They and their families 
             know that daily they risk their lives. In this instance, 
             of course, because no previous Capitol police officer has 
             lost his or her life in a confrontation, that risk seemed 
             remote.
               Mr. Speaker, Friday, July 24, reminds us once again that 
             the risk is always present for those we ask to defend this 
             free society. The vagaries of life are such that there are 
             those, either demented or angry or for whatever reasons, 
             take onto themselves the opportunity to commit violence.
               In this instance, Officer Chestnut, Detective Gibson 
             and, indeed, the hundreds of Capitol police officers who 
             responded to this crisis, gave their lives so that many 
             others might be safe and, more important, so that the 
             Capitol of the United States, Freedom's House, will, in 
             fact, be accessible, but it will also be protected.
               Our community on this Hill is a grief-stricken 
             community, and it is a reflection of a country that shares 
             that grief. I have had the opportunity of talking to 
             family members of these officers. I and so many others on 
             this floor know the personal grief that they are 
             experiencing. They have lost a loved one. They have lost a 
             friend. They have lost a dad or brother, uncle, friend, or 
             neighbor. They have a very personal grief.
               But our country has a collective grief, and it is 
             appropriate that we honor these men, both as individual 
             American heroes, but also, as the majority whip has 
             indicated, as two members of a group of some 700,000 
             Americans who daily leave their homes and take to their 
             duties to defend America's principles, to defend 
             Americans, to defend an orderly society.
               These men and women of law enforcement, like those we 
             ask to join the Armed Services and defend freedom abroad, 
             are equally responsible for us being able to meet in this 
             body in a society that honors the peaceful resolution of 
             disputes. We are the land of the free because we are the 
             home of the brave. This resolution honors two of those 
             brave who ensure that this will be, in fact, the land of 
             the free.
               Mr. Speaker, I withdraw my reservation of objection.

               The SPEAKER pro tempore (Mr. Shimkus). Is there 
             objection to the request of the gentleman from Texas?
               There was no objection.
               The concurrent resolution was agreed to.
               A motion to reconsider was laid on the table.

               Mr. GINGRICH. Mr. Speaker, I offer a concurrent 
             resolution (H. Con. Res. 311) honoring the memory of 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police 
             for their selfless acts of heroism at the United States 
             Capitol on July 24, 1998, and ask unanimous consent for 
             its immediate consideration.

               The SPEAKER pro tempore. Is there objection to the 
             request of the gentleman from Georgia?
               There was no objection.
               The SPEAKER pro tempore. The Clerk will report the 
             concurrent resolution.
               The Clerk read the concurrent resolution, as follows:
                                  H. Con. Res. 311
               Whereas the Capitol is the People's House, and, as such, 
             it has always been and will remain open to the public;
               Whereas millions of people visit the Capitol each year 
             to observe and study the workings of the democratic 
             process;
               Whereas the Capitol is the most recognizable symbol of 
             liberty and democracy throughout the world and those who 
             guard the Capitol guard our freedom;
               Whereas Private First Class Jacob ``J.J.'' Chestnut and 
             Detective John Michael Gibson sacrificed their lives to 
             protect the lives of hundreds of tourists, staff, and 
             Members of Congress;
               Whereas if not for the quick and courageous action of 
             those officers, many innocent people would likely have 
             been injured or killed;
               Whereas through their selfless acts, Detective Gibson 
             and Private First Class Chestnut underscored the courage, 
             honor, and dedication shown daily by every member of the 
             United States Capitol Police and every law enforcement 
             officer;
               Whereas Private First Class Chestnut, a Vietnam veteran 
             who spent 20 years in the Air Force, was an 18-year 
             veteran of the Capitol Police, and was married to Wen Ling 
             and had five children, Joseph, Janece, Janet, Karen and 
             William;
               Whereas Detective Gibson, assigned as Rep. Tom DeLay's 
             bodyguard for the last three years, was an 18-year veteran 
             of the Capitol Police, and was married to Evelyn and had 
             three children, Kristen, John and Daniel;
               Whereas Private First Class Chestnut and Detective 
             Gibson were the first United States Capitol Police 
             officers ever killed in the line of duty;
               Whereas Private First Class Chestnut and Detective 
             Gibson, and all those who helped apprehend the gunman, 
             assist the injured, and evacuate the building, are true 
             heroes of democracy, and every American owes them a deep 
             debt of gratitude: Now, therefore, be it
               Resolved by the House of Representatives (the Senate 
             concurring), That--
               (1) Congress hereby honors the memory of Detective John 
             Michael Gibson and Private First Class Jacob Joseph 
             Chestnut of the United States Capitol Police for the 
             selfless acts of heroism they displayed on July 24, 1998, 
             in sacrificing their lives in the line of duty so that 
             others might live; and
               (2) when the House of Representatives adjourns on this 
             date and when the Senate adjourns or recesses on this 
             date, they shall do so out of respect to the memory of 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut.

               Mr. GINGRICH. Mr. Speaker, I ask unanimous consent that 
             the concurrent resolution be debatable for 2 hours and 30 
             minutes, equally divided and controlled by myself or my 
             designee and the minority leader or his designee.

               The SPEAKER pro tempore. Is there objection to the 
             request of the gentleman from Georgia?
               There was no objection.
               The SPEAKER pro tempore. The gentleman from Georgia (Mr. 
             Gingrich) is recognized for 1 hour and 15 minutes.

               Mr. GINGRICH. Mr. Speaker, I yield myself such time as I 
             may consume.
               Mr. Speaker, let me first thank everyone who rose to 
             their duty or went beyond their duty in the last few days: 
             the Capitol Police, the various emergency teams, the 
             medical centers, the Washington Metropolitan Police, the 
             Federal Bureau of Investigation, staffs here in the 
             Congress, Members of the House and Senate.
               A lot of people, including, let me say, the visitors to 
             the Capitol, responded in a human way to a human need. For 
             myself, I particularly want to thank Senator Connie Mack, 
             who voluntarily called and went around with me on Friday 
             night to visit the family of officer J.J. Chestnut and the 
             family of John Gibson, and also to visit the family of the 
             visitor who had been injured, Angela Dickerson, and her 
             family, who were visitors to the Capitol.
               Because I think had every American been able to visit 
             those families in this time of shock, pain, and loss, and 
             to see the courage, dedication, and pride that the 
             families felt, I think it was a very humbling experience. 
             I know that for me and for them, it was enriched by 
             Senator Mack taking the time to be with them, to express 
             his concern on behalf of the entire Senate.
               Let me also say that I have been very grateful to 
             Senator Lott for responding again and again, to Senator 
             Daschle, and to the minority leader, the gentleman from 
             Missouri (Mr. Gephardt), and the majority leader, the 
             gentleman from Texas (Mr. Armey), because together we have 
             made a series of decisions that are without precedent, 
             because frankly, this is an event without precedent.
               In all the history of the United States, no one had ever 
             been killed defending the Capitol. In all the history of 
             the Capitol Police, never before had officers been killed 
             in the line of duty.
               I believe that it drove home to all of us, certainly to 
             me and those Members and staff with whom I have talked, 
             how real and how serious the process of security is, and 
             how much we are a Capitol Hill family; that the larger 
             family of freedom has within it a smaller family of 
             individuals who work together every day.
               In a few minutes, the majority whip, the gentleman from 
             Texas (Mr. DeLay) will talk, and he will talk from the 
             heart about Detective John Gibson. But I was very struck, 
             both that Mrs. DeLay said to me when I called to chat with 
             her that John Gibson had become like family because they 
             are so close; and then when I went out to the hospital, 
             Mrs. Gibson, Evelyn, said how proud John Gibson was to 
             have worked with the gentleman from Texas (Mr. Tom DeLay), 
             how much he enjoyed his assignment, how close they had 
             become.
               To further drive home how much a family this is, I 
             learned later that Evelyn Gibson is the niece of the 
             gentleman from Massachusetts (Mr. Joe Moakley), so it 
             becomes an ever tighter and more human tying together of 
             families.
               Let me also thank President Clinton, who responded 
             immediately with concern on Friday afternoon; who on 
             Saturday helped the Nation come to grips with this 
             tragedy; and who has been extraordinarily cooperative in 
             making arrangements for Arlington Cemetery and in agreeing 
             to be at the memorial service tomorrow.
               I talked with the various staff members who had been in 
             the whip's office at the time that the Capitol was 
             attacked, at the time that Detective Gibson gave his life 
             saving their lives. I think anybody who talked with them 
             and heard from those staff their feelings, their sense of 
             the degree to which John Gibson rose to the occasion, the 
             degree to which he immediately told them to protect 
             themselves, told them to be safe, the degree to which he 
             then literally placed his body between danger and innocent 
             people, cannot help but be moved by this level of 
             dedication.
               If you had talked to the visitor who was standing next 
             to Officer J.J. Chestnut when he was killed and you 
             learned that, literally, Officer Chestnut was in the 
             process of giving directions to the subway to help 
             visitors to the Capitol, and then you learned that his 
             partner was a few feet away because he was getting a 
             wheelchair to help other visitors, it reminded you that 
             they are both our protectors and our ambassadors, and how 
             much they do to make this Capitol a better place, and how 
             tragic their deaths are.
               Let me also thank all of the visitors who Marianne and I 
             saw on Saturday when we walked over to the Capitol. 
             Because of their commitment, the visitors have said it is 
             important not to let madmen or terrorists frighten us away 
             from freedom; it is important to come to our House, the 
             People's House, to our building, the people's building. 
             Tourists were there as an act of patriotism, not just to 
             visit in the normal sense but deliberately to go there the 
             day after the shootings to say that they were going to 
             show their solidarity, and I was moved to tears walking up 
             the main steps when I saw a bouquet of flowers that had 
             already been put there at 9:30 that morning with a message 
             wrapped around it, ``To our heroes who save our freedom.'' 
             I think no person who has a heart could have passed those 
             flowers without tears because the words captured the 
             heartfelt sentiment.
               These two men are genuine heroes. They did their job. 
             The system worked but at terrible personal cost. We are 
             safe because of their sacrifice.
               It is totally appropriate that we have suspended any 
             other business for today in honor of their memory. It is 
             totally appropriate that for the first time in history, 
             two officers will be lying in honor in the Rotunda 
             tomorrow. It is totally appropriate that we recognize them 
             both for what they have done here at the Capitol and for 
             the reminder that safety and freedom come at a very human 
             cost; that there are uniformed personnel in the police, in 
             the Border Patrol, in the military, who even as I speak 
             are putting their lives on the line in order that this 
             civilization can continue.
               I want to say to Officer Chestnut's family, to Wen Ling, 
             his wife, to Joseph, Janece, Janet, Karen and William, 
             that you can be very proud of your father. He served his 
             country in the Air Force and he served his country in the 
             Capitol Police. He was a man I saw every day, as did most 
             Members of the leadership, because that was the door we 
             went in and out of every day. He was always courteous. He 
             was always firm. He was always disciplined. He always did 
             his job. He will be very sadly missed, but your family can 
             be proud that your father is a genuine hero.
               Let me say to Detective John Gibson's family, to his 
             wife Evelyn and to his three children, Kristen and John 
             and Daniel, that Detective Gibson had made a real mark 
             here. At one point he had helped me a number of years ago. 
             Then he was assigned to help the whip, Tom DeLay. He was 
             an active supporter of Heroes, which is a nationwide 
             program which helps families of officers who are killed in 
             the line of duty. He was a man dedicated to law 
             enforcement and a man who for 18 years had served this 
             Capitol and this country very well.
               While you cannot replace him, I hope that your memory of 
             him as a genuine hero is a memory that will bring you some 
             warmth in these difficult times.
               I think I speak for every Member of the House and Senate 
             and for every staff person who works here in saying to 
             these two families that our hearts go out to you; that we 
             were proud to announce on Saturday the establishment of a 
             memorial trust fund at the Capitol Police; that we believe 
             that every citizen who wants to have an opportunity to 
             participate should have that opportunity; and that these 
             families deserve an outpouring of concern and of affection 
             because they have literally given the highest full 
             dedication to their country that anyone can give.
               We will continue to protect the Capitol and to protect 
             freedom. We will not allow terrorists or madmen to block 
             this from being the People's House and the people's 
             building. We recognize with sadness and a clearer sense of 
             duty just how vital the role is of the Capitol Police, and 
             I believe every citizen who comes to this building will, 
             for many years to come, recognize that the men and women 
             who are protecting this building are truly doing a vital 
             job if freedom is to survive.
               Mr. Speaker, I now yield such time as he may consume to 
             the distinguished gentleman from Texas (Mr. DeLay), the 
             majority whip.

               Mr. DeLAY. Mr. Speaker, I greatly appreciate those 
             words. I really want to thank the Speaker and the 
             gentleman from Missouri (Mr. Gephardt), the minority 
             leader; the gentleman from Michigan (Mr. Bonior), the 
             minority whip; the gentleman from Texas (Mr. Armey), the 
             majority leader; and the majority leader in the Senate, 
             Senator Lott; and the minority leader of the Senate, 
             Senator Daschle; for quickly understanding the importance 
             of what happened on Friday around 3:40 p.m. and how 
             important it is to the Nation, as well as to the Capitol 
             community, to honor these two heroes.
               They understood the importance, understood how we needed 
             to come together and figure out some way to honor them, 
             and that is why we will honor them tomorrow in the 
             Rotunda. That is why I greatly appreciate the President 
             understanding how important this is to the Capitol 
             community; and he just announced that, even though 
             Detective Gibson is not a veteran, he will be allowed to 
             be buried in Arlington Cemetery. I greatly appreciate 
             that, and the families of Officer Chestnut and Detective 
             Gibson greatly appreciate that.
               I understand that even if we run out of time this 
             evening, those Members who wish to speak, but who could 
             not speak tonight, will be able to speak in honor of these 
             gentlemen tomorrow.
               Mr. Speaker, we dedicate this resolution to honor the 
             memory of Detective John Michael Gibson and Officer Jacob 
             Joseph Chestnut. And tomorrow, as I have said, we must 
             live our lives knowing that this country was a better 
             place because of the dedication and the courage of these 
             two men.
               It is, after all, the lives of these men that we 
             celebrate today. Both were family men who loved their jobs 
             and loved their country. Both gave their lives defending 
             the United States, the Capitol, and the people who either 
             worked here or visited here.
               John Gibson was especially close to my staff and to me 
             and my family, as everyone knows. And as I have said 
             before, John was part of my family and in many ways he was 
             and is our guardian angel.
               There are so many stories to talk about John. I have 
             said already probably anything and everything I could say, 
             so I decided to take this time not for me to speak about 
             John, but to allow my staff to speak about John. This is 
             the day I asked my staff, anyone who wanted to say 
             something about John, to put it in words; and if I may, I 
             will take a little time so that people understand how 
             important John Gibson and J.J. Chestnut were to our 
             family.
               Tony Rudy said, ``My fondest memory of John is when we 
             used to rush to get the 4 o'clock mail and try to get the 
             Boston Herald and the Boston Globe. We would talk about 
             UMass hoops and the Bruins. He worked very hard to get Tom 
             to understand and enjoy hockey.''
               John Russell said, ``Officer Chestnut would scold me 
             whenever I walked past him entering the building after I 
             had a cigarette outside, and said it was his mission to 
             get me to quit and be as healthy as he was.''
               Frank Maguire, ``With both John and I being Irish 
             Catholic with a Massachusetts heritage, we exchanged 
             family stories about growing up and found many 
             similarities that we could laugh about. I had described 
             John to my wife as my vision of what a Catholic priest 
             would be like who was allowed to marry and raise a family. 
             I will never forget that mental image of John Gibson.
               ``He was from a bygone era, one where people actually 
             stopped and took time to learn about you as a person and 
             your family, before focusing on what function you were to 
             perform in the office.''
               John Feehery said, ``I remember feeling a real sense of 
             security every time I saw Officer Chestnut. You could tell 
             he took real pride in his work and who he was as a police 
             officer.''
               Mary Ellen Wright, the dear girl who saw John shot, 
             said,

               When you remember John, remember that grin. His grin 
             that could melt your heart or tell you that you had done 
             wrong with just one look.
               When you remember John, remember that twinkle in his 
             eye. It was often a twinkle of mystery and sometimes a 
             mischievous twinkle, but always a twinkle of compassion, a 
             twinkle of love.
               When you remember John, remember his honesty, his 
             willingness to express his opinions, whether you agreed 
             with him or not. Yes, that was John. He always spoke from 
             his heart.
               When you remember John, remember his outstanding 
             character, his commitment to his family, his commitment to 
             his friends, to his work, and his overall commitment to 
             excellence in all of his pursuits.
               When you remember John, consider yourself lucky to have 
             crossed paths with such a fine man. Remember John with a 
             smile. Cherish the precious moments, the precious 
             memories, of which there are many. Everyone knows what a 
             hero is, the many qualities that define such a unique 
             person. John Gibson is not only a hero, but an angel. He 
             was our angel on earth and is now our angel in heaven.

               Lindsey Darrah, whose desk was 10 feet from John, said, 
             ``Officer Chestnut, the watchdog, was the officer who 
             recognized us as staff, but regardless, made us show our 
             IDs. He was the officer who was never quite convinced the 
             silver tins were in fact filled with Popeye's Fried 
             Chicken. Oftentimes, we would bring in five or six loads 
             from the car. Yes, he not only made us open every single 
             tin to see what was inside, but then he would make us put 
             the chicken on the conveyor belt just to make sure it was 
             really and truly that chicken from Popeye's. You can 
             imagine that we were always highly annoyed with sweet 
             Officer Chestnut, and I am sure he knew it. But he was 
             just doing his job, and he would say so and we would all 
             laugh every time.''
               Joe Connolly is the young man who sat just across the 
             desk from John. John, on hearing the shots fired, knew 
             that it was coming our way and told Joe to get under his 
             desk. The shooter fell right beside Joe as John took him 
             down. Joe said, ``I just want people to realize how close 
             everyone in our office really is. Most people may think, 
             oh, he was just a cop. But it was definitely more than 
             that, especially to me. He saved my life, and I will never 
             have a chance to thank him personally.''
               Autumn Hanna said,

               I remember about a month after I started working here, I 
             had to staff a large televised event with Mr. DeLay. I was 
             incredibly nervous and John could tell. He walked into the 
             hotel ballroom with me right behind Mr. DeLay, put his arm 
             around me and whispered in my ear, `Don't worry, I'll stay 
             with you.'
               He stood right next to me throughout the evening and 
             drove me home afterward. His action that night revealed 
             the dynamic of the relationship John had with all the whip 
             staff. He was our protector, a reassuring presence in the 
             midst of the chaos and the confusion we encountered in our 
             work days and nights here at the Capitol.
               He was that in his last moment. He gave his life in the 
             midst of chaos and confusion. He gave his life protecting 
             us, and I am still reassured by his presence. Our guardian 
             is now in heaven instead of at the back door, but he will 
             always be with us.

               Deana Funderburk said,

               Last year when I was working in the scheduling 
             department of the whip office, Mother Theresa visited the 
             Capitol. Congressman DeLay, accompanied by John Gibson, 
             went to the Joint Session in the Rotunda to welcome her. 
             Before Congressman DeLay and John left the office, John 
             asked me if I was going to be able to go. I unfortunately 
             was not able to attend.
               The ceremony commenced and in remembrance of that 
             momentous event, each person in attendance was given a 
             pendant with an engraving of the Virgin Mary on it. After 
             the welcoming ceremony was finished, John came up to my 
             desk and held out his hand in a fist. He said that since I 
             was not able to attend, he wanted me to have his special 
             pendant.
               I cannot express how much that gesture meant to me, and 
             how generous and kind a man he was. I still have that 
             pendant, which I will always treasure.

               Pamela Mattox said,

               In church yesterday, I looked at the crucifix and for 
             the first time truly understood the sacrifice of giving up 
             one's own life for others. That is what John Gibson did 
             for all of us in the whip office. We lived because he 
             cared enough to protect us.
               But in reflection, every day he did more than that. His 
             way of life exemplified the best of the Golden Rule, at 
             worship, at home, at play, and at work.
               John Gibson was, in a most unassuming way, simply the 
             best. We have lost someone precious and John is now with 
             the Lord. He was very much needed by all of us and greatly 
             loved. We thank you for allowing him to enlighten our 
             lives and will forever miss him.
               John, thank you for making the world a far better place 
             and leaving us with so many special memories.

               Mr. Speaker, there are others on my staff who would like 
             to say things, but maybe tomorrow we can put that in the 
             Record. These are some of the things that my staff wanted 
             to express about Officer Chestnut and Detective Gibson.
               So, Mr. Speaker, this gives a sense of the kind of men 
             they were and how tragic it is that they have been taken 
             away from us. The entire whip staff wants to send its 
             condolences and prayers to the Gibson and Chestnut 
             families and to the community, the Capitol community here. 
             We all feel a great loss. We will always be grateful for 
             their sacrifice.
               Mr. Speaker, at a later date, hopefully we can come back 
             and honor those Capitol Police who also were heroes and 
             lived, those who were involved in the incident and did 
             some very heroic things. They also deserve to be honored.

               Mr. GEPHARDT. Mr. Speaker, first, I want to thank the 
             Speaker of the House and the majority leader and the 
             majority whip and all of the Members of the House who 
             today with one voice bring this resolution and honor the 
             memory of these two great officers, Officers Chestnut and 
             Gibson.
               On Friday, at 3:40 or so in the afternoon, the family of 
             the People's House was attacked by a deranged killer. We 
             rise today in anguish and in real sorrow and devastation 
             at the loss that occurred here in our House of 
             Representatives and our Capitol.
               But our loss is not nearly the loss that is felt by 
             these dear families.
               On Saturday, I had the opportunity to go to the House of 
             Officer Gibson and to meet his wife and his children. 
             Imagine putting yourself into the shoes of his wife who 
             has lost her husband of many years without even so much as 
             the opportunity to say goodbye. Imagine putting yourself 
             into the shoes of a 13-year-old or a 15-year-old who 
             adored their father and now he is gone. Their loss is 
             unimaginable, unfathomable, and impossible to understand.
               I hugged his wife and told her how sorry all of us are 
             and how much we loved them and cared for them. And I told 
             the children that even though they had lost their father, 
             that in a real sense they now have 435 additional fathers 
             and mothers, and that we will never, ever forget and we 
             will never, ever let them down.
               We will be there for them, for Officer Gibson's children 
             and wife, Officer Chestnut's wife and children. I know 
             that we will all be there to see that the injury that they 
             have sustained, while it can never be taken back, while 
             the loss can never be restored, that all of us together, 
             functioning as a family, will be certain that they will 
             not be injured further and, to the extent we can, we will 
             love them forever.
               Supreme Court Justice Brandeis, one of the greatest 
             justices in our Nation's history, said that courage is the 
             secret of liberty. The courage that Justice Brandeis was 
             talking about is usually quiet and unheralded and 
             unnoticed. But today we stand to recognize the public acts 
             of courage of two brave human beings who literally gave 
             their lives in the line of duty and so that others could 
             live.
               They lost their lives by the narrowest of margins. They 
             could have been at another door. They could have been at 
             another place. They could have been on another shift. But 
             it is precisely that margin, measured out again and again 
             on battlefields far, far from this place, on streets close 
             to here, and last week only steps from where we stand, 
             that marks out democracy from the darkness.
               These two good men, strong and decent, rank in the 
             legion of honor of those who died so that liberty may live 
             on in the lives of others. They remind us of the lesson of 
             all of our history, that the survival and success of a 
             free society depends far less on grand speeches than on 
             countless individual acts of duty and courage.
               The ultimate sacrifice of J.J. Chestnut and John Gibson 
             literally saved the lives of countless Members of our 
             congressional family and countless numbers of visitors who 
             pass through these halls. The scope of this tragedy could 
             have been so much worse and touched so many more lives, 
             had they not automatically responded so professionally and 
             expertly to the horrible threat, the horrible violence 
             that invaded this citadel of democracy.
               The tragic and senseless event was a horrible reminder 
             that our liberty and the liberty of all Americans face a 
             silent threat from the dark side of human nature. Those of 
             us who spend so much of our lives in this public place 
             often forget about the daily reality of this threat. But 
             the men and women of the Capitol Police never forget. They 
             are our guardians, not just of offices and officials, but 
             of our city on the hill, the place that is the pride of 
             our government and our country and the heart of our self-
             government. They allow the business of democracy to 
             thrive, open to the citizens to whom it belongs.
               We are here today to honor the fallen officers, but we 
             also take this opportunity to salute the quiet courage of 
             all the officers of the Capitol Police who come to work 
             each day without notice, without heralding, without 
             publicity, who get up and put their uniform on, pin their 
             badge on and come into this place and face the threat of 
             immediate death and violence. They are the salt of the 
             earth. They are the reason our democracy can live, and 
             they should be honored and they should be held up for all 
             of our public to see and to notice today and always.
               The members of the force believe in this great House. 
             They are dedicated to working hard to protect the Members, 
             the staff and, yes, the visitors who pass through here 
             every day. And they do their job well, and they do it 
             professionally. And they do it with courtesy.
               As the Speaker said, Officer Chestnut was writing out 
             directions for visitors to be able to get through the 
             building. Another officer who was involved was also off 
             getting a wheelchair. They have not just been guardians 
             and policemen. They have been ambassadors of goodwill to 
             the public which come to this building and want to 
             understand what is happening here. Until a tragedy 
             strikes, they never get the publicity or the attention 
             they deserve for making this institution work and keeping 
             it free and strong every day, every minute of every day 
             and night.
               Today we honor their sacrifice and their service to this 
             Nation and to all of us.
               I have the honor of being served also by a plainclothes 
             officer, Ed Pence. Until Friday, I guess I never 
             understood or was particularly conscious of the threat 
             that he has faced every day over the last 9 years. I want 
             to thank him. I want to thank his family. I want to thank 
             all the officers and all of their families for their brave 
             and dedicated service.
               It is easy for us on the other side of the thin blue 
             line to forget that law enforcement is the most dangerous 
             job in our country, but it is a fact that our officers and 
             especially their families are reminded of every day. So we 
             pay tribute to these brave officers who gave their lives 
             in defense of all of us and for our liberty. We especially 
             honor their families who will never be made whole no 
             matter what we say or what we do in this place.
               To those families we offer our prayers, we offer our 
             gratitude. We cannot quench your sorrow. We can share it 
             with you. We can stand in your shoes. We can imagine your 
             hurt. We can imagine your anguish. We can pledge that you 
             will be made whole, as best human beings can make you 
             whole. We will never forget what your fathers did. They 
             have made the ultimate sacrifice, and we will never forget 
             it.
               Mr. Speaker, I yield such time as he may consume to the 
             gentleman from Michigan (Mr. Bonior), the minority whip.

               Mr. BONIOR. Mr. Speaker, I thank my leader and the 
             Speaker and the distinguished gentleman from Texas (Mr. 
             DeLay).
               Today we come together to mourn two fallen heroes, John 
             Gibson and Jacob Chestnut. They laid down their lives so 
             that others might live and in defense of all this Capitol 
             represents. Their heroism reminds us, once again, of the 
             great sacrifices people have made so that our democracy 
             might endure.
               We honor their memories today, just as they honored our 
             democracy with years of dedication, hard work, and 
             bravery.
               Many people take for granted the fine work the Capitol 
             Police do under extraordinary circumstances. Every day, as 
             the Speaker and as the leader and as Mr. DeLay have said, 
             they are responsible for protecting hundreds of Members of 
             Congress, thousands of staff, tens of thousands of 
             tourists who come to visit Capitol Hill. They deal with 
             people from all walks of life, the young, the old, from 
             just about every country on earth, people on vacation and 
             those in a hurry, and they do it with efficiency, with 
             friendliness, with courtesy and with professionalism. It 
             is a difficult job but they do it with pride and dignity.
               Few of us ever pause to ponder how much courage they 
             summon every single day. We saw just how much courage on 
             Friday and how quickly and how bravely they reacted to 
             save the lives of those around them.
               All of us owe them a tremendous debt of gratitude, and 
             none of us will ever forget the sacrifice of John Gibson 
             and Jacob Chestnut. Our hearts go out to their families, 
             Jacob's wife, Wen, and their children, Joseph, Janece, 
             Janet and Karen and William. And John's wife, Evelyn, and 
             their children, Kristen, John and Daniel. Our thoughts and 
             prayers are with you.
               We have been touched by the tremendous outpouring of 
             emotion from the American people, the flowers on the 
             Capitol steps, the tears of sadness and the visitors who 
             have returned to their Capitol in reverence and mourning. 
             The heroism of these two officers has stirred the soul of 
             our Nation.
               To people all over the world, this Capitol is the home 
             of freedom. John Gibson and Jacob Chestnut gave their 
             lives protecting it and all that it represents. Nothing we 
             say today can ease the grief or bring them back. But we 
             can honor their memory, and we can recommit ourselves to 
             the work of democracy for which they died.
               On a personal note, I, as well as the other leaders, had 
             come and gone through that door, and over the years I have 
             gotten to know Jacob Chestnut. He was a wonderful man. He 
             had a bearing that represented everything that was right 
             about this institution. He exuded dignity. If there was a 
             word that captured him, it was his enormous dignity, his 
             bearing.
               He was, as we have heard, always kind to those who came 
             into this building; he smiled when proper, but always 
             giving the signal to those who entered that they were 
             entering the citadel of democracy. He was a a very gentle 
             man. Many nights when we would work late and I would come 
             down and he would be the only one at the door and it was 
             closed to the visitors, we had a chance to chat, 
             especially when my wife Judy was still gathering things up 
             in the office.
               He was a Vietnam veteran, as the Speaker mentioned. He 
             gave 20 years of service to his country. We shared 
             experiences serving in the Air Force, he as a military 
             police and I as a cook. You would have to know something 
             about the cooks and the military police to understand that 
             relationship. But it was special.
               He talked about his family, whom he loved enormously. He 
             was a gardener, a good gardener who provided peppers and 
             cucumbers and squash to the neighbors on a regular basis.
               I was watching a clip on television the other night of a 
             neighbor who talked so genuinely about him and what a 
             wonderful, decent man he was. He was always volunteering 
             to do work for his neighbors, mow their lawn, take care of 
             things that needed to be taken care of in the 
             neighborhood. He was described as the best husband and the 
             best father Imaginable. Leaving the Capitol each night for 
             maybe 7, 8, or 9 years, you get to know someone and you 
             engage in conversation; you knew that he, like John 
             Gibson, had many friends.
               I would like to just end with some words by Wallace 
             Stegner. Wallace Stegner is a writer from the West, and he 
             talked about friendship, and he said this:

               Friendship is a relationship that has no formal shape. 
             There are no rules or obligations or bonds as in marriage 
             or the family. It is held together by neither law nor 
             property nor blood. There is no glue in it but mutual 
             liking. It is therefore rare.

               These two fine people were not only liked, they were 
             loved by many, many people. We will miss them. We will 
             miss their devotion to their work, their love of their 
             family, their love of this institution. We thank them for 
             their service. They will remain forever in our hearts.

               Mr. ARMEY. Mr. Speaker, I yield such time as he may 
             consume to the gentleman from Illinois (Mr. Hastert), the 
             chief deputy whip.

               Mr. HASTERT. I thank the gentleman from Texas, Mr. 
             Speaker. I want to express my condolences and heartfelt 
             sympathies to the families of our fallen heroes, J.J. 
             Chestnut and John Gibson. I knew both these men and am 
             proud to be able to call them friends.
               I came to know J.J. Chestnut through his warm smile and 
             his kind words and upbeat personality. Every afternoon and 
             then later in the evening, he would greet me at his guard 
             post and he would say, ``Hello, Congressman Hastert,'' and 
             I would say, ``Hello, Officer Chestnut,'' and for 4 years, 
             we have developed a camaraderie, an understanding. I have 
             a great deal of respect for him.
               When we brought guests into the Capitol, my son and 
             others, I would always make sure that I introduced them to 
             Officer Chestnut. Because I thought that was the best that 
             we could show of people who are here, who care about this 
             place although they are not always in the limelight, who 
             care about the substance and the pride that this Capitol 
             can show and the parts that many people play in keeping it 
             a place of respect and honor. He was a professional 
             certainly in every sense of the word.
               As for John, our friendship grew over the many hours and 
             particularly the late nights spent in the majority whip 
             office. Despite the frantic pace or the pressure of the 
             given moment, I always remember John as calm, yet focused, 
             doing his job while we were counting votes or conducting 
             whatever congressional business was at hand, and all the 
             while John seemed to have a cheerful comment for the 
             moment that would put folks at ease around him.
               I always remember coming through that door, up until 
             Friday afternoon, maybe six or eight or 10 times a day 
             because that is kind of the way that I wind my way back 
             from the floor, down the staircase and in that side door, 
             and every time I would open the door, John would be there, 
             he would look, he would check, see who it was, a cheerful 
             hello, but he was always vigilant, always there, something 
             that I took for granted.
               I also took for granted that Officer Chestnut would come 
             through there and the stature that he would have. Those 
             were people that were there; they were there to protect 
             you; and you never think about what might happen.
               As many of you already know, this tragedy hits 
             particularly close to home. As the chief deputy whip, I 
             work out of that whip's office as do a few of my staff. In 
             fact, my staff and my wife were waiting for me to return 
             from the floor that day. I can absolutely and positively 
             say that were it not for the valor of Officer Chestnut and 
             certainly Special Agent John Gibson, the lives of people 
             who are very close to me would have been in jeopardy. This 
             tragedy could have been much worse. It certainly comes as 
             no surprise that when duty called, Officer Chestnut and 
             John Gibson answered. Unfortunately, they and their 
             families now must pay the ultimate price. They died so 
             others could live.
               Our thoughts and prayers go out to Officer Chestnut's 
             wife Wen and his children Joseph, Janece, Janet, Karen and 
             William; and to John's wife Evelyn and their children 
             Kristen, John and Daniel. As difficult as it is for the 
             Chestnut and the Gibson families coping with this loss, I 
             hope that they can take some comfort in knowing that their 
             loved one's bravery protected thousands of others in the 
             U.S. Capitol. I am not just talking about July 24 but 
             every day that they put on the badge and went to work. 
             Their actions are evidence that the system worked, even 
             though a routine day turned terribly bad. For all 
             Americans, we owe a debt of gratitude not only to officer 
             J.J. Chestnut and Special Agent John Gibson and their 
             families but to all those who proudly wear a uniform in 
             order to defend democracy and fight for our freedom. We 
             should honor them, we must remember them, and most of all 
             we must thank them. They are heroes and they deserve our 
             most appreciative respect.
               I have to say, I think about the things that we are able 
             to do in this place from time to time. As an elected 
             Member who serves in this People's House, we have some 
             outstanding times, some times when the light shines, you 
             can accomplish something, that short span of time, in 5 or 
             10 or whatever, however many years a person has as the 
             right or the privilege of serving in this House. There are 
             some short times that we can do some very great things. We 
             live for those times.
               And then you think of the people who help make this 
             place work. The time for Officer Chestnut and John Gibson 
             came on July 24. Their short time to excel and do the 
             bravest thing that they could for their country and the 
             people who work here, for their families, and for the 
             ideal of democracy came in just a short period of time. 
             When that challenge came, they excelled. We could not ask 
             them to do any more than they did.
               So, with all our heads held high and respect for those 
             gentlemen, I thank them, I thank their families, and we 
             can be proud of this institution.

               Mr. BONIOR. Mr. Speaker, I yield 4 minutes to the 
             distinguished gentleman from Maryland (Mr. Hoyer).

               Mr. HOYER. Mr. Speaker, I said earlier today that this 
             was a sad and solemn occasion for us all. Obviously, it 
             is. The discussions have led to that conclusion. Some knew 
             these two brave men better than others. Let me suggest, 
             however, all of us know their comrades in the defense of 
             freedom and defense of our safety and the defense of civil 
             order, without which democracy and freedom cannot 
             flourish.
               I see my very close friend on the floor, Curt Weldon 
             from the State of Pennsylvania. He and I are honored to 
             co-chair the effort we know as the Fire Service Caucus. It 
             honors men and women who respond to emergency, at time of 
             crisis, not just to fire but to flood and to earthquake 
             and to the cat in the tree, all types of emergencies that 
             confront us.
               As I sat here thinking of those who had spoken about 
             these two brave officers--one who frankly was unable to 
             make an immediate decision because the assailant did not 
             give him that time, the other who had to make 
             instantaneous decisions and responded in the best 
             traditions--I think of them as being among the men and 
             women showing the greatest courage who serve in the police 
             forces of our Nation. But as I thought further, each one 
             of them made a decision that required courage and 
             commitment to their fellow men and women in this country. 
             That was a decision daily, as the minority leader has 
             said, to get up, put on the uniform or their plainclothes 
             gear and to put on a badge, a badge of honor, a badge of 
             commitment, a badge indicating their courage in making 
             that daily decision to defend civil order and democracy.
               J.J. Chestnut was not given the opportunity by this 
             assailant to make a decision of exactly how to respond. 
             But J.J. Chestnut had already made that decision. He was 
             at that door, he was at the perimeter, he was at risk 
             voluntarily, placing himself in harm's way. That decision 
             was a brave and honorable and courageous decision.
               Detective John Gibson also had made a decision earlier 
             that morning to be in harm's way. And when harm came, he 
             was not found wanting. In fact, he was found to have the 
             full measure of devotion and courage that he had pledged 
             to give, not solely to Tom DeLay, not solely to the 
             Congress of the United States, not solely to this 
             building, this hallowed citadel of freedom and democracy, 
             perceived by all the world to be the center of freedom and 
             justice. He was there to defend that very idea, that torch 
             of freedom.
               As we have all come to honor those two men and their 
             colleagues in the police forces of America, one of whom 
             dies every other day in America, we understand what a real 
             risk they undertake, a knowledgeable risk that they 
             undertake. Abraham Lincoln at Gettysburg said it well, 
             that we cannot dedicate, we cannot consecrate this field 
             beyond that which those two brave men and their colleagues 
             have done.
               Mr. Speaker, I am proud to join my colleagues in 
             honoring the memory of J.J. Chestnut and John Gibson and 
             in honoring their decision to show the kind of courage and 
             commitment necessary to maintain our democracy, our 
             freedom, our civil society.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentlewoman from Washington (Ms. Dunn).

               Ms. DUNN. Mr. Speaker, it is my deep honor and privilege 
             to rise today on behalf of the people I represent in the 
             Eighth Congressional District of Washington State and 
             myself and my family, and really on behalf of the Nation, 
             to offer our deep gratitude for the heroism of J.J. 
             Chestnut and John Gibson.
               On Friday afternoon Officer Chestnut and Special Agent 
             Gibson embodied all that it means to be an American hero. 
             They were ordinary people who went to extraordinary 
             lengths to protect and defend freedom not just for Members 
             of the large congressional family, but also for all 
             Americans. These two brave officers literally laid down 
             their lives so that others could live, and for that 
             dedication of courage we are eternally grateful.
               Every day in the People's House we are surrounded by the 
             protection of the United States Capitol Police. In serving 
             our country, the men and women of the police force touch 
             all of us who visit and work in the Capitol. They become 
             our friends, they become our colleagues, and of course 
             they are our protectors. J.J. Chestnut and John Gibson 
             epitomize this dedication of service and commitment to all 
             that we value as good in this world.
               Mr. Speaker, I considered J.J. a friend, as did 
             countless Members and staff. My office is very near where 
             he stands, and we had shared a few words the night before 
             he died as we Members left the Capitol very close to 
             midnight, and we talked about how the next day would be a 
             little easier, and we did not know that that would be his 
             very last night. Nor did I know that the next afternoon, 
             the first shot that I heard from behind my closed door was 
             the shot that took J.J.'s life.
               No words we utter here today can help the Chestnut and 
             Gibson families begin to heal, but I do want to say to 
             each family that as they grieve and seek support from God 
             above, a Nation mourns their loss, the congressional 
             family grieves with them, and we will never forget them.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentlewoman from the District of Columbia (Ms. Norton).

               Ms. NORTON. Mr. Speaker, I thank the gentleman for 
             yielding this time to me.
               Mr. Speaker, I come to praise the two valiant officers 
             who sacrificed their lives on Friday, to comfort their 
             families and to thank the Capitol Police who daily live up 
             to their reputation as one of the finest police 
             departments in the country.
               On Friday, Officer Jacob Chestnut and Detective John 
             Gibson showed that the reputation of the Capitol Police 
             for dedicated professionalism is fully earned and richly 
             deserved. These two men were part of a police force that 
             operates at once like a friendly small town police 
             department and a crack security force. It is hard to pull 
             that off, but they do it every day.
               Officer Chestnut and Detective Gibson were devoted men 
             who were part of a splendid force. In FY 1997 there were 
             286 reported crimes on the Capitol grounds, and the 
             Capitol Police made arrests in 252 of them. What a record.
               The Capitol Police patrol part of the Capitol Hill 
             community as well. In the first 5 months of this year, 
             these dedicated officers made 413 arrests in the 
             community, up from 258 for the entire previous year.
               Officer Chestnut and Detective Gibson did not expect to 
             lose their lives, but they clearly were prepared to do so. 
             They knew that they were part of a department that 
             protects the highest-profile, most accessible building in 
             the Nation. They knew that this duty put them in harm's 
             way. They were prepared to pay the price for this temple 
             of democracy and all who visit or work here, and 
             tragically they did. There are no words that fit that 
             price.
               May the Chestnut family and the Gibson family know that 
             our hearts go out to them and that Officer Chestnut and 
             Detective Gibson have a place of honor among us that no 
             Member has ever attained.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentleman from California (Mr. Thomas).

               Mr. THOMAS. Mr. Speaker, I thank the gentleman for 
             yielding this time to me.
               Mr. Speaker, as my colleagues know, there are a lot of 
             young people in this country who have sung many times the 
             last line of our National Anthem, and I take the floor 
             primarily to let the Chestnut and the Gibson family know 
             that three of my Health Subcommittee staff better 
             understand the last phrase of the Star Spangled Banner 
             because they were one thin wall away from the jungle, and 
             the separation between civilization and the jungle is 
             sometimes one individual.
               That occurred on Friday, and no amount of words that we 
             can say here will illustrate more to the young people of 
             this country the deeds that are necessary to indeed make 
             sure that we are the land of the free. Ann Marie Lynch, 
             Allison Giles, and Bill Walters were in a room, crouched 
             in fear, with one person between them and the jungle, and 
             they wanted me to come to the floor to thank the Gibson 
             family and to recognize the heroics of J.J. Chestnut and 
             John Gibson for making sure that they better understood in 
             a moment of terror what sacrifice really means to keep us 
             free.
               Mr. Speaker, we all will continue to thank J.J. Chestnut 
             and John Gibson, but what we have to remember is that it 
             is not the word, it is the deed. When it was necessary, 
             these two individuals made the highest possible sacrifice 
             that one individual can give another to keep them free: 
             their lives. We will remember them and honor them.

               Mr. BONIOR. Mr. Speaker, I yield 1\1/2\ minutes to the 
             distinguished gentleman from West Virginia (Mr. Wise).

               Mr. WISE. Mr. Speaker, this building offers a great 
             challenge, and that is it is a balance that has to be 
             reached between where the people's elected representatives 
             meet and where the people come to view their elected 
             representatives and their Nation's heritage. Officer 
             Chestnut and Detective Gibson met that test and kept that 
             balance on Friday.
               This is a sad and anguishing day. My wife, who has 
             worked on this Hill longer than I have, I think, probably 
             summed it up for me as we discussed this and shared our 
             thoughts and our prayers which were with the two families. 
             She noted that two wives had lost their husbands as their 
             husbands protected many other husbands and wives, and 
             likewise children have lost their fathers as their fathers 
             protected other children. There are thousands of children 
             from each of our districts that come through these halls 
             every day, and they owe their safety and protection to men 
             and women like Officer Chestnut and Detective Gibson.
               Mr. Speaker, there is no way you can cope with loss like 
             this except you try to hang onto the memories. And to the 
             families that we know have those strong memories I would 
             just say this: that as you have the memories to hang onto, 
             please know that there is a much larger family and 
             community that have those memories, and they are hanging 
             onto them too, and that the memories of your fathers and 
             husbands and loved ones, Officer Chestnut and Detective 
             Gibson, are strong in all of us, and they will live on. 
             And they live also through the democracy that is 
             functioning, through the visitors that are in the gallery 
             today, through the people that are streaming through this 
             Capitol, made safe by the sacrifice of Officers Chestnut 
             and Gibson, whom we will remember.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Virginia (Mr. Davis).

               Mr. DAVIS of Virginia. Mr. Speaker, on this solemn 
             occasion I would like to join my colleagues and the people 
             of the 11th Congressional District of Virginia to pay 
             special tribute to Special Agent John Gibson and Officer 
             Jacob Chestnut who gave their lives on July 24 to keep our 
             seat of democracy safe.
               Special Agent Gibson was a resident of my congressional 
             district. It is tragic that these brave men were cut down 
             in the prime of their lives, but they will never be 
             forgotten for the bravery that they displayed, the lives 
             that they saved, and the ultimate sacrifice that they 
             made. Both men were dedicated 18-year veterans of the U.S. 
             Capitol Police Force, and both were devoted to their 
             families, and they will certainly be missed by everyone 
             who knew them.
               Special Agent Gibson was much more than a Capitol Police 
             officer, however. He was a father, a husband, a sports fan 
             who was beloved and respected in his community. He was 
             Santa Claus at Christmas time. He was loving to his 
             family, generous to his neighbors, loyal to his job.
               Special Agent Gibson will be remembered for all those 
             things, but his enduring legacy will be heroism he 
             displayed on that day. With his own life in danger, he 
             acted quickly and selflessly to save others. He commanded 
             the staff in the whip's office to hide while he faced the 
             gunman alone, and he will be remembered as a great hero 
             for sacrificing his own life to save the lives of others 
             and for continuing to do his duty in the face of great 
             peril. If Special Agent Gibson did not stop the gunman, 
             this terrible tragedy would have spread and been even more 
             severe.
               Officer Chestnut was an avid vegetable gardener and 
             shared his squash, his cucumbers and peppers with his 
             friends and family. He was a Vietnam veteran and retired 
             Air Force officer. Only two months before retirement, he 
             planned to pursue his hobbies of fishing and golf. It is 
             heartbreaking that his plans ended as abruptly and as 
             brutally while guarding the interests of the Capitol. And 
             he was known by his colleagues for his dedication as a 
             police officer, for following the rules of his post.
               I extend my sympathies to the family and friends that 
             these heroes left behind, and I know that their wives and 
             children will carry this loss with them forever but pray 
             that they will be comforted by the gratitude of those that 
             Special Agent Gibson and Officer Chestnut protected, and 
             the families could be proud that these men defended the 
             Nation's Capitol with bravery and honor.
               A tragedy such as this reminds all of us of how fragile 
             life can be. Even at the center of our Nation's democracy 
             we cannot take our security for granted. We owe our 
             freedom as Americans to our dedicated law enforcement 
             officials and military service officers.
               A tragedy such as this reminds all of us of how fragile 
             life can be. Even at the center of our Nation's democracy 
             we cannot take our security for granted. We owe our 
             freedom as Americans to our dedicated law enforcement 
             officials and our military service members. This fragility 
             reminds us to be grateful for the many gifts and freedoms 
             that we enjoy, many hard-fought. We are fortunate to have 
             had Special Agent Gibson and Officer Chestnut on the 
             Capitol Police Force who are well trained and loyal to 
             their duties. When called upon to put their own safety and 
             life above those they were sworn to protect, they did 
             their job, no questions, no excuses. They did what they 
             were trained to do. These men exemplified the best in law 
             enforcement and the best in America. Their excellent work 
             assures that Americans can visit this Capitol in peace and 
             security. In death they will continue to serve as genuine 
             heroes and role models for their colleagues and for all 
             those who believe in the American dream.

               Mr. BONIOR. Mr. Speaker, I yield 1\1/2\ minutes to the 
             gentleman from Maine (Mr. Baldacci).

               Mr. BALDACCI. Mr. Speaker, I thank the whip for yielding 
             this time to me.
               I have to say that when I heard about this at the 
             airport as we were leaving on Friday, I was shocked at 
             what had transpired here. I immediately called the 
             Sergeant at Arms Office, who was in a leadership meeting, 
             to get a briefing on the casualties and circumstances 
             surrounding all of it and thinking that we had just been 
             here a short while ago to have this tragedy occur.
               My heart and prayers and sympathies go out to the 
             families of John Gibson and Officer J.J. Chestnut, for 
             they made the ultimate sacrifice to protect our freedom 
             and liberty and put their lives on the line, and their 
             families will never be able to erase that burden and that 
             void in their lives. And I appreciate our House leadership 
             and the leadership of Congress and what they are doing to 
             make sure that as much as we can do we will do for these 
             families and that we will never forget.
               I want to commend all of the Capitol Police, and 
             particularly the officers who responded during that 
             circumstance, from all over, because I heard from them as 
             they all came here together to shoulder and support each 
             other.
               Sometimes we as Members take for granted their esteemed 
             professionalism and the caliber of that service that they 
             perform on a daily basis. But the Sergeant at Arms Office, 
             the Metropolitan Police, and all of the services that 
             huddled together, and how proud I was in the response and 
             the timely information that was dispensed to the people as 
             to what was taking place.
               It was a very tragic moment in the People's House, but 
             it was a moment in which people pulled together, and I 
             know that will be something that will be an enduring 
             quality as we all pull together on both sides of the aisle 
             throughout America to stand there with these families as 
             they have endured the ultimate sacrifice.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentleman from Virginia (Mr. Wolf).

               Mr. WOLF. Mr. Speaker, I thank the majority leader for 
             yielding me time.
               Mr. Speaker, the entire country was shocked and saddened 
             to learn of the terrible tragedy that happened on Friday 
             afternoon, when U.S. Capitol Police Special Agent John 
             Gibson and Capitol Police Officer Jacob J. Chestnut were 
             killed in the line of duty.
               I want to express my condolences to the families of 
             these two brave men. They were both true heroes. They gave 
             their lives to protect the lives of the rest of us.
               The Capitol is really like a campus in many respects; 
             people all know each other, it is a small community. So 
             when a tragedy like this hits, it affects all of us very 
             deeply. There are no words that can adequately express the 
             sorrow and the grief that we all feel as a community over 
             this terrible loss.
               My dad was a Philadelphia policeman for 20 years, and I 
             know how difficult the job can be and the uncertainty that 
             begins each day for the officer's family.
               Our hearts go out to the families of Special Agent 
             Gibson and Officer Chestnut, and all of the men and women 
             of the Capitol Hill Police Department and all of the 
             policemen around the country who give their lives. Our 
             hearts also go out to Angela Dickerson, the young woman 
             who was wounded during the shooting. We also recognize the 
             trauma and the experience by so many others who were there 
             on Friday afternoon. Our thoughts and prayers are with 
             them all.

               Mr. BONIOR. Mr. Speaker, I yield 1\1/2\ minutes to the 
             gentleman from California (Mr. Farr).

               Mr. FARR of California. Mr. Speaker, I find it such a 
             privilege to rise today in this hallowed House of 
             Representatives, the People's House.
               I think when we left here Friday there were some harsh 
             words exchanged between the caucuses, and we rise today to 
             pay tribute to two men who may have done more to pull us 
             together, to realize what this building is all about.
               I bring condolences from the district that I represent, 
             far away from here, the central coast of California. For 
             those of us who work here every day, I think sometimes we 
             take what we do in this building for granted.
               Following the tragic shooting just 48 hours ago, Capitol 
             Police Officer Jacob Chestnut and Special Agent John 
             Gibson have given us all pause to think more seriously and 
             more respectively of the job we do in this building, 
             because this is the people's building and this is the 
             People's House. Just look at the visitors who are outside 
             this hall today, coming into the Capitol, paying tribute 
             with flowers, notes, and condolences.
               Yes, the government must go on. It never stops. But 
             sometimes in history it pauses for a moment, it pauses to 
             pay tribute. Officer Chestnut and Special Agent Gibson 
             gave their lives while standing their duty. For this 
             building, its workers, and, more important, this Nation, 
             we pause to honor them. Their lives were not lost in vain, 
             because, for now, our Nation joins in mourning their loss. 
             Perhaps today our democracy is a little bit stronger as 
             each American reflects on the sacrifice these men gave.
               Each of us knows the pain. We have all lost loved ones. 
             We know how much Wen Ling Chestnut and her five children, 
             Joseph, Janece, Janet, Karen and William, and Evelyn 
             Gibson and her three children, Kristen, John and Daniel, 
             feel the sudden emptiness of losing their husbands and 
             fathers.
               My district, this Nation, joins in their loss and in the 
             mourning tomorrow.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from New York (Mr. Gilman), the distinguished 
             chairman of the Committee on International Relations.

               Mr. GILMAN. Mr. Speaker, I thank the gentleman for 
             yielding me time.
               Mr. Speaker, I consider it an honor and a privilege to 
             be able to join my colleagues in support of this 
             resolution, H. Con. Res. 311, honoring two American 
             heroes, our slain U.S. Capitol Police Officer Jacob 
             ``J.J.'' Chestnut and U.S. Capitol Police Special Agent, 
             John M. Gibson. These two dedicated police officers gave 
             their lives in the line of duty to protect our Capitol, 
             its visitors, and all of us in this body.
               We join in extending our heartfelt prayers and 
             condolences to the families of these two American heroes, 
             our distinguished Capitol Police officers. J.J. Chestnut 
             always had a ready smile and a friendly word for all of 
             us. His warm personality and assistance will be sadly 
             missed by all of us in the Congress and by the visitors to 
             the Capitol.
               John Gibson will long be remembered as a hero who gave 
             his life in preventing further tragedy from occurring. I 
             remember John's visits to my office with his partner, Bob 
             Vitarelli, the husband of my staff member. His dedication 
             as a police officer is vividly remembered.
               Yes, the Capitol is the People's House, and it would be 
             an outrage if all Americans could not feel safe in 
             visiting our Capitol.
               Let us bear in mind the statistics disclose that every 
             other day, another man or woman is killed while serving as 
             a law enforcement official, illustrating the incredible 
             risk that these dedicated men and women of the police 
             undertake to keep our Nation safe. It is hoped that our 
             words and actions on this resolution in honoring Officer 
             Chestnut and Special Agent Gibson will remind all 
             Americans to recognize the importance of the work and 
             action of the Capitol Police. They will long be remembered 
             in our thoughts and prayers.
               Let us reflect that their lives, like so many of our 
             police officers across our Nation, are dedicated to 
             protecting the rule of law and our free and democratic 
             institutions. All of us who cherish these important values 
             in institutions in America join in honoring these two 
             dedicated, courageous officers for their ultimate 
             sacrifice in helping to preserve our institutions and 
             legacy just a few days ago in this very building. These 
             officers, Chestnut and Gibson, symbolize the very best of 
             our Nation.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Pennsylvania (Mr. Holden).

               Mr. HOLDEN. Mr. Speaker, I thank the gentleman for 
             yielding me time.
               Mr. Speaker, I rise today to pay tribute to Officer 
             Jacob ``J.J.'' Chestnut and Special Agent John M. Gibson 
             of the United States Capitol Police Force. Officers 
             Chestnut and Gibson made the ultimate sacrifice of giving 
             their lives this past Friday in the protection of this 
             building and this body.
               July 24, 1998, will long be remembered as a dark day in 
             the history of the United States Capitol. However, Mr. 
             Speaker, I also feel that July 24 should be remembered as 
             a day of pride for the United States Capitol Police 
             Department. When the gunman entered the document door 
             entrance Friday afternoon, he was detected immediately by 
             Officer Chestnut and contained very quickly thereafter by 
             Special Agent Gibson, avoiding possible injury to all but 
             one of the many innocent visitors and staff in the area.
               Because of their top-notch training and professionalism 
             with which they carry out their duties each day, a much 
             larger potential tragedy was averted. Their training and 
             procedures worked, and last Friday's successful 
             apprehension of a gunman, however tragic, is a testament 
             to the skill and professionalism of the United States 
             Capitol Police.
               The loss of John Gibson and J.J. Chestnut is very 
             difficult for all of us. They were not strangers 
             protecting us and the millions of visitors to the Capitol 
             each year; they were our friends. They were members of our 
             community.
               Capitol Police officers are people we see each day and 
             warmly exchange a smile and a greeting with. Very rarely 
             do we give acknowledgment to the fact that at any given 
             moment, any one of these brave men and women are prepared 
             to put their life on the line, to place their body in the 
             way of a bullet to protect us, our staffs and the many 
             visitors to the Capitol each day.
               Mr. Speaker, the Members of the Capitol Police Force not 
             only deserve our condolences today for the loss of two of 
             their fellow officers, they also deserve our gratitude for 
             their efforts in making our Capitol, a symbol of freedom 
             throughout the world, a safe place to work and visit.
               Mr. Speaker, as a former county sheriff and a 13-year 
             member of the Fraternal Order of Police, I have a special 
             appreciation for the sadness and difficulty experienced by 
             the survivors of a fallen officer. John Gibson left behind 
             a wife and three children. J.J. Chestnut is survived by a 
             wife and five children. My thoughts and prayers are with 
             the families of Officers Gibson and Chestnut in this most 
             difficult and trying time.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentleman from Pennsylvania (Mr. Weldon).

               Mr. WELDON of Pennsylvania. Mr. Speaker, during the past 
             12 years that I have had the honor of serving this 
             institution, I have had the pleasure of working in a very 
             close relationship with public safety officials throughout 
             America and especially here on the Hill. In fact, working 
             with our very capable Sergeant at Arms, Bill Livingood, 
             and Chief of Police, Gary Abrecht, I have been able to see 
             our officers not just in the tragedy of this past weekend, 
             but responding to fires and EMS calls and calls for bomb 
             threats in our buildings. In fact, just 3 years ago, the 
             distinguished gentleman from Maryland and I called 
             together, with the Sergeant at Arms and our Police Chief, 
             almost 40 of our Capitol Hill Police officers to give them 
             citations and thank them for protecting the lives of our 
             staffers and Members in what could have been a very tragic 
             situation in the Longworth Building.
               Mr. Speaker, as we come here tonight to pay tribute to 
             these very special people, there is really a message for 
             our entire Nation. Mr. Speaker, that message is for all 
             America: As we as a Nation, in our 200 years of existence, 
             look out for heroes, we sometimes look to Hollywood or we 
             look to our ball fields, our football fields and baseball 
             fields, and we get frustrated because we cannot find them 
             there.
               Well, Mr. Speaker, this tragedy reminds us that our 
             heroes are not in Hollywood, they are not on TV, they are 
             not on our ball fields. They are in our neighborhoods. 
             They are our law enforcement officials, our sheriffs, our 
             fire officials, our EMS personnel, who every day risk 
             their lives, and who, unfortunately, time and again, lose 
             their lives, as these two brave heroes did last Friday.
               I join with our colleagues today, Mr. Speaker, in 
             recognizing that we celebrate the heroes of this 
             institution, the heroes of our neighborhood, who we have 
             lived with and worked with for the time we have spent 
             working in this Nation's Capitol.
               I rise to join with my colleagues in honoring the 
             families and the memory of J.J. Chestnut and John Gibson, 
             two real American heroes.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentlewoman from Florida (Mrs. Meek).

               Mrs. MEEK of Florida. Mr. Speaker, I thank the gentleman 
             for yielding me time.
               Mr. Speaker, I am deeply moved by the untimely deaths of 
             these brave heroes who have shown both valor and bravery 
             in a time like this.
               We honor Officer J.J. Chestnut and Mr. John Gibson, a 
             Special Agent, for caring about us. We honor them for 
             caring about the American people. We honor them ourselves 
             today for keeping us safe and sound.
               I have a great deal of respect the Capitol Police. To me 
             they are an elite corps. We see them every day. They 
             represent to us the best that is in America. Mr. Chestnut 
             and Mr. Gibson showed us what real bravery is all about.
               There is a saying that the measure of a man's life is 
             not how he died, but how he lived, and these two men lived 
             for our protection.
               I am thinking about the words of Walt Whitman:

             O Captain! My Captain! Our fearful trip is done,
             The ship has weather'd every rack, the prize we sought is 
                  won,
             The port is near, the bells I hear, the people all 
                  exulting,
             While follow eyes the steady keel, the vessel grim and 
                  daring;
             But O heart! heart! heart!
             O the bleeding drops of red,
             Where on the deck my Captain lies,
             Fallen cold and dead.
             O Captain! my Captain! rise up and hear the bells;
             Rise up--for you the flag is flung--for you the bugle 
                  trills,
             For you bouquets and ribbon'd wreaths--for you the shores 
                  a-crowding,
             For you they call, the swaying mass, their eager faces 
                  turning;
             Here Captain! dear father!
             This arm beneath your head!
             It is some dream that on the deck,
             You've fallen cold and dead.
             My Captain does not answer, his lips are pale and still,
             My father does not feel my arm, he has no pulse nor will,
             The ship is anchor'd safe and sound, its voyage closed and 
                  done,
             From fearful trip the victor ship comes in with object 
                  won;
             Exult O shores, and ring O bells!
             But I with mournful tread,
             Walk the deck my Captain lies,
             Fallen cold and dead.

               Goodbye to you, Mr. J.J. Chestnut; goodbye to you, Mr. 
             Gibson. We will never forget your bravery and your valor.

               Mr. ARMEY. Mr. Speaker, I yield 3 minutes to the 
             gentleman from New York (Mr. Solomon), the distinguished 
             chairman of the Committee on Rules.

               Mr. SOLOMON. Mr. Speaker, I thank the gentleman for 
             yielding me this time. I thank the minority leader and the 
             two whips for offering this tribute to two fallen heroes, 
             J.J. Chestnut and John Gibson, two great friends.
               To these officers I would just like to personally thank 
             both of you for the comfort that you and all of the other 
             police officers give to all of us, but particularly my 
             staff up in the Committee on Rules in the third floor 
             gallery there that work the wee hours of the night so many 
             times when there is not too much around to protect these 
             loyal staff that work these late hours, except the police 
             officers that are always on guard.
               It just is so sad that we have to be here today, because 
             no finer police officers ever served this Capitol. My 
             colleagues have noted today what great individual human 
             beings they both were. We will never forget them as police 
             officers, but more important, we will never forget them as 
             friends.
               Mr. Speaker, there is a stanza from a Memorial Day poem 
             I think that really typifies the kind of heroes that we 
             pay tribute to today. That poem goes something like this: 
             ``I am the unknown soldier, and maybe I died in vain, but 
             if I were alive and my country called, I would do it all 
             over again.''
               These are two individuals that I think personify that 
             stanza, that poem.
               I would just like to say to Officer Chestnut and 
             Detective Gibson that you mean so much to all of us, but 
             you did give that last full measure of devotion for your 
             country and the protection of decent, innocent human 
             beings, and you paid the ultimate price for it. You are 
             truly heroes, and may God bless you both.
               To your families, we can never repay you for the 
             sacrifices of these two heroes. But you must always know 
             that you can call on any one of us in the future if we can 
             ever be of any kind of service to you.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Georgia (Mr. Lewis), the distinguished 
             chief deputy whip.

               Mr. LEWIS of Georgia. Mr. Speaker, I want to thank my 
             friend and colleague for yielding me this time.
               Mr. Speaker, I rise today to pay tribute to two American 
             heroes, Officer Jacob ``J.J.'' Chestnut, and Special Agent 
             John Gibson. Mr. Speaker, this is a very sad day, for 
             these two men, members of the Capitol Hill Police Force, 
             gave their lives last Friday in defense of this, the 
             People's House. They are heroes. They are patriots. They 
             put their bodies on the line. They are the victims of a 
             senseless act of violence. Our thoughts and prayers go out 
             to the families of these two brave officers, and to all of 
             the members of the Capitol Hill police family.
               These young men and women who provide security for the 
             Capitol, for the People's House, are like members of our 
             own family. They are part of the Capitol Hill family. When 
             we are here in session, we see them every day, sometimes 
             many times a day. We mourn with the members of the Capitol 
             Hill Police Force.
               The men and women of the Capitol Hill Police Force put 
             their lives on the line every day just as police officers 
             in so many other cities and communities all across 
             America. Today, Mr. Speaker, we pay tribute, we pay honor, 
             to Officers Chestnut and Gibson, but we also say a prayer 
             and give thanks for the safety of people serving in 
             uniform everywhere.
               Mr. Speaker, God bless John Gibson and Jacob Chestnut. 
             We are forever in their debt. They will never be 
             forgotten.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Colorado (Mr. McInnis).

               Mr. McINNIS. Mr. Speaker, I thank the gentleman for 
             yielding me this time.
               Most people of America did not know Officer Gibson and 
             they did not know Officer Chestnut, but they know what 
             they did here, and now most people in America honor and 
             respect and know these officers.
               Every 48 hours in this country somewhere we have a 
             police officer who loses his or her life in the line of 
             duty. It is unfortunate that it takes a tragedy like this 
             to move the word ``hero'' from the sports page back to the 
             news page.
               Many years ago, I lost a very close friend whom I was 
             with about an hour before his death. He was very young. 
             And I remember at the service the story that I think we 
             can relate to here very easily, and I think it applies 
             here.
               His grandpa was an old cowboy, I live in the mountains 
             of Colorado, and he was weathered, very seasoned, very 
             wise. I was crying, I was very upset. And much like here, 
             I think his comments rest. Those comments were, despite 
             all of this tragedy, ``do not be too sad, because all that 
             has really happened here is that Officer Gibson and 
             Officer Chestnut have just saddled up their horses, they 
             have ridden ahead on the trail, they have set up camp, and 
             they have put the coffee on for us.''

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentleman from Colorado (Mr. Skaggs).

               Mr. SKAGGS. Mr. Speaker, I thank the gentleman for 
             yielding me this time.
               There are so many things that we all want to try to 
             express at this difficult time. We all want to say ``thank 
             you'' to Officer Chestnut and Special Agent Gibson. Thank 
             you for your dedication to duty, your bravery, your 
             courage, your heroism. We want to say to their families 
             how very, very sorry we are for your terrible loss. We 
             want to honor you as we honor your husbands and your 
             fathers.
               We want to say to all Capitol Police that we are 
             grateful for all you do to keep this Capitol safe for all 
             who work and visit here. We offer sympathy to you for the 
             loss of your fellow officers.
               This congressional community feels this tragedy so 
             deeply. It was an assault on each of us who is privileged 
             to serve here. We all are touched by the great sacrifice 
             of these two good men who died for us.
               This life is fragile; this democracy is fragile. These 
             two great Americans helped so profoundly to protect these 
             fragile and precious things. They gave, as Lincoln said, 
             their last full measure of devotion. May they rest in 
             peace and may all the honor we can grant them be held in 
             God's generous grace.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Florida (Mr. Mica).

               Mr. MICA. Mr. Speaker, I want to take this opportunity 
             to express my very deepest sympathy to the wives, the 
             children, and the families of Officer Gibson and Officer 
             Chestnut. Their tragic deaths have a very special 
             significance to me as a Member of Congress. These men gave 
             their lives to protect me, other Members, staff, and 
             visitors to our Nation's Capital.
               I cannot think of any greater sacrifice than they gave. 
             They gave up their lives to protect ours. With their 
             deaths this Capitol building and this Congress will never 
             be the same.
               As chairman of the Subcommittee on Civil Service of the 
             Committee on Government Reform and Oversight, I commend 
             these great civil servants who have given the ultimate 
             sacrifice for their fellow men. They acted with courage, 
             they acted unhesitantly, with devotion to their job and 
             their duty.
               Together, we come this evening to honor the memory of 
             Officers Chestnut and Gibson. I join my colleagues, their 
             colleagues, our staff and the American people to say thank 
             you to our fallen heroes.
               We also now have a new appreciation for all our civil 
             servants and all of our Capitol Police officers who put 
             their lives at risk each day. To each and every one of 
             these dedicated civil servants we say thank you. Thank you 
             for a job well done.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Texas (Mr. Bentsen).

               Mr. BENTSEN. Mr. Speaker, I thank the gentleman for 
             yielding me this time.
               Mr. Speaker, I rise to express my most heartfelt 
             sympathy to the families of Officer Jacob Chestnut and 
             Special Agent John Gibson. On behalf of my constituents 
             and my family, my deepest gratitude for their service to 
             our Nation. They died doing their jobs.
               How many times have we told our constituents as we take 
             them on tours, just ask one of the officers? How many 
             times do we pass the officer coming in for a vote or going 
             to a meeting, say hello, and pass them by, never knowing 
             that in a moment they could be gone as a result of some 
             violent act?
               I, like many of my colleagues here, have spent a good 
             part of my life working in the Capitol, first as 
             congressional staff and now as a Member of this body, the 
             People's House. It is easy for us to take for granted what 
             a magnificent Capitol this is and what it symbolizes to 
             the Nation and to the world and forget the price that has 
             been paid throughout our history to preserve freedom and 
             democracy. Last Friday afternoon, we were reminded all too 
             sadly of that price.
               Last Friday's violent assault was an attack not just on 
             Members, congressional employees and visitors, but it was 
             an assault on our Nation's most cherished values. Random 
             violence permeated the very halls that give life and 
             meaning to the practice of democracy. Our Nation owes a 
             debt of gratitude to Officer Chestnut and Special Agent 
             Gibson and to the brave men and women of the U.S. Capitol 
             Police who risk their lives to protect this Capitol, the 
             people who come here, and all that it represents every 
             day.
               The two whom we mourn today put their lives on the line 
             every day to protect our democracy and the rule of law 
             from those who would change our laws or government through 
             violence rather than civil debate and fair, open, and 
             legitimate elections. Just as important, they protect the 
             Capitol so that all the world's citizens can watch the 
             Congress and monitor the business of democracy.
               How many times have we had visitors from other countries 
             who say they cannot believe how open our Capitol is? It is 
             because of those like Officer Chestnut and Special Agent 
             Gibson and the fact that they gave their lives so 
             democracy could live.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentleman from Florida (Mr. Diaz-Balart).

               Mr. DIAZ-BALART. Mr. Speaker, I thank the gentleman for 
             yielding me this time.
               Mr. Speaker, I rise today to add my voice to the salute 
             by all of the American people and all of their 
             representatives to the fallen heroes of the Capitol Police 
             Force, Officer Jacob Joseph Chestnut and Detective John 
             Michael Gibson.
               How appropriate it is indeed that the bodies of Officer 
             Chestnut and Detective Gibson will lie in honor in the 
             Rotunda of the Capitol that they honored each day with 
             their work. Indeed, they risked their lives to protect the 
             Capitol and its many visitors and those of us who have the 
             honor of working here.
               It is not often, Mr. Speaker, that we have the honor of 
             paying tribute to genuine heroes in our midst. It is with 
             the most profound reverence and admiration that all of us 
             in this Congress stand as one tonight to pay our respects 
             to these fallen heroes, Officers J.J. Chestnut and John 
             Gibson, and we stand in solidarity with their families, to 
             whom we commit our endless friendship and for whom we 
             offer our prayers.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentlewoman from Connecticut (Ms. DeLauro), the chief 
             deputy whip.

               Ms. DeLAURO. Mr. Speaker, I join my colleagues tonight 
             to pay tribute to Officer J.J. Chestnut and Special Agent 
             Gibson for their bravery in last week's tragic shooting. 
             Those of us who work in the United States Capitol know the 
             dedication of all of the U.S. Capitol Police. We see them 
             each and every day in the halls, by the doors, by the 
             parking garages. They are our friends, and indeed, they 
             are our protectors.
               The U.S. Capitol is truly the People's House. It is 
             among the most open and accessible in the world. The 
             Capitol Police make that possible, while protecting the 
             safety of those who work and who visit here. They do not 
             just protect the visitors who come here every day, or the 
             Members of the Congress, or our staffs. They protect the 
             ideal of freedom that our Nation was founded upon.
               We all know that if not for their bravery and swift 
             reaction, many more innocent lives would have been lost. 
             J.J. Chestnut and John Gibson truly made the ultimate 
             sacrifice, and we will never forget them for what they 
             have done.
               My heart goes out to the Chestnut and Gibson families as 
             they struggle to come to terms with this terrible loss. 
             Words are often meaningless at this time, but I know that 
             we all hope that they know that they are in our hearts and 
             our prayers during this difficult time.
               I also wanted to extend my sympathies to the entire U.S. 
             Capitol Police Force, officers who have been carrying on 
             their duties while carrying a huge burden of grief. We 
             thank them for everything that they do. They are all 
             heroes.
               On a personal note, I would just like to say that 
             several Members, including myself, were in the press 
             gallery at the time of the incident. We were in the 
             Capitol, and the Capitol Police came in to secure our 
             safety and to escort us to safety. I say thank you to 
             those officers who came in to secure our safety. I say 
             thank you, and my family says thank you.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from California (Mr. Lewis).

               Mr. LEWIS of California. Mr. Speaker, I appreciate very 
             much the distinguished majority leader yielding me the 
             time.
               I think we all from time to time step back and wonder 
             what is the view of the American people of this great 
             Capitol and the work that is done in both bodies. Ofttimes 
             the shrill voices displayed on C-Span dwell upon the 
             negative, those things that divide us. Indeed, all too 
             often we find ourselves in the well of the House 
             exchanging dialogue that certainly is far from the picture 
             that is being displayed at this moment.
               Is it not a tragedy that we have a circumstance where 
             two of our very, very finest have given their lives on 
             behalf of the country, as well as for us, and that such a 
             tragedy in a different way causes us to pause and 
             recognize that we are a family; that we work together, and 
             all of us have much more in common than we have in 
             difference.
               Indeed, the men and women who work in the Capitol, the 
             Members of both bodies, come here in commitment to our 
             country in a belief that by being here, we can make a 
             difference in peoples' lives and strengthen our Nation. It 
             is very, very important that we take away from this a 
             lasting memory of this family of which we are all a part. 
             Members of Congress, professional staff, police officers, 
             support personnel, all of us are a part of a great 
             American family.
               Tomorrow John Gibson and J.J. Chestnut will be honored 
             in a ceremony befitting the finest of America's fallen 
             leaders. I must say that my last picture of John Gibson 
             reminded me of this in a special way. I was coming back 
             from the Permanent Select Committee on Intelligence, 
             walking toward the House floor for a vote, walking past 
             the office of the gentleman from Texas (Mr. DeLay), and 
             John Gibson said, ``How are you doing, Congressman,'' as 
             he always does; a reminder that we are in this together.
               Let us in the months ahead remember these two great 
             heroes, and at the same time, have them remind us that our 
             family is much, much more important than the differences 
             we may have day in and day out.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentleman from Virginia (Mr. Moran).

               Mr. MORAN of Virginia. Mr. Speaker, J.J. Chestnut and 
             John Gibson worked among us on Capitol Hill every day 
             helping tourists, providing directions, greeting visitors, 
             and protecting our lives. Because they did their jobs so 
             well, we hardly ever thought of the danger that always 
             lies just below the surface of all law enforcement 
             activities.
               The tragic events of last Friday demonstrated to the 
             Nation and the world the full peril of the law enforcement 
             profession that is so often hidden from the public, but 
             carried with quiet resolve by those responsible for our 
             safety.
               Officer Chestnut planned to retire in September, ending 
             an 18-year career with the Capitol Hill Police Department. 
             His ready smile was a constant greeting to Capitol 
             visitors. His deep, warm, velvety voice that always made 
             you smile; his warm, helping manner, was familiar to all 
             of us. In fact, he was writing out directions for a 
             tourist when the gunman entered the Capitol and shot him 
             in the head. His last act was one of professional and 
             selfless service.
               Officer Gibson was from Massachusetts, and was married 
             to the niece of our good friend and colleague, the 
             gentleman from Massachusetts (Mr. Joe Moakley). While 
             detailed to the majority whip's office, he impressed 
             everyone with his quiet dignity and dedication. His 
             dedication led him to save many lives while bringing down 
             the gunman, and in so doing, lay down his own life.
               All who work in and visit the Capitol Hill complex owe a 
             special debt of gratitude to these brave officers, but all 
             Americans honor them today. In this citadel of democracy, 
             the United States Capitol, whether we perform the tasks of 
             government or celebrate our historical heritage, we walk 
             freely. We can do so because of the dedication and skill 
             of our Capitol Hill police officers. Officers Chestnut and 
             Gibson performed their duties with excellence, and died in 
             the noble exercise of their profession.
               Today we mourn their deaths, sympathize with and pray 
             for their families, and rededicate ourselves to reducing 
             violence, punishing lawlessness, and celebrating the 
             qualities of courage and sacrifice that stand as the 
             ultimate testament to the lives of these two heroes.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Connecticut (Mr. Shays).

               Mr. SHAYS. Mr. Speaker, on behalf of the people of the 
             Fourth Congressional District of Connecticut, my family, 
             and staff, I want to express our love and admiration for 
             ``two heroes of democracy,'' as our Speaker described 
             them, Detective John Gibson and Officer J.J. Chestnut, and 
             to their dear families, John's wife, Evelyn, and his three 
             children, Kristen, John, and Daniel; and Officer 
             Chestnut's wife, Wen Ling, and his five children, Joseph, 
             Janece, Janet, Karen, and William.
               To them I say, your husband and father was required, as 
             protector, to guard this place, and at the same time, as 
             ambassador, to welcome with open arms all the people to 
             this House. John and JJ fulfilled both tasks with 
             extraordinary distinction.
               I thank them for protecting our majority whip, the 
             gentleman from Texas (Mr. Tom DeLay), and his devoted 
             staff, and for protecting all of us who serve here and all 
             who visit here.
               Behind the Speaker pro tempore is the American flag, 
             with its 50 white stars embedded in a sea of blue and 
             outlined by brilliant red and white stripes. As we look at 
             our flag we could think of how those stars came into 
             being. As we look at our flag we could think of the great 
             history of our Nation. If we were veterans, we might think 
             of our buddies who fought for this flag and never came 
             home, and of their families who never got to talk or hug 
             them again.
               When I look at our flag and pledge allegiance to it when 
             we begin each session, I will think of Detective John 
             Michael Gibson and I will think of Officer Jacob Joseph 
             Chestnut, and I will think of their families, with deep 
             humility, gratitude and love.

               Mr. BONIOR. Mr. Speaker, I yield 3 minutes to the 
             gentleman from Maryland (Mr. Wynn).

               Mr. WYNN. Mr. Speaker, I thank the gentleman for 
             yielding time to me.
               Mr. Speaker, I rise to join my colleagues in expressing 
             our sincerest condolences to the families of Officer Jacob 
             J.J. Chestnut and to Detective William Gibson, and to the 
             entire Capitol Hill Police Department.
               As is the case with many people who are employed here on 
             the Hill, Officer Chestnut was actually a constituent of 
             mine. He was a kind man, a gentle man, a man who is 
             beloved by his fellow officers. He was a man within months 
             of retirement. Thus the tragedy, obviously, was 
             compounded.
               Saturday I had the occasion to visit with his family. I 
             spoke with his son, and the pain he was experiencing was 
             very obvious. I also had a great deal of admiration for 
             the way the son stood tall in his father's spirit and 
             greeted visitors and accepted their well wishes.
               Today we all speak with a great deal of eloquence and 
             admiration for our fallen heroes, but I often think of how 
             sometimes, in fact, in our own sense of self-importance we 
             did not even take the time to speak or to say hello or we 
             rushed past because we are too busy with our concerns.
               Sometimes when issues of compensation or work conditions 
             arose, we were slow to respond. I am hopeful that as part 
             of our gratitude and part of our expression of sentiments, 
             we will recognize the role of the Capitol Police and 
             acknowledge them in our actions as well as through our 
             words.
               In that vein, I would like to compliment and thank the 
             leadership of both parties for joining in according these 
             fallen heroes the distinction of lying in honor, and also 
             in according their families the practical honor of seeing 
             that their expenses are taken care of. I think it speaks 
             well of the sense of this House.
               Words are inadequate on occasions such as this. To the 
             families, I commend the power of prayer. That is perhaps 
             the greatest solace of all.
               These men met the challenge in preserving the safety and 
             the accessibility of this House, the People's House. They 
             stand as true American heroes. May we never forget their 
             sacrifice and may they rest in peace.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentleman from California (Mr. Horn).

               Mr. HORN. Mr. Speaker I thank the majority leader for 
             yielding time to me.
               Mr. Speaker, last Friday's tragedy continues to haunt 
             our Capitol Hill community and our Nation. For those of us 
             who work every day under the protection provided by the 
             Capitol Police, it is particularly disturbing and 
             saddening. My condolences and prayers go out to the family 
             members and the friends of Officer J.J. Chestnut and 
             Special Agent John Gibson.
               Without Officer Chestnut and Special Agent Gibson, more 
             lives would have been lost on Friday afternoon. They are 
             heroes in every sense of that word, and deserve our 
             deepest gratitude for their ultimate sacrifice.
               One can only wish that the heroism and the bravery of 
             the Capitol Police Force could have been brought to our 
             Nation's attention under less tragic circumstances. The 
             Capitol Police officers are our friends and our 
             colleagues. The protection of freedom is a goal that we 
             share with them. They work to ensure that the Members of 
             Congress can do their jobs without fear of intimidation or 
             harm.
               On a more personal note, I have the highest appreciation 
             for the Capitol Police, for the assistance that they have 
             provided to me and to my staff, with great skill, 
             courtesy, and professionalism.
               Few of us are asked to risk our lives in the performance 
             of our daily job duties. All of our Nation's law 
             enforcement officers face that risk of death every day. 
             Each day they leave their homes and their families to go 
             to work, knowing that they might not return home. They 
             accept the risk of death as the price of our freedom and 
             the ability to live in a peaceful society. Because of 
             their courageous selflessness, they do all of this without 
             hesitation or complaint.
               For elected Members, our support staff, and the Capitol 
             Police officers, Capitol Hill is our workplace and in many 
             cases at least our part-time neighborhood. This tragedy 
             hits close to home for all of us. We all have walked 
             countless times in the area where the shootings occurred. 
             We have taken our families, friends, and constituents on 
             tours that pass through that part of the Capitol. One of 
             my staff had individuals there at that time and the police 
             protected them.
               The Capitol is the People's House. There is no more 
             recognizable symbol of democracy than the dome and the 
             flags flying over each wing, and it is the hallmark of 
             democracy and the right of all Americans to come to 
             Washington to meet their representatives, and Officer 
             Chestnut and Special Agent Gibson have helped thousands of 
             people over the last few years in every possible way. We 
             must continue the openness of the symbols of democracy 
             that they died to protect.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Pennsylvania (Mr. Klink).

               Mr. KLINK. Mr. Speaker, I find myself here in the 
             Chamber transfixed and moved by the statements of all of 
             my colleagues today, and very proud that I have an 
             opportunity to pay tribute to our two fallen friends.
               In my previous career as a journalist, I was so proud of 
             my friendships with police officers. I had been in that 
             career only 3 years when, in 1972, two Penn Hills police 
             officers were gunned down. They were shot to death in the 
             parking lot of a shopping mall just east of Pittsburgh by, 
             of all people, a suspected shoplifter.
               I thought I would never see such a scene as that again, 
             and I thought that I would never have those feelings 
             again, to see two keepers of the peace struck down 
             suddenly, unexpectedly, needlessly; to think of the wives 
             and the children and the community left behind as those 
             officers made the ultimate sacrifice.
               But here now we have this tragic shooting of two police 
             officers here in the Nation's Capitol inside the Capitol 
             building. It shows us again that that thin blue line that 
             protects each and every one of us bleeds red, and that the 
             hearts of those peacekeepers beat bravely, beat 
             courageously on duty, and now they are silenced. They will 
             beat no more. Except they will beat in our unending love 
             for them, our memories of them, and our appreciation for 
             the sacrifices that they made on our behalf.
               Our sympathies and God's blessing on their families, and 
             our prayers that their souls may know enduring peace for 
             all eternity.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Pennsylvania (Mr. Fox).

               Mr. FOX of Pennsylvania. Mr. Speaker, I thank the 
             gentleman from Texas (Mr. Armey), our majority leader, for 
             yielding me this time.
               Mr. Speaker, it is a person of astonishing character who 
             takes up a profession of not merely public service but 
             defense of the public. Those who preserve public safety 
             and enforce our Nation's laws should be held in nothing 
             but the highest regard. Each day brings uncertainty as 
             their job places them between the public and potential 
             threats to their well-being. Every law enforcement 
             officer, these men and women who wear the blue uniform on 
             the Federal, State, and local level, and every firefighter 
             and every member of our Armed Services and emergency 
             medical service personnel, has made a conscious decision 
             to fulfill the highest level of public service, placing 
             their lives on the line so that others may be safe.
               Detective John Gibson and Officer J.J. Chestnut were 
             among those individuals of astonishing character who 
             worked every day in defense of liberty guarding our 
             Capitol, its staff, its visitors, and the freedom for 
             which it stands.
               These officers are true heroes of democracy, and every 
             American owes them a deep debt of gratitude. I believe 
             that is one debt we will never be able to adequately 
             repay. If not for their quick and courageous action, more 
             civilians and officers could have been injured or killed. 
             They gave their lives to protect hundreds of tourists, 
             staff, and Members of Congress who visit and work in the 
             People's House.
               I believe that we need to remember their families, their 
             friends, and our special prayers also go out to their 
             fellow officers who have lost not only colleagues but 
             friends, brothers, and family as well.
               The tragic events of July 24 amounted to a senseless 
             tragedy which we may never fully understand. But the 
             action of Officers Chestnut and Gibson and all those who 
             helped to apprehend the gunman, assist the injured, and 
             evacuate the building, truly underscore the dedication, 
             commitment, and astonishing character of these heroes of 
             democracy.
               John Michael Gibson and J.J. Chestnut, we will never 
             forget you.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Texas (Mr. Turner).

               Mr. TURNER. Mr. Speaker, Friday, July 24, 1998, will be 
             remembered as a tragic chapter in the history of our 
             Capitol. A lone gunman, Russell Weston, rushed into an 
             east entrance of this building we call the ``People's 
             House'' and in a few brief moments of terrifying exchange 
             of gunfire, took the lives of United States Capitol Police 
             Officers John Gibson and Jacob Chestnut.
               These men had dedicated the last 18 years of their lives 
             protecting the safety of the Members of Congress, our 
             staffs, and our constituents who visit these halls by the 
             hundreds of thousands each year.
               On that fateful Friday, Officers Gibson and Chestnut 
             made the ultimate sacrifice of their lives that others 
             might live. No words can adequately praise their heroism 
             or their courage, nor can we fully express our sorrow and 
             sympathy to their families whose loss is so personal and 
             difficult to understand.
               This afternoon, as my wife Ginny and I joined with 
             hundreds of Americans who have placed flowers on the east 
             steps of the Capitol in expression of sympathy to the 
             families of these two men, it seemed clear that all 
             Americans are reaching out today to the families of these 
             two brave Americans. Their commitment to duty and their 
             unflinching willingness to make the ultimate sacrifice 
             humbles each of us who were beneficiaries of their 
             protections.
               Mr. Speaker, our thoughts and prayers will continue to 
             be with the Chestnut and Gibson families. May their sorrow 
             be tempered in time by an ever-deepening pride that they 
             died in service to our country that others might live.
               The Scriptures say that there is no greater love than to 
             lay down one's life for a friend. Our friends, John Gibson 
             and J.J. Chestnut, loved their families, they loved their 
             country, and they showed each of us what love really 
             means. May God rest their souls and may we ever cherish 
             their memory.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentleman from Maryland (Mr. Gilchrest).

               Mr. GILCHREST. Mr. Speaker, I thank the gentleman from 
             Texas (Mr. Armey) for yielding me this time.
               Mr. Speaker, it is a little quieter today in Washington 
             in thoughtful reference for Mr. Gibson and Mr. Chestnut. 
             Our hearts collectively here in the Nation's Capitol reach 
             out to the families of Mr. Gibson and Mr. Chestnut, to 
             comfort as best we can their sorrow. These two brave men 
             have not only saved our lives, but these two brave men 
             have changed our lives and this place forever.
               Their friendly presence and their warm smile will be 
             with us as a Nation as we go to work, as we go to school, 
             as we travel through the hallowed places of this country. 
             We will feel the presence that Mr. Gibson and Mr. Chestnut 
             have left.
               A summer afternoon at a ball game, we will feel their 
             friendly presence. During the gentle spring rain or a cold 
             winter night, we will feel their warm smile. When we 
             experience joy, they and their spirit will be with us. 
             When we experience sorrow, these two men will be there as 
             well.
               Mr. Chestnut and Mr. Gibson, their lives were the 
             essence of humility, commitment, compassion, faith, and 
             love. They have set the mark for all of us to follow.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             distinguished gentleman from New Jersey (Mr. Menendez), 
             chief deputy whip.

               Mr. MENENDEZ. Mr. Speaker, I thank the distinguished 
             gentleman from Michigan (Mr. Bonior) for yielding me this 
             time.
               Mr. Speaker, we have gathered in these hallowed Chambers 
             to pay tribute to two fallen heroes, Officer Jacob 
             Chestnut and Special Agent John Gibson. When tragedy 
             strikes, we are often left groping for answers. Over the 
             past couple of days, we have all asked ourselves the same 
             haunting questions: Why has this tragedy occurred? Why 
             have people of such valor suddenly been taken from our 
             lives? Why have these devoted husbands and fathers been 
             taken from their families?
               We may never have adequate answers to these questions, 
             but we must work to ensure that they did not die in vain.
               Mr. Speaker, that means that after paying our respects 
             and mourning we must remember that it was a man not alone 
             but with a gun who committed this tragedy. Ensuring that 
             they did not die in vain means that we recommit ourselves 
             to the freedom and values they sought to defend.
               It can be said that they defended a Capitol, a building, 
             a national landmark. It can be said that they defended 
             those who work and visit here, and that would be true as 
             well. But in my mind what they were really defending is 
             our most precious gift as Americans, the freedom to come 
             to the seat of our government, the most open and 
             democratic of the entire world, and see it, speak to it, 
             or even peacefully protest against it.
               It is the job of the living to remember their sacrifice 
             and to ensure that violence never wins over the principles 
             this country was founded upon. Now and forever, the 
             Capitol must remain a sanctuary for democracy and for the 
             American people.
               May God bless the families of Officer Chestnut and 
             Special Agent Gibson. They are in our hearts, our 
             thoughts, and in the prayers of the people of the 13th 
             District of New Jersey.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from New Jersey (Mr. Pappas).

               Mr. PAPPAS. Mr. Speaker, I thank the gentleman from 
             Texas (Mr. Armey) for yielding me this time.
               Mr. Speaker, I join with my colleagues in expressing my 
             deep sympathy to the families of Mr. Chestnut and Mr. 
             Gibson. I had the opportunity to know each of them, and 
             admired them. They are an example, Mr. Speaker, of all of 
             the Capitol Hill Police who are here each day to protect 
             me, to protect my staff, to protect the literally hundreds 
             if not thousands of constituents from Central New Jersey 
             that visit this building each year. And, in fact, this 
             causes each of us to pause and to think of and hopefully 
             express in various ways our deep debt of gratitude to all 
             law enforcement officials.
               This past weekend, being home, Friday night, Saturday, 
             Sunday, interacting with the people of Central New Jersey, 
             it was very moving to see how many people approached me to 
             ask me about the tragedy. They asked me if I knew these 
             two gentlemen, asked me what I thought. How moved they 
             were. How saddened they were by this tragedy. And what a 
             legacy that is to these two gentlemen, to the men and 
             women that they have served with, and to all law 
             enforcement officials across the country.
               Yesterday morning in church, my pastor asked me to say a 
             word about what took place. When I did, I was overcome, as 
             so many of us have been, with emotion because that could 
             have been me. I could have been somewhere else, could have 
             been in the line of fire, and I was not, by the grace of 
             God.
               What these two gentlemen did in trying to preserve the 
             peace, trying to preserve not just this edifice but 
             preserve and protect the people who work and visit here, 
             is a tribute to them and to what they did so selflessly 
             for all of us.
               May God bless their memory.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Virginia (Mr. Sisisky).

               Mr. SISISKY. Mr. Speaker, I thank the gentleman from 
             Michigan (Mr. Bonior) for yielding me this time.
               Mr. Speaker, there are no words to express my sorrow 
             about the tragic deaths of Capitol Police Officers Jacob 
             Chestnut and John Gibson.
               That they died in the line of duty while serving their 
             country and protecting this hallowed shrine of democracy 
             can provide little solace to their families. For their 
             families, the lives of loving husbands and fathers have 
             been taken forever. There are no words, no sentiment that 
             can make up this terrible loss to their wives and 
             children.
               I think it is safe to say that every Member of the 
             Congress, every Senator, every staff member, every visitor 
             has taken for granted the safety of this place and this 
             building. That is no longer the case. And if we ever reach 
             the point where our safety is ever once again taken for 
             granted, it will be largely because their dedicated fellow 
             officers do their duty like they always have and once more 
             restore the sense of peace and protection to these 
             hallowed halls.
               The risks that are accepted by these officers on a daily 
             basis, as well as the courage they are prepared to 
             display, as did Officers Chestnut and Gibson last Friday, 
             should be humbling to us all.
               A Bible story about those who gave their lives for 
             others says, and I quote, ``They were beloved and pleasant 
             in life and in death they were together; they were swifter 
             than eagles, and they were strong as lions.''
               It is our responsibility to love and support their 
             families, protect and defend their country, defend the 
             institution for which they gave their lives, and honor 
             their memory forever. But those who survive face the 
             toughest challenge. And I want their families to know that 
             all Americans are deeply grateful for their sacrifice for 
             us and for this Nation.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Florida (Mr. Foley).

               Mr. FOLEY. Mr. Speaker, I would like to thank the 
             majority leader for according the Members this time to pay 
             tribute to two fallen heroes. I join my colleagues in 
             reiterating what most are no doubt feeling today, that 
             sadly our Nation has lost two American heroes.
               When I first heard of the shooting last Friday and 
             subsequently about the tragic deaths of Capitol Police 
             Officers Chestnut and Gibson, I was reminded of a point I 
             tried to make more than 5 months earlier during a speech 
             in this very Chamber.
               When I took to the floor last February, I paid tribute 
             to the Capitol Police force and another selfless officer, 
             David Lyon, who rescued the passenger of a car that had 
             plunged into the Potomac River. I did not realize how 
             apropos my words would be these many months later.
               At that time I said it is important to note that the 
             Capitol Police force who man security around this building 
             are of the finest caliber and quality. They do serve the 
             public and the people of the United States of America in 
             not only protecting our guests and visitors, which number 
             in the millions on an annual basis, but also the property 
             that we consider sacred, this Chamber and the monuments 
             that surround this wonderful complex.
               I added at that time that it is a very dangerous job. 
             Often their families do not know whether in fact they will 
             return safely because of the dangers of just doing their 
             job.
               Little did I know how prophetic these words would be. 
             Let me join the rest of the Nation expressing my profound 
             sadness at the loss of officers Chestnut and Gibson, who 
             selflessly laid down their lives so that I and every other 
             person who visits or works in this building could remain 
             safe.
               I offer my deepest condolences to their families, and I 
             ask God to bless their children. Their daddy is not coming 
             home anymore, but their daddy cared deeply about them. He 
             cared for every man and woman in this building. They did 
             their job proudly, and God bless them for that.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Indiana (Mr. Roemer).

               Mr. ROEMER. Mr. Speaker, I thank my friend from Michigan 
             for yielding me the time.
               As we look to the ceiling of this great historic Chamber 
             in the direction of Officer Chestnut and Detective Gibson, 
             we see inscribed on this great Chamber ceiling an eagle 
             with the words e pluribus unum. From the many, one.
               Today, I think it is from one to the many. From a 
             detective and an officer, from their sacrifices, from 
             their professionalism and expertise to the many families, 
             the many Americans and the many freedoms that we enjoy in 
             this great country.
               On Friday, I, like many of my fellow colleagues, brought 
             children to this Chamber, my 5-year-old and 4-year-old. My 
             4-year-old fell asleep in this Chamber in the front row.
               It is because we feel, as Members of Congress, 435 of 
             us, so secure with the professionalism of these officers 
             and what we want our children to see up here with this 
             great institution that we have this security. We thank the 
             families of these officers.
               The 6 to 8 million people of this great country who 
             visit this historic Chamber and this great Capitol are 
             thankful to these families and these two courageous 
             officers.
               And finally, Mr. Speaker, what price can you put on 
             freedom, freedom of speech, freedom of religion, and the 
             ability of legislators to get together to make laws? These 
             officers, this Capitol Hill Police force, allows that to 
             take place.
               On behalf of our families, on behalf of our freedoms, on 
             behalf of the American people, we thank these two great 
             men for their courage, bravery, and heroic acts.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from Arizona (Mr. Hayworth).

               Mr. HAYWORTH. Mr. Speaker, we struggle in vain to find 
             the right words to try and make sense of the senseless. In 
             the final analysis, we realize that no words can 
             compensate, no words can comfort, no words can change the 
             reality of loss confronted by the families of John and 
             J.J.
               In the end, Mr. Speaker, we are left not with words but 
             with examples. In the New Testament Book of James, the 
             writer reminds us that words are one thing and actions are 
             something else. In the midst of this tragedy, Mr. Speaker, 
             we saw a devotion to duty that transcends the horror and 
             mayhem of that hour of uncertainty, because J.J. and John 
             reflexively answered their call to duty.
               In the end, that remains the truth and reality, that as 
             professionals, befitting their brothers and sisters who 
             wear the badges of honor in this House, they understood 
             the true meaning of public service, which is not 
             restricted to those who hold public office but in fact 
             includes all of those willing to stand and put their lives 
             on the line for an idea and a notion greater than 
             themselves.
               Mr. Speaker, our Founders, in the Declaration of 
             Independence, the first place we see in print those words, 
             ``the United States of America,'' said in closing, we 
             pledge our lives, our fortunes, our sacred honor.
               So, too, did John and J.J. Rest in peace, job well done.

               Mr. BONIOR. Mr. Speaker, I yield 1\1/2\ minutes to the 
             gentleman from Missouri (Mr. Skelton).

               Mr. SKELTON. Mr. Speaker, I wish that I could say the 
             words that would assuage the grief of the families of 
             Officers Gibson and Chestnut, but I cannot.
               I wish I had the words to properly express how they have 
             protected this democratic institution, but I cannot. I can 
             only say a word of gratitude. It was Cicero, the great 
             Roman orator, who once said that gratitude is the greatest 
             of all virtues. So that is what we are here about this 
             evening, expressing in our own way the gratitude of our 
             Nation, of our people and of each other.
               My first experience with police officers on Capitol Hill 
             was when we arrived in December 1976. I was dressed in 
             blue jeans and a ratty old overcoat. My family, my wife 
             Suzy and I, my three boys were in the Capitol to look 
             around. I asked directions of one of the officers, and he 
             called me by name. Yet I was not a Member of Congress. I 
             thought then they were a special group, and they are. 
             Quiet competence, knowledgeable, friendly.
               On top of that we have examples of two who were quietly 
             competent, knowledgeable and friendly, but also heroes.
               I say to this body, Mr. Speaker, as well as to all 
             across the country, that every one of the Capitol Police 
             that serves us today is quietly competent, friendly and 
             knowledgeable, but each one, Mr. Speaker, is also a 
             potential hero.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from New York (Mr. Forbes).

               Mr. FORBES. Mr. Speaker, on behalf of the people of the 
             first district of New York, I join with all of our 
             colleagues and our Capitol Hill family and, indeed, all 
             Americans, as we mourn the loss of two brave heroes, 
             Officer Chestnut and Detective Gibson.
               To their loving wives and their precious children and, 
             indeed, all of their family and friends, we extend our 
             heartfelt sympathies and prayers. Officer Chestnut and 
             Detective Gibson brightened our days. They watched out for 
             us. They made us feel secure and, just as we come here 
             today to mourn them, so, too, do we celebrate the kind of 
             men that they were. They, like so many of their colleagues 
             on the Capitol Hill Police force, are a special breed of 
             courageous, devoted, and conscientious protectors.
               May the Lord continue to shine upon them his infinite 
             love and mighty graces.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentlewoman from California (Ms. Waters).

               Ms. WATERS. Mr. Speaker, on behalf of the people of the 
             35th congressional district and the people of the State of 
             California, I, along with all of the members of the 
             Congressional Black Caucus, join with the President and 
             other Members of Congress and, of course, the citizens of 
             this entire Nation in sending our heartfelt condolences to 
             the families of slain Capitol Police Officer Jacob 
             ``J.J.'' Chestnut and Capitol Police Detective John M. 
             Gibson.
               We, too, are pained by the tragic death of two very fine 
             officers who lost their lives while serving and protecting 
             those of us who work and visit the Nation's Capitol each 
             day.
               Officer Chestnut was shot while guarding the east 
             entrance of the Capitol. Detective Gibson was shot twice 
             while protecting majority whip Tom DeLay's leadership 
             office. They were the first officers in our history slain 
             while protecting the Capitol of the United States.
               These officers, these husbands, these fathers served 
             their country unselfishly before they lost their lives 
             last Friday. Both were 18-year veterans of the Capitol 
             Police. Yes, each was a father and each was indeed a 
             husband. Officer Chestnut was married with 5 children. He 
             also was a grandfather. Detective Gibson was married with 
             3 children.
               We may never be able to make sense of why Russell Eugene 
             Weston, who had a history of mental illness, barged into 
             the Capitol on Friday to shoot innocent people.
               We do know this, however: We know that Officer Chestnut 
             and Detective Gibson are heroes. They made the ultimate 
             sacrifice. They gave their lives so that others might 
             live. For that, we are indeed eternally grateful.
               In closing, Mr. Speaker, I would like to say to the 
             Members of the House, please remember to take time to 
             acknowledge all our officers and, really, all of the 
             workers who protect and maintain the Capitol and the 
             office buildings. Say hello to them. Ask them how they are 
             doing. Treat them with respect on a daily basis. After 
             all, their lives are at risk every day to protect us and 
             the citizens of this country who visit their Capitol.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentleman from New York (Mr. Quinn).

               Mr. QUINN. Mr. Speaker, I thank the majority leader for 
             yielding me the time this afternoon.
               Mr. Speaker, I came over with prepared remarks to talk 
             about the heroes whom all of us have talked about this 
             afternoon and will tonight and tomorrow. But after 
             listening and thinking about these prepared remarks, Mr. 
             Speaker, I have to go off topic to simply say that, in all 
             the confusion on Friday, I went home, caught a flight back 
             to Buffalo, New York. All of us went home. I talked to 
             constituents, and I talked to my family, and I discussed 
             with people back home in Buffalo how they were happy that 
             I was safe, that I made it home to be with my own family.
               Mr. Speaker, it seems at times that we worry about all 
             of our inconveniences and all of our own problems and all 
             of our differences here at work each week, but not only 
             did I return home to my family but I am back at it again 
             today, here in the Nation's Capitol. Officer Chestnut and 
             Special Agent Gibson are not.
               At times, our inconveniences and our problems and our 
             differences seem to be bigger than they should be. We only 
             have to look at these two fine gentlemen to understand how 
             unimportant our inconveniences and our problems and our 
             differences really are.
               So what do we do and where do we go from here after 
             services tomorrow? I might suggest, Mr. Speaker, that the 
             Members of the House return to work and put aside those 
             differences and those inconveniences and those problems 
             and we get to the people's work in the People's House, in 
             this building, to do what is right for Americans, and we 
             do it because we know that there are officers just like 
             J.J. Chestnut and John Gibson who protect us and put their 
             lives on the line every day who want us to do it that way.
               On behalf of my own family and the people of the 30th 
             Congressional District in New York, I pledge to do that in 
             memory of J.J. Chestnut and John Gibson.

               Mr. BONIOR. Mr. Speaker, I yield 2 minutes to the 
             gentlewoman from Indiana (Ms. Carson).

               Ms. CARSON. Mr. Speaker, it was written some years ago, 
             ``Greater love hath no man than this, that a man lay down 
             his life for his friends.''
               Certainly I rise today in behalf of the 10th 
             Congressional District, State of Indiana, and for those 
             who wish they were in this place tonight to pay special 
             tribute to two brave police officers who gave their lives 
             to protect the safety of visitors, the Capitol staffers, 
             and Members of Congress and to ensure that all Americans 
             can freely walk the halls of Congress.
               Officer Chestnut and Special Agent Gibson are two of my 
             heroes. I had the privilege of meeting both of the 
             gentlemen when I would go in the second entrance over 
             there and was always endeared by their sweet smiles, their 
             professionalism and their attentiveness.
               As we debate what could have happened and what did not 
             happen, I do not believe that there is anything under 
             God's sun that we could have done to have prevented that 
             awesome tragedy of last Friday. Because certainly Officer 
             Chestnut and Special Agent Gibson especially did all that 
             he could in terms of even giving up his own life for the 
             sake of others.
               I would like to convey my heartfelt sympathy to the 
             families of those valiant officers and to assure them that 
             they are in our thoughts and prayers, not just after 
             tomorrow but eternally, especially while we come in and 
             out of the House of Representatives.
               I would like to add that I come from a district where 
             the violence has eclipsed; we are surpassing the incidents 
             of violence that we incurred last year in terms of 
             homicides. I would trust that, rather than overreact to 
             this situation, because there is certainly nothing we can 
             do to erase that horrible tragedy that occurred at the 
             Capitol last Friday, I think we, as Members of Congress, 
             now must lean on the poet who wrote, ``Blessed are the 
             peacemakers,'' and do everything that we can in our power 
             to ensure safe and peaceful schools and neighborhoods and 
             parks and workplaces.
               Let us come to grips with the violence in our Nation to 
             make sure that this type of tragedy that claimed Officer 
             Chestnut and Special Agent Gibson is no longer a part of 
             American life. We owe that to Officer Chestnut and Special 
             Agent Gibson to do nothing less. And while we honor these 
             two men, let us remember that we have much work to do in 
             terms of assuring the health and the safety of Americans 
             everywhere.

               Mr. BONIOR. Mr. Speaker, I yield 1\1/2\ minutes to the 
             gentleman from New Jersey (Mr. Pascrell).

               Mr. PASCRELL. I thank the gentleman from Michigan for 
             yielding me this time.
               Mr. Speaker, the people of the 8th District of New 
             Jersey join all Americans in pausing to think about the 
             lives of J.J. Chestnut and John Gibson cut short by a 
             madman. They represented family, dedication, hope; and the 
             Chestnut and Gibson families should know that we here will 
             not forget. You can count on this Congress.
               Second, this house of the people should not be turned 
             into a barricaded camp in the name of providing more 
             security to the Congress. I feel secure. And democracy is, 
             also. We shall be vigilant.
               Recently, Mr. Speaker, I had a group of students come 
             here. They wanted to go, four or five of them, to a place, 
             a remote place in this building where usually people do 
             not go. So I took them down to the bowels of the Capitol. 
             We stopped for a moment, and I said, ``Do you know where 
             we are? This is where part of the War of 1812 was fought. 
             And at the time it was being fought here, they were trying 
             to burn down the White House down the street.''
               They could not believe that, because we take a lot of 
             those things for granted, do we not? When they came out of 
             the building, they turned and looked at it differently 
             than they looked at it when they went into this building.
               Mr. Speaker, from now on, I will bring those groups to 
             where Officers Chestnut and Gibson fell. Democracy is 
             secure because of them. Democracy is better because of 
             them. Yet these things happened outside of a war. God 
             bless them, God bless their families, God bless America.

               Mr. BONIOR. Mr. Speaker, I yield 1\1/2\ minutes to the 
             gentleman from Vermont (Mr. Sanders).

               Mr. SANDERS. I thank the minority whip for yielding 
             time.
               Mr. Speaker, when I was home over the weekend, several 
             Vermonters asked me to make certain that I express on 
             their behalf their sorrow at the tragic deaths of Capitol 
             Police Officers John Gibson and Jacob Chestnut. I know 
             that I speak for all the people of the State of Vermont as 
             well as my wife Jane when I do just that.
               Mr. Speaker, these two extraordinarily brave officers 
             did the job that they were trained to do and that they 
             pledged to do. When their moment of truth came on Friday, 
             they did not shirk from their responsibilities, and they 
             did what I think all of us hope that we have the courage 
             and the strength to do when our moment of truth might 
             come. They gave their lives protecting congressional 
             staff, visitors, and elected officials.
               It is appropriate that we honor these men and their 
             families because they not only protected and saved the 
             lives of many individuals, but they helped assure that the 
             People's House remains open to all Americans. If democracy 
             means anything, it means that the people have the right to 
             visit with their elected officials, to go to the meetings 
             that are of importance to them, to make their opinions 
             known. That is what democracy is about. It is terribly 
             important that no deranged individual, no terrorist stops 
             that process and closes the door. Our hearts go out to 
             these brave officers. They are true American heroes.

               Mr. ARMEY. Mr. Speaker, I yield 2 minutes to the 
             gentlewoman from Wyoming (Mrs. Cubin).

               Mrs. CUBIN. Mr. Speaker, today we gather here to show 
             our respect and honor for the two men who died Friday 
             heroically in the line of duty. I knew both of them. They 
             were both very fine men, family men. Their sacrifice needs 
             to remind all of us how very much we owe to all policemen 
             and law enforcement officers across this Nation who 
             similarly put their lives on the line every single day for 
             the public safety and to protect the freedom that so often 
             we take for granted.
               It is very sad that it takes something like this for us 
             to express our appreciation to those people who protect us 
             and look out for us every day, as we cross the street and 
             the officers stop the traffic. There are so many things 
             that we just take for granted. From the bottom of my 
             heart, I thank them both, and their families as well.
               Last Friday, I was in my office until late. I instructed 
             my staff to lock the doors, because we did not know how 
             many shooters were out there. We did not know what was 
             happening. I instructed them to lock the door and call 
             their families and tell their families they were okay. 
             When I called my mother, she said that certainly she was 
             grateful that I called and that she could go to bed and 
             her life would go on as usual but that the families of the 
             people who were shot and the person who shot them would be 
             forever changed. I express my sincere condolences to all 
             of them and thank them for the sacrifice that they have 
             made for us.

               Mr. BONIOR. Mr. Speaker, I yield 1\1/2\ minutes to the 
             gentleman from Ohio (Mr. Traficant).

               Mr. TRAFICANT. Mr. Speaker, when I was sheriff, I had a 
             deputy gunned down by the name of Sonny Litch. I want to 
             commend the Democrat and Republican leaders of the House 
             the way they have handled this tragedy, because transition 
             to normalcy will be very difficult. On behalf of all the 
             people of the 17th Congressional District of Ohio, I, too, 
             want to join my colleagues in saluting and paying tribute 
             to John Gibson and Jacob Chestnut.
               There are words to describe them. They are policemen, 
             D.C. Capitol Police who, for many years, were looked at as 
             country club policemen, and it took this stark reality. 
             Ladies and gentlemen, the Capitol Police are of the 
             highest standards. John Gibson and Jacob Chestnut have 
             just raised the bar for all policemen in America. They 
             prevented any loss of life on their appointed duties 
             except their own.
               I want to remind the Congress today, because I was to 
             offer an amendment to an appropriation bill and I was 
             asked to not do it this year, that the D.C. Capitol Police 
             are paid less than the Uniformed Division of the Secret 
             Service who perform the same duties. That is unbelievable 
             to me. The suburbs are robbing us of our good young men 
             and women who qualify through the FBI scrutiny for 
             background checks. We must change that. The Uniformed 
             Division of the Secret Service is paid more.
               I salute John Gibson and Jacob Chestnut. They have 
             raised the bar and the standards for all policemen in our 
             country.

               Mr. ARMEY. Mr. Speaker, I yield 2\1/2\ minutes to the 
             gentleman from Ohio (Mr. Boehner), our conference 
             chairman.

               Mr. BOEHNER. Mr. Speaker, the afternoon of Friday, July 
             24, seemed just like another busy Friday afternoon in our 
             Nation's Capitol. The House had just concluded business 
             for the week, Members were headed home, and my staff and I 
             had huddled in the Capitol for a routine meeting to wrap 
             things up for the week. What happened next was anything 
             but routine; sad, tragic, heartbreaking. I do not think 
             there is any description that quite does it justice.
               Capitol Police Officers J.J. Chestnut and John Gibson 
             gave their lives stopping a deranged gunman who tried to 
             blast his way into the people's Capitol. Working only a 
             few dozen steps down the hall from Majority Whip Tom 
             DeLay's office, my staff and I heard the shots. Like 
             millions of others shaken by this tragic event, we feel we 
             owe these two fallen heroes an almost unimaginable debt. 
             Officers Chestnut and Gibson made the ultimate sacrifice 
             for our Nation in keeping the Capitol safe and accessible 
             for about 22,000 people who come to our Capitol every day 
             to have an opportunity for direct contact with their 
             legislators. That kind of openness is unheard of in 
             societies that place a lesser value on human freedom.
               It is an important feature of American democracy that 
             Officers Chestnut and Gibson gave their lives in its 
             defense.
               Speaker Newt Gingrich spoke for all of us in recognizing 
             their sacrifice and their grieving families when he said: 
             ``These two gentleman are genuine heroes. They literally 
             every day, knowingly and voluntarily, put their lives on 
             the line. They understood that to be free, somebody had to 
             be willing to take this risk.''
               The tragedy was an awful reminder that freedom 
             inevitably comes with a price, a price that these two 
             officers were willing to pay.
               And as the gentleman from California (Mr. Thomas) said 
             emotionally just minutes afterward: Freedom is not free. 
             There is always a cost, and today it cost the lives of two 
             security officers sworn to protect the safety of the 
             People's House.
               Officers Chestnut and Gibson's mission was to keep the 
             Capitol open and accessible to citizens while guarding 
             against those who would bring violence to its sacred 
             halls. Nobly and courageously they succeeded, and we must 
             honor what they fought for by keeping the Capitol open and 
             accessible and preserving the freedom they died valiantly 
             to defend.
               America will never forget the sacrifice that these two 
             officers and other law enforcement personnel do every day 
             in protecting our Capitol and our society as a whole, and 
             we pray that the grieving families of those two fallen 
             heroes will find comfort in knowing that freedom will be 
             their loved one's enduring legacy. They gave their lives 
             to protect it for all of us, and we thank them from the 
             bottom of our hearts, and may their souls rest in peace.

               Mr. BONIOR. Mr. Speaker, I yield 1\1/2\ minutes to the 
             gentlewoman from Florida (Ms. Brown).

               Ms. BROWN of Florida. Mr. Speaker, with profound sadness 
             and great pride, I remember Special Agent John Gibson and 
             Officer Jacob Chestnut. To the families of these two 
             heroes, we are incredibly grateful and fortunate to have 
             had your fathers and your husbands protecting the People's 
             House.
               While at home this weekend, constituents expressed to me 
             time and time again the trauma of these events and their 
             profound respect for those two men and all of the men and 
             women protecting the People's House. I offer my prayers to 
             these two families from thousands of families throughout 
             Florida, and, Mr. Speaker, I would like to close by 
             reading one of my favorite scriptures:
               ``Let not your heart be troubled, ye believe in God, 
             believe also in me.
               ``In my Father's house are many mansions; if it were not 
             so, I would have told you. I go to prepare a place for 
             you.
               ``And if I go and prepare a place for you, I will come 
             again and receive you unto myself; that where I am, there 
             ye may also be.''

               Mr. BONIOR. Mr. Speaker, I yield 1 minute to the 
             gentleman from Illinois (Mr. Davis).

               Mr. DAVIS of Illinois. Mr. Speaker, I join with my 
             colleagues in paying tribute to two individuals who have 
             given to this country their last measure of true devotion: 
             Jacob Chestnut and John Gibson. They reinforce for us the 
             fact that America, my country t'is of thee, is the land of 
             the common woman and the common man. It is composed of 
             people who struggle every day to make ends meet, put food 
             on the table, provide for their loved ones.
               We often hear of the great leaders, star entertainers, 
             athletes, musicians and others, but in a real sense 
             history is made by ordinary people whose names are often 
             unknown or forgotten. Mr. Gibson and Mr. Chestnut are 
             indeed unsung heroes. They are part of a group of men and 
             women who put their lives on the line each day. They are 
             the people who have made America.
               And so, Mr. Speaker, on behalf of the people of the 
             Seventh District of Illinois, I humbly salute these two 
             heroes and pray for their families as we pray for America 
             and as we relook at the gun laws and mental health needs 
             of our country.

               Mr. BONIOR. Mr. Speaker, I yield 1 minute to the 
             distinguished gentleman from New Jersey (Mr. Andrews).

               Mr. ANDREWS. Mr. Speaker, I thank the minority whip for 
             yielding this time to me.
               Mr. Speaker, on behalf of my family and on behalf of the 
             people of the First Congressional District of New Jersey, 
             I rise to offer my condolences and thanks to the families 
             of Officer Chestnut and Detective Gibson. They have given 
             us many gifts in their lives, a gift of courage, a gift of 
             discipline, ultimately the gift of their very lives.
               Let me also suggest that I believe they have given us a 
             gift in death.
               I have had the privilege of standing in this Chamber for 
             eight years, and I have never once felt what I feel here 
             this evening of a truly collective broken heart of those 
             of us who stand on this floor and those who serve their 
             country and us around these environs. Their deaths have 
             served to remind us that we are not Republican and 
             Democrat, or liberal and conservative, or northerner or 
             southerner; we are men and women, people bonded by the 
             human spirit. Today that spirit is bruised and broken, but 
             as they have given to us in their lives, I believe they 
             will give to us in their deaths and hereafter a spirit of 
             unity and cooperation.
               May God bless their families, and we thank them for 
             their contribution.

               Mr. ARMEY. Mr. Speaker, I yield such time as he may 
             consume to the gentleman from California (Mr. Hunter).

               Mr. HUNTER. Mr. Speaker, I would like to add my 
             condolences to the families of the officers.

               Mr. BONIOR. Mr. Speaker, I yield 1 minute to the 
             gentleman from Ohio (Mr. Stokes).

               Mr. STOKES. Mr. Speaker, I thank the distinguished 
             minority leader for yielding this time to me.
               Mr. Speaker, on Friday, July 24, Capitol Hill witnessed 
             a very tragic event. Two Capitol Hill Police officers were 
             slain while serving in the line of duty. Capitol Hill 
             Police Officer Jacob Chestnut and Special Agent John 
             Gibson were fatally wounded by a lone gunman who attempted 
             to shoot his way into the Capitol Building. Hundreds of 
             tourists and hundreds of aids were undoubtedly saved from 
             harm as these two police officers performed their duties.
               The loss of these two men was profound. Following the 
             tragedy, many people used the term ``hero'' to describe 
             Officer Chestnut and Special Agent Gibson. Many others 
             were stunned by the sudden twist of events and were at a 
             loss for words. Instead, they paused for a quiet moment of 
             remembrance in honor of these two members of the Capitol 
             Hill Police Force. The brave men and women who serve on 
             the Capitol Hill Police Force are charged with protecting 
             Members of Congress, Capitol Hill employees and tourists 
             from around the world who visit our Nation's Capitol.
               Mr. Speaker, these brave men gave the ultimate 
             sacrifice. We offer our condolences to their families.

               Mr. BONIOR. Mr. Speaker, I yield 1 minute to the 
             distinguished gentleman from South Carolina (Mr. Spratt).

               Mr. SPRATT. Mr. Speaker, we all know why we are here and 
             for whom the bells toll. When Jake Chestnut and John 
             Gibson died, they died for all of us. And we live, we go 
             on, we move freely about this Capitol because they did 
             their duty, they did it without flinching, they did it at 
             the price of their lives.
               They died for us, but they really died for something 
             more. They died to keep this Capitol a place the people 
             can come to and leave feeling this is their Capitol, the 
             seat of their government.
               We pay a high price in dollars to keep this the most 
             open Capitol in the world. On Friday we paid far more 
             dearly. We lost the lives of two good men.
               It was not my privilege to know Mr. Gibson. I did know 
             Mr. Chestnut. I knew the first minute I saw him and 
             noticed his name tag, that he was from South Carolina. He 
             was professional from head to toe. He had a polished 
             bearing about him, polished by 20 years in the Air Force. 
             But beneath that polished bearing was a warm-hearted man.
               I know his family loved him because all of us who came 
             in contact with him did. To their families we open our 
             hearts. Officer Gibson died young, Officer Chestnut died 
             before enjoying a well-earned retirement. But they raised 
             the bar of duty, they left the country two shining 
             examples of courage, and they helped make this Capitol the 
             land of the free, the Capitol of the land of the free and 
             the home of the brave.

               Mr. BONIOR. Mr. Speaker, I yield 1 minute to the 
             gentlewoman from Connecticut (Mrs. Kennelly).

               Mrs. KENNELLY of Connecticut. Mr. Speaker, we gather to 
             pay tribute tonight to the lives of the heroes who died on 
             Friday, true heroes Officer J.J. Chestnut and Detective 
             John Gibson.
               Like many of my colleagues, on Friday I had a hearing, I 
             had meetings, I went back and forth to the Capitol, but I 
             did not think about my safety. I certainly did not think 
             about the safety of the tourists because I know that the 
             Capitol Police are here, brave men and women sworn to 
             protect those who come to this building to visit and all 
             of us who work in this building.
               Tragically, I was right. Two of those individuals were 
             on duty and were suddenly thrust into the most deadly of 
             circumstances. That this building reopened on Saturday 
             testifies to the awesome truth as they did their duty of 
             protecting this building. They protected the liberty and 
             freedom and democracy that it stands for.
               We gather tonight to pay this tribute to these men, and 
             we feel so strongly and so sadly about their deaths, but 
             we stand here tonight, all of us gathered today, in 
             sympathy to say that we will make sure that their memories 
             are preserved by keeping this building the way they wanted 
             it, a place of peace, a place of hope, a place of 
             democracy.

               Mr. BONIOR. Mr. Speaker, I yield 1 minute to the 
             distinguished gentleman from New Jersey (Mr. Pallone).

               Mr. PALLONE. Mr. Speaker, I am proud to join my 
             colleagues from both sides of the aisle in paying tribute 
             to these fallen heroes, Capital Police Officers Jacob 
             Chestnut and John Gibson, and in extending my deepest 
             condolences to their families.
               As my colleague, the gentlewoman from Connecticut (Ms. 
             DeLauro), mentioned a little while ago, several of us were 
             upstairs briefing the media after the votes in the House 
             on Friday when the shooting happened. Capitol Police 
             officers immediately came up to the press gallery to 
             secure the area and make sure that we were safe.
               The death of these police officers hits me in a personal 
             way because my father is a retired police officer. Every 
             day that my father headed off to work, I knew that he was 
             potentially putting himself in danger to keep our 
             community safe. There was, of course, a sense of fear and 
             concern for his safety that I felt, but I also felt a 
             sense of pride. I knew he was doing an extremely important 
             job, and I know that the men and women who serve here in 
             this Capitol feel that same sense of pride and purpose.
               For the families of Jacob Chestnut and John Gibson, I 
             just hope that the sense of loss that they are 
             experiencing will be alleviated somewhat by the tributes 
             today, and, Mr. Speaker, I hope that their sadness will be 
             mitigated by the private knowing that Officers Chestnut 
             and Gibson gave their lives to protect the lives of 
             others.

               Mr. BONIOR. Mr. Speaker, I yield 45 seconds to the 
             gentleman from Tennessee (Mr. Clement).

               Mr. CLEMENT. Mr. Speaker, this is a sad time. J.J. 
             Chestnut and John Gibson will always be remembered by the 
             families and friends and all of us who love and respect 
             them.
               I grew up in a family where we had a lot of security 
             around. My father was Governor of Tennessee in the 1950s 
             and 1960s, and I have a lot of appreciation for people who 
             wear the uniform.
               And to those men: You have helped us protect freedom in 
             the world because there is no building on the face of the 
             Earth that is more recognized than the U.S. Capitol.
               Mr. Speaker, these two men put their life on the line 
             for all of us. God bless Officer Chestnut and Officer 
             Gibson.

               Mr. BONIOR. Mr. Speaker, I yield such time as he may 
             consume to the distinguished gentleman from Texas (Mr. 
             Green).

               Mr. GREEN. Mr. Speaker, I rise today to join my 
             colleagues in honoring Special Agent John Gibson and 
             Officer Jacob Chestnut. These two brave men gave their 
             lives to save other Members, staff, and tourists from the 
             most vicious attack in recent memory. Special Agent Gibson 
             and Officer Chestnut are truly American heroes, and it is 
             fitting that we honor their memory today.
               As the country unites to offer the families of these 
             fallen heroes our condolences and prayers, I cannot begin 
             to express my sorrow. The United States Capitol is a great 
             example of freedom our country enjoys. No other country 
             allows its citizens as much access to its government as 
             the United States of America. I know everyone in this body 
             appreciates and understands the importance of this 
             freedom, and we thank Special Agent Gibson and Officer 
             Chestnut for protecting us, our families, our friends, and 
             our freedom from the evil and hatred the attacker carried 
             within himself.
               The Book of John, Chapter 15, verse 13 states: Greater 
             love has no man than this, that a man lay down his life 
             for his friends. I believe this message has special 
             meaning today and forever. As a father of two children, I 
             cannot begin to understand the pain and heartache being 
             felt by the Gibson and Chestnut families. I hope and pray 
             that these deaths were not in vain, and we all join 
             together to pray for them and their families.
               Mr. Speaker, I join my colleagues in honoring the 
             memories of these two brave men. Our Nation owes them a 
             debt of gratitude that can never be repaid. July 24, 1998, 
             will be remembered as a day of heroes at the United States 
             Capitol and we must never forget the ultimate sacrifice 
             Jacob Chestnut and John Gibson made for their country.

               Mr. BONIOR. Mr. Speaker, I yield such time as he may 
             consume to the gentleman from New York (Mr. Owens).

               Mr. OWENS. Mr. Speaker, without excessive repetition, I 
             would like to join my colleagues in the House to pay 
             tribute to Officer J.J. Chestnut and Detective John Gibson 
             who gave their lives dutifully protecting this hallowed 
             institution.
               It is important that we all come together across party 
             lines and across all other differences to pay homage to 
             these two heroes. And as we pay tribute to the dead, let 
             us also honor the other police and protective forces and 
             other staff members whose reverence for this institution 
             is no less than and sometimes even greater than the 
             reverence of the elected Members.
               In paying tribute to our defenders, we reaffirm the fact 
             that this House of Representatives and the democratic 
             process, this government belongs to all of the people. We 
             reaffirm the fact that we are the guardians of a sacred 
             process that takes place within the walls of this Capitol. 
             This democratic process cannot survive without 
             institutional support. The process and the institution 
             have become inseparable.
               This is the great democratic process that guarantees our 
             freedom and guides our progress. It is the process that 
             inspired the bravery and the courage on the beaches of 
             Normandy. It is the process that applauded and rewarded 
             the returning World War II heroes with more than merely 
             marches and medals; Congress, this institution, passed the 
             GI Bill that offered unprecedented educational 
             opportunities to every veteran.
               This is the process and the institution that followed 
             the leadership of the assassinated President Abraham 
             Lincoln and passed the 13th, 14th, and 15th amendments. 
             This is the process and institution that, while mourning 
             the death of John F. Kennedy, accepted the wise and 
             forceful guidance of President Lyndon Johnson in the 
             passage of the Civil Rights Act and the Voting Rights Act.
               This is a sacred place and a sacred process that must at 
             all times be protected and defended. Officer Chestnut and 
             Detective Gibson instinctively understood the nature of 
             our mission. The workings of this institution are more 
             complex than the wiring and gadgets of any nuclear 
             submarine. The impact of the results of what we conclude 
             here has more explosive power and long range consequences 
             than any rocket ever fired at NASA.
               To keep this institution relevant and capable of meeting 
             the challenges of our rapidly changing and demanding world 
             we need the elevator operators, the cleaning staff, the 
             receptionists, the analysts, the secretaries, directors, 
             chiefs of staff, coordinators, counsels, information 
             specialists, administrative assistants; and yes, we need 
             the detectives and the police; all are vitally necessary. 
             A complicated world demands an intricate governmental 
             infrastructure.
               The democratic process within this infrastructure must 
             be protected because the twin monsters of insanity and 
             violent savagery are always scratching at the door. In the 
             last fifty years, the bullets of assassins have 
             dramatically altered history in America: President John F. 
             Kennedy, Martin Luther King, Jr.; Robert Kennedy; and the 
             almost murdered President Ronald Reagan.
               Against the twin monsters of insanity and savagery we 
             must do more than merely mourn the loss of our heroes. 
             Most Americans can only grieve with the families of J.J. 
             Chestnut and John Gibson. We, 535 Members of Congress, can 
             do much more.
               In paying tribute to these heroes, we Members of 
             Congress should seek a solidarity across party lines and 
             beyond the usual philosophical and ideological agendas. In 
             defense of this great institution and to protect all 
             vulnerable Americans, we must unite and act as one. Let 
             this be a time of new reflections, new insight, and new 
             resolve to find ways to disarm the proliferating number of 
             insane and savage assassins.
               The second amendment was designed to make us safe from 
             tyranny, to bolster our sense of security. No well 
             regulated militia should allow the rampant and random 
             distribution of firearms among the populace. In the name 
             of our Capitol heroes, Officer J.J. Chestnut and Detective 
             John Gibson, and for the sake of the families of all 
             similar victims, let us resolve as powerful decision 
             makers, as Members of Congress, to end the escalating 
             terror of handguns in America.

               Mr. BONIOR. Mr. Speaker, I yield our last minute to the 
             distinguished chairman of our caucus, the gentleman from 
             California (Mr. Fazio).

               Mr. FAZIO of California. Mr. Speaker, I rise today with 
             sadness in my heart to remember the two brave members of 
             our Capitol Hill family who died in the line of duty last 
             Friday. Officers Jacob Chestnut and John Gibson selflessly 
             gave their lives protecting all of us and in the larger 
             sense protecting our democracy. In the course of doing our 
             daily business we may sometimes lose sight of the fact 
             that the people who work on Capitol Hill share a special 
             bond as Americans and as public servants.
               It is what makes us a family. Like any family, we have 
             our battles and our disagreements, but we also share in 
             one another's joys and sorrows.
               Over the course of long days that are filled with issues 
             of national importance, we often get caught up in the 
             weight of our obligations to the people that we serve. We 
             may even become a little jaded. But a quick walk through 
             this awesome Capitol building reminds us of why we are 
             here, all of us, elected and unelected.
               Every day thousands of tourists wander through these 
             halls with us. They may watch some debate, they may peruse 
             some of the historical displays placed throughout the 
             buildings, or they may meet with their representatives. In 
             short, they are literally taking part in this democratic 
             experience.
               Throughout that experience, it is the Capitol Hill 
             Police who help us do our job while they help the American 
             people participate in their democracy. We have the rare 
             privilege to conduct the people's business peacefully and 
             safely, thanks to the hard work and dedication of this 
             Capitol Hill Police Force.
               So as we lay these two courageous officers, these two 
             loving family men to rest, we must remember that this 
             Capitol Hill family is composed of a cross-section of 
             hard-working men and women brought together by a common 
             interest in serving their country.
               Thank you, Jacob Chestnut; thank you, John Gibson. God 
             bless you both and your families.

               Mr. BONIOR. Mr. Speaker, I yield such time as he may 
             consume to the distinguished gentleman from Texas (Mr. 
             Edwards), the deputy minority whip.

               Mr. EDWARDS. Mr. Speaker, with heartfelt sympathy to the 
             families of Officers Chestnut and Gibson, I express my 
             gratitude to them and their families for serving our 
             country.

               The SPEAKER pro tempore. The time of the gentleman from 
             Michigan (Mr. Bonior) has expired.
               The gentleman from Texas (Mr. Armey) has 2\1/2\ minutes 
             remaining.

               Mr. ARMEY. Mr. Speaker, I ask unanimous consent that all 
             Members may have 5 legislative days within which to revise 
             and extend their remarks on H. Con. Res. 311.

               The SPEAKER pro tempore. Is there objection to the 
             request of the gentleman from Texas?
               There was no objection.

               Mr. ARMEY. Mr. Speaker, I yield myself such time as I 
             may consume.
               Mr. Speaker, let me begin by thanking all my colleagues 
             for their contributions to this debate.
               Mr. Speaker, in a few short minutes we will have a vote. 
             I feel it is a great honor to end this debate, and I would 
             like to close by daring to be presumptuous. We have heard 
             from so many Members of Congress about these two fine 
             officers, these two genuine heroes, Detective Gibson and 
             Officer Chestnut. But dare I, Mr. Speaker, presume to 
             speak on behalf of their associates and colleagues, fellow 
             officers in the Capitol Hill Police Force?
               We would, first of all, realize that I am so little 
             equipped to do that, Mr. Speaker; but they do not have 
             access to this floor to speak on behalf of their 
             colleagues, their friends, their fellow officers. In truth 
             of fact, they knew these two men better than we. Officer 
             Chestnut was for so many a mentor; Detective Gibson, so 
             many times a friend to so many of the other officers.
               But if they could speak here today, and if they could 
             speak about Detective Gibson and Officer Chestnut, I think 
             all of the men and women of the Capitol Police would say, 
             Mr. and Mrs. America, know our fallen comrades; know them, 
             for they are we, and we are them. We served together, and 
             we serve you. Come to the People's House from all corners 
             of our great land; come to America and visit this hall of 
             freedom; come and see; and we will welcome you, we will 
             aid you, we will assist you, we will give you courteous 
             advice, we will give you a helping hand. If there is 
             danger, we will shield you. If there is discomfort, we 
             will aid you. We will help you in every way we can to know 
             that in America, where democracy is constructed in this 
             great hall of Congress, the people are welcome, for the 
             people truly own this place where we work.
               But then they would say, as you know Detective Gibson 
             and as you know Officer Chestnut, know also that if you 
             come here to disturb the peace, if you come here to 
             trouble others, if you come here to trespass against 
             freedoms or threaten the security of other people, you 
             will be met with a well-trained and professional force, a 
             force of disciplined officers of the law and a force of 
             men and women who believe that Officer Chestnut and 
             Detective Gibson, by, first, their friendly service to so 
             many people, and, then, finally, their dedicated 
             protection of the rights of all, the safety of all, the 
             security of all, Detective Gibson and Officer Chestnut are 
             exemplary of who we are. We love this place; we love this 
             Nation; we love the people of this great land; we love the 
             men and women who serve here; and we will stand in service 
             and protection for all who are on these properties.
               I think they would finally close with God; God bless 
             you, Detective Gibson; God bless you, Officer Chestnut. 
             Well done.

               Mr. DINGELL. Mr. Speaker, it is with great shock and 
             sadness that I come here to speak about the deaths of two 
             fine officers who were so brutally shot down only a few 
             feet from this Chamber on Friday afternoon. These heroes 
             put their own lives on the line to save thousands of 
             Capitol employees and visitors.
               My heart goes out to their families and their friends. I 
             know that it must not be much consolation to know that 
             they are heroes no longer with us when in reality we all 
             would much rather have them with us, and because of them 
             no tourists or workers died--if they hadn't been there it 
             would have been much worse. Jacob Chestnut and John Gibson 
             showed us that the Capitol is safely guarded and that it 
             is safe for folks to walk, enjoy, and learn about the 
             ``People's House.''
               This unexpected and sudden tragedy apparently was the 
             result of a disturbed individual. Unfortunately there is 
             no way to make sure that Americans will not be exposed to 
             such risk. However, I feel better walking the Halls of 
             Congress on Capitol Hill knowing that officers of this 
             dedication and ability are there to protect me, my 
             constituents, and my staff. The Capitol Hill Police Force 
             should be commended for the bravery and efforts in the way 
             that this very difficult situation was handled. Let us 
             hope it will never have to be repeated.

               Ms. KILPATRICK. Mr. Speaker, on Friday, July 24, 1998, a 
             Congress, a City, a Nation was shaken to its very 
             foundation. The People's House, the U.S. Capitol Building, 
             was violated when two of Capitol Hill's finest were killed 
             in the line of duty: Officer Jacob J. Chestnut and Special 
             Agent John Gibson. The ultimate and supreme sacrifices of 
             these officers prevented the deaths of untold other 
             constituents, citizens, and colleagues. Not only do we owe 
             these men and their families our thanks, but we owe them 
             our eternal gratitude. We must ensure that their memory 
             will live on forever.
               As a Member of the House Oversight committee, my 
             colleagues and I have the duty to ensure that Congress 
             remains accessible to all, and safe to ensure the 
             democratic and timely debate of issues of the day. In our 
             Committee rooms and offices, sometimes it is easy to 
             forget the very difficult duty and burden that we place on 
             the police officers of Capitol Hill everyday. Indeed, it 
             is up to the officers of the Capitol Hill Police 
             Department to carry out the orders and directions of the 
             House Oversight Committee. These officers must allow our 
             citizens to exercise their First Amendment right to 
             freedom of speech, while ensuring that no ill will or harm 
             befalls any individual person. The Capitol Hill Police 
             Department has been doing a very difficult task extremely 
             well for over 150 years. As a matter of fact, it is very 
             easy to take for granted the safety and security of our 
             Capitol, as many of my colleagues and I do everyday.
               As a result of the recent horror and tragedy, it is 
             important that we remember that the U.S. Capitol belongs 
             to all who love democracy, freedom and justice. I am sure 
             that the House Oversight Committee will begin in all due 
             haste to review the security and safety of the U.S. 
             Capitol and its environs, keeping in mind the openness and 
             freedom that separates the United States of America from 
             all other nations in the world.
               Let us keep the families of Officer Chestnut and Special 
             Agent Gibson in our prayers. While I did not know Officer 
             Chestnut and Special Agent Gibson personally, I do know of 
             the fine work of many, many other of the other officers of 
             the U.S. Capitol Police. The Bible says that no woman or 
             man has a greater love than to lay down her or his life 
             for their friends. The Bible also orders us to love our 
             neighbor as ourselves. In the wake of this senseless loss, 
             it is my desire and hope that all of us, Members of 
             Congress and citizens alike, learn to care for our fellow 
             human beings in the manner in which Officer Chestnut and 
             Special Agent Gibson loved not only their jobs, but their 
             families, their fellow officers, and their country.
               My prayers, as well as the prayers of the 15th 
             Congressional District of Michigan, are with the families 
             of these two fine men. These officers have made a 
             difference in Congress: May they rest in peace.

               Mr. STEARNS. Mr. Speaker, it is with great sadness that 
             I add my voice in tribute to the two fallen officers who 
             lost their lives in performing their duty last Friday. 
             This tragedy has brought us all together in grief as we 
             remember the dedication of these two fine men, Officers 
             Jacob Chestnut and John Gibson. They are the first Capitol 
             Hill Police officers to be killed in the line of duty and 
             we owe it to them and their fellow officers to work to 
             ensure that they are the last.
               However, we must also ensure that the public will 
             continue to have access to the Nation's Capitol for its 
             historic significance and as the seat of the legislative 
             branch of government. By not keeping this great building 
             open to the some 23,000 people who visit it daily, we will 
             be surrendering a part of our freedom and our heritage. 
             Let me remind my colleagues that Officers Chestnut and 
             Gibson died defending our freedom and our heritage.
               These deaths show us not only just how fragile life is, 
             but also the invaluable service provided by those who put 
             their life on the line as law enforcement officers. Let us 
             never forget the sacrifice of these officers and those of 
             everyone killed doing their duty. These two families and 
             the entire Nation have lost two outstanding individuals. I 
             join in praying for their families and I extend to them by 
             deepest sympathies.

               Mr. SENSENBRENNER. Mr. Speaker, I rise today to join my 
             colleagues in paying tribute to Detective John Michael 
             Gibson and Private First Class Jacob Joseph Chestnut of 
             the United States Capitol Police who lost their lives 
             Friday, July 24, 1998 defending the United States Capitol, 
             the tourists who visit it, and the Members and staff who 
             serve there. It is thanks to their dedication to duty that 
             an already tragic day did not result in additional loss of 
             life. It is thanks to their heroism, and the heroism of 
             their fellow United States Capitol Police Officers, that 
             the People's House is and can remain open to the American 
             people.
               Today, flags fly at half staff over the United States 
             Capitol to honor the fallen officers. Officer Chestnut, an 
             18 year veteran of the U.S. Capitol Police, had served in 
             the U.S. Air Force. Detective Gibson was an 18 year 
             veteran who was assigned to the dignitary protection 
             division of the Capitol Police. Both officers leave behind 
             a wife and children, as well as countless family and 
             friends. At this very difficult time, it is my hope that 
             they will find some solace in knowing that their loved 
             ones died protecting America's hard-won freedom. Of this, 
             they can be proud.
               Friday's criminal act should not result in calls to 
             close the Capitol and have Congress work away from the 
             citizens it represents. Officer Chestnut and Detective 
             Gibson gave their lives so the American people can visit 
             their Capitol and see their Congress at work. The 
             officers' sacrifice cannot have been made in vain.
               My thoughts and prayers, along with those of every 
             Member of this House, are with the fallen officers and 
             their families at this difficult time. Detective Gibson 
             and Officer Chestnut served their country well. The 
             service and heroism they displayed is exemplary, and we 
             will always be thankful for the sacrifice they made.

               Mr. GEJDENSON. Mr. Speaker, I rise to join my colleagues 
             in memorializing Capitol Police Detective John Gibson and 
             Officer Jacob Chestnut. Officers Gibson and Chestnut made 
             the supreme sacrifice to protect Members of this body and 
             our visitors. I extend my deepest condolence to their 
             families and fellow officers.
               As many other Members have said, the Capitol Police are 
             a part of our family. We see them every day, we exchange 
             pleasantries, we come to know them by name. Hundreds of 
             thousands of visitors interact with them every year. 
             However, many of us rarely stop to think that members of 
             the Capitol Police Force face the very same dangers as 
             officers in our largest cities. Unfortunately, it takes a 
             tragedy to bring that reality home.
               The reality is that the officers stationed throughout 
             the complex can be confronted on any given day by an 
             individual or group committed to harming Members and 
             visitors. The reality is that we live and work in a 
             violent society--not in an isolated island. The reality is 
             that too many Americans believe that guns, rather than 
             words, are the solution to their problems. The reality is 
             that not every one who visits the Capitol on a daily basis 
             is here to experience how their government works.
               Officer Chestnut and Detective Gibson understood the 
             risks; they did not shrink from them. They acted as they 
             were trained. As a result, they prevented one committed 
             individual from inflicting much more damage. They have 
             been called `genuine American heroes.' Like millions of 
             other Americans, I share this sentiment. However, they are 
             heroes not only for laying down their lives to protect 
             others. They are heroes because they acted to preserve the 
             openness that makes the House of Representatives different 
             from any other legislative body on the face of the earth. 
             I believe the best tribute to these heroes is to ensure 
             that the House remains as accessible to the American 
             people as possible.
               Mr. Speaker, Officer Chestnut and Detective Gibson 
             represent the very best qualities of America--commitment 
             to public service, selflessness and courage. I am saddened 
             that a tragedy, rather than the work they did every day, 
             brings us to the floor tonight.

               Mr. KLECZKA. Mr. Speaker, I rise today to honor the 
             memory and dedication of two of our finest public 
             servants, officers Jacob Chestnut and John Gibson of the 
             Capitol Police. These two men paid the ultimate sacrifice 
             to see that the Capitol and its occupants could conduct 
             the business of democracy in the light of day, in plain 
             view of the people.
               Mr. Speaker, I think it's important to remember these 
             men as more than names on a plaque. John Gibson was an 18-
             year veteran who lived in Woodbridge, Virginia. He is 
             married to the niece of one of our colleagues, Rep. Joseph 
             Moakley. Compounding the tragedy of the death of John 
             Gibson is the loved ones he leaves behind, his three 
             children--a 17-year-old daughter and two boys aged 15 and 
             14.
               A story from the newspaper tells us more about John 
             Gibson, the man. He was regarded as a handyman around the 
             neighborhood. John once ordered gravel to build a patio 
             behind his house--only he ordered too much. There stood a 
             big load of gravel dumped at his house. So, John ended up 
             supplying the neighborhood with gravel. He did what any of 
             us would do. He was just a regular guy.
               Jacob Chestnut--or ``JJ'' as his colleagues called him--
             was a 20-year Air Force veteran. He served in Vietnam. His 
             neighbors knew him as a gardener who generously shared his 
             latest crop of cucumbers or Chinese cabbage. Jacob 
             Chestnut, who is survived by five children from his 
             current and previous marriages, planned to retire soon and 
             play golf and travel with his wife.
               As presidents and national heroes are honored, so are 
             Officers Chestnut and Gibson. They acted with the highest 
             courage. They performed their duty selflessly and 
             prevented possible serious injury to scores of others. 
             Officers Chestnut and Gibson are a testament to our 
             national values and have earned the distinction of being 
             national heroes.
               They, like other everyday heroes--the men and women of 
             the Capitol Police Force--conduct themselves with 
             distinction so that we might do the business of the 
             American people in the open and share with the public the 
             workings of this wonderful institution and symbol of 
             democracy.
               Mr. Speaker, these two men have been taken from our 
             congressional family. We have suffered a grievous loss. 
             May the Lord bless officers Chestnut and Gibson and their 
             families and protect those who put their lives on the line 
             every day so that we may live free.

               Mr. McGOVERN. Mr. Speaker, I rise today to join my 
             colleagues and the American people in paying tribute to 
             two American heroes.
               On Friday afternoon, Capitol Police Officers J.J. 
             Chestnut and John Gibson laid down their lives in defense 
             of this building, in defense of the Members of this House, 
             in defense of the thousands of tourists and staff members 
             who work and visit here, and in defense of this country.
               J.J. Chestnut was a dedicated Capitol Police officer who 
             came to work every day and did his job well. While I 
             didn't know him personally--I was certainly very familiar 
             with his face. Part of the ritual of being a Member of 
             Congress is walking into this building and casting a vote. 
             How many times have we walked past these officers? How 
             often before Friday have we really stopped to think about 
             the sacrifices they make?
               I personally knew John Gibson as the husband of 
             Congressman Moakley's niece. I had the privilege of 
             working for Cong. Moakley for 13 years, and during that 
             time I got to know John Gibson as a family man, as a 
             Massachusetts native, and as a life-long Red Sox fan.
               You know, a lot of people have remarked about John 
             Gibson's ``Boston accent,'' and how strange they thought 
             it was. But I'll tell you, to me, listening to John talk 
             served as a reminder of home.
               Mr. Speaker, yesterday the Boston Red Sox beat the 
             Toronto Blue Jays 6-3. I'd like to think that somewhere, 
             John Gibson is looking at that box score and smiling.
               I also want to say a few words of appreciation and 
             admiration for the response of the entire Capitol Police 
             Force, who with professional efficiency and control, 
             ensured that Members of Congress, congressional staff, and 
             tourists were safe and secure, either inside the Capitol 
             or outside on the grounds as soon as the call went out 
             that a gunman was loose in the Capitol Building.
               I join the American people in mourning for these two 
             brave men. I extend my sympathies to their families, 
             friends and loved ones. And I express my respect for the 
             Capitol Police force who work every day to ensure that the 
             American people may safely visit and work within the 
             Nation's Capitol.

               Mr. FROST. Mr. Speaker, on Friday afternoon, July 24, 
             1998, tragedy struck the Nation's Capitol. A lone gunman 
             burst through an entrance of the Capitol building, fatally 
             wounding two Capitol Police officers who saved the lives 
             of so many through their own bravery.
               Two of the finest members of our Capitol Hill family 
             were shot and killed in the line of duty. Officer Chestnut 
             and Special Agent Gibson gave their lives defending 
             Congress and its visitors from a gunman who savagely 
             discharged his weapon on anyone who stepped in his way. 
             Officer Chestnut was the first to be shot as he vigilantly 
             guarded his post. After the gunman shot and wounded a 
             fleeing tourist, he crashed into Majority Whip DeLay's 
             office, shooting and mortally wounding Special Agent 
             Gibson.
               The actions of this man were reprehensible, but they 
             were also the actions of a very disturbed person. Officers 
             Gibson and Chestnut displayed a heroism and bravery which 
             we should all be proud and thankful for as Americans and 
             members of the Capitol Hill family.
               Officers Gibson and Chestnut gave their lives in order 
             to save the lives of so many others who were in harm's 
             way. My thoughts and prayers go out to both families as 
             well as to the United States Capitol Police, as I am sure 
             the past few days have been very trying times. It is a 
             comforting feeling to know that we are all being guarded 
             by such a competent, dedicated, and brave group of 
             officers.

               Mr. MANTON. Mr. Speaker, I rise to join my colleagues in 
             commemorating our valiant Capitol Police officers who gave 
             their lives in the line of duty. Officer J.J. Chestnut and 
             Special Agent John Gibson will have our undying gratitude 
             and remembrance for making the greatest sacrifice in 
             serving their country. Our prayers and best wishes go out 
             to their family and friends.
               Mr. Speaker, as a former New York City police officer, 
             my sadness and pain at this senseless loss is difficult to 
             put into words. Once you have worn the uniform, you become 
             part of an extended family for the rest of your life. And, 
             while you know firsthand the senseless violence that 
             occurs all too often in our country today, you still feel 
             very personally each loss of a member of that ``thin blue 
             line'' that serves to protect every one of us.
               Mr. Speaker, these slain officers were heroes in the 
             truest sense of the word. Not because of unusual feats, 
             but because they died simply as a result of doing the job 
             we ask them to do. We all are indebted to Officer Chestnut 
             and Special Agent Gibson for their sacrifice. We offer our 
             sincerest condolences to their families. And, we all owe 
             the members of the Capitol Police Force our respect and 
             admiration for the work they do.
               In closing, I believe it was President Theodore 
             Roosevelt who wrote, ``Death is always and under all 
             circumstances a tragedy, for if it is not, then it means 
             that life itself has become one.''
               Mr. Speaker, let us here today swear that the tragedy 
             our extended congressional family experienced last Friday 
             shall always remind us of the value of life; of the 
             valiant work of our Capitol Police Force; and of the need 
             to be vigilant against the pointless violence that, sadly, 
             pervades our society.

               Mrs. LOWEY. Mr. Speaker, I rise today to express my deep 
             and sincere condolences to the families of Officer Jacob 
             Chestnut and Special Agent John Gibson.
               Those of us who are privileged to work on Capitol Hill 
             feel we are part of a very large and extended family. 
             Officer Chestnut and Special Agent Gibson were vital parts 
             of that family.
               If the Capitol Police officers did not perform their 
             jobs so professionally, they would be better known. 
             Unfortunately, in today's society, we seem to focus on the 
             negative rather than on the positive. But the Capitol 
             Police do an excellent job and so the American people are 
             not familiar with these dedicated men and women who patrol 
             the United States Capitol grounds day and night.
               Our Nation's Capitol, the most recognizable symbol of 
             freedom and democracy in the world, is also one of the 
             most accessible government buildings in the world. 
             Visitors from across our Nation and the globe marvel at 
             the ease with which they can sit in the gallery and watch 
             the inner workings of Congress. They walk in awe 
             throughout this grand and historic building. Yet, it is 
             the dedication and professionalism of the Capitol Police 
             which makes this access to the Capitol possible.
               A few months ago, there was a fire in the Longworth 
             Building. The fire alarm didn't go off on every floor, so 
             Capitol Police officers ran up and down the stairs and 
             into each office to remove people from harm's way. A few 
             officers suffered smoke inhalation as they risked 
             themselves to do their duty.
               Every summer we read about tourists overcome by the 
             heat, collapsing on the Capitol grounds, only to receive 
             swift and needed care from Capitol Police.
               Every day we see the Capitol Police direct traffic to 
             ease the morning and evening commute. We see them giving 
             tourists directions and helping lost children find their 
             parents.
               They patrol our corridors and insure order and safety in 
             our Nation's most important public building.
               When I think about the choice which Officers Chestnut 
             and Gibson made to serve the public as police officers, I 
             am reminded of what Thucydides once said, ``the bravest 
             are surely those who have the clearest vision of what is 
             before them, glory and danger alike, and yet 
             notwithstanding, go out and meet it.''
               As I offer my sympathy to the families of these two 
             fallen heroes, I am also reminded of what the Bible says, 
             ``No greater love has a man, than he lay down his life for 
             another.''

               Mr. DICKS. Mr. Speaker, this is a difficult and solemn 
             time in the House of Representatives. It is a day in which 
             our thoughts and prayers are with the families of the two 
             heroic members of the Capitol Police Force who lost their 
             lives last Friday, Officers Jacob Chestnut and John 
             Gibson. They were part of our family here in the House, 
             and all of us today are experiencing the emotions of a 
             death in the family. These were well-liked and well-
             regarded men whose jobs it was to protect the institution 
             of the House and the people who serve in it. And in 
             protecting us, they sacrificed their lives to save the 
             lives of many others working and visiting the Capitol 
             building. Despite the many words expressed in the House 
             and Senate today, there can be no tribute grand enough to 
             express our true appreciation for the selfless actions of 
             John Gibson and Jacob Chestnut. To their families, we owe 
             a great debt of gratitude and we, as an institution, will 
             never forget their placing their sense of duty above 
             personal safety.
               It is my hope, Mr. Speaker, that the Members of this 
             body will focus on the important messages that flow from 
             this tragic incident. First, I believe it is important 
             that we recognize how capable and well-trained the members 
             of the Capitol Police Force are. We see them everyday in 
             many of their diverse roles, but when called upon to 
             respond quickly to life-threatening situations, the force 
             reacted swiftly and superbly, preventing an even more 
             tragic result. As we seek to learn the lessons of this 
             incident, it is abundantly clear that the people in charge 
             of the mission of protecting this Congress are indeed 
             quite capable and well-trained.
               There may be security enhancements that can be 
             accomplished to make this important public building even 
             safer for the millions of visitors who come here each 
             year. Certainly we must consider all the suggestions that 
             flow from the thorough analysis of the shooting incident 
             last week, including new physical protection measures and 
             procedures that may guard against new and different 
             threats here at the Capitol. Let me echo the sentiments of 
             many of my colleagues here today, however, in expressing 
             my personal hope that whatever security improvements may 
             be implemented, they should preserve--to the greatest 
             extent possible--this building's character as the 
             ``People's House,'' one which Americans from across the 
             land can enter to view their representative government in 
             action. Though we may be able to make the United States 
             Capitol building safer, I believe we should be careful to 
             understand the actual and symbolic needs for access.
               There is perhaps another message here, Mr. Speaker, 
             relevant to this individual who crashed through the 
             security station at the East Front of the Capitol last 
             Friday. While all of the facts and motivations may not be 
             clear to us at this early time, the interviews of his 
             family convincingly demonstrate that Russell Eugene Weston 
             was unstable, with a long history of mental illness. I 
             believe that this incident calls into question the way in 
             which potentially dangerous, mentally-unstable individuals 
             are ignored until they cause harm to themselves or to 
             others, and certainly this must cause some reevaluation. 
             If we are too quick to release mentally-ill individuals 
             like this from institutions, we must at the same time 
             recognize that the result will be additional challenges 
             for law enforcement--though hopefully never with such a 
             tragic result as occurred last Friday.
               So, Mr. Speaker, let me join all of my colleagues in 
             bowing our heads in solemn memory of Jacob Chestnut and 
             John Gibson today, and to remark that any honor we can 
             bestow upon them will pale in relation to the sacrifice 
             they have made for us.

               Mr. COYNE. Mr. Speaker, I rise today to join my 
             colleagues in mourning the deaths of Capitol Police 
             officers John Gibson and Jacob Chestnut, and in 
             recognizing the dangers and challenges that members of the 
             Capitol Police force face every day.
               The Capitol complex is a large, busy place in the middle 
             of a busy metropolitan area. As the seat of democratic 
             self-government in this country--and as a symbol of 
             democracy around the world--the Capitol is an obvious 
             target for terrorists, as well as mentally unbalanced 
             individuals. In fact, as others have observed in recent 
             days, the Capitol building has been the target of violent 
             acts several times before in this century.
               Despite the obvious concern about security, Congress has 
             consistently decided--quite correctly in my opinion--that 
             a high priority should be placed on keeping the Capitol 
             complex as open to visitors and observers as possible. 
             Congress and the Capitol Police have to constantly weigh 
             security concerns against the need for openness. The 
             outcome is inevitably a delicate balance, but Congress has 
             wisely decided to preserve the public's access to the 
             Capitol.
               The Capitol Police force has the difficult mission of 
             maintaining security in the Capitol complex while allowing 
             thousands of visitors into its buildings each day. The 
             Capitol Police go on duty each day never knowing when they 
             may be attacked or drawn into some deadly confrontation. 
             Despite this risk and uncertainty, they provide courteous 
             service to the thousands of people who visit the Capitol 
             each day while protecting the Capitol, its occupants, and 
             visitors.
               This Nation has been fortunate in the relatively small 
             number of violent attacks that have been made on the 
             President, Congress, and our federal employees. But every 
             so often, as in the bombing of the Murrah Office Building 
             in Oklahoma City or the terrible events that took place 
             here in the Capitol on Friday, a violent attack does take 
             place.
               A natural human response is to say how could this 
             happen--why couldn't something have been done to prevent 
             it? Sadly, such tragic events are inevitable in a free 
             society. We can work to make such events more infrequent, 
             but we can not eliminate them. As this sad event reminds 
             us, the benefits of a free society come only at a high 
             price. These two fine Capitol Police officers, who died in 
             the line of duty, gave their lives to preserve that 
             freedom. They also gave their lives to protect the lives 
             of the hundreds of other people who were in the Capitol 
             building at the time the gunman opened fire. Their 
             sacrifice will not go unnoticed.
               On behalf of the people of Pennsylvania's 14th 
             Congressional District, I extend my heart-felt sympathy 
             and deepest condolences to the families of these two 
             American heroes. And I want to express my gratitude and 
             appreciation to the men and women of the Capitol Police 
             Force, who--like Officers John Gibson and Jacob Chestnut--
             carry out their duties day in and day out with courage, 
             dedication, and skill.

               Ms. LEE. Mr. Speaker, it is with a tremendous sense of 
             loss and sadness that I rise today to express my sincere 
             condolences to the families and friends of Detective John 
             Gibson and Capitol Police Officer Jacob Chestnut, and to 
             their colleagues in the Capitol Police.
               I'd also like to offer my sincerest gratitude to all of 
             our Capitol Hill security personnel, who each day risk 
             their lives for us and whom we often take for granted. 
             Thank you for your service, your commitment, and your 
             valor.
               Detective Gibson was truly an officer's officer: his 
             work exemplified the truest meaning of service. He is 
             remembered by colleagues, friends, and neighbors alike as 
             someone who would do whatever he could to help, someone 
             who made people feel safe.
               Officer Chestnut was a stalwart of service and 
             professionalism. He always exhibited genuine kindness and 
             gentleness to all of us who were privileged to know him. 
             My family and I remember his assistance during my 
             swearing-in ceremony, his incredible kindness, his 
             guidance, his tremendous warmth.
               These two heroes gave their lives in the line of duty 
             protecting their fellow citizens. They leave behind 
             families, friends, co-workers, communities, and Americans 
             who will never forget their commitment and their 
             sacrifice. Their passing leaves a void that will never be 
             filled. We join with the families to remember special 
             times and, in doing so, Detective John Gibson and Officer 
             Jacob Chestnut will have a permanent place in our hearts. 
             May they rest in peace.

               Ms. McCARTHY of Missouri. Mr. Speaker, I rise today in 
             support of H. Con. Res. 311 to honor the two Capitol 
             security officers, Jacob Chestnut and John Gibson, who 
             gave their lives last Friday in service to our Nation. I 
             offer my deepest sympathy to their families.
               I also honor all of the other law enforcement personnel 
             throughout the Nation who put their lives on the line each 
             day for the safety of our Nation's citizens.
               The Capitol Police responded to this situation swiftly 
             and effectively. They told the staffers and tourists what 
             to do during the melee and comforted them afterward. They 
             shielded people and saved lives. I would like to extend a 
             thank you to all of these officers.
               I would like to share an editorial printed in the Kansas 
             City Star on Monday, July 27, 1998. This editorial honors 
             Officers Chestnut and Gibson, as well as the other 
             dedicated security personnel across the country who are 
             committed to protecting all of us.
                             Heroism in Capitol Shooting
               The shooting deaths of two police officers in the U.S. 
             Capitol are a tragic reminder that thousands of law 
             enforcement and security personnel put their lives on the 
             line every day so that the rest of society can go on about 
             its business.
               All too often their willingness to put themselves at 
             risk is taken for granted. But as events inside the 
             Capitol demonstrated last week, these brave men and women 
             may be called upon at a moment's notice to protect 
             hundreds of innocent people from harm.
               One day something goes wrong--an alarm goes off, a 
             suspicious figure rushes by, shots ring out in a hallway--
             and suddenly their years of training and experience, their 
             sheer speed in determining what must be done and their 
             courage in doing it, become absolutely critical.
               Capitol Police officers Jacob Chestnut and John Gibson, 
             who sacrificed their lives in the line of duty on Friday, 
             will be remembered by thousands of friends and colleagues 
             in Washington and by millions of people across the country 
             for their heroism.
               Chestnut was shot while attempting to protect an 
             entrance to the Capitol. Hearing shots, Gibson ordered the 
             people around him to get down to protect themselves. He 
             then confronted the gunman and was fatally wounded. But 
             the dying officer fired on the gunman, saving government 
             officials and tourists from harm.
               It appears that the gunman was someone suffering from a 
             mental illness that included bizarre delusions--someone 
             who, fearing trouble with the government, traveled across 
             the country to find that trouble.
               But in the midst of Friday's crisis, Officers Chestnut 
             and Gibson did not know who he was. These Capitol Police 
             veterans simply knew that one of the central institutions 
             of the U.S. government was under attack--and they found 
             themselves on the front line of its defense. They did 
             their duty without hesitation, and for that the entire 
             Nation honors them.
               As the work week begins, many Americans will feel an 
             extra measure of respect and appreciation for the many 
             other police officers and security personnel who stand 
             guard in government buildings and private offices around 
             the country.
               As the result of this tragedy, the already elaborate 
             security system on Capitol Hill will be reviewed. Perhaps 
             some changes will be made.
               But as President Clinton and other officials have 
             indicated, it would be a mistake to reject the commitment 
             that has been made to keep the Capitol so accessible to 
             the public.
               Many other public places, after all, have been targeted 
             by sick individuals and terrorists. Reasonable steps must 
             be taken to discourage such violence. But we should not 
             allow fear to dominate our lives, either at home or in our 
             Nation's capital city.
               Given the visibility of the Capitol as a symbol of the 
             government, and the thousands of people who move through 
             it on a daily basis, the overall security record there 
             appears solid; this was reported to be the first shooting 
             in the building in decades.
               Brave, dedicated people like Officers Chestnut and 
             Gibson have been at the heart of that system. They will 
             always play the critical role in protecting American 
             institutions from confused individuals and those who wish 
             our Nation harm.

               Mr. ROGERS. Mr. Speaker, I rise today in honor of 
             Officer J.J. Chestnut and Special Agent John Gibson who 
             were tragically slain in the line of duty this past 
             Friday. Words do little to reveal the sense of gratitude 
             we feel for their heroic actions or the sense of loss 
             accompanied with their passing. Few of us could ever hope 
             to equal the level of courage displayed by these 
             individuals. My thoughts and prayers go out to their 
             families and friends in this time of great sorrow.
               While we mourn the loss of these two fine officers, we 
             must also pay homage to all members of the Capitol Police 
             Force. These brave men and women perform their duties with 
             smiles and kind words, always standing at the ready to put 
             themselves in harm's way if danger calls. Unfortunately on 
             Friday, danger did call. Without regard for personal 
             safety, they responded to the situation shielding Members, 
             staff, and visitors from harm, losing two of their own in 
             the process. I thank them for their selflessness, their 
             sense of duty and their courage. I extend to them my great 
             sympathy on the loss of their comrades and my hope that 
             such condolences are never again required.

               Mr. RAMSTAD. Mr. Speaker, this is a somber and solemn 
             day for Congress and our Nation. Our Capitol Hill family 
             has suffered great loss with the deaths of Officers Jacob 
             ``J.J.'' Chestnut and John Gibson. The entire country was 
             both shaken by violence at our Capitol and inspired by the 
             ultimate heroism of these two men.
               Mr. Speaker, how can we adequately thank our heroes? How 
             do we comfort their wives and children who suffered the 
             ultimate loss?
               I have no answers to those questions, Mr. Speaker. I 
             only know that we owe two law enforcement heroes more than 
             words can express. I hope everyone listening will pray 
             tonight for the families and friends of these two brave 
             fallen officers.
               As Co-Chair of the House Law Enforcement Caucus, I know 
             that senseless tragedies are not new. Since our Nation's 
             founding, nearly 15,000 police officers have been killed 
             in the line of duty. Their names are etched in the walls 
             of the National Law Enforcement Officers Memorial, just 
             blocks from here. Sadly, we now know two new names that 
             will be added to the wall next year.
               In this Capitol, we are protected by nearly 1,300 sworn 
             officers and security aides. Their presence is so steady 
             and reassuring that at times people have forgotten to 
             notice. And the Capitol Police are joined by hundreds of 
             thousands of law enforcement officers across America, who 
             get up each morning and put on their badge, committing to 
             protect people whose names they may never know. They have 
             taken an oath to die for us. They are all American heroes. 
             I am humbled to call them both my protectors and my 
             friends.
               If the events of last week hold any lesson, it is this: 
             we must never take these courageous men and women for 
             granted. They deserve our thanks, every opportunity we 
             get.
               J.J. and John will be remembered for the way they died, 
             and also for the way they lived. They make us want to be 
             better people. The greatest tribute we can offer these men 
             is to have the same single-minded focus on our jobs in 
             this great building, the People's House.
               Remembering how Officers Gibson and Chestnut worked 
             together to protect the People's House, I hope we will 
             work together in a bipartisan way to make our country a 
             safer place for all.
               I hope, too, that the legacy of Officers Chestnut and 
             Gibson will be a Capitol that is open and accessible to 
             the people to which it belongs. That is what they would 
             have wanted. That is why they made the ultimate sacrifice.
               Thank you, Mr. Speaker, and thank you, Officers Chestnut 
             and Gibson. You will always be remembered in these halls, 
             and especially in our hearts. You are true American 
             heroes, and we will miss you.

               Mr. ROTHMAN. Mr. Speaker, today I rise to mourn the loss 
             of two members of our American and our Capitol families--
             Jacob Chestnut and John Gibson.
               Their names are quickly becoming synonymous with the 
             word ``hero,'' and rightly so. These two men, and the 
             entire Capitol Police force, daily summon the courage to 
             stand in defense of lawmakers, staffers, tourists--every 
             one of us--along with this bastion of American Democracy 
             we call the United States Capitol.
               Friday that dedication was put to the test. Jacob 
             Chestnut and John Gibson did not waiver. They laid down 
             their lives in defense of this Capitol and all it 
             represents in the hearts of every American.
               Jacob and John, I only wish that you were here with us 
             today, to hear how grateful our Nation is to you both for 
             protecting our democracy. We are grateful for your 
             dedicated public service to our country, your valor, and 
             your courage.
               As Rollo May has said, ``courage is not a virtue or 
             value among other personal values. It is the foundation 
             that underlies and gives reality to all other virtues and 
             personal values.'' Your courage on Friday and throughout 
             your careers is a symbol for all law enforcement 
             officials, public officials, and every citizen to follow.
               Mrs. Chestnut--Mrs. Gibson--my prayers and condolences 
             go out to you and your families. And my prayers and 
             gratitude go out to the entire Capitol Hill police force 
             during this difficult time of grieving. God bless you and 
             God bless every one of us.

               Mr. SANFORD. Mr. Speaker, my father always taught me 
             that there was no higher calling than to do your duty. In 
             the words of Robert E. Lee, ``Duty, there is the sublimist 
             word in our language. Do your duty in all things . . . You 
             cannot do more, you should never wish to do less.''
               A few great Americans have had the honor of lying in 
             state in the Capitol Rotunda. They have ranged from 
             President Abraham Lincoln to the unknown soldiers of the 
             wars of this century. But few Americans have done their 
             duty to their country better than the two officers we are 
             honoring here.
               These two Americans represent the best in our Nation's 
             values. They were both devoted family men, leaders in 
             their churches and neighborhoods, and always ready with a 
             kind word and a smile. I cannot regret more the sacrifice 
             that gained them fame, but we cannot do better as examples 
             to hold before our children.
               I am honored that Officer Chestnut comes from Myrtle 
             Beach, SC. He grew up among the palmetto trees and 
             beaches, and some of his family remains there to this day. 
             Officer Chestnut will never get to use the new golf clubs 
             that his brother gave him for his retirement next month. 
             However, his sacrifice, and that of Special Agent Gibson, 
             will remain a legacy that his family can turn to for 
             comfort in the years ahead.
               Mr. Speaker, I would like to insert in the Record a copy 
             of the editorial from this morning's Myrtle Beach Sun-
             News:
                        Jacob J. Chestnut, True American Hero
               The death of a front-line hero in the cause of freedom 
             and democracy crashes around us all the harder because it 
             is supposed to be peacetime. The firing of bullets in the 
             Capitol on Friday, apparently triggered by a shooter's 
             unhinged response to a directive to get back in a metal 
             detector queue, makes death more unexpected than on a 
             war's battlefield, but no less tragic.
               Such is it with Capitol Police Officer Jacob J. ``J.J.'' 
             Chestnut, who lived in Maryland with his family but who, 
             according to his family, called Myrtle Beach home. 
             Chestnut died in the line of duty, attempting to create at 
             his Capitol post what precious little safety there can be 
             in a democracy that prides itself on openness.
               If this were a police state--God forbid!--Officer 
             Chestnut might have had a chance to survive because there 
             would not have been an entrance for the public to what is 
             called ``the People's House.'' But after 20 years in the 
             Air Force and 18 in the Capitol Police, nearing a second 
             retirement, Chestnut would not have stood for anything 
             less than freedom of movement, within few guidelines.
               This is a man who must have sincerely understood from 
             its benefits what freedom is all about. He must have 
             relished the ability to enjoy what the government has 
             provided through its institutions and its lasting 
             policies. This is a man who enjoyed his family, close to 
             him in Maryland and Myrtle Beach, where he doted on 
             kinship.
               In praising Chestnut and Capitol Police Special Agent 
             John Gibson, who also died in the shooter's fusillade, 
             President Clinton argued, ``I ask you to think about what 
             our Capitol means . . . We must keep it a place where 
             people can freely and proudly walk the halls of their 
             government. And we must never, ever take for granted the 
             values for which it stands or the price of preserving 
             them.''
               Added Speaker Newt Gingrich, ``No terrorist, no deranged 
             person, no act of violence will block us from preserving 
             our freedom and from keeping this building open.''
               Those are among the values for which Officer Chestnut 
             died. He knew they were worth it. We sympathize with his 
             family, but glory in his heroism. We here in Myrtle Beach 
             must find a way to honor for all time the officer, this 
             man.

               Mr. PORTMAN. Mr. Speaker, while carrying out their 
             duties, more than 150 police officers are killed every 
             year--a rate of one death every 52 hours. And every year 
             more than 65,000 police officers are assaulted and 23,000 
             injured.
               On Friday, those statistics were brought close to home 
             when, tragically, Officers J.J. Chestnut and John Gibson 
             were killed in the line of duty. These brave men died 
             protecting the lives of the Members of Congress, staff, 
             and those who were visiting the Capitol. Our thoughts and 
             prayers are with the families of both officers, and with 
             their friends and colleagues in the U.S. Capitol Police.
               The Capitol is known around the world as the symbol of 
             democracy. It has been called the ``People's House''--a 
             place where citizens can freely come to meet with their 
             elected officials and watch democracy at work. Officers 
             Chestnut and Gibson died protecting our right to have a 
             free and open democratic form of government. All 
             Americans, not just those who work in the Capitol, have 
             suffered a loss.
               In the area I represent, we are sadly familiar with the 
             sacrifices that law enforcement officers make far too 
             often. Last December, we lost two distinguished members of 
             Cincinnati's police department--Officer Daniel Pope and 
             Specialist Ronald Jeter--in a senseless act of violence. 
             Just a month later, Officer Mike Partin of the Covington 
             (KY) police department was killed while pursuing a suspect 
             who was attempting to escape into Cincinnati.
               Shortly after their deaths, I visited the National Law 
             Enforcement Officers Memorial here in Washington to lay a 
             wreath in their memory. The Memorial, which was dedicated 
             in 1991, contains the names of more than 14,000 American 
             police officers who have died in the line of duty since 
             the first recorded police death in 1794.
               There is a quote inscribed on the memorial that is a 
             fitting tribute to Officers Gibson and Chestnut--and all 
             law enforcement professionals who have given their lives 
             in service to the public. It reads, ``It is not how these 
             officers died that made them heroes, it is now they 
             lived.''
               These fallen U.S. Capitol Police officers--and their 
             colleagues nationwide--deserve our respect and support for 
             putting their lives on the line every day to protect the 
             safety of us all.

               Mr. LANTOS. Mr. Speaker, I join my colleagues in paying 
             deepest respect and highest tribute to Officers Jacob 
             ``J.J.'' Chestnut and John Gibson, who gave their lives 
             last Friday afternoon in the tragic shootings just a few 
             short steps from the House chamber.
               Both of these fine officers--like the other men and 
             women who serve as members of the Capitol Police force--
             are committed to preserving and protecting the security of 
             those of us who serve as Members of Congress, our staff, 
             and the public who have, and should continue to have, 
             access to the U.S. Capitol building.
               Mr. Speaker, last Saturday morning following the tragic 
             death of these two brave men, President Clinton paid 
             outstanding tribute to these fine police officers and made 
             a powerful restatement of the importance of our Capitol 
             building as a symbol of our Nation's democratic 
             government. As the President said, this ``majestic marble 
             building is the symbol of our democracy and the embodiment 
             of our Nation. We must keep it a place where people can 
             freely and proudly walk the halls of their government. And 
             we must never, ever take for granted the values for which 
             it stands or the price of preserving them.''
               Mr. Speaker, I ask that the full text of President 
             Clinton's remarks be placed in the Record.
                 [From the White House Briefing Room, July 25, 1998]
               The President: Good morning. The shooting at the United 
             States Capitol yesterday was a moment of savagery at the 
             front door of American civilization. Federal law 
             enforcement agencies and the United States Attorneys 
             Office are working closely with the D.C. police and the 
             Capitol police to ensure that justice is pursued.
               Meanwhile, I would ask all Americans to reflect for a 
             moment on the human elements of yesterday's tragedy. The 
             scripture says, Greater love hath no man than this: that 
             he lay down his life for his friends. Officer Jacob 
             ``J.J.'' Chestnut and Detective John Gibson laid down 
             their lives for their friends, their co-workers, and their 
             fellow citizens--those whom they were sworn to protect. In 
             so doing, they saved many others from exposure to lethal 
             violence.
               Every day, a special breed of men and women pin on their 
             badges, put on their uniforms, kiss their families good-
             bye, knowing full well they may be called on to lay down 
             their lives. This year alone, 79 other law enforcement 
             officers have made the ultimate sacrifice. Every American 
             should be grateful to them for the freedom and the 
             security they guard with their lives, and every American 
             should stand up for them and stand against violence.
               Officer Chestnut was a Vietnam veteran, a member of the 
             Capitol Police for 18 years, just months away from 
             retirement. Detective Gibson was a deeply religious man, 
             beloved by his co-workers, and, being from Massachusetts, 
             devoted to the Red Sox and the Bruins. Both leave behind 
             loving wives and children, the affection of neighbors, 
             friends, and co-workers, and the deep gratitude of those 
             who are alive today because of their bravery.
               In this one heartless act, there were many acts of 
             heroism, by strangers who shielded children with their 
             bodies, by officers who fanned across the Capitol, by Dr. 
             Bill Frist, a renowned heart surgeon before his election 
             to the Senate from Tennessee, who had just put down his 
             gavel when he rushed to tend the injured. To all these and 
             others who stood for our common humanity, we extend the 
             thanks of our Nation.
               To the families of Officer Chestnut and Detective 
             Gibson, nothing we say can bring them back. But all 
             Americans pray that the power of a loving God and the 
             comfort of family and friends will, with time, ease your 
             sorrow and swell your pride for loved ones and the 
             sacrifice they made for their fellow citizens. To Angela 
             Dickerson, the young woman who was injured in the 
             shooting, we extend our prayers and hope for your speedy 
             recovery.
               To every American who has been shaken by this violent 
             act, to the millions of parents who have taken your 
             children through those very same doors, I ask you to think 
             about what our Capitol means. All around the world, that 
             majestic marble building is the symbol of our democracy 
             and the embodiment of our Nation. We must keep it a place 
             where people can freely and proudly walk the halls of 
             their government. And we must never, ever take for granted 
             the values for which it stands or the price of preserving 
             them.
               Thank you very much.

               Mr. MARTINEZ. Mr. Speaker, last Friday, Capitol Police 
             Officers John Gibson and Jacob Chestnut were tragically 
             killed in the line of duty protecting Members of Congress, 
             staff and tourists. Officers Gibson and Chestnut are 
             heroes in every sense of the word. These brave, selfless 
             men gave their lives protecting the very foundation of our 
             democracy--the People's House.
               Officers Chestnut and Gibson's heroism and sacrifice 
             will not be forgotten by a grateful Nation. We are forever 
             in their debt as individuals, as Members of Congress, and 
             as an institution. It is a debt that can never be repaid 
             but one that is now enshrined in the very fabric of our 
             democracy and in the hallowed halls of Congress.
               Since the shocking and bloody events of Friday, my 
             thoughts and prayers have been with the families of John 
             Gibson and Jacob Chestnut, and with Angela Dickerson, the 
             young woman who was wounded during the shooting. While the 
             loss of Officer Gibson and Officer Chestnut is deeply felt 
             by their friends and co-workers in Congress, it is their 
             wives and children who must now bear that terrible 
             burden--the loss of a husband and a father. It is a 
             sacrifice that no child should be asked to make. It is a 
             sacrifice that no spouse should have to make.
               So as we mourn the deaths of Detective John Gibson and 
             Officer Jacob Chestnut, and pay tribute to their memory, 
             let us pray for the well-being of their families. Let us 
             remember the enormous sacrifice their wives and children 
             have made in the name of freedom and democracy. And let us 
             reflect upon the valor of the men and women of the U.S. 
             Capital Police Force who make it possible for us to 
             conduct the people's business free from harm's way.
               God Bless Jacob Chestnut and John Gibson.

               Mr. VISCLOSKY. Mr. Speaker, I rise today in honor of two 
             true American heroes. Capitol Hill Police Officer Jacob J. 
             Chestnut and Special Agent John M. Gibson sacrificed 
             themselves in the line of duty, putting their country and 
             their commitment to democracy over their very lives. These 
             men trained for the possibility of confronting violence, 
             and when the time came, both acted professionally, 
             responsibly, and heroically. We can only offer our most 
             heartfelt condolences and prayers to the families of these 
             inspiring men.
               Officer Chestnut was an 18-year veteran of the Capitol 
             Hill police force, having spent twenty years as part of 
             the U.S. Air Force before that. He was a highly-trained 
             professional who spent the overwhelming majority of his 
             life protecting others. Special Agent Gibson was similarly 
             selfless, working long hours at the Capitol as part of the 
             Dignitary Protection Detail, constantly protecting others 
             by putting himself in harm's way.
               Those of us who work on Capitol Hill are used to seeing 
             armed officers on a regular basis. We smile and chat with 
             the friendly Capitol Hill police, and appreciate their 
             warmth as people, and the sense of community they lend to 
             our sometimes insular environment. They answer questions 
             and direct tourists, just as Officer Chestnut was doing 
             during the exact moment his killer confronted him. We 
             rarely contemplate the seriousness of their task.
               However, protection is their ultimate goal. Not only 
             were officers Chestnut and Gibson here to protect Members 
             of Congress, visiting dignitaries, and the millions of 
             tourists who visit the Capitol, they were here to protect 
             our very system of government. The Capitol is one of the 
             most open government buildings in the world, a fact that 
             is directly attributable to the commitment of the Capitol 
             Hill police. For instead of forcing us to make our 
             Nation's capitol impregnable, closing the doors and 
             letting only those with government business enter, the 
             Capitol Police stand in the breech, using themselves as 
             barriers, while allowing the ``People's House'' to truly 
             belong to the people.
               Neighbors and families of Officer Chestnut and Special 
             Agent Gibson describe them as generous, giving, and kind. 
             But they were also hard-working, authoritative, and took 
             their jobs very seriously. Because even though their task 
             was comprised partly of peopling our Capitol community 
             with friendly faces and helping hands, they were also here 
             to provide us with the very serious service of protection 
             from violence. And, just as they excelled at working with 
             the public, Officer Chestnut and Special Agent Gibson both 
             proved that they excelled at the task of protecting us, 
             our staffs, and the public from mortal danger. Quite 
             simply, we owe them our lives. And we owe them our lives 
             not only for their actions last Friday, but for their 
             habitual actions--smiling, chatting, continuing the 
             routine of security, all the while putting their lives at 
             risk, every single day.
               Mr. Speaker, these men are honored as heroes because 
             they were called upon to make the supreme sacrifice, but 
             they are also heroes because they were constantly prepared 
             to make that sacrifice--for their families, for us, and 
             for the country they believed in. Our words cannot bring 
             them back, but we can honor the men, and the values for 
             which they risked, and sacrificed, their lives.

               Mr. LIPINSKI. Mr. Speaker, I rise today to honor the two 
             officers who lost lives saving others. The extraordinary 
             acts of heroism demonstrated by Detective Gibson and 
             Private First Class Chestnut of the Capitol Police are 
             actions for which every American should be grateful.
               Friday's tragic incident took the lives of two dedicated 
             men who proved through their actions that they exemplified 
             the true meaning of duty, honor, and love of their 
             country. Their actions not only showed courage but they 
             were able to put an end to the violence with true valor.
               Tragic events are no longer something we hear about; 
             they have now penetrated the halls of the people's 
             building right in our very own back yard. The shots taken 
             in the Capitol on Friday were not only heard just inside 
             the Capitol, they were heard around the world as a warning 
             to all that violence can happen at any moment and 
             anywhere.
               Friday's horrifying violent act took the lives of two 
             brave men who died protecting what they believed in. We 
             will never again take the presence of the Capitol police 
             for granted because knowing that they are there makes us 
             all breathe a lot easier.
               My condolences and heartfelt prayers to the families, 
             friends, and colleagues of officers Gibson and Chestnut. I 
             ask Americans around our Nation to reflect upon the 
             incident and keep the victim's families in their thoughts 
             and prayers. God bless the brave men and women around the 
             world, and God Bless America.

               Ms. ROS-LEHTINEN. Mr. Speaker, I want to take a moment 
             to reflect on the tragedy that occurred this past Friday 
             in the House. Two of our finest in uniform in the United 
             States Capitol Police Force, Officer Jacob Chestnut and 
             Special Agent John Gibson, valiantly defended the hundreds 
             of visitors, Members of Congress, and their staffs who 
             were milling about on that fateful Friday afternoon of 
             July 24. Because they died, others lived.
               I would like to quote a verse from the Bible which 
             states ``Greater love hath no man than this that a man lay 
             down his life for his friends,'' John 15:13. Surely love, 
             honor, and duty were on the minds of these brave policemen 
             as they stood to meet the challenge, never hesitating for 
             a moment for their own safety.
               Capitol Hill has lost outstanding policemen and two 
             families have lost a loved one but Heaven has gained two 
             angels with badges of honor. We look to the skies knowing 
             that they continue to protect us. We will never forget 
             them and what they did for us. We pray that God, in His 
             infinite mercy, will be with the families in their grief; 
             that he will grant them peace and strength to carry on. I 
             send them my deepest condolences.

               Mr. CUNNINGHAM. Mr. Speaker, I rise today to join my 
             colleagues to honor the memories of two American heroes, 
             U.S. Capitol Police Officers Jacob ``J.J.'' Chestnut and 
             John Gibson, who gave their lives last Friday so that 
             others might live.
               The U.S. Capitol Police is a unique law enforcement 
             institution in America. It is charged with protecting 
             Members of the House and Senate, the Capitol itself, our 
             congressional staffs, and the millions of tourists from 
             around the world who visit this building. In performing 
             this task, the officers are more than security personnel. 
             They are ambassadors for our country, helping Americans 
             find their way through the Capitol safely, answering 
             questions, providing a helping hand. They help congressmen 
             and staffs get to where they need to go. And over time, we 
             get to know the Capitol Police well, by face if not always 
             by name, so much so that they become like family to those 
             of us who do the American people's work here as their 
             elected representatives.
               Officer Chestnut and Officer Gibson were family, Mr. 
             Speaker. And as with the passing of any relative, near or 
             distant, we feel sadness and a sense of loss. They died 
             protecting people, and protecting a monument to represent 
             government known by peoples around the world, both free 
             and oppressed.
               The Bible says, ``greater love hath no man than to lay 
             down his life for his friends.'' Officers Chestnut and 
             Gibson laid down their lives for us, and for the ideals of 
             freedom and liberty that we hold dear. Our prayers are 
             with their widows and their families. Our thanks are due 
             to Chief Gary Abrecht and all of the U.S. Capitol Police, 
             to House Sergeant at Arms Wilson Livingood and his staff, 
             and to all of America's law enforcement officers, who have 
             tragically lost two brave colleagues in the force.
               And, Mr. Speaker, we should work to preserve the memory 
             of these brave officers by continuing the work that they 
             did for so many years: by keeping the Capitol open to the 
             people. In doing so, we will remember the price that we 
             have paid to obtain our freedom, the high price America 
             must occasionally pay to keep it, and the terrible price 
             that the Chestnut and Gibson families paid for it on 
             Friday, July 24, 1998.

               Mr. MOAKLEY. Mr. Speaker, I am both personally honored 
             and saddened to join those who have offered us an 
             opportunity to express our feelings about Friday's 
             senseless tragedy.
               Last Friday afternoon, the People's House was in its 
             normal, hectic state. Visitors, young and old, reverently 
             roamed the halls where their government resides. Mothers 
             and fathers provided their children with historical 
             information about the work that goes on within the United 
             States Capitol. Representatives had just concluded their 
             legislative business and were rushing to return to their 
             districts. Staff were busy finishing their duties for the 
             week. Members of the Capitol Hill Police force, both seen 
             and unseen, stood proudly in protection of the Capitol 
             complex and those within it. All and all, this was a very 
             normal Friday afternoon in the Nation's Capitol.
               As we all know now, a lone, mentally disturbed 
             individual had already made his plans to forcibly deliver 
             horror, grief, and anguish within our Capitol. This 
             individual clearly had thoughts of causing chaos as he 
             rushed his way past Officer Jacob (J.J.) Chestnut. Officer 
             Chestnut was giving directions to the subway, as he had 
             cheerfully done many times before. The gunman, without 
             warning, drew his gun and shot Officer Chestnut, mortally 
             wounding him. Officer Chestnut in this moment of turmoil 
             stood gallantly at his post and died trying to save the 
             lives of both friends and strangers. Officer Chestnut's 
             actions were consistent with his training and with his 
             personal values and beliefs. In life, Officer Chestnut 
             lived an honorable life. At the moment of his death, 
             Officer Chestnut became a genuine American hero.
               A few doors away, Special Agent John Gibson was at his 
             post. His duties were to protect the Majority Whip, 
             Representative Tom DeLay. From his post, Special Agent 
             Gibson, upon hearing gunfire, was ready to defend 
             Representative DeLay, his staff, and visitors from a mad 
             man. He willingly stood tall in the face of imminent 
             danger. In those frantic moments, Special Agent Gibson 
             made a profound decision. By his actions, he refused to 
             allow this gunman to hurt anyone under his protection. In 
             the moment when Special Agent Gibson came face to face 
             with evil incarnate, he vigilantly stood his ground. With 
             just a few feet between them the gunman shot Special Agent 
             Gibson. Despite his mortal wounds, Special Agent Gibson 
             remained steadfast in his duties and brought this insane 
             rampage to an end. In his sacrifice, Special Agent Gibson 
             made certain that those whom he had sworn to defend would 
             remain safe. In this moment, Special Agent Gibson 
             instinctively and without hesitation became a genuine 
             American hero.
               At this time, when Americans look high and low in search 
             of heroes, we can take some solace knowing that this 
             search has ended. Officer Chestnut and Special Agent 
             Gibson, through the selfless actions have become our 
             newest American heroes. They paid an ultimate price so 
             that all Americans could continue to wander the halls of 
             the People's House. All Americans owe them their deepest 
             admiration and their profound respect. Americans must be 
             willing to stand together as an American family, to reach 
             out to console their families, colleagues and friends. We 
             must repay this debt, although we also know in our hearts 
             and souls that this is impossible.
               I recall the words of Senator Robert F. Kennedy, 
             speaking in Indianapolis on April 4, 1968, shortly after 
             the assassination of Dr. Martin Luther King. Kennedy 
             addressed a crowd informing them of Dr. King's death. He 
             concluded his remarks saying ``Let us dedicate ourselves 
             to what the Greeks wrote so many years ago: to tame the 
             savageness of man and to make gentle the life of this 
             world. Officer Chestnut and Special Agent Gibson willingly 
             and bravely gave their lives in pursuit of this noble 
             ideal.
               Robert F. Kennedy concluded his remarks saying ``Let us 
             dedicate ourselves to that, and say a prayer for our 
             country and for our people.''
               This tragedy is deeply personal. Special Agent Gibson 
             was my niece Evelyn's husband. I am proud to have 
             recommended him for employment with the Capitol Police. 
             Throughout his career, I have watched him as he progressed 
             from being a uniformed officer to that of Special Agent 
             protecting the leaders of the House of Representatives. 
             Even then, I knew John was special. One of the qualities I 
             admired was his loyalty to his Boston roots. John followed 
             all Boston sports teams, both collegiate and professional. 
             Just a few weeks ago, he had stopped by to ask me to help 
             him get a couple of tickets to an upcoming Notre Dame 
             versus Boston College football game. He constantly sought 
             out news from Boston hoping to keep his Massachusetts 
             roots strong.
               John was a religious man who sought strength and comfort 
             from his Lord. As a family man, John excelled. He always 
             made time for his wife and their three children. It comes 
             as no surprise that John had earned the respect and 
             admiration in both his personal and professional lives. 
             From the Speaker of the House, the Majority Whip, his 
             fellow officers, his neighbors and friends, I am humbled 
             to learn of the high esteem in which they held John. I 
             hope the kind words spoken about John will provide his 
             family with some small measure of comfort in these dark 
             times. I will always remember John as a kind, honest, 
             devout, caring, and giving human being.
               In conclusion, I ask all Americans to join me in these 
             difficult moments as we seek comfort, both for their 
             grieving families and for ourselves.

               Mrs. CAPPS. Mr. Speaker, it is difficult to find the 
             right words to express our sorrow at the tragedy that 
             struck the Capitol on Friday afternoon.
               Today we honor the memories of J.J. Chestnut and John 
             Gibson, the Capitol Police officers who gave their lives 
             protecting others. I join my colleagues in sending my 
             heartfelt condolences to the family and friends of these 
             heroic men. I pray that in this time of such sorrow, they 
             will be comforted by their own warm memories. I also hope 
             that the Chestnut and Gibson families will take solace in 
             the knowledge that people all over the world share in 
             their grief. Tomorrow we will honor these men in an 
             unprecedented fashion by paying our respects as they lie 
             in state in the Capitol Rotunda.
               Here on Capitol Hill we have lost two beloved members of 
             our community, indeed our family. Private First Class 
             Chestnut and Detective Gibson loved their jobs, loved 
             their Congress, and loved their country. They were 
             fixtures at their posts, J.J. at the Document Door, and 
             John walking with the Majority Whip. They were the 
             ultimate professionals, and each day went out of their way 
             to improve the quality of life on Capitol Hill. We will 
             never forget them.
               Mr. Speaker, the U.S. Capitol Police force has been 
             thrust into the limelight under the most terrible 
             circumstances. Anyone who works here or visits these 
             grounds knows what great people these women and men are, 
             yet they never seem to receive the credit they deserve. 
             When my husband, Congressman Walter Capps, passed away 
             last October, Capitol Police personnel were incredibly 
             comforting and helpful to me, my family, and my staff. 
             These acts of kindness and compassion will always remain 
             close to my heart.
               As we commend the Capitol Police, I want to pay 
             particular tribute to two officers. Officer Douglas B. 
             McMillan took quick and decisive action after his partner 
             J.J. Chestnut was shot. And Capitol Police spokesman Sgt. 
             Dan Nichols has labored around the clock since the 
             shootings providing the press and the American people with 
             timely and sensitively delivered updates. We are all 
             indebted to the service of these men as well.
               Mr. Speaker, nothing we can say or do will bring J.J. 
             Chestnut and John Gibson back to us. But for the sake of 
             their families, their colleagues, and the American people, 
             we must pause and give them the tributes they deserve. We 
             honor their memories and celebrate their lives. And we 
             pray that violence and murder never again befall the 
             People's House.

               Mr. ARMEY. Mr. Speaker, I yield back the balance of my 
             time.

               The SPEAKER pro tempore (Mr. Everett). Without 
             objection, the previous question is ordered on the 
             concurrent resolution.
               There was no objection.
               The SPEAKER pro tempore. The question is on the 
             concurrent resolution.
               The question was taken; and the Speaker pro tempore 
             announced that the ayes appeared to have it.

               Mr. ARMEY. Mr. Speaker, on that, I demand the yeas and 
             nays.

               The yeas and nays were ordered.
               The vote was taken by electronic device, and there 
             were--yeas 392, nays 0, not voting 43.
               The concurrent resolution was agreed to.
               The result of the vote was announced as recorded.
               A motion to reconsider was laid on the table.
                               Message from the Senate
               A message from the Senate by Mr. Lundregan, one of its 
             clerks, announced that the Senate had passed without 
             amendment a concurrent resolution of the House of the 
             following title:

               H. Con. Res. 310. Concurrent resolution authorizing the 
             use of the rotunda of the Capitol for a memorial service 
             for Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police, 
             and for other purposes.

               The message also announced that the Senate passed a 
             concurrent resolution of the following title, in which 
             concurrence of the House is requested:

               S. Con. Res. 112. Concurrent resolution to authorize the 
             printing of the eulogies of the Senate and the House of 
             Representatives for Detective John Michael Gibson and 
             Private First Class Jacob Joseph Chestnut.

               Mr. THOMAS. Mr. Speaker, I ask unanimous consent for the 
             immediate consideration of the Senate concurrent 
             resolution (S. Con. Res. 112) to authorize the printing of 
             the eulogies of the Senate and the House of 
             Representatives for Detective John Michael Gibson and 
             Private First Class Jacob Joseph Chestnut.
               The Clerk read the title of the Senate concurrent 
             resolution.

               The SPEAKER. Is there objection to the request of the 
             gentleman from California?
               There was no objection.
               The Clerk read the Senate concurrent resolution, as 
             follows:
                                  S. Con. Res. 112
               Resolved by the Senate (the House of Representatives 
             concurring), That the eulogies for Detective John Michael 
             Gibson and Private First Class Jacob Joseph Chestnut of 
             the United States Capitol Police, as expressed in the 
             House of Representatives and the Senate together with the 
             text of the memorial services, shall be printed as a 
             tribute to Detective Gibson and Officer Chestnut, with 
             illustrations and suitable binding. The document shall be 
             prepared under the direction of the Joint Committee on 
             Printing. There shall be printed 300 casebound copies; 50 
             to be delivered to each of the families of Detective 
             Gibson and Officer Chestnut, and 200 for the use of the 
             United States Capitol Police.

               The Senate concurrent resolution was concurred in.
               A motion to reconsider was laid on the table.
                                     ADJOURNMENT
               Mr. LaHOOD. Mr. Speaker, pursuant to House Resolution 
             311, I move that the House do now adjourn in memory of the 
             late Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut.
               The motion was agreed to; accordingly (at 8 o'clock and 
             33 minutes p.m.), pursuant to House Concurrent Resolution 
             311, the House adjourned until tomorrow, Tuesday, July 28, 
             1998, at 10 a.m. in memory of the late Detective John 
             Michael Gibson and Private First Class Jacob Joseph 
             Chestnut.
                                                 Tuesday, July 28, 1998
               Mr. GIBBONS. Mr. Speaker, on this solemn day, I rise to 
             join my colleagues in paying tribute, a special tribute, 
             to the heroic actions of Officer Jacob J.J. Chestnut and 
             Special Agent John Gibson. The quick and professional 
             actions that cost them their lives undoubtedly saved the 
             lives of many innocent people last Friday.
               My thoughts and prayers, like all Americans, are with 
             their families, friends, and fellow officers. As always, 
             the Capitol Police act in a very professional manner and 
             work tirelessly to ensure our safety each day. While 
             diligent agents of security, they are also the friendly 
             ambassadors to the emergencies of visitors who come to 
             visit this great building that symbolizes the freedom of 
             our great Nation.
               While we mourn the tragic deaths of these two men, and 
             rightly so, it is more important that we should thank God 
             that two such men once lived.
               As Members of Congress, we must all take time from our 
             hectic schedules to stop and thank them for the daily 
             sacrifices they make to protect the innocent visitors to 
             our Capitol. Jacob Chestnut and John Gibson, thank you for 
             your heroism and your sacrifice. May you rest in peace in 
             God's arms.

               Mr. EWING. Mr. Speaker, I rise today to honor Officer 
             John Gibson and Officer Jacob Chestnut. Last Friday, these 
             two men willingly gave their lives to defend our Nation's 
             Capitol and its citizens. Their courage and conviction to 
             duty should be a lesson to all of us.
               As family men, these two officers had much to live for, 
             much to look forward to, yet day in and day out these two 
             family men worked their jobs knowing that some day they 
             may have to put their lives on the line.
               When that day came, they met the challenge with the 
             strength of many, and selflessly placed themselves in 
             harm's way to protect so many others.
               I and the people of the 15th District of Illinois 
             greatly appreciate the fact that they gave their lives 
             defending the People's House. Officers Chestnut and Gibson 
             will be missed by all of us, and may their sacrifice never 
             be forgotten.

               Mr. BURR of North Carolina. Mr. Speaker, today a 
             saddened but grateful Nation pays tribute to two brave 
             men, Jacob Chestnut and John Gibson, who gave their lives 
             to protect the lives of others. There are some among us, 
             even as I speak, who might not be here to celebrate the 
             courage of these two men were it not for their actions in 
             a moment of crisis.
               Let us pay tribute as well to the Federal Law 
             Enforcement Training Center located in Brunswick, Georgia, 
             for the outstanding training of Federal law enforcement 
             officials and the protection they provide.
               The Capitol Police undergo intensive training at this 
             state-of-the-art facility, and they learn not only the 
             skills that will allow them to act decisively in the 
             moments of danger but the professional attitudes and 
             corporate culture that make all the difference in a job 
             that serves all America.
               The outstanding performance of Officers Chestnut and 
             Gibson was no accident. The arduous training they received 
             at the FLETC Training Center saved the lives of so many 
             who are here today to say thank you and God bless you, 
             Officer Chestnut and Officer Gibson.

               The SPEAKER pro tempore. Under a previous order of the 
             House, the gentleman from Ohio (Mr. Traficant) is 
             recognized for 5 minutes.

               Mr. TRAFICANT. Mr. Speaker, the American people have 
             come to learn something that the Congress has dramatically 
             now started to realize. These are not country club jobs. 
             The Capitol Police place their lives on the line like 
             every other police department in the Nation.
               My district, the 17th Congressional District of Ohio, 
             joins with the Congress and the Nation in mourning the 
             loss of Officer Chestnut and Detective Gibson.
               The standards of the Capitol Police were always very 
             high, but Officer Chestnut and Detective Gibson have now 
             raised the bar several notches, and that bar of excellence 
             is very high. We are all proud, and we all join in as the 
             Nation mourns these two great policemen.
               But I want to talk to the Members who may be watching 
             this telecast in their offices; to the Speaker; to my good 
             friend, the gentleman from Nevada (Mr. Gibbons) in the 
             back; and to all the staff here. The Uniformed Division of 
             the Secret Service makes more money than the Capitol 
             Police for basically the same service.
               I take to the floor today as a former sheriff to say 
             security needs of the Nation's Capitol and the Nation's 
             buildings should be addressed. For all of the Members of 
             Congress, on the tragic bombing of the Federal building in 
             Oklahoma City, there was only one guard on duty for the 
             three Federal buildings in Oklahoma City, and that guard 
             was a contract guard, not a full-service, Federal 
             protective service system guard.
               We now have to put ourselves in Congress under the 
             microscope. Are we doing all we can? Have we gotten 
             involved with budgetary numbers? I think the time to raise 
             the level of compensation of the Capitol Police is at 
             hand. It will cost $4 million a year to elevate them to 
             parity with the Uniformed Division of the Secret Service.
               Let me also say this to the Congress, it is good 
             economics. Good economics I say to the gentleman from New 
             York (Mr. Walsh). Because if we do not, we spend $50,000 
             to train our Capitol policemen, then Montgomery County, 
             Fairfax County, Alexandria come in and hire after the 
             scrutinization of the FBI background checks, and they 
             recruit and take our young men and women, and they disrupt 
             the flow of continuity. That must not happen.
               H.R. 2828 should be now brought to the floor under the 
             unanimous consent, and that is the tribute that should be 
             paid to these two great policemen, Chestnut and Gibson.
               They say words are hard to describe them. As a former 
             sheriff, I would just like to use these words to describe 
             them: They were policemen. Our police officers, the 
             Capitol Police, are some of the best in the world.
               The only deaths that occurred were to the officers of 
             the Capitol Police. The people they were responsible for 
             are all breathing. There is not a police department in the 
             United States that could have reacted any better to a 
             crisis of such volatility.
               I say to the gentleman from New York (Mr. Walsh), I 
             think H.R. 2828 should have been done. But I understand 
             the legitimate concerns. I know Congress now is reviewing 
             that whole matter. I think the most fitting tribute would 
             be for the Congress of the United States to bring out H.R. 
             2828 under unanimous consent and take our Capitol Police 
             into parity with the Uniformed Division of the Secret 
             Service. They do the same job. By God, if the Uniformed 
             Division of the Secret Service can do it any better, I 
             would like someone to try and convince me of that.
               To the families of Officers Chestnut and Gibson, your 
             husbands, your fathers, they were really heroes. They were 
             policemen for one of the finest law enforcement 
             departments in the Nation, the Capitol Police that 
             protects every one of us.

               Mr. WALSH. Mr. Speaker, the tragic events of last Friday 
             here in the Capitol have been felt across our entire 
             Nation. Many of my colleagues have risen to praise and 
             honor our two fallen Capitol Hill Police Officers, J.J. 
             Chestnut and John Gibson, for their heroism on that 
             fateful afternoon. I will simply state that I echo those 
             sentiments.
               I wish to add my own personal message of sympathy along 
             with the people of New York State's 25th Congressional 
             District in Central New York to the families of both 
             officers. Words do not express, words cannot express, the 
             sadness that we all feel and the grief that we all feel 
             for those innocent men and for their families.
               This is an unwritten bond that exists here between and 
             among all those who work on the Hill. We are a family; a 
             large one, to be sure, but family in every way possible.
               When one loses a member of one's family, it hurts 
             deeply. When they are lost due to an act of violence, 
             understanding that loss is even more painful and 
             difficult. Now is the time to grieve, and we must be 
             allowed to do so in private. In time, the healing will 
             begin, but for this moment, we mourn our fallen friends.
               God bless you, J.J.; God bless you, John.

               Mr. COOK. Mr. Speaker, I rise to pay a brief tribute to 
             the officers who died Friday trying to preserve the safety 
             and sanctity of this hallowed building. We will dissect 
             Friday's events for months, looking for ways to make sure 
             this tragedy never happens again. We should. This is 
             necessary work.
               But what sets these Capitol Police apart from the rest 
             of us who do business in this building is their ability to 
             act in a split second, to make decisions that can exact 
             the highest possible price, without hesitation.
               Friday reminded me that in the sea of people on Capitol 
             Hill trained to analyze, debate and ponder, there is a 
             small army of men and women trained to act immediately, 
             decisively, and heroically. Like John Gibson did. Like 
             Jacob Chestnut did. That these people lined up to pay 
             tribute to these two courageous men underscores a fact I 
             have sometimes forgotten: Without the work they do, we 
             could not do the work we do.
               I do not think I will ever forget that again. I may not 
             remember to say thank you every single time I rush past an 
             entrance carefully and cheerfully guarded by police, but I 
             am resolved to do that as often as possible. And whether 
             spoken every day or not, I think, for all of us here, the 
             words ``thank you'' are in our hearts forever. Thank you.

               The SPEAKER pro tempore. Members will proceed through 
             the center doors to the Rotunda for the viewing of 
             Detective John Gibson and Officer Jacob Chestnut.

               Mr. REGULA. Mr. Speaker, John Curran in his speech 
             ``Upon the Right of Election'' said, ``Eternal vigilance 
             is the price of liberty.'' Visiting the United States 
             Capitol is one of this Nation's cherished liberties. As I 
             have visited other capitals around the world, it is rare 
             to see the flood of visitors that is found in our Nation's 
             Capitol building.
               The vigilance of our Capitol Police to protect the 
             freedom of access for visitors, as exemplified by the 
             service of Jacob Chestnut and John Gibson, is a 
             cornerstone of the sense of security felt by visitors to 
             the Capitol. These two dedicated officers put the security 
             and safety of their fellow citizens ahead of personal 
             fear, and thanks to their vigilance, many lives were 
             spared. Their dedication to duty stands as a shining 
             example of the men and women who make the Capitol a shrine 
             to be revered by thousands of visitors each day.
               In the future, the continued accessibility of our 
             Nation's Capitol to be shared without fear by millions 
             will stand as a sacred testament to the bravery of 
             Officers J.J. Chestnut and John Gibson. To the families of 
             our two heroes, you can take pride in knowing that your 
             husbands and your fathers stood for all that is good about 
             America: bravery, love of fellow citizens, and devotion to 
             duty. I, along with millions of Americans, join in 
             extending our heartfelt sympathy to the loved ones of 
             Jacob Chestnut and John Gibson.
               Mr. Speaker, I ask unanimous consent that all Members 
             may have 5 legislative days in which to revise and extend 
             their remarks and include extraneous material on the 
             subject of the tributes to the memory of the two slain 
             police officers, John Michael Gibson and Jacob Joseph 
             Chestnut.

               The SPEAKER pro tempore. Is there objection to the 
             request of the gentleman from Ohio?
               There was no objection.

               Mr. VENTO. Mr. Speaker, I rise, as many of my colleagues 
             have, to pay tribute to the two fallen Capitol Police 
             officers Detective Gibson and Officer Chestnut that so 
             valiantly have demonstrated, I think more than anything, 
             the importance of their work and the meaning of this 
             Capitol Building. These buildings are the citadel of free 
             expression and the rule of law, our Nation's Capitol; but 
             beyond the symbolism and those flags that are today flying 
             at half mast and the buildings and other structures, are 
             the liberty and freedom and the ideas that drive the 
             hearts and minds of this Nation's pulse.
               These two individuals that have sacrificed their lives 
             obviously symbolize and exemplify the real meaning of this 
             Nation. Their real sacrifice and contribution underscore 
             the essence of our common bond and the cost of freedom 
             that we pledge to one another. This freedom has made our 
             Nation in the past, today, and, we pray, tomorrow the 
             democracy that it is. We extend our sympathies to the 
             families, but celebrate their lives because they made a 
             real difference, and we mourn the families' losses today.
               I know that the people I represent want to extend their 
             sympathy and support for the families and a recognition of 
             the important role that the Capitol Police play in 
             safeguarding our Nation's Capitol.

               Mr. HILL. Mr. Speaker, there are only a handful of words 
             that can describe the emotions that we are all feeling 
             today. But for a moment, all Americans should reflect on 
             the words which describe Friday's actions of J.J. Chestnut 
             and John Gibson: heroism, sacrifice, honor, commitment, 
             duty.
               Much has been said, appropriately so, about their 
             heroism and about their dedication to duty. Much has been 
             said about the appreciation and respect we in the Capitol 
             community extend to the family and friends of these brave 
             men who have given us the ultimate sacrifice.
               I was traveling back home to Montana at the time of the 
             incident, returning to my home State to speak to Members 
             of the Montana Police Protective Association. In turn, 
             these representatives of Montana's entire law enforcement 
             community have personally asked me to convey their deepest 
             condolences to the families and the associates of Officer 
             Chestnut and Detective Gibson. All Montanans are feeling 
             the deepest sympathy over these events, and we reach out 
             in prayer and in support and in compassion today.

               Ms. WOOLSEY. Mr. Speaker, it is truly a sad time for the 
             United States Congress and for the American people. Today 
             we mourn the tragic loss of Jacob Chestnut and John 
             Gibson. We mourn for their families and the children they 
             leave behind. And as we look back on their lives, let us 
             also look forward. Let us look forward to the time when no 
             individual needing mental health treatment falls through 
             the cracks in our health care system. Let us look forward 
             to the day when guns cannot find their way into our 
             streets and our public areas.
               Today we are united not just in our grief but in our 
             respect, our admiration, and the utmost gratitude to these 
             two officers. At this time of deep sorrow, words can never 
             be enough to erase the pain we are feeling or to capture 
             the full meaning of the selflessness and the bravery of 
             John Michael Gibson and Jacob Joseph Chestnut. Words are 
             not enough, but in our hearts and in our minds, their 
             heroism will never be forgotten.

               Mr. KINGSTON. Mr. Speaker, last Friday America's family 
             room was invaded. I call the Rotunda in the United States 
             Capitol America's family room, because this is where 
             American tourists come and Americans come to see their 
             government in action. The thin line between them, between 
             safety and danger, safety and disaster, is the Capitol 
             Hill Police.
               Last Friday, Officers Jacob Chestnut and John Gibson 
             made the ultimate sacrifice to protect the sanctity of 
             America's living room. The system worked. They protected 
             the tourists, they protected Members of Congress, they 
             protected the staff, and they were able to protect 
             everyone but, unfortunately, themselves.
               Every day hundreds if not thousands of tourists and 
             employees and Members of Congress walk by these brave men 
             and women, and often we take them for granted, not 
             necessarily in a negative sense, but you know they are 
             there, you know they have got a job to do, and you are 
             doing yours and you do not really think about it, but over 
             time they become family. You know them by face, not 
             necessarily every time by name. You know them, you like 
             them, you exchange greetings and so forth.
               Then suddenly something like this happens, and it 
             divides their job from your job. We then understand how 
             important their job is and how ultimately their job 
             endangers their lives as it protects our lives. I salute 
             these brave men, I pray for their family, and our hearts 
             and prayers are with them.

               Mr. RAHALL. Mr. Speaker, on Friday, July 24, 1998, just 
             a brief time after the last vote of the day was cast, two 
             seasoned Capitol Hill Police officers were gunned down in 
             one of the entrances to the United States Capitol, the 
             People's House. Hearts were broken, and a part of America 
             died.
               There is a poem, one that is very fitting for this 
             occasion, about fallen heroes, entitled ``A Part of 
             America Died Today.'' Its author is unknown to me but I 
             ask that it be printed in the Record at this point, and I 
             will state it in tribute to Officer J.J. Chestnut and 
             Special Agent John Gibson.

             Somebody killed a policeman today, and a part of America 
                  died.
             A piece of our country he swore to protect will be buried 
                  with him at his side.
             The suspect who shot him will stand up in court,
             with counsel demanding his rights,
             while a widowed mother must comfort her kids
             and spend alone many long nights.
             The beat that he walked was a battlefield, too.
             Just as if he had gone off to war.
             The flag of our Nation does fly at half mast.
             To his name, they will add a gold star.
             Yes, somebody killed a policeman today.
             A cop put his life on the line.
             Now his ghost walks a beat on a dark city street,
             and he stands at each new rookie's side.
             He answered the call and gave us his all,
             and part of America died.

               Mr. Speaker, on behalf of myself, my staff and the 
             people of the Third District of West Virginia, I extend 
             our deep sympathy, our prayers and our thanks to the 
             families of these two fallen heroes, Officer J.J. Chestnut 
             and Special Agent John Gibson, as we place them in the 
             comforting arms of God and ask his blessings upon them.
               Despite the chaos that ensued during and shortly after 
             the first shots were fired, killing Officers J.J. Chestnut 
             and John Gibson, both veterans of 18 years on the U.S. 
             Capitol Police Force, it was with cool, deliberate bravery 
             that they pursued and brought down the gunman, even as 
             they themselves were dying. That they died to stop the 
             gunman from getting more than a few feet inside the United 
             States Capitol speaks eloquently of their training, their 
             devotion to duty, their incredible courage, and their 
             willingness to take full responsibility for the safety of 
             others at the expense of their own lives.
               These two officers saved countless lives last Friday, 
             for had the gunman been able to breach the security of the 
             United States Capitol by even a few more feet, more would 
             surely have died. Both officers have died in the service 
             of their country, keeping the Capitol secure, so that 
             Members, their staff, and the hundreds of thousands of 
             Americans visiting the ``People's House'' might live.
               I do not want fear or unreason to take hold amidst cries 
             to turn our Capitol into a fortress. There is talk of 
             beefing up security in the aftermath--a review that would 
             have taken place after any violent event in and around the 
             Capitol. I assure you this will not pass us by, but will 
             grow into something positive in the way of added security.
               But we must carry on and let nothing stand in the way of 
             the public's access to their Capitol or their 
             representatives. To do otherwise would be to somehow 
             diminish the supreme sacrifice made by these two brave 
             officers. Instead, let us grieve along with the families, 
             and offer them our strength and the comfort of our prayers 
             to see them through the days ahead, by remembering the 
             bravery of the men they lost--men who were husbands, 
             fathers, grandfathers, sons, uncles, friends and above 
             all, protectors of the public trust.

               Mrs. MORELLA. Mr. Speaker, I rise to pay tribute to two 
             heroes, Private First Class Jacob Joseph Chestnut and 
             Detective John Michael Gibson of the U.S. Capitol Police, 
             who sacrificed their lives not only for those of us in 
             Congress and for the staff and for the tourists, but for 
             all of the American people.
               J.J. Chestnut guarded the main entrance. John Gibson was 
             assigned to Majority Whip Tom DeLay. Both were veterans of 
             the force and took their responsibilities seriously, so 
             much so that in saving the lives of others, they lost 
             their own.
               We take this safety for granted. Who could ever imagine 
             a shooting in the Nation's Capitol, the shrine of liberty 
             and justice to all? Who could ever imagine the death of 
             two officers because of that shooting?
               We shall miss these men who guided us, who cheered us, 
             who cared for us, who asked us about our families and we 
             inquired about theirs, who shared their interests, always 
             there, alert and responsive. We will miss them, yes, but 
             they leave behind them their wives without husbands, their 
             children without fathers, the Capitol Police without two 
             colleagues.
               We offer our condolences to Officer Chestnut's widow Wen 
             Ling and his five children, Joseph, Janece, Janet, Karen 
             and William; and to Detective Gibson's widow Evelyn and 
             his three children, Kristen, John and Daniel. Those of us 
             who are Americans, who are part of the Capitol Hill 
             family, are in mourning over the senseless loss of these 
             two fine men, all across Washington and across the Nation.
               I want to close with a quote from Thornton Wilder who 
             said, ``There is the land of the living and the land of 
             the dead, and the bridge is love, the only survival and 
             the only meaning.'' This is the love that they leave 
             behind and this is the love we give to them and to their 
             families.

               Mr. CASTLE. Mr. Speaker, on behalf of myself, my staff, 
             and the people of Delaware, I want to extend my deepest 
             sympathy to the family and friends of Detective Gibson and 
             Officer Chestnut. I also want Congressman DeLay and his 
             staff as well as the visitors to the Capitol who witnessed 
             this tragedy to know that they are in our thoughts today.
               Detective Gibson and Officer Chestnut were heroes who 
             gave their lives protecting the United States Capitol and 
             those who work here and visit this great building. Words 
             are not able to convey the thanks and respect we owe these 
             two men.
               I also want to pay tribute to the other Members of the 
             Capitol Hill Police who responded to this terrible 
             tragedy. They too are heroes. Fortunately, they did not 
             have to pay the price that Officer Chestnut and Detective 
             Gibson did, but their commitment to their duty and the 
             safety of others was clearly demonstrated on that fateful 
             day.
               Mr. Speaker, I also want to thank the members of the 
             Capitol Hill Police Force and our law enforcement officers 
             across the Nation for the service they provide to the 
             people of the United States. Unfortunately, I have 
             attended services like this one today for fallen officers 
             in Delaware. They are never easy but they do remind us of 
             the absolute dedication that every law enforcement officer 
             brings to the job and the very real risk they take every 
             day.
               Mr. Speaker, our thanks and prayers go to Officer 
             Chestnut and Detective Gibson. We will always remember 
             them. In their memory, we also thank all the men and women 
             in law enforcement who share the commitment that these two 
             heroes exemplified. Finally, I want to say to the families 
             of John Gibson and J.J. Chestnut, thank you for giving us 
             these two men. We are eternally grateful, and you will 
             remain in our thoughts and prayers.

               Mr. FRELINGHUYSEN. Mr. Speaker, in this hallowed Chamber 
             we are often separated by differences in policy and 
             politics, but today we stand together as a family, bound 
             in honor of two men who will always be remembered in this 
             Chamber and in this Nation as heroes.
               While the horror of Friday's events will be blurred 
             sadly by still other tragedies and the passage of time, 
             the bravery and devotion to duty of Capitol Hill Police 
             Officers John Gibson and Jacob Chestnut will become as 
             lasting as the very democracy contained within these 
             walls. We will not forget them.
               This Capitol, the People's House, is honored by the 
             service of each of our Capitol Police Officers, and to all 
             of them today I offer praise and gratitude. By these two 
             fallen heroes the People's House is venerated more so than 
             the presence of any one of us here, for Officers Gibson 
             and Chestnut surrendered their lives in protection of 
             ours.
               To the Gibson and Chestnut families, on behalf of New 
             Jersey's 11th Congressional District, my deepest, most 
             profound sympathies. They should know we share their grief 
             and we also share their tremendous pride of these two men 
             who have given their lives in the preservation of the 
             sanctity of our Nation's Capitol.

               Mr. FOSSELLA. Mr. Speaker, it is with a heavy heart that 
             I come here today with my colleagues from both sides of 
             the aisle to offer my condolences and prayers to the 
             families of Officer Chestnut and Detective Gibson. Just on 
             the way over here I was talking to some retired Capitol 
             Hill Police, one of whom trained Detective Gibson. And I 
             guess, in a nutshell, he said, ``It could have been one of 
             us,'' and I guess that really characterizes the mood 
             around here these days: It could have been anybody. But it 
             was two heroes who fell for their country, who fell 
             protecting others without hesitation, without question.
               And, Mr. Speaker, I would be remiss if I did not only 
             offer my prayers from my family and the people of Brooklyn 
             and Staten Island to those of the families of Mr. Chestnut 
             and Mr. Gibson, if I did not mention that, right now, 
             there is a young police officer back home in Staten Island 
             who was shot in the head 2 days ago by a 17-year-old boy, 
             this boy who had killed somebody at the age of 15. So I 
             say that as an example in reflection of that dedication of 
             the Capitol Hill Police and police officers around this 
             country who stand in defense of freedom every single day 
             to protect the innocent, to protect us. And while we pray 
             for the families of Mr. Gibson and Mr. Chestnut, may we 
             also pray for Mr. Carter and hope that he recovers and 
             that in Staten Island we have him back protecting us as 
             well.

               Mrs. FOWLER. Mr. Speaker, last Friday a terrible and 
             devastating incident occurred here in the Capitol of our 
             Nation. Inside this glistening white marble building one 
             person changed the lives of two families forever and held 
             a Nation captive as we prayed for the lives of two 
             dedicated police officers who have protected us without as 
             much as a second thought.
               In our daily rush we may sometimes forget that the 
             officers we see throughout the buildings are there ready 
             to make the personal sacrifices their duty requires. Staff 
             members sometimes feel frustrated if they are stopped by 
             an officer as they give tours, and interns are sometimes 
             flustered if asked for identification. It is so easy to 
             forget that these officers are trying to protect us 
             despite ourselves.
               Winston Churchill once said: ``We make a living by what 
             we get, but we make a life by what we give.''
               The recent events bring their duty into clearer focus 
             and force us to realize that, despite our occasional 
             complacency, these officers must be prepared every day to 
             face danger. Last Friday, in little more than a heartbeat, 
             a delusional person was able to cowardly snuff out the 
             life of a dedicated and professional officer. Jacob 
             Chestnut was, however, much more than just a police 
             officer. He was a good husband and father, and he was a 
             caring member of his community and church.
               Unfortunately, he was not alone. Officer John Gibson had 
             three children and made time in his life for many others. 
             He was the kind of person who was willing to dress up as 
             Santa Claus to thrill children at Christmas. As a deputy 
             whip to majority whip Tom DeLay, I came to know John 
             Gibson as a man assigned to protect the majority whip. 
             Many days I would go in the side entrance to the office, 
             and Detective Gibson would be there with his reassuring 
             presence and smile. We all came to know and care for 
             Officer John Gibson.
               Despite the tragic turn of events on Friday it is my 
             personal belief that the police security worked. The 
             intruder was stopped before he was able to roam freely 
             throughout the U.S. Capitol Building killing innocent 
             civilians. I am proud of Officers Gibson and Chestnut. I 
             am also proud of all the other officers on duty that day 
             for their quick and professional response in bringing down 
             the alleged killer, helping their fallen comrades and 
             managing the hundreds of people who were either working or 
             touring in the Capitol.
               I would also like to express my own profound condolences 
             as well as those of the people of the 4th District of 
             Florida to the families of Officer Jacob Chestnut and 
             Officer John Gibson. May God bless them.

               Mr. HOUGHTON. Mr. Speaker, so many people have talked so 
             eloquently about these two brave men that I am not going 
             to try to do that. However, in less than an hour and a 
             half we will be having a service in the Rotunda at which 
             the President, the Vice President, the Members of the 
             Cabinet and Senate and the House are going to be paying 
             their final respects to these two courageous men. But I 
             guess I ask myself how can we help? What goes on 
             afterward?
               We have had 2 days of mourning. There will be other 
             mournings that go on. But sooner or later those families 
             are going to be on their own, and they are going to need 
             our help, and I hope we can be of help to them whether it 
             is through any contributions we can make to funds, whether 
             it is some help to their children, whether it is in a 
             variety of different ways. I think those are the times 
             when we will be needed.
               Also, I would like to feel that we can do what is needed 
             to be done for the Capitol Police in terms of buttressing 
             them and making sure that they have the proper protective 
             equipment.
               Another thing I think is that there are a great many 
             people out there who were not in Washington but have the 
             same types of functions, and these people need our 
             protection and our help. I know in my communities and the 
             district in which I live similar people are exposed daily 
             to the type of dangers that these two brave officers were.
               And also I think that there are a variety of people who 
             are in service to this country, whether it is in the 
             military or judiciary or a whole variety of things, and 
             really we should be aware of and sensitive to the 
             conditions under which they work.

               Mr. CUNNINGHAM. Mr. Speaker, President Ronald Reagan in 
             his inaugural address talked about a man named Martin 
             Treptoe. Martin Treptoe, like J.J. Chestnut and John 
             Gibson, had not ever been heard of by America before that 
             time, but Martin Treptoe was a baker. During World War I, 
             he volunteered to go to the front. He became a message 
             carrier. He got to the front, and three other message 
             carriers had been killed, but yet Martin Treptoe 
             volunteered again. And like the other three, they found 
             Martin Treptoe dead about halfway to the front, and they 
             found his message pouch, and I would like to quote from 
             that pouch. It says:
               ``This is a very difficult war. I don't think I will 
             survive. But I must treat every action as if that action 
             determined the outcome of this conflict.''
               Both J.J. Chestnut and John Gibson treated every one of 
             their actions as if the outcome made a difference for the 
             Members of Congress and the safety of the public. We honor 
             those two individuals today. May God bless them.

               The SPEAKER pro tempore. Under a previous order of the 
             House, the gentlewoman from Texas (Ms. Jackson Lee) is 
             recognized for 5 minutes.

               Ms. JACKSON LEE of Texas. Mr. Speaker, I rise in tribute 
             to Officers J.J. Chestnut and John Gibson, and I hope 
             something that has been said over these last 2 days will 
             continue to help and comfort those who mourn.
               President John F. Kennedy once remarked: ``A man does 
             what he must in spite of personal consequences, in spite 
             of obstacles and dangers and pressures, and that is the 
             basis of all human mortality.'' Officers J.J. Chestnut and 
             John Gibson truly upheld this lofty standard.
               And I also thank all other Capitol Hill Police Officers 
             and all law enforcement officers throughout this Nation 
             who protect us.
               As responsible defenders of our country, these two slain 
             officers protected our citizens from mortal danger, and it 
             cost them their very lives. But they protected more than 
             the people around them. Officers Chestnut and Gibson 
             protected the very core of our American society and our 
             belief in the preservation of life and democracy.
               Today I would like to acknowledge the courage and 
             dedication that Officers John Gibson and J.J. Chestnut 
             exemplified this past Friday. Today I seek to honor the 
             memories of these brave men who served their country with 
             the utmost dignity.
               On a personal note I want to offer a very personal 
             thanks, for I was here in these very Chambers when the 
             shootout started, and I know that their bravery served and 
             saved so many others.
               As I say goodbye to our fallen officers, I am reminded 
             of the Psalm of David where it is written:

               Trust in the Lord, and do good, so you will dwell in the 
             land and enjoy security. Take the light in the Lord, and 
             He will give you the desires of your heart. Commit your 
             way to the Lord. Trust in Him, and He will act. He will 
             bring forth your vindication as the light and your right 
             as the noon day.

               Last Friday, Officers Chestnut and Gibson did do good, 
             and I am certain that they will bask in the Lord's glory 
             when they reach the heavens.
               This event has brought the pall of sorrow across the 
             expanse of our great Nation. We all grieve today for two 
             heroes whose lives were prematurely ended. However, we are 
             gratified that democracy and freedom still lives in these 
             halls and in our Nation. We can find comfort knowing that 
             Officers Chestnut and Gibson will glorify the heavens as 
             their spirits ascend ever upward.
               As written in Matthew 5:

               Blessed are the peacemakers, for they shall be called 
             sons of God. Blessed are the pure of heart, for they shall 
             see God.
               Blessed are those who are persecuted for righteousness' 
             sake, for theirs is the kingdom of heaven.
               Blessed are you when men revile you and persecute you 
             and utter all kinds of evil against you falsely on my 
             account.
               Rejoice and be glad, for your reward is great in heaven, 
             for so men persecuted the prophets who were before you.
               And blessed are those who mourn, for they shall be 
             comforted.

               In addition to these two brave officers, we must also 
             thank the entire Capitol Police Force whose value was 
             clearly evident during these trying hours this past 
             Friday. The fast response of all of the Capitol's Officers 
             diminished the severity of this heinous event. Not only 
             did the Officers respond to the threat, but they also 
             maintained a sense of calm that averted panic and 
             comforted Congress Members, staff members, and the members 
             of the public touring the capital grounds.
               I personally thank the police force for their mere 
             presence comforts me when I step on these grounds, and I 
             am comforted knowing that valiant officers like John 
             Gibson and J.J. Chestnut watch over all of us.
               It is so very important to remember Officer Chestnut. 
             This honorable man was dutifully providing directions for 
             a man and his son when he was gunned down from behind by a 
             sick and confused perpetrator. It is cruel irony that 
             Officer Chestnut was summarily executed as he performed an 
             act of kindness. As we remember him we must not only 
             remember his gallantry. It is likely that we would be 
             grieving the loss of a far greater number of lives if he 
             had not acted.
               Officer Gibson's quick action protected, not only the 
             lives of the majority whip and his staff, but it also 
             protected the multitude of innocents who were touring the 
             Capitol and its grounds. Who knows what carnage would have 
             unfolded had Officer Gibson not brought an end to this 
             violence.
               I offer my utmost sympathy to the families. Officer 
             Chestnut was the consummate family man. He shared precious 
             moments with his wife and his children. He generously 
             spent time with his father-in-law. He moved forward and 
             helped all of those who wanted help from him. He helped 
             and stood by his wife's side, and he savored the moments 
             with his children and his grandchildren.
               Detective Gibson was also a loving man, a good husband, 
             and a father of three. Detective Gibson spent much time 
             with his family. He took his children to their athletic 
             events, played with the family dog, and gladly offered 
             assistance to his neighbors.
               The fact that Detective Gibson had planned to vacation 
             with his family the moment he left work last Friday is a 
             testament to his sense of family togetherness. That 
             vacation on this Earth will never take place, but I know 
             there are better days ahead.
               Mr. Speaker, on behalf of myself, my family, the 
             constituents of the 18th congressional district in Texas 
             and my staff, I offer to those who mourn my greatest 
             sympathy and love. And on behalf of all of us, I offer 
             these words of comfort in Isaiah 40:31,

               But they that wait upon the Lord shall renew their 
             strength, they shall line up with wings as eagles. They 
             shall run and not be weary, and they shall walk and not 
             faint.

               God bless the families of Officer J.J. Chestnut and 
             Officer Gibson. God bless America.
               Mr. Speaker, I rise in tribute to Officer J.J. Chestnut 
             and John Gibson. I hope something that has been said over 
             these days will help those who mourn.
               President John F. Kennedy once remarked,

               A man does what he must--in spite of personal 
             consequences, in spite of obstacles and dangers and 
             pressures--and that is the basis of all human morality.

               Officers Jacob J. Chestnut and John Gibson truly upheld 
             this lofty standard. I also thank all other Capitol Hill 
             police and all other law enforcement officers who protect 
             us. As responsible defenders of our country, these two 
             slain officers protected our citizens from mortal danger, 
             and it cost them their very lives. But they protected more 
             than the people around them. Officers Chestnut and Gibson 
             protected the very core of our American society, our 
             belief in the preservation of life and democracy.
               Today, I would like to acknowledge the courage and 
             dedication that Officers John Gibson and J.J. Chestnut 
             exemplified this past Friday. Today I seek to honor the 
             memories of these brave men who served their country with 
             the utmost dignity. On a personal note, I want to 
             personally thank them because I was here in this chamber 
             during the shootout and know that their bravery saved so 
             many others.
               This incident represented a rare event in our American 
             history. Violent events in the Capitol, however, have 
             occurred before. In February 1890, Charles E. Kincaid, 
             Louisville Times correspondent, shot former representative 
             William P. Taulbee on stairs leading from the House. Mr. 
             Taulbee later died from his injuries. In December 1932, 
             Marlin R.M. Kemmerer entered the House gallery and 
             demanded time to address the House while brandishing a 
             revolver. Fortunately, Representative Melvin J. Haas 
             persuaded the gunman to drop the weapon. In March 1954, 
             five Congressmen were shot on the floor of the House by 
             three Puerto Rican nationalists who were in the visitors' 
             gallery. Until last Friday, the latest act of violence in 
             the Capitol was the bombing of the second floor of the 
             Capitol. Fortunately, no one was injured.
               What makes this recent event more serious than past 
             events is the sense of security and safety that was 
             shattered by the gunman's weapon. Given the heightened 
             security at the Capitol, I have to think that few of us 
             expected to face the violent assault on the Capitol, much 
             less the loss of two Capitol officers.
               We must forever remember Officer Chestnut. This 
             honorable man was dutifully providing directions for a man 
             and his son when he was gunned down from behind by a sick 
             and confused perpetrator. It is cruel irony that Officer 
             Chestnut was summarily executed as he performed an act of 
             kindness.
               We forever remember Officer Gibson. Were it not for his 
             gallantry, it is likely that we would be grieving the loss 
             of a far greater number of lives. Officer Gibson's quick 
             action protected not only the lives of the Majority Whip 
             and his staff, but it also protected the multitude of 
             innocents who were touring the Capitol and its grounds. 
             Who knows what carnage would have unfolded had Officer 
             Gibson not brought an end to the violence?
               Authorizing the use of the Rotunda of the Capitol for 
             the memorial services for these brave men is fitting 
             because they truly are national heroes, and they deserve a 
             hero's tribute. I am also honored that a plaque bearing 
             the names of Officers Chestnut and Gibson will grace the 
             walls of the Capitol, so we will forever remember their 
             selfless acts of valor.
               Mr. Speaker on behalf of myself, my family, the 
             constituents of the 18th Congressional District in Texas 
             and my staff, I offer my deepest sympathy and I leave you 
             with the words of Isaiah 40:15, ``Those that wait upon the 
             Lord shall walk, run and not faint.''
               Given the loss felt by the families of our fallen 
             officers, I feel that we must do what we can to provide 
             assistance to these survivors. By paying for the funeral 
             services, creating a survivor's gratuity to the widows of 
             the two officers, and by urging the establishment of a 
             Capitol Police Memorial Fund, we can acknowledge the 
             courage of Officers Chestnut and Gibson in the best way 
             possible, by helping their family members.

               Mr. WICKER. Mr. Speaker, I do not know if Detective John 
             Gibson or Officer Jacob Chestnut ever met anyone from the 
             1st congressional district of Mississippi in the 
             performances of their duties. But my constituents feel a 
             kinship with these two slain heroes today.
               They realize that these brave men gave their lives, not 
             simply to defend hundreds of innocent people during last 
             Friday's shootout but to protect and preserve 222 years of 
             history and freedom symbolized by this majestic Capitol 
             building.
               The gunshots that rang out in these hallowed halls last 
             week were heard around the Nation. E-mails and messages 
             from my North Mississippi district reflect the same sorrow 
             and shock other Members of Congress heard from the people 
             they represent all across our great country this weekend.
               This was not simply a shooting incident on a piece of 
             federal property, it was an attack on the People's House, 
             an attack on us all. This e-mail from constituents in 
             Olive Branch, Mississippi is one example.
               It reads, and I quote:

               Congressman Wicker, please express the heartfelt 
             condolences of the people of Mississippi to the families 
             and friends of the two slain Capitol policemen. They 
             served and died honorably and in the best traditions of 
             all those who placed their lives on the line for the 
             citizens of this country. We trust they will be given the 
             finest remembrance available in accord with the wishes of 
             their families.

               The American people join us today in honoring Officer 
             Chestnut and Detective Gibson. We lift them up as the role 
             models and dedicated servants they were, professionals who 
             took seriously their obligation to defend and protect the 
             foundation of our democracy.
               It is fitting that we honor these two men as heroes and 
             that we make sure their sacrifice is never forgotten. 
             Beyond the words we utter on the House floor and in 
             memorial services, a more lasting tribute to them is to 
             ensure that we carry on the orderly functions of 
             government inside this building that they died to 
             preserve.
               It is important that we send a message to all those who 
             would tear at the fabric of our democracy that we will not 
             be deterred from keeping open this historic building which 
             stands as the most visible symbol of freedom in the world.
               I share the sentiment echoed in this Chamber that we 
             stand united in reassuring our citizens that our free and 
             open government represented so powerfully by all that goes 
             on in the U.S. Capitol will not be disrupted by the 
             actions of one disturbed individual.
               Never again will we take for granted the job our law 
             enforcement officers do in and around the Capitol. They 
             come to work each day prepared to give their lives in 
             service to our country.
               Last week, for the first time in history, two of these 
             brave officers made the ultimate sacrifice. They saved 
             lives in the process. We share the grief their families 
             feel because they were part of all of our families, and 
             they will remain so.
               Mr. Speaker, the people of the 1st congressional 
             district of Mississippi join me in saluting the bravery 
             and courage of Officer Chestnut and Detective Gibson.

               The SPEAKER pro tempore. Under a previous order of the 
             House, the gentleman from Michigan (Mr. Stupak) is 
             recognized for 5 minutes.

               Mr. STUPAK. Mr. Speaker, I rise today to pay tribute and 
             to express my sympathy and that of Michigan's 1st 
             congressional district to the families of our two fallen 
             officers of the Capitol Police Department, Detective John 
             Michael Gibson and Officer Joseph Jacob Chestnut.
               They are our officers because those of us who were and 
             those of us who are in law enforcement know that Detective 
             Gibson and Officer Chestnut are our fellow officers. When 
             a law enforcement officer was injured or killed, each of 
             us who have been there is injured in a personal way.
               As an Escanaba City police officer and later as a 
             Michigan State Police trooper, unfortunately, too often, I 
             felt and I have witnessed the outrage, the mourning, the 
             sadness like that that has been expressed here in the 
             Nation's Capitol and all across this great country.
               It happens all too often, Mr. Speaker. Every other day a 
             law enforcement officer dies in the line of duty here in 
             America. Today we salute Detective Gibson and Officer 
             Chestnut. In response to their death, there have been 
             calls for a visitor's center or to move the security 
             perimeter farther away from the Capitol to protect our 
             brave law enforcement officers.
               Mr. Speaker, I really wish it was that easy. I wish we 
             could just pass a law that here in America we could say no 
             more law enforcement officers would have to be killed or 
             to be injured in the line of duty. But it just does not 
             work that way.
               If we ask Officer Chestnut or Detective Gibson, I am 
             sure they would tell you that law enforcement officers 
             rely on that personal contact with the public whom we 
             serve. We need that contact to do our job.
               You see, while Officer Chestnut probably really never 
             had a chance, Detective Gibson knew what he had to do. He 
             had to protect employees. He had to protect the visitors. 
             He had to protect the Nation's Capitol.
               He knew what the job demanded. They both understood 
             their job. They had that sixth sense, that, even in the 
             time of danger, they understood and they knew what had to 
             be done.
               Mr. Speaker, when I came here in 1993, I realized that 
             law enforcement officers, not just here in the Nation's 
             Capitol but all across America, knew how to do their job, 
             that officers sacrificed their lives or were maimed or 
             injured each day to protect all of us. I realized when I 
             got here they really had no voice in this House. They had 
             no caucus in the Nation's Capitol.
               What do the law enforcement officers ask? They ask for 
             understanding of what they do. They ask for understanding 
             of what their job entails. So I and other Members in this 
             Congress back in 1993 formed a Law Enforcement Caucus.
               The bipartisan caucus promotes law enforcement ideas, 
             addresses the needs of law enforcement officers and works 
             to develop an understanding of their job, an understanding 
             of what it is to be a law enforcement officer.
               Those of us in law enforcement understand the dangers we 
             face. We know how a peaceful day is shattered by gunfire 
             and how tragedy can occur each day in America. We know 
             that, and we understand that.
               So I hope that you understand that a visitor's center or 
             maybe a larger perimeter cannot really protect law 
             enforcement officers from doing their job or the dangers 
             that are in their job. But we ask that, as they do their 
             work, we give them our understanding so that when our 
             peace is shattered by death or injury they need to know 
             that their children will be taken care of so they can go 
             to college, get an education, fulfill their dreams.
               We hope you understand that we need a Police Officer 
             Bill of Rights, so that the needs and concerns of all law 
             enforcement officers can be addressed.
               Officer Chestnut and Detective Gibson understood, and 
             they did their job. I am not quite sure America 
             understands their job. I am not quite sure this Congress 
             understands, but I know that Members of this Congress and 
             the citizens of this great Nation appreciate them.
               As I paid my respects in the Rotunda and witnessed the 
             Honor Guard at the caskets give the slow hand salute, it 
             reminded me of other officers like Sergeant Dennis Finch 
             of Traverse City, Michigan, who was murdered ten weeks 
             ago. It reminded me of some of the officers with whom I 
             served. Michigan Police State Trooper Darryl Rantanen of 
             the Gladstone Post was killed by a teenager who had stolen 
             a car and rammed the police car and it went off the road 
             and slammed into a tree. Darryl Rantanen recruited me into 
             the Michigan State Police.
               It reminded me of Trooper Craig Scott of the Lansing 
             Post, my good friend. He was also a law client of mine. He 
             stopped by my office, signed some papers went out on the 
             expressway and was gunned down. I was a pall bearer at his 
             funeral. He is buried in Muskegon, Michigan.
               There was Trooper Paul Hutchins of the Detroit Post, 
             where I counseled him when I was an instructor at the 
             State Police Training Academy.
               Mr. Speaker, there are officers throughout this great 
             Nation, and as the Capitol Police officers gave their slow 
             hand salute, we salute all law enforcement officers, past 
             and present. We salute their families. We pray for you. We 
             thank you.

               Mr. WELDON of Pennsylvania. Mr. Speaker, I rise today in 
             tribute to our two fallen heroes. I spoke on the floor 
             last night discussing actions that we can take in light of 
             this terrible tragedy. All of our colleagues have come 
             together in discussing ways that we can assist the 
             families of these two brave heroes.
               As I mentioned last night, over the past 12 years I have 
             been in this body I have had the pleasure of working with 
             public safety leaders around America in both law 
             enforcement, fire, EMS, and life safety concerns. In fact, 
             in this city I have had the pleasure of working closely 
             with the Capitol Hill Police in a number of exercises and 
             in a number of situations that I have been able to witness 
             their activities.
               We take our Capitol Police, as we do our law enforcement 
             and public safety officials, for granted across this 
             country. Just in the 12 years that I have been here, I 
             have seen our Capitol Hill police respond to fires in the 
             Cannon Building, the Longworth Building, again in the 
             Longworth Building just a month ago; emergencies in this 
             building, bomb threats, situations involving people who 
             become ill or experience heart attacks or other life-
             threatening situations. The Capitol Police are always 
             there.
               Mr. Speaker, it takes an event like this where we lose 
             two lives to realize how valuable these people are day in 
             and day out. In fact, 3 months ago my colleague and 
             friend, the gentleman from Maryland (Mr. Hoyer) and I, 
             after the fire in the Longworth Building, decided that we 
             should take the time to recognize these brave heroes. So 
             we went to Bill Livingood, the Sergeant at Arms and the 
             chief, and asked if we in the Congress could recognize the 
             officers who were taken to D.C. hospitals for smoke 
             inhalation and for anxiety caused by their efforts in 
             removing our constituents and ourselves and our staffs 
             from the Longworth Building during that fire?
               We assembled them all in a House hearing room in the 
             Rayburn Building, and the gentleman from Maryland (Mr. 
             Hoyer) and I both spoke to them. At the end of the 
             service, one of the officers said, this is the first time 
             that the Congress has actually recognized what they did in 
             a formal way.
               Last night, Mr. Speaker, in our bipartisan caucus 
             meeting here in this body I suggested, along with the 
             gentleman from Maryland, that we establish a permanent 
             Congressional Recognition Program for our Capitol Hill 
             Police; not just to recognize these brave heroes when they 
             make the ultimate sacrifice but to make sure that we have 
             a way of paying attention to what they do every day that 
             we are in session.
               I would say to America, in this time of national grief, 
             in this time of tremendous outpourings of emotion and 
             sympathy from all over the country, and having walked down 
             the front steps you see police officers from across 
             America coming to this city to pay their respects to our 
             two heroes, I would say to America, let us use this 
             opportunity, this low point in terms of our national 
             morale, to renew ourselves in two ways: First of all, to 
             make sure that the families of these two brave heroes 
             never forget that we care, nor forget their loved ones. We 
             are doing that.
               The leadership on both sides of the aisle has put into 
             place a memorial fund. We passed special legislation. We 
             will do everything possible to make the lives of the 
             siblings and the wives of these brave heroes comfortable 
             for the rest of their lives, as much as we can, given the 
             fact that they have lost their fathers and husbands.
               Second, I would say to America, there is something else 
             we can do. Besides taking care of these two families, each 
             of us in this country needs to reach out and understand. 
             As I said last night, looking for role models in this 
             country should not divert us toward Hollywood, should not 
             divert us toward the movies or TV, should not even divert 
             us to athletic competition, because the real role models, 
             the real American heroes, if you will, are not in 
             Hollywood. They are not on the ballfields. They are false 
             heroes. The real heroes and the real role models are the 
             men and women in our neighborhoods who serve as our law 
             enforcement officials, our sheriffs, our paid and 
             volunteer firefighters, our paramedics and EMS personnel, 
             because not only do they do their job and work to save 
             lives and property every day, as these two brave 
             individuals did, but they also make our community strong.
               Every American who wants to pay tribute to Officer J.J. 
             Chestnut and Detective John Gibson should make it a 
             personal challenge to reach out in their own communities, 
             maybe establish a Hero Scholarship Fund such as the Heroes 
             Program in Washington; maybe establish a support group, 
             but get involved locally with those public safety heroes 
             in America who every day protect all our lives.
               We are doing that in Washington, and I would just ask 
             this country to come together in this time of national 
             sorrow and allow us to all more fully appreciate the 
             public safety heroes and role models in America who truly 
             are the best that America has to offer.

               The SPEAKER pro tempore (Mr. Burr of North Carolina). 
             Under a previous order of the House, the gentleman from 
             Maryland (Mr. Cardin) is recognized for 5 minutes.

               Mr. CARDIN. Mr. Speaker, as a representative of the 
             people of the Third Congressional District of Maryland, I 
             rise today to speak in honor of Detective John M. Gibson 
             and Officer J.J. Chestnut of the Capitol Hill Police.
               These last few days here on Capitol Hill have been 
             somber ones, and many of us have been given to thoughts of 
             the abruptness of life; how one minute you can accept the 
             greeting of an officer as you walk to work and the next 
             you learn that you will never hear those words again, that 
             he has been slain in a heroic stand to save your life and 
             the lives of your co-workers and hundreds of strangers.
               These are sad times, Mr. Speaker. Yet we should not, we 
             cannot, allow the sadness to overwhelm the message of the 
             lives of Officers Chestnut and Gibson. There is a message 
             rooted in the ideas of democracy and duty. Democracy has a 
             price. In an age when life for so many of us is so good, 
             some of us may have forgotten that.
               Tragically, the Chestnut and Gibson families know that 
             the price for their father and husband was life itself. 
             But it was their sense of duty, their commitment to 
             protecting this building that stands for democracy and the 
             people in it, that should force all of us to consider our 
             own duty to democracy.
               It is said that Robert E. Lee once wrote to his son, and 
             I quote: ``Duty, then, is the sublimest word of our 
             language. Do your duty in all things. You cannot do more, 
             you should never wish to do less.''
               I wish to offer my condolences to the Chestnut and 
             Gibson families. I want to tell them that the lives of 
             these great men and what they did for me, my colleagues, 
             and all America last Friday will always be remembered and 
             honored, but also remembered and honored for what it meant 
             to the twin ideals of democracy and duty.
               I want them to know that even if Officers Gibson and 
             Chestnut had never heard these words from General Lee, 
             they lived them, nonetheless. These two men could not have 
             done more for me, and I hope to use their example to never 
             wish to do less.
               Mr. Speaker, I yield to my friend from Virginia (Mr. 
             Scott).

               Mr. SCOTT. Mr. Speaker, I thank the gentleman from 
             Maryland (Mr. Cardin) for yielding to me.
               Mr. Speaker, as the representative of the Third District 
             of Virginia, I rise to add my voice to the chorus of 
             supporters of the families and friends of Special Agent 
             John Gibson and Officer Jacob Chestnut in these painful 
             hours.
               ``Senseless'' is the word that keeps coming back to me 
             as I think of the loss to the families and to our 
             community of the lives and contributions of these two fine 
             public servants. The only thing that was not senseless 
             about the tragedy was their bravery and sense of duty in 
             sacrificing their own lives to protect the lives of others 
             and to keep the People's House open to the public.
               Any loss of life as a result of tragedy is painful to 
             the entire community, but when it comes as a result of a 
             senseless tragedy such as this, we also feel anger, 
             disgust, and bewilderment over the loss of their lives and 
             the suffering brought upon their families, friends, and 
             our Nation as a result of a senseless act. No words are 
             ever adequate under these circumstances. Yet I wish to 
             join the long line of my colleagues in Congress to express 
             my deep sorrow and sympathy to the families of these brave 
             officers and to try to find a way to come to grips with 
             this tragedy in our midst.
               Mr. Speaker, I appreciate and honor the lives and 
             contributions of Special Agent John Gibson and Officer 
             J.J. Chestnut to this Congress, to this community, and to 
             our Nation.

               The SPEAKER pro tempore. Under a previous order of the 
             House, the gentleman from Georgia (Mr. Barr) is recognized 
             for 5 minutes.

               Mr. BARR of Georgia. Mr. Speaker, last Friday, shots 
             rang out in the Halls of this Capitol, and today we come 
             together to remember two officers and the tragedy that has 
             befallen all of us. Even in the midst of tragedy, we must 
             reflect on the fact that these two men were defending this 
             Capitol, the Capitol which is a symbol of freedom around 
             the world. These two men not only gave their lives in the 
             line of duty and in order to protect innocent citizens, 
             but also to protect freedom.
               Throughout the history of this Nation, there have been 
             several demonstrations perpetrated in the walls of this 
             Capitol in a way to scar the symbol of freedom. In each 
             instance we have reached within us to find the strength to 
             go on because we realize that which is so precious must 
             continue.
               Officers Gibson and Chestnut made the ultimate sacrifice 
             for us, and they would want us to continue on, to take up 
             their post and to continue to preserve this Democratic 
             institution. We as a Nation owe it to them to do just 
             that.
               Although they are not here anymore with us, we remember 
             them as the heroes they are. There is no way to fill the 
             void they have left in their families. I can only say to 
             the families of Officers Gibson and Chestnut, may not a 
             month, not a week, not even a day go by that you and we do 
             not forget that these two men will always be our heroes in 
             the truest sense of the word.
               As the light on top of the Capitol burns bright at 
             night, may it be a constant reminder of our freedom and 
             our fallen heroes. May that light always shine bright for 
             the memories of Officers Gibson and Chestnut, because they 
             made the ultimate sacrifice to preserve the principles of 
             this country and for which that light burns so bright.
               We must continue to hear the sound of freedom that rang 
             out Friday afternoon and every day here, not the sound of 
             one cowardly, solitary enemy of freedom. Let freedom ring 
             in our ears, and their memories in our hearts, as we stand 
             here in the people's Chamber and as we also stand in the 
             Rotunda of the Capitol building itself, which, in its 
             majesty, fairly reaches up to the heavens, just as the 
             souls of these two brave officers rose Friday to heaven to 
             join our Lord God in eternal bliss.
               In God they trust, and as the words raised in marble 
             behind me state, In God we trust, now and forever.

               Mr. DAVIS of Florida. Mr. Speaker, the tragic loss of 
             Officer Chestnut and Detective Gibson serve as a painful 
             reminder that every day the men and women of the United 
             States Capitol Police put their lives on the line, 
             prepared to make the ultimate sacrifice. Officer Chestnut 
             and Detective Gibson were called upon to make that 
             sacrifice without any second thought. They simply did that 
             to protect others.
               So much of what is said and done in these Halls is a 
             symbol for communities across the Nation. Sadly, the 
             service and sacrifice of Officer Chestnut and Detective 
             Gibson represent the 91 law enforcement officers who have 
             given their lives just this year alone in the United 
             States. Three of these slain officers served in the 
             community I represent, the city of Tampa in Hillsborough 
             County.
               When we lost Police Detectives Randy Bell, Ricky 
             Childers and Trooper James Brad Crooks, it dug a hole in 
             our heart and took our breath away. That tragedy also 
             brought our community closer together, and it deepened our 
             respect and appreciation for the men and women who serve 
             as law enforcement officers and their families as well.
               Mr. Speaker, I would like to share a poem that brought 
             comfort to our community at that time of tragedy. It was 
             read at the funeral of the slain officers in Tampa. It is 
             an anonymous poem, it is entitled, ``Miss Me, But Let Me 
             Go.''

             When I come to the end of the road
             And the sun has set for me,
             I want no rites in a gloom-filled room,
             Why cry for a soul set free?
             Miss me a little, but not too long
             And not with your head bowed low.
             Remember the love that was once shared,
             Miss me, but let me go.
             For this is a journey we all must take,
             And each must go alone.
             It's all part of the Master's plan,
             A step on the road to home.
             When you are lonely and sick of heart,
             Go to the friends we know,
             And bury your sorrows in good deeds.
             Miss me, but let me go.

               Mr. Speaker, our thoughts and prayers go out to the 
             families of these courageous officers. May they rest in 
             peace.

               Mr. SKEEN. Mr. Speaker, the Nation mourns the death of 
             two Capitol law enforcement officers whose lives were 
             taken in the tragic shooting incident last Friday during a 
             busy time in our Nation's Capitol.
               As we reflect on this sadness, I cannot help but think 
             what could have happened if these two men had not been so 
             courageous and sacrificed their own lives so that others 
             may live. We owe them a great deal of thanks and gratitude 
             for protecting the lives of all who visit and work in the 
             Nation's Capitol. Today we honor their memory and pay 
             tribute to their heroic action.
               We offer our heartfelt sympathy to the families of 
             Officers Chestnut and Gibson, to Mrs. Chestnut and Mrs. 
             Gibson. We know your deep sense of loss. For that we pray, 
             so that you may somehow feel comfort during this difficult 
             time.
               And to your children, we can only hope that your pain 
             will heal in time by knowing that your father is a 
             national hero, and will always be remembered as a 
             courageous and honorable man who gave his life to protect 
             others. May God bless you and may God bless America.
               Let me say one other thing that was a gift from these 
             gentlemen. They unified this House, this great Capitol, 
             the two Houses, and we are unified throughout the United 
             States in awe of this great gift that these two gentlemen 
             have afforded us. We thank them from the bottom of our 
             hearts, and will remember them always.

               The SPEAKER pro tempore (Mr. Burr of North Carolina). 
             Under a previous order of the House, the gentleman from 
             New Jersey (Mr. Payne) is recognized for 5 minutes.

               Mr. PAYNE. Mr. Speaker, today I rise for the 
             constituents of the 10th Congressional District of New 
             Jersey in support of two great men who gave their lives on 
             Friday to protect our Nation's Capitol and its visitors. I 
             send my greatest condolences to the families of Officer 
             Jacob J. Chestnut and Special Agent John M. Gibson for 
             their bravery and quick action last Friday.
               It is the Capitol Hill Police Force that makes it 
             possible for us to do our jobs every day. They also make 
             it possible for all visitors to the Capitol to experience 
             the legislative process, the proceedings which take place 
             here.
               I would like to commend and honor those two great men 
             today for their years of service and bravery while 
             protecting everyone who comes to this Nation's Capitol. 
             This tragedy has touched all of our lives because it 
             reminds us that no one is protected from violence, guns, 
             and people in need of mental care, even in the halls of 
             Congress.
               I have had the pleasure of getting to know many who 
             serve on the Capitol Police Force, and I commend them, as 
             always, for their sharp responses to situations, in 
             addition to their friendly disposition. It has been an 
             honor to have such men as Officer Chestnut and Special 
             Agent Gibson, who protected us while we were in these 
             hallowed halls.
               I will forever be indebted to them for their commitment 
             and protection, and for the safety of the public. They are 
             true heroes, and their bravery is testimony to the best of 
             what our country has to offer.
               The Capitol Police officers who selflessly gave their 
             lives are not the only ones who need to be remembered. 
             There was also an innocent bystander who was injured by 
             stray bullets as she escorted her family around the 
             Capitol, Angela Dickerson. I want to send my deepest 
             condolences to her and husband Steve, and their entire 
             family.
               Angela was the innocent victim of that random act of 
             violence. I wish her the best of luck in her recovery, and 
             Angela, we hope that you will come back again to join us 
             in the Capitol, despite your unfortunate experience. This 
             is the People's House, and it must remain just that, open 
             to the people of this Nation.
               Angela's experience reminds us that no one is protected 
             from random acts of violence. One of my interns, Teresa, 
             was directly above the shooting after delivering a 
             resolution to the floor, and she was lucky not to be 
             directly at the scene. This has been a sad and emotional 
             experience for all of us, whether we knew the victims or 
             not.
               Let me just say that prior to my time in Congress, I 
             served as an elected official in municipal and county 
             offices. On the local level, law enforcement, outside of 
             education, is the largest expenditure of local budgets. 
             Because of this, a lot of time is spent with law 
             enforcement people, and we become more cognizant of their 
             sacrifices, the long hours of the police officers, their 
             time away from their families, the day-to-day danger, and 
             their overall dedication of public service.
               Let me conclude by saying that an old Negro spiritual 
             said, Let the work that I have done speak for me. There 
             was the age-old saying that, if you can help somebody 
             along the way, then your living shall not be in vain. 
             Officer Chestnut and Agent Gibson's work that they have 
             done speaks for them, and certainly their living has not 
             been in vain.
               Mr. Speaker, I yield the balance of my time to the 
             gentlewoman from Missouri (Ms. Danner).

               Ms. DANNER. Mr. Speaker, the Bible tells us, greater 
             love hath no man than this, that a man lay down his life 
             for his friends. I rise today to join my fellow Members of 
             Congress to honor the memory of John Gibson and Jacob 
             Chestnut, who died defending not only our lives but 
             democracy itself.
               These men were our friends, like so many Capitol Hill 
             police officers who serve and protect us day after day, 
             Congress after Congress, decade after decade. They do so 
             with a quiet dedication and an obvious devotion. Whether 
             helping a Member of Congress or any of the millions of 
             visitors who come to Capitol Hill every year, the Capitol 
             Hill Police play a vital role in assuring that American 
             democracy works. They do so with thousands of acts of 
             devotion and dedication to their duty. We know they may 
             have to perform the ultimate act of devotion, but we also 
             pray that they never do.
               John Gibson and Jacob Chestnut made the supreme 
             sacrifice, and we know they did so without hesitation. 
             They were our friends, our protectors, and they laid down 
             their lives, not only for us, but for the freedom that 
             this institution represents.

               The SPEAKER pro tempore. Under a previous order of the 
             House, the gentleman from California (Mr. Dreier) is 
             recognized for 5 minutes.

               Mr. DREIER. Mr. Speaker, as the Nation and the Capitol 
             Hill family and, of course, the families of Special Agent 
             Gibson and Officer Chestnut deal with this extraordinary 
             tragedy, we, of course, extend our condolences to the 
             immediate family members and their dear friends, including 
             all of our friends here on Capitol Hill who have been so 
             affected by this.
               One cannot help but think of what it is we can learn 
             from this, and what it is that this has taught us. Of 
             course, we have all, over the past few days, expressed 
             greater appreciation for those men and women who are on 
             the front line as Capitol Hill police officers than we 
             have ever have.
               I have always prided myself on being friendly and 
             talking with them, but there have been more than a few 
             occasions where I have been in a hurry and rushed by. Over 
             the weekend and yesterday and today, of course, like all 
             of my colleagues, we have stopped and taken a moment to 
             express our appreciation. We all know how important 
             gratitude is.
               We also must remember, as we had the opportunity to walk 
             by the two caskets in the great Rotunda, and in about 45 
             minutes we will be moving into the Rotunda for a memorial 
             service, that this experience shows us the magnitude of 
             man's humanity to man. We know it is, from this 
             experience, our deeds that make us great, and while we 
             have been talking, as we do so well here, we know that our 
             words are important, but it is our deeds that will be 
             remembered.
               Mr. Speaker, these two men exemplify the simple, 
             everyday greatness of self-sacrifice. I join in extending 
             condolences to the Gibson and Chestnut families, and wish 
             them God speed.

               Mr. GUTKNECHT. Mr. Speaker, we gather today to honor two 
             men in a way that has been reserved for Presidents and 
             military heroes. Mr. Speaker, it is fitting that we would 
             honor these two slain Capitol Police officers as only 26 
             other Americans have been recognized.
               Jacob Chestnut and John Gibson were heroes. They chose 
             to place themselves in harm's way every day they came to 
             work. In that awful moment last Friday, they did not 
             flinch from making the ultimate sacrifice to protect 
             coworkers, friends, and even complete strangers.
               They were more than just officers, though. They were 
             husbands, fathers, and a grandfather. We grieve with their 
             families, mourning their loss and ours. Jacob Chestnut and 
             John Gibson were part of that thin blue line that runs 
             through every community in America.
               As we remember their heroism this week, let us not 
             forget that their colleagues here at the Capitol and in 
             law enforcement agencies throughout the Nation still stand 
             ready to protect and search. Let us appreciate the 
             contributions they make and the risks that they take each 
             day when they put on that uniform.
               As Ronald Reagan said, those who say we don't have 
             heroes anymore just don't know where to look. We lost two 
             of those heroes on Friday.

               The SPEAKER pro tempore. Under a previous order of the 
             House, the gentleman from Georgia (Mr. Bishop) is 
             recognized for 5 minutes.

               Mr. BISHOP. Mr. Speaker, I rise today to pay tribute to 
             the slain officers who valiantly defended the People's 
             House last Friday, Special Agent John Gibson and Special 
             Agent Jacob Chestnut.
               Shakespeare wrote, ``All the world is a stage, and all 
             the men and women, merely players. Each has his entrance 
             and his exit. One man in his time may play many parts.''
               So it was with Officer Chestnut and Detective Gibson. 
             They, too, played many roles. They were sons, husbands, 
             fathers, friends, co-workers. They were great men, great 
             not because of the titles they carried, not because of the 
             uniforms they wore. They were great not because of where 
             they worked, nor because of who they worked with.
               No, they were great because, measured by the true 
             standard of greatness set by Jesus, that is, ``he who is 
             great among you shall be your servant and he who is 
             greatest shall be servant unto all,'' they measured up.
               They served us all. They stood by the door to protect us 
             and thousands who visit this Capitol each day. Both 
             literally and figuratively, they served us and America by 
             giving their last full measure of devotion and to protect 
             us and the house of democracy.
               Too often, those in exalted places of power overlook the 
             nameless persons who serve and wait. Whether those who 
             sweep the floors, hold the doors, service or drive the 
             elevators, serve the food, cut the grass, or clean the 
             toilets, they are too often overlooked. But they, too, are 
             great, because they also serve.
               We are grateful to God and to the families of Officers 
             Gibson and Chestnut for allowing us in America to benefit 
             from their service.
               Yes, all the world is a stage and all the men and women 
             merely players. Each has its entrance and his exit and 
             these two in their time played many parts. For their 
             service and their friendship, we are grateful.
               Mr. Speaker, I yield the balance of my time to the 
             gentleman from New York (Mr. Meeks).

               Mr. MEEKS of New York. Mr. Speaker, I rise today with a 
             sad heart to extend my condolences to the families, 
             friends, and colleagues of officers J.J. Chestnut and John 
             Gibson. I do this on behalf of my wife, Simone, and our 
             family, my staff, and the constituents of the Sixth 
             Congressional District of New York.
               I have only been a Member of the Capitol community for 
             about 5 months, and it has been a learning experience for 
             me and my staff, as most us are new to Washington. One of 
             the things that we have learned is that there is a strong 
             sense of community here. Members and staff view each other 
             as colleagues, and we view our staffs as part of our 
             families.
               The Capitol Police, in my opinion, are indeed an 
             extension of that spirit of professional respect, 
             friendship, and family. They protect Members, they protect 
             our staffs, and they protect the many visitors who visit 
             the Capitol every day. They risk their lives for us and 
             for America. But we must ask ourselves, what is it that 
             they are protecting?
               I believe, as I am sure all Americans believe, that they 
             are defending the crucible of freedom. It is the crucible 
             of freedom that is on display every day in this building. 
             The fact that Officers Chestnut and Gibson gave their 
             lives defending this place will serve as a reminder to me 
             what the words ``duty'' and ``service'' really mean. The 
             senseless act of this past Friday truly define the words 
             ``defending the Constitution.''
               Yes, I still learn every day that I am here, as I had 
             learned before I arrived here, that we cannot place a 
             value on human life. But a person who is willing to give 
             his or her life makes the ultimate sacrifice so that 
             someone else might continue to live is one who really 
             understands life and its value.
               As others have said, freedom is not free. And it is with 
             a tremendous sacrifice that we are free in this country, a 
             freedom that we all too often take for granted.
               But I just pray that we all understand what sacrifice 
             means after this tragedy. I again send my prayers to the 
             families of these heroes. I know, and I want them to know, 
             that they are not alone. This House, this Congress, and 
             indeed America's prayers are supporting them.

               The SPEAKER pro tempore. Under a previous order of the 
             House, the gentleman from Texas (Mr. DeLay) is recognized 
             for 5 minutes.

               Mr. DeLAY. Mr. Speaker, I probably will not take the 
             entire 5 minutes, for those who are waiting to speak. I 
             just wanted to add to last night's remarks, when I read 
             into the Record some of my staff's memories of Detective 
             John Gibson. Today I wanted to read a few more that my 
             staff offers into the Record as well.
               From Jim Morrell,

               Working in the front office at the Whip Office for a 
             year and a half, I had the opportunity to come to know 
             John; the opportunity to know what an outstanding human 
             being he truly was. When the nights got late with 
             Congressman DeLay up in leadership meetings or on the 
             House Floor, there would often be just a few of us left in 
             the office. I can remember staying up there until 11:00 or 
             12:00 at night with John, watching TV or talking about the 
             latest events in the sports world. With John being a die-
             hard Red Sox fan and me being a die-hard Cubs fan, we 
             often commiserated on the respective futility of our 
             favorite baseball teams.
               I walked into the Whip's office last Friday, minutes 
             before the tragic events unfolded. Although I came in the 
             front door, I turned my head towards the back hallway 
             before continuing on. There sat John at the back desk 
             dutifully guarding his post.
               For the rest of my life, that image of John will stay 
             with me. The image of a guardian, a defender, a protector. 
             I can imagine John, even as shots were being fired, 
             thinking, ``There is no way you are going to harm the 
             people in this office.''
               Well, no one in our office was harmed, thanks to John. 
             The hardest part of this tragedy is that I will never have 
             the opportunity to thank John personally. In every sense 
             of the word, he was a part of our office, a part of our 
             family, and he will be sorely missed. God was very 
             gracious to allow me to know John Gibson. I will always 
             remember his life and will always remember his sacrifice.

               From Shannon Graves,

               John was my father, my uncle, my brother, my protective 
             shield. For the year and a half that I sat in a desk right 
             in front of him, I saw John from sunup to sundown. Gibson, 
             as I would always call him, was always there with a cheery 
             ``good morning'' and a smile throughout the day.
               He took on the role of a father to a very young female 
             in the office. He was there to give you congratulations, 
             give you that stern lecture that was needed, and if 
             someone was ever bothering you he was there to make it go 
             away.
               As we sat together, it became the competition of dueling 
             TVs, always helping him with the Internet, e-mail, and 
             loading the latest computer games for him, Doug, and Bob 
             to play.
               I remember the day he was on detail for John Travolta. 
             It was about 6:30 at night. He came running into the 
             office asking me to grab any film that I might have. He 
             would give no details, except to grab the film and follow 
             him. I ran with him, and the next thing I know, I am 
             handing the film over to John Travolta's photographer. It 
             seems that she ran out of film and Travolta was going into 
             a meeting with the Speaker. I spent the next hour up on 
             the balcony and then was ushered over to have my picture 
             taken.
               John was always watching out for everyone. He wanted to 
             make sure that everyone benefited. He escorted Stephanie 
             and myself to see Mother Theresa when she was leaving the 
             Capitol. He was always right there for you. Now my Hill 
             father is gone.

               From Dani DeLay, my own daughter, who is now Dani 
             Farrell,

               John always treated me like he was another father. 
             Whenever I was in Washington, he always was looking out 
             for me and watching me like a hawk.
               I liked to tease him and tell him I feel sorry for his 
             own daughter. I was sure that, at age 17, he still had not 
             let her go out on a date.
               I feel so safe knowing that now he will always be 
             watching over me wherever I am.
               The last conversation John and I had, he told me how 
             much he and my family meant to him and how much he loved 
             us. John, I love you, too.

               Mr. Speaker, I just wanted to thank the Members for all 
             the wonderful words they have said on this floor on behalf 
             of J.J. Chestnut and John Gibson.

               Mr. WAMP. Mr. Speaker, will the gentleman yield?

               Mr. DeLAY. I yield to the gentleman from Tennessee.

               Mr. WAMP. Mr. Speaker, I appreciate the gentleman from 
             Texas (Mr. DeLay), the majority whip, yielding to me.
               Mr. Speaker, I just want to make two points. One is this 
             House has come together in an extraordinary way in the 
             last 24 hours. Last night's meeting, a joint caucus and 
             conference meeting between the Democrats and the 
             Republicans, was this institution at its finest.
               I think in the memory of these two outstanding men, we 
             should all commit ourselves to love each other more, to be 
             more civil, to hold this institution up in the way that 
             they deserve. In memory of them, that we would, as a 
             people, find some good in this and come together in an 
             extraordinary and historic way.
               Mr. Speaker, I also wanted to come today to this floor 
             and recognize a great ``Tennessee Volunteer,'' Senator 
             Bill Frist, whose second nature was to help; to put 
             himself in an awkward position as a physician, though to 
             always put that patient first, regardless of who that 
             patient is.
               A great Tennessean of whom we are all very proud, 
             Senator Frist came where he was needed most and gave of 
             himself in an extraordinary way.
               Mr. Speaker, I thank the gentleman from Texas (Mr. 
             DeLay) and the Speaker and the minority leader for this 
             House coming together for these two remarkable men.

               The SPEAKER pro tempore. Under a previous order of the 
             House, the gentleman from American Samoa (Mr. 
             Faleomavaega) is recognized for 5 minutes.

               Mr. FALEOMAVAEGA. Mr. Speaker, like my colleagues before 
             me, I rise to extend my heartfelt sympathies and deepest 
             condolences to the families of Officers Jacob Chestnut and 
             Detective John Gibson. We pay this special congressional 
             tribute today in honor of these extraordinary and 
             courageous Americans who sacrificed their lives so that 
             the Members of this institution and the public could be 
             protected from harm and from danger.
               Mr. Speaker, sometimes we take it for granted that our 
             Capitol Hill officers perform their duties day and night, 
             faithfully, steadfastly, without complaint and with quiet 
             dedication. At all times, they are willing to assist us 
             and assist our constituents, going out of their way to be 
             helpful and courteous. They serve this institution with 
             dignity, with selflessness and, Mr. Speaker, as this 
             tragedy as shown us, they serve this institution with 
             great courage.
               My colleagues in the House, for all I know, it could 
             have been any one of us walking down that Capitol hallway 
             last Friday afternoon, any one of us or any one of the 
             thousands of more than 18,000 staff members and visitors 
             who enter that hallway of the Capitol building every day. 
             The violence was that random.
               Mr. Speaker, several Members of Congress could have been 
             hurt or killed last Friday. These brave officers, John 
             Gibson and Jacob Chestnut, took the bullets instead. They 
             took the bullets that recklessly endangered everyone in 
             that hallway, including visitors who wanted very much to 
             see America's greatest monument, a building that 
             symbolizes freedom and democracy throughout the world.
               In this moment when there was only time to act, we saw 
             the true nature of both these men. We saw their courage 
             and their deeply selfless impulse to protect life and the 
             sacred space which is at the very heart of this democracy, 
             the House of Representatives of the American people.
               So while this tragedy has shocked all of us, Mr. 
             Speaker, I would join my colleagues who have urged that it 
             not result in undue restrictions of public access; 
             restrictions that would change the very essence and 
             character of the People's House.
               Mr. Speaker, I would like to thank all the men and women 
             in uniform, along with these two gentlemen, who perform 
             their duties day and night to protect us and to protect 
             all Americans who grace the People's House with their 
             presence to witness the world's greatest democracy. We 
             know that all of them are sworn to protect this 
             institution, as were Officer Chestnut and Detective 
             Gibson.
               Mr. Speaker, words simply cannot express our great 
             sorrow and the depth of gratitude. Mr. Speaker, in our 
             Samoan tradition we say--(The gentleman from American 
             Samoa spoke in Samoan)--``May your voyage be one of 
             greatness and with great success.''
               Mr. Speaker, I yield the balance of my time to the 
             gentlewoman from the Virgin Islands (Ms. Christian-Green).

               Ms. CHRISTIAN-GREEN. Mr. Speaker, I thank the gentleman 
             from American Samoa (Mr. Faleomavaega) for yielding me 
             this time.
               Mr. Speaker, I rise to add my condolences, and that of 
             my constituents in the U.S. Virgin Islands, to the family 
             of our slain officers, as well as our respect, honor, and 
             gratitude to these officers for their years of exemplary 
             service and their supreme sacrifice.
               We are all the beneficiaries of their service and 
             bravery and that of their fellow officers who greet us 
             daily, look after our welfare, protect us and our families 
             and our constituents.
               On a personal level, they help me find my way between 
             meetings; they greet me as I arrive and leave. When 
             necessary, they have seen to it that I have gotten home 
             safely and have been helpful above and beyond the call of 
             duty in many ways.
               Officers Chestnut and Special Agent Gibson have served 
             us and their country at the highest level of service. May 
             the sorrow of their families be eased by the fact that so 
             many share the burden of their loss.
               May God bless them and us, and may our beloved officers 
             rest in peace.

               Ms. HOOLEY of Oregon. Mr. Speaker, I rise today to say 
             thanks to Capitol Police Officer Jacob Chestnut and 
             Special Agent John Gibson for being there when we needed 
             them the most.
               I really shudder to think of how much worse this tragedy 
             could have been if these two men had not been there to 
             make the ultimate sacrifice at their posts.
               Today, as we honor them, I want to take a moment to 
             recognize the reassuring presence of the Capitol Police 
             who guard their institution with their lives every day. 
             Thank you.
               As Friday's events so vividly demonstrated, without you, 
             the exercise of democracy in this House, the People's 
             House, would not be possible. You do a great service to 
             your country. I ask for God's blessing to the family, to 
             friends, to the other officers in this time of tragic 
             loss.

               The SPEAKER pro tempore (Mr. Burr of North Carolina). 
             Under a previous order of the House, the gentleman from 
             California (Mr. Calvert) is recognized for 5 minutes.

               Mr. CALVERT of California. Mr. Speaker, Special Agent 
             John Gibson, Officer Jacob ``J.J.'' Chestnut, duty, honor, 
             country.
               Many Members of Congress have expressed our collective 
             grief over the loss of Special Agent Gibson and Officer 
             J.J. Chestnut, but it is worth repeating over and over 
             again. Officers, law enforcement, fire personnel over the 
             country every year lose their lives helping all of us, 
             American citizens. We should express our grief today and 
             remember them as they remembered us, helping us through 
             difficult situations. Condolences to the family. God bless 
             you all.
               Mr. Speaker, I yield to the gentleman from Ohio (Mr. 
             Oxley).

               Mr. OXLEY. Mr. Speaker, I also add my voice to the 
             chorus of sympathy being sung on this day of mourning here 
             at the Capitol for the Chestnut and Gibson families. To 
             them we give thanks in the memory of their fallen heroes. 
             We pray that their grief will be comforted.
               They died protecting freedom and protecting the lives of 
             all of us here in the Capitol. They died as any U.S. 
             soldier would have in any war. It is now just to remember 
             how much we appreciate and admire their leadership and 
             their service, and we send our deepest sympathies to the 
             family as we proceed to the memorial service in the 
             Rotunda.
               I thank the gentleman from California for yielding to 
             me.

               Mrs. MINK of Hawaii. Mr. Speaker, I join a mournful 
             Nation to express my deepest sympathy to the families and 
             loved ones of Officer Jacob Joseph Chestnut and Detective 
             John Michael Gibson. These two brave and courageous 
             officers gave their lives to protect Members of Congress, 
             our staff, and visitors who come to see the Capitol from 
             all over the country.
               On behalf of the people of the Second Congressional 
             District of the State of Hawaii, I stand to pay tribute to 
             the gallantry and bravery of these two men who lost their 
             lives in the line of duty.
               Many people from Hawaii visit the Capitol each year and 
             have felt the assurance of safety provided by the 
             dignified and diligent service of our Capitol Police. To 
             learn that two of them died in the line of fire is 
             shocking news everywhere in America.
               I returned home to Hawaii the next day after the event 
             to find that all the people I saw received word of this 
             terrible loss with a sense of personal loss. Everyone felt 
             that their safety had been compromised with such an 
             assault upon our House. The feeling of warmth and 
             compassion for the families of the slain officers was deep 
             and very moving.
               As we reflect on these events, I realize how guilty we 
             all are in taking for granted officers like Chestnut and 
             Gibson who stand in the line of fire every day that they 
             serve us here and in our home communities. I pray for 
             their eternal peace and for the life and safety of every 
             one of their colleagues who serve us here in the Nation's 
             Capitol.

               Mr. MINGE. Mr. Speaker, this last week of July, 1998, we 
             honor Officers Gibson and Chestnut. We honor them for the 
             ultimate sacrifice they have made on behalf of this 
             country and on behalf of this institution.
               I join my many colleagues in all of their eloquent 
             remarks. We certainly cannot be too eloquent to thank 
             those officers and share with their families the 
             bereavement of their loss.
               On behalf of the people of the State of Minnesota, I 
             wish to extend our condolences.
               Finally, on behalf of the Members of this institution, I 
             think it is fair to say that we recognize a renewed 
             obligation to meet the challenges that we face with the 
             same dedication that the officers who have given their 
             lives met their obligation.
               I share in the comments of my colleague, the gentleman 
             from Tennessee (Mr. Wamp) in the desire to see this 
             institution work on a collegial basis in the months and 
             years to come.

               Mr. GINGRICH. Mr. Speaker, the attached transcript is of 
             my radio address to the Nation on Saturday, July 25, 1998. 
             During this address, I discussed the tragic attack at the 
             Capitol and the courage of those officers who responded to 
             this tragedy. The officers who were killed--and all those 
             who helped apprehend the gunman, assist the injured, and 
             evacuate the building--are true heroes of democracy, and 
             every American owes them a deep debt of gratitude. They 
             gave their lives to protect the lives of hundreds of 
             tourists, staff, and Members of Congress. If not for their 
             quick and courageous action, many innocent people would 
             likely have been injured or killed. I submit the 
             transcript to the Congressional Record.
                [Republican response to the President's Weekly Radio 
                               Address, July 25, 1998]
               GINGRICH: Good morning. I'm Newt Gingrich, the Speaker 
             of the United States House of Representatives.
               And I want to report to you on the tragic attack on the 
             United States Capitol, your Capitol, on the 
             professionalism of the Capitol police, on the heroic 
             actions of two fine policemen who sacrificed their lives 
             in defense of the Capitol, and in their sacrifice, saved 
             many innocent lives.
               I also want to talk briefly about their families, the 
             tragic loss they've suffered and the loss that the entire 
             Capitol Hill family has suffered.
               And finally I want to emphasize that this building is 
             the keystone of freedom, that it is open to the people 
             because it is the people's building. And that no 
             terrorist, no deranged person, no act of violence will 
             block us from preserving our freedom and from keeping this 
             building open to people from all over the world, and to 
             every American who wants to come and visit the center of 
             their self government.
               This is the people's building. Up to 23,000 people a day 
             visit this Capitol, their Capitol, to see their government 
             at work, to stand in the shrine of freedom and teach their 
             children--and we have many, many school children who visit 
             on a regular basis.
               But those who hate or fear freedom, sometimes seek to 
             attack this Capitol and those in it precisely because they 
             symbolize America, self government, authority and the 
             process of freedom.
               The Capitol police protect the Capitol as the Secret 
             Service protects the White House. Each day thousands of 
             people enter the Capitol and are greeted by our protectors 
             and our ambassadors to the world. The thin blue line of 
             the Capitol police, provide both safety and information.
               Yesterday, as officer J.J. Chestnut was advising a 
             visitor how to get to the subway, a deranged man tried to 
             force his way into the Capitol. He killed Officer Chestnut 
             and wounded Angela Dickerson, a visitor to the Capitol.
               J.J. Chestnut's partner, who was getting a wheelchair to 
             help a visitor, returned the gunman's fire. As the gunman 
             fled, he ran into Whip Tom Delay's office and there 
             exchanged fire with Officer John Gibson.
               Officer Gibson, at the sacrifice of his own life, saved 
             the lives of dozens of innocent people in those offices, 
             including Missy Jenkins, a member of my staff who said to 
             me last night very emotionally--and she had even more 
             trouble than I am saying this to you--that she really felt 
             that Officer Gibson had died literally so she was alive.
               Now, forgive me for my emotions, but these two men are 
             genuine heroes. You see, they literally every day, 
             knowingly and voluntarily, put their lives on the line. 
             They understood that to be free, somebody had to be 
             willing to take this risk.
               In the case of J.J. Chestnut, a man who had served 20 
             years as an MP in the Air Force, his wife told me last 
             night when I visited on behalf of the Congress that he was 
             so proud to serve his country--seventeen years on the 
             Capitol Police force, he was only two years away from 
             retirement.
               And I remember because that's the door I go in and out 
             of every day, how often he would quietly but firmly insist 
             that you go through the magnetometer, that you obey the 
             rules, as he did his job to protect this Capitol.
               We should remember that Officer J.J. Chestnut is still 
             here in the spirit with his wife, Wen Ling. He has 
             children--Joseph, Janice, Janet, Karen and William. And 
             they remember. And I think each of you wants to join us in 
             remembering this true hero.
               In addition, Officer John Gibson had become a member of 
             Tom DeLay's family. He had been assigned to protect the 
             Majority Whip and Christina DeLay told me last night that 
             they were so close. And Mrs. Gibson told me that he had 
             enjoyed so much working in that close relationship, 
             knowing that his job was to protect Tom DeLay and that he 
             was doing something important for his country.
               He responded immediately to the crisis. I was told by 
             those in the room that he promptly told everyone to get 
             down, close the doors, and he drew his gun as the gunman 
             entered and they exchanged shots.
               Officer Gibson's wife Evelyn and their three children 
             Kristin, John, and Daniel have a very large hole in their 
             lives because their father, her husband, served his 
             country. And yet I hope of each of them will realize that 
             he was a true hero, a hero in the deepest sense, a man who 
             when confronted with danger, moved toward it to save 
             others when he could have moved away.
               As this was happening, the Capitol police were doing 
             their job, responding immediately to the crisis, sealing 
             off the perimeter, protecting the tourists, protecting the 
             staffs and Members who were around. A number of people 
             responded and made it possible both to suppress the gunman 
             and to save lives.
               Dr. Eisell, the Capitol's attending physician and his 
             staff, and also Dr. Bill Frist who is a Senator, had just 
             finished presiding over the U.S. Senate. Senator Frist 
             went immediately to the scene and then went on to the 
             emergency room.
               The Washington D.C. Emergency Medical Service, including 
             the D.C. Fire Department, MedStar at the Washington 
             Hospital Center, the George Washington Hospital, the U.S. 
             Park Police whose helicopter arrived to help save lives, 
             the Federal Bureau of Investigation, and the Washington 
             Metropolitan Police Force, who promptly intervened in the 
             investigation--again and again professional people did a 
             professional job to make sure that your Capitol was safe 
             and that the visitors and workers in it were safe.
               We can all be proud of them. But we can also do more.
               We will be establishing a trust with the U.S. Capitol 
             Police for the two families who have sacrificed for their 
             country and for freedom. Anyone who wishes to help can 
             write to the U.S. Capitol Police Memorial Fund, 
             Washington, D.C.
               But we must do more. Each of us everyday should 
             recognize that many people are in uniform in this 
             country--the police, the Capitol police, the Secret 
             Service, your local police, your local sheriff's office, 
             your state police, the Border Patrol, the United State 
             military--people who get up every morning and risk death 
             because they want you to be safe. And because they believe 
             that they and their children should share the freedom and 
             the security that America has provided for over 200 years. 
             We're not going to back off.
               I want to thank the president for his call last night, 
             for his concern, for his statement this morning, for his 
             plan to visit the families--it will mean a great deal to 
             them.
               I want to thank each of you who has called. The tourists 
             I saw out front who are here to visit, the people who have 
             been calling in to C-Span, all the people back home who 
             have called Marianne and me. It does mean a lot to the 
             Capitol Hill family when the American family comes 
             together.
               Let me close by asking you to join me for just a moment 
             in prayer.
               Dear God, please watch out over the Chestnut family and 
             the Gibson family. Help them in their time of grief. Help 
             them to come to understand, to be comforted by the love 
             and the thanks of many, many grateful people. Help them to 
             remember the heroes who they sacrificed for their country.
               Please take to your bosom, Officer J.J. Chestnut, and 
             Officer John Gibson. Please watch over all of us and watch 
             over all who defend and protect us and keep us safe.
               Please help this country learn to live with its freedom. 
             Please help those who are troubled learn to live 
             peacefully with their problems. Please help each of us as 
             we strive to do our duty and to reach out to each other in 
             this American family.
               Please forgive us our sins, and bless America and the 
             American people. Amen.
               Thank you for allowing me to share this with you.

               Mr. GOSS. Mr. Speaker, on behalf of the people of 
             southwest Florida, I would like to offer not only our 
             deepest sympathy to the families of Officers Jacob 
             Chestnut and John Gibson, but also our greatest admiration 
             for the total professionalism and full sacrifice these men 
             gave to protect the People's House and its visitors. 
             Officer Chestnut and Officer Gibson truly understood 
             exactly what the U.S. Capitol building represents to the 
             people of this country and to people everywhere. With 
             honor and courage they stood their ground for the world to 
             see.
               Early one morning a while ago, as I neared the Capitol, 
             I watched some visiting foreign tourists with tears of joy 
             kiss the Capitol steps; to them this great building meant 
             freedom and democracy. Now our friends, Jacob Chestnut and 
             John Gibson, join so many other Americans paying 
             unhesitatingly with their lives to defend us and our 
             freedom.
               And without question in this needless tragedy, they did 
             save the lives of citizens, visitors, staff, and Members.
               I also would like to thank and praise their fellow 
             Capitol Police officers who dedicate their lives to 
             defending our freedom. Their bravery and professionalism 
             does not go unnoticed nor unappreciated. Their conduct in 
             containing this tragedy and coping with its aftermath has 
             been exemplary.
               It really is ``family'' up here on Capitol Hill. We all 
             have our own memories and associations of Officer J.J. 
             Chestnut and Detective John Gibson. J.J. pulled weekend 
             guard duty on occasion for the House Intelligence 
             Committee and served those of us on that committee well 
             and faithfully. John was true family to Joe Moakley, our 
             distinguished former chairman and current ranking Member 
             on the Rules Committee. He was also a regular feature in 
             the workings of our whip chores as deputy whips under Tom 
             Delay.
               Other Members had other contacts with these officers but 
             we are all of one mind in knowing J.J. and John will be 
             missed--that we are deepfully grateful for their lives and 
             fiercely proud of their work and that, above all, all our 
             sympathy and love go out to their families in a way that 
             seeks to share the burden of their losses.

               Mr. KILDEE. Mr. Speaker, it is with great sadness that I 
             rise today to pay tribute to two American heroes who have 
             lived, worked, and now died in our midst. John Gibson and 
             Jacob Chestnut epitomized the very finest in the tradition 
             of public service and law enforcement.
               Every day as we arrive at work and as we move about the 
             Capitol Hill complex, we are greeted and protected by 
             members of the Capitol Police force. They are not only our 
             protectors, they are also an integral part of the Capitol 
             Hill ``family.'' We exchange stories of children and 
             grandchildren, the news of the day, and the joys and pains 
             of everyday life. They are our friends--indeed a part of 
             our extended family.
               It is easy to forget that their profession is a 
             dangerous, life-threatening one. Seemingly endless hours 
             of uneventful duty can be broken, without warning, by 
             violent events.
               Last Friday, Detective Gibson and Officer Chestnut 
             answered the call to duty, and paid the ultimate sacrifice 
             in performing their duty. Their presence and their actions 
             saved countless lives of innocent people who might have 
             been caught in the crossfire.
               Mr. Speaker, it is completely right and fitting that we 
             take this day to honor and remember the lives of John 
             Gibson and Jacob Chestnut. They served their country with 
             dignity; they performed their duty with integrity; and 
             they gave their lives in the defense of our Capitol and 
             our democracy. Our thoughts and prayers are with their 
             families.

               Mr. BARTLETT of Maryland. Mr. Speaker, it is with a 
             heavy heart that I would like to pay tribute to Officers 
             Jacob Joseph (J.J.) Chestnut and John Michael Gibson of 
             the United States Capitol Police and extend my condolences 
             to their families and colleagues. This is a solemn duty 
             that I undertake on behalf of the hundreds of thousands of 
             people who live in the sixth district of Maryland and 
             elected me to represent them in the 105th Congress of the 
             United States of America.
               John Gibson and Jacob Chestnut were exemplary members of 
             the thin blue line of the United States Capitol Police. 
             The men and women in this law enforcement force protect 
             and defend the most important symbol of our representative 
             democracy, the magnificent Capitol building. Their joyful 
             but anonymous and humble service touches and enriches the 
             lives of thousands of their fellow Americans and visitors 
             who work in or visit the Capitol on a daily basis. They 
             serve and protect millions of us.
               The excellence, quiet dignity, and anonymity that were 
             the hallmarks of the careers of Officers Chestnut and 
             Gibson were swept away in a matter of seconds by a violent 
             attack. The fury may have been directed by madness, but it 
             is clear that this deliberately deadly attack was 
             unleashed upon the Capitol because this building is open 
             to everyone and is the most central and sacred symbol of 
             our democratically elected government. Moreover, it is 
             clear that members of the Capitol Police were the special 
             and first targets of this assault.
               I don't believe as human beings we will ever be able to 
             understand why it was the fate of Officers Gibson and 
             Chestnut to be called upon to face the fire that was 
             unleashed during those moments of utter chaos. Officers 
             Chestnut and Gibson instantly stepped into that awful 
             breach. Without hesitation, they swiftly ended that attack 
             and protected the lives of hundreds of others by willingly 
             sacrificing their own lives.
               It is fitting and proper, I believe it is our duty to 
             honor their bravery and the courage of their sacrifice. 
             Words are inadequate to express how grateful we as a 
             Nation are today to John Gibson and Jacob Chestnut. I 
             believe President Abraham Lincoln perhaps said it best 
             when he honored the fallen heroes at Gettysburg for 
             ``offering the last full measure of devotion'' to 
             preserving and protecting the cause of freedom and 
             ``government of, by, and for the people.'' Words are 
             inadequate to express the condolences we as a Nation pay 
             to the Gibson and Chestnut families and to the members of 
             the Capitol Police on the loss of their loved ones. We 
             cannot erase their grief. We can only offer this small 
             tribute to comfort them.
               As a living tribute to the memories of Jacob Chestnut 
             and John Gibson, I hope the Capitol will continue to 
             remain open and accessible under the unsurpassed 
             protection of our thin blue line, the United States 
             Capitol Police. Our democratically elected government was 
             attacked, but the thin blue line was not breached. The 
             line held. Our freedom and liberty have been secured once 
             more by the terrible and brave sacrifice of two good men.

               Mr. STARK. Mr. Speaker, this week our Nation mourns the 
             deaths of Capitol Hill policemen John Michael Gibson and 
             J.J. Chestnut. In the aftermath of the shooting in the 
             Capitol, as Members of Congress reflect on whether this 
             event was avoidable, we must take responsibility for this 
             and other acts of violence attributable to the mentally 
             ill. The Capitol shooting was all too familiar an 
             occurrence, a scene that has been played out in our 
             schools, on our streets, our subways, and in homes 
             throughout America.
               The movement in the 1970s and 1980s to 
             deinstitutionalize persons with mental disorders was not 
             an unqualified success. It is time that we admit that 
             closing the institutions did not negate the need for 
             further care; the mentally ill still need consistent 
             treatment and many of them are not getting it.
               Two to three percent of the population experience severe 
             mental disorders. Many more suffer from milder forms of 
             mental illness. In almost every town, we see people on the 
             street whose illness precludes them from working or 
             connecting with other people in a meaningful way. Many of 
             them could be helped with medication and therapy, but only 
             if they had access to care.
               We must provide that care. We can and must prevent 
             future unnecessary violence so that other families do not 
             have to endure what the Gibson and Chestnut families go 
             through today.

               Mr. BARRETT of Nebraska. Mr. Speaker, I sadly join my 
             many colleagues who have taken the floor to mourn the loss 
             of Detective John Gibson and Officer J.J. Chestnut. I want 
             to extend my deepest sympathy to their families and my 
             thanks and appreciation, and that of the people I 
             represent in Nebraska, for the ultimate sacrifice they 
             have suffered.
               The men and women who serve on the United States Capitol 
             Police Force guard our Capitol. They protect the people 
             who serve and work here and the millions of visitors each 
             year from across the country and around the world. They 
             stand guard for the principles on which the Nation was 
             founded and which make this Capitol building such an 
             attraction and source of price. We pass them everyday as 
             we enter and leave the Capitol and House and Senate office 
             buildings, as we walk the hallways, and as we go about our 
             business in our offices and committee rooms.
               And until Friday, July 24, it had been all too easy to 
             forget they came to work each day ready and willing to put 
             their lives on the line for their job and their country. 
             It will be very long time before any of us again pass a 
             Capitol Police officer and not remember John and J.J. and 
             that they all put at risk their lives everyday.
               Over the past two days, as Members have taken the floor 
             to pay tribute to our two fallen heroes, there have been 
             wonderful stories about both men. A story I'd like to 
             share with my colleagues comes from one of my 
             constituents, a farmer, from a town with a population of 
             only 1,900 in the Nebraska Panhandle. The story speaks to 
             how a dedicated man, who would be the first to say he was 
             just doing his job, makes an impact and leaves behind a 
             legacy.
               Bob Busch, from Mitchell, Nebraska, first met Officer 
             J.J. Chestnut in 1988. It was Bob's first trip to 
             Washington, D.C. Bob and a fellow Nebraskan were attending 
             a meeting and reception in the Hart Senate Office 
             Building. Neither of them had ever been inside the 
             Capitol. On the way out of the reception, they asked how 
             best to see the Capitol. They were told to go to a certain 
             door at the Capitol and ask for Officer Chestnut.
               At the door, Officer Chestnut answered their query and, 
             even though it was late, offered to take them on a tour of 
             the Capitol himself. That was the beginning of quite an 
             evening--a complete behind-the-scenes tour of the 
             Capitol--and a new friendship. Bob got to see things I'm 
             not sure I've ever seen. Since that first tour in 1988, 
             Bob has taken the time to seek out Officer Chestnut each 
             time he's been in Washington. In 1995, he introduced his 
             wife to J.J.
               In addition to the tour, Bob and Officer Chestnut shared 
             a love for this earth. Officer Chestnut was an avid 
             gardener. Bob is a sugarbeet farmer. Bob recounted to me 
             how Officer Chestnut was always interested in farming and 
             how his operation was doing. Bob said Officer Chestnut had 
             a real kinship with farmers. Bob called my office upon 
             hearing that Officer Chestnut had lost his life in the 
             line of duty. He said how much he admired Officer 
             Chestnut, how personable he was, so tall and so proud, 
             such a fine man who did his job.
               Like all of us, Bob and his wife are grieving for 
             Officer Chestnut and his family. And as we all know, there 
             are countless stories similar to Bob's about both John and 
             J.J. They touched many lives, and did so in a manner that 
             can only make their families proud knowing that it is not 
             just their Capitol Hill family grieving, but that they 
             have the sympathy and gratitude of people across the 
             Nation.
               Nothing can ease their pain or lessen their loss, but an 
             excerpt from a poem has always given me comfort:

             The sun goes down, but gentle warmth still lingers on the 
                  land,
             The music stops, and yet it echoes on in sweet refrains,
             And reminds us that for every joy that passes, something 
                  beautiful remains.
             May the memories that remain bring you comfort and keep 
                  your loved one close at heart.

               Mr. EVERETT. Mr. Speaker, on behalf of the Second 
             Congressional District of Alabama, we extend our heartfelt 
             sympathies to the families of Special Agent John Gibson 
             and First Sergeant Jacob Chestnut. The heroism that these 
             two men displayed in protecting the People's House cannot 
             be overstated. They gave the ultimate sacrifice on behalf 
             of the freedom's we Americans enjoy in our free and open 
             society. The following editorial, which ran in today's 
             Montgomery Advertiser, reminds us that freedom is not 
             free.
                                 Freedom Isn't Free
                           officers gave lives for public
               Two men gave their lives Friday to once again prove what 
             U.S. history has shown time and again--freedom isn't free.
               When a gunman opened fire at the U.S. Capitol, two 
             Capitol police officers, Jacob Chestnut and John Gibson, 
             were killed.
               They died while protecting the occupants of the Capitol 
             and the public, which is in itself a noble sacrifice. But 
             they also died protecting the public's freedom of access 
             to its government, something U.S. citizens may enjoy to a 
             greater extent than citizens of any other Nation.
               That is an essential freedom in a democratic Nation. We 
             suspect Officers Chestnut and Gibson were well aware of 
             that. It makes their sacrifice all the more noble.
               These officers deserve all the praise and honor a 
             grateful Nation can bestow upon them. But we doubt that 
             any would have pleased them more than the reopening of the 
             U.S. Capitol to citizens on Saturday.
               It is only common sense for government authorities to 
             review security measures at the Capitol and to take 
             whatever reasonable steps are necessary to close breaches 
             in that security.
               But care needs to be taken that nothing is done to 
             significantly limit the public's access to ``America's 
             house.'' If authorities overreact and make it difficult 
             for the public to gain ready access to the halls of 
             Congress, it would amount to capitulation to whatever 
             insanity prompted this despicable act.
               There were a lot of heroes Friday. Among them was U.S. 
             Sen. Bill Frist of Tennessee, a heart surgeon who helped 
             treat the injured. There were scores of tales of adults--
             parents and strangers--who used their bodies to shield 
             children. There was also the quiet dignity of Sgt. Dan 
             Nichols, who noticeably struggled to hold his emotions in 
             check while ably serving as spokesman for the Capitol 
             police.
               But at the head of the list of heroes are Officers 
             Chestnut and Gibson. They, like so many others before 
             them, paid the ultimate price of freedom.

               Mr. HOEKSTRA. Mr. Speaker, last Friday, July 24, 1998, 
             is a day that none of us will ever forget for many 
             reasons, but mostly for the heroism displayed by Officer 
             Jacob J. Chestnut and Special Agent John M. Gibson. Mere 
             words cannot express our gratitude for their actions, our 
             grief for their fates, or our sorrow for their families.
               To the families of Officer Chestnut and Special Agent 
             Gibson, we offer our most heartfelt condolences and pray 
             that God provides comfort and assurance to you in your 
             time of need.
               When the House of Representatives is in session, we 
             enter this building many times a day. Usually, we offer a 
             nod or an off-hand comment to the officers at the entrance 
             and they respond in kind. Sometimes, we are in a rush or 
             preoccupied and may not say anything. But it must be made 
             clear that we appreciate the work these officers do.
               So, to all of the officers of the Capitol Police force, 
             all I can say is ``thank you.'' It is only a two-word 
             phrase, but it means so much. You are not taken for 
             granted. Our prayers are with you and for your continued 
             safety.

               Mr. GILLMOR. Mr. Speaker, I rise today to reiterate the 
             special and heartfelt sentiments that many of my 
             colleagues have been making during the past several days. 
             Last Friday, July 24, 1998, United States Capitol Police 
             Officers John Gibson and J.J. Chestnut made the ultimate 
             sacrifice defending our Nation's Capitol. In a tragic 
             moment, these two brave and courageous men gave their 
             lives to defend and protect the safety and dignity of the 
             United States Capitol.
               Officer Chestnut and Detective Gibson, although slain in 
             a tragic moment, embody the very spirit that is the United 
             States Capitol Police Force. These officers, without a 
             second thought, put themselves in harm's way to protect 
             the lives of others. These men approached their jobs each 
             day with the highest commitment, dedication, and honor. 
             The brave men and their colleagues put their lives on the 
             line each day knowing that the perils of danger may be 
             just around the corner. But, without high praise or 
             recognition, they do their jobs with incredible grace and 
             extraordinary professionalism.
               Although we, in the Capitol Hill family, have lost two 
             close members, this institution and the freedom and 
             democracy for which it stands will continue for those of 
             us who work here and for the millions and millions of 
             visitors who join us here each year. From the heroic 
             efforts of Officer Chestnut and Detective Gibson, the 
             world will continue to look to the United States and the 
             United States Capitol as the true symbol of freedom, 
             liberty, and perseverance.
               Mr. Speaker, for myself and my family, my staff, and the 
             people of the Fifth Congressional District of Ohio, I rise 
             to pay this most honorable tribute to Detective John 
             Gibson and Officer J.J. Chestnut. To their families, 
             friends, and colleagues, please know that their legacy of 
             unwavering loyalty and supreme dedication will forever 
             live in the hearts and minds of those who pass through 
             these halls. On behalf of a grateful Nation, we are 
             eternally indebted. Our hearts and prayers are with you. 
             God Bless you.

               Mr. COSTELLO. Mr. Speaker, I rise today to pay tribute 
             to the two Capitol Police Officers who gave their lives in 
             the line of duty. Officer Jacob (J.J.) Chestnut and 
             Officer John Gibson died protecting the freedoms of our 
             Nation. For that we owe them a debt of gratitude. The 
             tragedy that transpired last Friday has shaken this 
             Nation. We will continue to mourn the loss of these two 
             fine officers.
               Officers Gibson and Chestnut died heroes. Because of 
             them no visitors to this institution lost their lives. 
             Because of Officers Chestnut and Gibson this Capitol 
             building remains open and safe. These two officers gave 
             the ultimate sacrifice. They remind us that our freedom 
             can come at a personal cost. Let us be clear, they did not 
             die in vain. Officers Gibson and Chestnut will forever be 
             remembered for bravely defending the Capitol.
               As a former law enforcement officer, I am especially 
             saddened when a fellow officer's life is taken in an act 
             of violence. I would like to express my sincere 
             condolences to the families of Officers Jake (J.J.) 
             Chestnut and John Gibson. They will be missed.

               Mr. CLAY. Mr. Speaker, today is a sad day in the United 
             States Capitol. The murder of two U.S. Capitol Policemen 
             last Friday was a tragedy that words cannot convey. As 
             legislators in the U.S. Congress, we are committed to 
             making laws to protect the people and create a more 
             peaceful society for all Americans. Today we gather in 
             this Chamber to recognize the supreme sacrifice that those 
             who are sworn to protect this institution may be called 
             upon to make.
               Officer Jacob Chestnut and Special Agent John Gibson are 
             heroes who gave their lives to protect this institution. I 
             join my colleagues in saluting these fallen officers--
             history will forever record the last acts of heroism to 
             two of the Capitol's finest.
               My thoughts and prayers are with the families of Officer 
             Chestnut and Agent Gibson. May time ease the burden of 
             their loss and bring peace and understanding to all who 
             have shared the sorrow of their untimely passing.

               Mr. WEYGAND. Mr. Speaker, I rise today to join my 
             colleagues in expressing my deepest sympathies to the 
             families of Officer Jacob Chestnut and Special Agent John 
             Gibson. I would like to also extend my sincere regrets to 
             the members of the United States Capitol Police who have 
             also lost two members of their family.
               It is at times like this that we are reminded of the 
             inadequacy of our language. How do we properly express our 
             regret and sorrow to the wives of Officer Chestnut and 
             Special Agent Gibson at the loss of their husbands? How do 
             we share with their children the appreciation we feel for 
             the valor displayed by their fathers? How do we share with 
             the other officers of the Capitol Police our thanks and 
             admiration at the bravery displayed by Officer Chestnut, 
             Special Agent Gibson and their fellow officers for risking 
             and giving their lives so others might live? Thank you, 
             I'm sorry, brave, hero--all words that pale in the face of 
             the loss of a husband, father, colleague, friend.
               It has been said often in the last several days that 
             freedom is not free. Since before the founding of our 
             Nation, men and women have been willing to stand up and 
             give their lives for their country and their countrymen. 
             Often, this price has been paid on the fields of battle in 
             distant places. We should not, however, diminish the price 
             paid by these two men solely because they gave their lives 
             here at home. The heroes of the past gave their lives in 
             the defense of democracy. Special Agent Gibson and Officer 
             Chestnut gave their lives in defense of democracy's house.
               We are told that Officer Chestnut loved to work in his 
             garden and share the fruits of his labor with his friends 
             and colleagues here on the Hill. I know the struggles and 
             rewards of gardening. The frustration when a promising 
             spring becomes a parched summer. The satisfaction that 
             comes with a plentiful harvest. We are also told that 
             Special Agent Gibson was a Red Sox fan. Sooner or later 
             every Sox fan comes to know the age-old frustration of a 
             promising season that disappears as July becomes August. 
             And sooner or later, every Sox fan learns to take 
             satisfaction in the hope that the Sox will make it next 
             year for sure.
               Today, the Nation will have the opportunity to pay their 
             respects and express their sorrow and thanks. As we move 
             on, we must not forget these two officers and their 
             families. We must also remember those members of our 
             Capitol Police--our own thin blue line--and the thousands 
             of men and women all over our Nation who are willing to 
             place themselves between their fellow citizens and danger.

               Mr. HOBSON. Mr. Speaker, I want to join my colleagues in 
             expressing my deep grief over the tragic loss of Officer 
             Jacob Chestnut and Officer John Gibson who were lost last 
             Friday in the line of duty. I know that the men and women 
             of Ohio's 7th Congressional District share our grief and I 
             know their thoughts and prayers, as are mine, are with the 
             families and friends of these two officers.
               I honor the long service of these two officers who died 
             bravely while protecting our Nation's Capitol. Law 
             enforcement is one of the highest forms of public service, 
             and today we are reminded of our deep debt to those 
             individuals who daily risk their lives to protect the 
             public's safety.

               Ms. EDDIE BERNICE JOHNSON of Texas. Mr. Speaker, the 
             Capitol Hill community and our country suffered a personal 
             loss of two fine Capitol Police officers on Friday, July 
             24, 1998. On that afternoon, a lone gunman invaded the 
             People's House and put many visitors, staffers and Members 
             of Congress in danger. If it were not for the sacrifices 
             of Special Agent John Gibson and Officer Jacob ``J.J.'' 
             Chestnut, we would be mourning the passing of other human 
             beings on this day.
               On behalf of the constituents of the 30th Congressional 
             District, I would like to extend my personal condolences 
             to the families and friends of Detective Gibson and 
             Officer Chestnut. While we take for granted the fact that 
             such tragic incidents can happen to us, we must not take 
             for granted the lives of those two Capitol Police officers 
             who gave their lives so that we may live.
               Mr. Speaker, the spirit and dedication of those officers 
             will live on and truly embody what this place means. Our 
             Capitol symbolizes service, duty and honor. Both the life 
             and death of those officers were examples of those 
             qualities. It is because of their duty and service, our 
             work can go on. Indeed, it must. We cannot let an 
             individual who is distrustful of our Government to allow 
             our democracy to cease. Officers Gibson and Chestnut would 
             not want our business to stop because of real or perceived 
             threats to our system. Officers Gibson and Chestnut would 
             not want us to cower and hide in fear of any group or 
             individual who would seek to disrupt the proceedings of 
             our Government in such violent methods.
               One of the best tributes to those officers would be for 
             all of us, staffers and Members, to be just as dedicated 
             to service and duty as Officers Gibson and Chestnut were. 
             I believe that this will be the finest remembrance that we 
             can offer.
               Mr. Speaker, after the brief moments of chaos and 
             tragedy, I received many calls from worried family members 
             and friends inquiring about my whereabouts and safety at 
             that moment. If not for the service of Officers Gibson and 
             Chestnut, and the entire Capitol Police Force, I may not 
             have been in the arms of safety, telling my family and 
             friends that I was safe. We literally owe our lives to our 
             two fallen officers, our friends whose heroism protected 
             many others from harm and possible death.
               Mr. Speaker, along with my condolences, I offer the 
             families and friends of Officers Gibson and Chestnut my 
             prayers and ask that our Lord give them the strength to 
             deal with such a terrible tragedy. Most important, I would 
             like to give Officers Gibson and Chestnut my gratitude. It 
             was once said that, ``gratitude is the memory of the 
             heart.'' Therefore, my heart goes to Officers Gibson and 
             Chestnut with the utmost gratitude.

               Mr. BILIRAKIS. Mr. Speaker, I rise today in support of 
             the resolution agreed to yesterday to remember and honor 
             the lives of two American heroes, Detective John Michael 
             Gibson and Private First Class Jacob Joseph Chestnut of 
             the United States Capitol Police.
               Officer Chestnut and Detective Gibson died in the line 
             of duty last Friday while courageously protecting Members 
             of Congress, congressional staff, and visitors to the U.S. 
             Capitol. Their heroic actions, and those of other U.S. 
             Capitol Police officers, saved countless lives--including 
             my Health Subcommittee staff, two interns in my office, 
             and a family from my congressional district visiting 
             Washington, D.C.
               We cannot forget that the men and women of the U.S. 
             Capitol Police put their lives on the line every day for 
             us. They are dedicated professionals who protect our 
             Nation's foremost symbol of freedom and democracy. More 
             important, they protect our lives, those of our staff, and 
             the millions of tourists who visit the Capitol each year.
               Detective Gibson and Officer Chestnut are heroes. Their 
             selfless act of courage exemplifies the valor, dedication, 
             and professionalism of the men and women who serve on the 
             U.S. Capitol Police Force. As the resolution before us so 
             eloquently states, ``those who guard the Capitol guard our 
             freedom.''
               I extend my deepest sympathies to the families of these 
             two guardians of freedom and all of the officers of the 
             U.S. Capitol Police. Although words are little solace, I 
             hope their families and colleagues will take comfort in 
             the admiration and respect of a grateful Nation for these 
             fallen heroes. May they rest in peace.

               Mr. ORTIZ. Mr. Speaker, as a former law enforcement 
             officer, I understand the pain and difficulty associated 
             with the continuation of lives without fathers and 
             husbands, brothers, and friends. As I was a sheriff before 
             coming to Congress, I keep up my contacts with other law 
             enforcement types, both here and back in Texas.
               So I knew both officers who died in the brief combat 
             inside the doors of our Nation's Capitol, and my staff and 
             I mourn their loss, along with their families, and their 
             extended families here on Capitol Hill in the larger 
             family of Congress.
               I know this: There is nothing that either of these 
             officers would have wanted more than to fulfill their 
             mission and be hailed by the institution they served, as 
             well as their country, as heroes for democracy. That is an 
             honor of the highest order. Those of us who walk these 
             hallways each day understand the perils we face at the end 
             of the 20th century. There is no grand military conflict 
             consuming the world today.
               Yet the minds of some of our citizens are badly 
             tormented, to the point that they believe they can only 
             resolve that conflict by doing damage to their government. 
             This man was not an enemy of the state--he was mentally 
             disturbed. What was fundamentally different about him was 
             that he carried a gun and apparently had no fear of being 
             killed in an attempt to violate this sacred building.
               We cannot protect this building, nor the people who work 
             here, from the evil in the minds of individuals who are 
             unafraid to die and have the nerve to rush a security 
             checkpoint with a gun. This is a democracy in pursuit of 
             life, liberty, and happiness. If we lock off elected 
             officials from those they govern, our democracy will come 
             out of this tragedy a little weaker.
               Democracy is not easy. It has never been easy. For those 
             people who work for the Federal Government, this 
             particular time in history is occasionally dangerous. We 
             all know it. It was never more apparent than in 1995 when 
             a fanatic blew up the Oklahoma City Federal building. It 
             is part of our consciousness, but we know that if we let 
             them dictate how we behave, the bad guys win.
               I won't stand for that. My colleagues in this hallowed 
             hall won't stand for that. Officers Jacob Chestnut and 
             John Gibson didn't stand for that, and they laid down 
             their lives as they were trained to do to protect the 
             civilians who inhabited the building at the moment the 
             gunfight broke out. They gave the last full measure of 
             devotion to their country and to this institution they 
             were sworn to protect.
               My personal thanks today to the officers, and to their 
             families, for standing firm on that thin blue line.

               Mr. JENKINS. Mr. Speaker, I rise today to offer my 
             deepest sympathy and condolences to the families of Jacob 
             Chestnut and John Gibson, the two brave officers who 
             sacrificed their lives to protect the lives of hundreds of 
             others visiting this scared symbol of freedom. No words 
             can begin to ease the pain and suffering that the Chestnut 
             and Gibson families are feeling at this moment. I hope, 
             however, that these grieving families can take some solace 
             in the outpouring of love and support from grateful 
             Members, staff, fellow police officers, and citizens from 
             across this country.
               The bravery and sacrifice exhibited by these offices are 
             characteristics of the entire Capitol Hill Police Force. 
             Far too often, all of us take their work in protecting 
             these grounds for granted. We forget that in a moment's 
             notice someone intending to cause harm to others can 
             disrupt the order and normalcy that many of us have come 
             to expect as we work here. It is during this time that we 
             depend on those brave men and women who work to ensure 
             that the Capitol remains a safe haven for those working 
             and visiting. Officer Chestnut and Detective Gibson did 
             not let us down. At the first sign of trouble, both 
             officers intervened and took the appropriate action. As a 
             result of their selfless and heroic actions, I am 
             confident that many were spared injury or death.
               Mr. Speaker, it is highly appropriate to see these 
             heroes given the ultimate tribute of lying in honor in the 
             Rotunda of the building where they served, protected, and 
             perished. No one deserves this honor more than Officer 
             Chestnut and Detective Gibson. May God bless each of them.

               Mr. HALL of Ohio. Mr. Speaker, I rise today to pay 
             tribute to Officer Jacob Chestnut and Detective John 
             Gibson who valiantly gave their lives this past Friday, 
             July 24, in the Capitol. If it were not for the courage 
             and composure which they displayed in the face of mortal 
             danger, more lives may have been lost. Officer Chestnut 
             and Detective Gibson made the greatest sacrifice that a 
             human can make in order to save the people that were 
             working in or visiting the Capitol. We are forever in 
             their debt and will not forget their bravery and valor.
               Both Officer Chestnut and Detective Gibson were husbands 
             and both were fathers. I know that these moments are 
             difficult ones for their wives and children and that words 
             are unlikely to ease their pain. They should know, 
             however, that they are in my prayers and are in the hearts 
             of all Members of this Congress and of all the American 
             people. What these officers did will not be forgotten. 
             They placed the lives of others above their own, and for 
             that they are heroes. Officer Chestnut and Detective 
             Gibson did not die in vain; they died honorably, saving 
             the people whom they had sworn to protect.
               Friday's attack on the Capitol was a surprise and a 
             shock that has left everyone shaken. It was a tragic 
             incident without any known motivation. Though we may not 
             be able to understand what prompted it we can ensure that 
             the Capitol remains guarded by dedicated officers who make 
             it a safe place in which to work and visit.
               Mr. Speaker, it is with a heavy heart that I ask you and 
             my colleagues to join me in paying tribute to Detective 
             John Gibson and Officer Jacob Chestnut. They were good men 
             who were loved dearly by their families and who were 
             respected deeply by those who worked with them. They are 
             true heroes whose courageous actions will always be 
             remembered. Moreover, for those who knew them and 
             interacted with them on a daily basis, their loss is deep. 
             Detective Gibson and Officer Chestnut have moved us with 
             their deeds. In protecting the lives of others, they gave 
             their own.

               Mr. SERRANO. Mr. Speaker, I rise both with grief and 
             with pride in support of House Concurrent Resolution 311. 
             Like all of my colleagues and, indeed, like all Americans, 
             I am grieving over the tragic, violent deaths on Friday of 
             two valiant U.S. Capitol Police Officers, Private First 
             Class Jacob Joseph Chestnut and Detective John Michael 
             Gibson. And I am proud of these two heroes, members of our 
             Capitol Hill family, who made the paramount sacrifice by 
             giving their lives to protect the Members, staff, and 
             guests of this Congress.
               Mr. Speaker, J.J. Chestnut and John Gibson were special 
             men every day. They loved their families and their jobs. 
             They were courteous and friendly, generous, and 
             professional. On Friday, they did what they had to do, 
             what they were trained to do, and became heroes. Their 
             deaths leave tremendous holes in the fabric of our lives.
               These crimes were particularly alarming because they 
             took place inside the Capitol building, the People's 
             House, which is and must always remain open to the public, 
             and where people expect to be safe. Witness after witness, 
             tourist after tourist, told the press that they had never 
             imagined they would hear gunfire here.
               But, Mr. Speaker, the heroism of J.J. Chestnut and John 
             Gibson demonstrate that the Capitol is safe. It may not be 
             challenged very often, but on this terrible Friday the 
             security system worked. Two officers gave their lives and 
             many others responded swiftly and capably to protect the 
             public and apprehend the gunman, but only one visitor was 
             wounded. Without our Capitol Police Officers' 
             professionalism, readiness, and training, and their heroic 
             responses to a terrible threat, the harm would undoubtedly 
             have been much greater.
               Finally, Mr. Speaker, I want to extend my condolences to 
             the wives and children, other family members, neighbors, 
             and friends of J.J. Chestnut and John Gibson and to assure 
             them that we share their sorrow over their loss, and that 
             they are in our thoughts and our prayers. They, too, are 
             heroes, who every day sent their loved ones to work, never 
             certain they would return. They, too, have paid an 
             enormous price for the safety of Members, staff, and 
             visitors to the Capitol.
               Mr. Speaker, this resolution, like House Concurrent 
             Resolution 310 passed yesterday, is necessary and 
             appropriate, and I urge all my colleagues to support it.

               Ms. PELOSI. Mr. Speaker, I rise today to honor the 
             heroic courage displayed by Officer Jacob Chestnut and 
             Special Agent John Gibson during Friday's violent episode 
             that took place in our Nation's Capitol.
               These two brave men, in the ultimate act of selfless 
             defense of others, put themselves in harm's way to protect 
             the public, members and staff in the United States Capitol 
             building. Through their heroic actions, they averted a 
             potentially more tragic situation. These two men are a 
             tribute and a testament to law enforcement officers 
             everywhere who risk their lives daily to defend the 
             citizens of this Nation.
               In light of this grave tragedy, let us not be swayed 
             from keeping our Nation's capitol open to the people. Let 
             us also recognize this tragedy as a harsh reminder of the 
             price we sometimes pay for freedom in our country. We are 
             grateful for these men who, in the ultimate sacrifice, 
             gave their lives in the defense of others. We are thankful 
             for the law enforcement officers who risk their lives in 
             the defense of freedom in our country and pay tribute to 
             those who have lost their lives in the line of duty.
               I offer our deepest gratitude to the officers who work 
             day in and day out for the protection of the citizens of 
             this Nation, and I offer my deepest sympathies to the 
             families of these two heroes, Officer Chestnut and Special 
             Agent Gibson. Our thoughts and prayers are with the 
             Chestnut and Gibson families.

               Mr. PACKARD. Mr. Speaker, I rise today with my fellow 
             colleagues to honor both Detective John Gibson and Officer 
             Jacob Chestnut, who selflessly gave their lives in the 
             protection of this Capitol and all those who work and 
             visit here.
               Mr. Speaker, it is easy to overlook the efforts of those 
             who protect and serve on these grounds. It is easy to 
             overlook because they do their jobs with the greatest 
             efficiency and professionalism every hour of every day, 
             all year long. This past Friday, we were all reminded of 
             just how important a part these brave men and women play 
             in protecting this ``House of the people.''
               Mr. Speaker, we were also reminded that there is often a 
             price to pay for the freedom we enjoy in this great 
             Nation. Every day, thousands of men and women across this 
             Nation risk their lives to protect and to serve. Police, 
             firefighters, military personnel--all have committed their 
             lives to protecting others.
               This past Friday, Detective Gibson and Officer Chestnut 
             did more than protect Members of Congress, congressional 
             staff and visiting tourists--these two men gave their 
             lives to protect our very unique form of government. They 
             gave their lives so this building could remain open, 
             accessible and safe for all Americans to participate in 
             their democracy.
               Mr. Speaker, I ask that every American keep the families 
             of Detective Gibson and Officer Chestnut in their daily 
             prayers and thoughts. Both of these men are genuine heroes 
             whose selfless and courageous deeds will not be soon 
             forgotten.
               I commend my colleagues who have joined in support of a 
             resolution that authorizes the establishment of a fund to 
             provide financial support to the families of these two 
             men. I hope those who wish to help these families will do 
             so by contacting the United States Capitol Police Memorial 
             Fund, Washington, D.C. 20515.

               Mr. GOODLATTE. Mr. Speaker, I rise today to honor two 
             men who gave their lives in defense of freedom--Officer 
             J.J. Chestnut and Special Agent John Gibson. They will be 
             deeply missed by all who had the great privilege of 
             knowing them.
               As one of my colleagues so eloquently stated, we are the 
             land of the free because we are the home of the brave. 
             Last Friday, our freedom was preserved by the bravery of 
             Officers Chestnut and Gibson, when a deranged gunman tried 
             to invade the People's House.
               These two heroes were both dedicated family men. Officer 
             Chestnut's wife, Wen Ling, and their children--Joseph, 
             Janece, Janet, Karen, and William--and Officer Gibson's 
             wife, Evelyn, and their children--Kristen, John, and 
             Daniel--should know that their husbands, their fathers, 
             each served his country with the utmost dedication and 
             honor. They will not be forgotten.
               The men and women of the Capitol Police are dedicated to 
             preserving and protecting the People's House. They put 
             their lives on the line for us--Members of Congress, our 
             staffs, and each American who comes to visit our great 
             Capitol--every day.
               Through their selfless act of bravery, Officers Chestnut 
             and Gibson saved the lives of countless Members, staff, 
             and tourists who were working in and walking through the 
             Capitol last Friday. We literally owe our lives to them.
               I know that the House, Senate, and indeed the entire 
             Nation joins me in expressing our deepest sympathies and 
             prayers for the families of Officer Chestnut and Special 
             Agent Gibson. These two men are true American heroes.

               Mr. GUTKNECHT. Mr. Speaker, in honor of the memory of 
             John Michael Gibson and Jacob Joseph Chestnut, I move that 
             the House do now adjourn.

               The question was taken; and the Speaker pro tempore 
             announced that the ayes appeared to have it.

               Mr. GUTKNECHT. Mr. Speaker, on that I demand the yeas 
             and nays.

               The yeas and nays were ordered.
               The vote was taken by electronic device, and there 
             were--yeas 392, nays 0, answered ``present'' 1, not voting 
             41.
               The motion was agreed to.
               The result of the vote was announced.
               Accordingly (at 2 o'clock and 59 minutes p.m.), the 
             House adjourned until tomorrow, Wednesday, July 29, 1998, 
             at 10 a.m.
               (Following adjournment of the House, the Speaker pro 
             tempore announced that Members should proceed through the 
             double doors to the memorial service.)

               Mrs. NORTHUP. Mr. Speaker, I recognize that my few 
             remarks here today could never adequately express the 
             profound sadness felt by myself, my congressional 
             colleagues members of the Capitol Hill Police Force, and 
             indeed the entire Nation, over the slaying of Officer J.J. 
             Chestnut and Detective John Gibson.
               Last Friday an individual bent on destruction and 
             misery, launched an attack on this building. But he did 
             much more than that. He also attacked the very freedom 
             this building symbolizes. But he was not successful. At 
             that critical moment in time, two officers performed the 
             duties they were sworn to, and sacrificed their lives to 
             save others.
               This tragedy has affected us all. I believe that during 
             the past few days, Americans have paused to reflect what 
             freedom and democracy mean to them. Because the Capitol is 
             much more than just a building. The Capitol Hill Police 
             Force do not just project a physical structure, but also 
             the very center of our democracy.
               In my year and a half in Congress, I have often 
             commented on the openness of our Capitol building. I have 
             seen how the history of both the building and our Nation, 
             expressed on the walls and ceilings and stairs, interested 
             and inspired school children and senior citizens alike. 
             The supreme sacrifice given us by Officer Chestnut and 
             Detective Gibson is in the same tradition of courage and 
             honor demonstrated by every man and woman who have given 
             their lives so that we may be free.
               I would like to complement the outstanding work 
             performed daily by the Capitol Hill Police Force. Every 
             day they stand on the street corners and in doorways and 
             give directions to lost and tired visitors. They answer 
             the same questions one hundred times a day. And they do it 
             with courtesy, dignity, and professionalism. They are 
             goodwill ambassadors to thousands of visitors--yet they 
             remain largely unheralded. Finally, they are highly 
             trained law enforcement agents sworn to protect the lives 
             of Members of Congress, staff, and all others who make 
             their way to Capitol Hill.
               Last Friday, two brave men upheld their oath with 
             heartbreaking efficiency, and today we mourn their loss.

               Mr. KIND. Mr. Speaker, I want to express my deepest 
             sympathy to the families of Officer Jacob Joseph ``J.J.'' 
             Chestnut and Detective John Michael Gibson. These fine men 
             made the ultimate sacrifice for their government and their 
             country. My wife, Tawni, and I will keep their loved ones 
             in our prayers in this time of terrible pain and sadness.
               This is my first term in Congress. I have been impressed 
             by how accessible the Capitol building, and all the 
             buildings in the Capitol complex, are to the American 
             public. I have also been impressed with the superb level 
             of security provided to the Members of Congress, staff, 
             and the public by the Capitol police force.
               This senseless act of random violence will cause some 
             people to call for closing the doors of the Capitol to the 
             public--turning it into a fortress. This building has 
             historically been the center of the people's government, 
             housing the proceeding of the House, the Senate and the 
             Supreme Court. The public has always been able to freely 
             witness the proceedings under its roof. Millions visit the 
             Capitol of the United States each year. They come from 
             across the country and around the world for the chance to 
             walk through the halls of what they know is the ultimate 
             beacon of democracy and freedom.
               Officers Chestnut and Gibson knew, as well as any of us, 
             how important a visit to this Nation's Capitol is to so 
             many people who pass through its doors. Their names have 
             been added to the list of those who have died to preserve 
             the freedoms we enjoy. Many of us forget all too often 
             that freedom has a heavy price. Their astonishing bravery 
             is becoming clearer as we learn the details of their 
             struggle to stop the gunman last Friday. Their selfless 
             instincts were to protect, at all cost, the innocent 
             people working in and visiting the Capitol that day.
               Sealing off the Capitol to the public would sidestep the 
             real issue that these officers and police everywhere in 
             America deal with every day--escalating gun violence. We 
             should use this horrible incident to examine our society 
             and consider what can be done to reduce this violence and 
             keep guns out of the hands of those who would perpetrate 
             such heinous crimes. When it comes to the point where 
             children are shooting other children in our schools and a 
             gunman shoots his way into the U.S. Capitol, we must 
             recommit ourselves to finding real solutions to gun 
             violence.
               We should honor the memory of Officer Chestnut and 
             Detective Gibson by taking the steps necessary to reduce 
             gun violence in our country. That is the challenge posed 
             to us by their ultimate sacrifice. That is the legacy they 
             deserve.

               Mr. PITTS. Mr. Speaker, today I rise with my colleagues 
             to pay tribute to the valiant work and lives of two fallen 
             heroes--J.J. Chestnut and John Gibson. The whole community 
             here in Congress is slowly recovering from the shock of 
             the fatal shooting of two honorable Capitol Hill policemen 
             just under a week ago. It is disturbing and sad that this 
             happened.
               Just 10 short minutes after the House adjourned for the 
             weekend last Friday, bedlam and terror engulfed the 
             Capitol of the United States. An armed gunman entered the 
             Capitol--and who knows what his intent was. Were it not 
             for the valiant efforts of two brave Capitol Police 
             Officers, many lives of staff, tourists, and Members of 
             Congress could have been lost.
               We cannot quite fathom the implications of the bravery 
             of these two men. Those of us who work here can attest to 
             the commitment of the Capitol Police Force. Yet, we are 
             never really ready for something like this.
               Scripture tells us that ``there is no greater love than 
             this, that a man would lay down his life for a friend.'' 
             Where terror struck, these two men knew exactly how to 
             respond. Officers J.J. Chestnut and John Gibson have paid 
             the supreme sacrifice for their friends by giving their 
             lives.
               They represent the finest among us--officers who protect 
             our freedom, our Capitol, our system of government, our 
             way of life. It is a great tragedy that they have been 
             slain in the line of duty. But we honor them, we honor 
             their memory, we honor their commitment. Their lives 
             exemplify duty, honor and country.
               J.J. Chestnut and John Gibson are American heroes. Our 
             thoughts and prayers are with their families and loved 
             ones.

               Mr. ROMERO-BARCELO. Mr. Speaker, I would like to extend 
             the heartfelt sympathy of the citizens of Puerto Rico for 
             the families, friends, and colleagues of Officer Jacob 
             Chestnut and Special Agent John Gibson, the Capitol Hill 
             Police officers who were tragically killed on June 24. 
             These two officers sacrificed their lives to ensure the 
             safety of the Senators, Representatives, staff, and 
             visitors to the U.S. Capitol. For this, we will be forever 
             grateful. I hope their families can take some solace in 
             the knowledge that their fellow Americans hold these 
             heroic men in the very highest regard for their courageous 
             actions.
               In times of tragedy and sorrow I turn to prayer and I 
             hope the families of Special Agent Gibson and Officer 
             Chestnut can take comfort in the 23rd Psalm:

             The Lord is my shepherd; I shall not want.
             He maketh me to lie down in green pastures: He leadeth me 
                  beside the still waters.
             He restoreth my soul: He leadeth me in the paths of 
                  righteousness for his name's sake.
             Yea, though I walk through the valley of the shadow of 
                  death, I will fear no evil: for thou art with me; thy 
                  rod and thy staff they comfort me.
             Thou preparest a table before me in the presence of mine 
                  enemies: thou anointest my head with oil; my cup 
                  runneth over.
             Surely goodness and mercy shall follow me all the days of 
                  my life: and I will dwell in the house of the Lord 
                  for ever.

               Mr. EHRLICH. Mr. Speaker, below is the text of a poem 
             written by Mr. Albert Caswell. Mr. Caswell, a longtime 
             Maryland resident, outstanding collegiate athlete, and 
             historian with the U.S. Capitol Guide Service, was 
             profoundly moved by the heroism and sacrifice displayed by 
             U.S. Capitol Police Officers J.J. Chestnut and John Gibson 
             during last week's assault on the Capitol. He set his 
             thoughts to paper in loving tribute of these two fine and 
             brave souls who selflessly and unflinchingly laid down 
             their lives for their country. it is my pleasure to submit 
             his words into the Congressional Record.
                             UP TO THE LORD THEY DID FLY
             On one bright, warm, and wonderful sunny day in July,
             Two great American heroes would lay down their lives.
             People stunned and confused, asking the eternal question 
                  . . . Why?
             Few noticed on that day as two bright lights were heading 
                  up into the sky.
             As straight up to heaven, their souls . . . Up to the Lord 
                  they did fly.
             For in this World no woman, nor man . . . Knows their date 
                  . . . Their time,
             When one's life passage . . . So precious . . . Will end 
                  without reason or rhyme.
             Until tested, acting on a clarion call, will we be the one 
                  ever standing tall . . . While in death's line.
             Yes, on this day two great American heroes, . . . This our 
                  Nation's heart did find.
             As straight up to heaven, their souls . . . Up to the Lord 
                  they did fly.
             Children and wives now without husband or dad, oh how 
                  unjust . . . So very sad.
             No greater act of courage is to be, as in the line of 
                  one's duty . . . Gallantly forsaken the life you 
                  have. For all those spared, remember how they cared, 
                  hold in your hearts the good not bad.
             In God's kingdom, `one's life, no greater gift could ever 
                  be,' rejoice they are now with the Lord, be glad As 
                  straight up to heaven, their souls . . . Up to the 
                  Lord they did fly.
             To the children, wives, who have lost the ones so close, 
                  your loved ones sacrifice means everything . . . The 
                  most Rev. King, Rembrandt, or a woman who might one 
                  day save our World, from these acts we may soon 
                  boast. Families hugging & crying . . . Still intact, 
                  because these heroes lay dying, death this day came 
                  so very close. The names Chestnut & Gibson we now 
                  carry ever in our hearts . . . Just everything . . . 
                  All . . . For they gave the most. Surely those two 
                  bright lights heading up into the sky . . . This day 
                  . . . Were but their souls, as straight Up to heaven 
                  with the Lord they did fly.
             To the families, our hearts, our prayers, our thoughts 
                  with you,
             We cherish the honor and great privilege to have known and 
                  served
             With such men of character, and all the heroes in blue who
             Showed all their true and great worth
             May God bless you.
                   Albert Caswell
                     U.S. Capitol Guide Service.

               Mr. RANGEL. Mr. Speaker, I rise to pay tribute to 
             Capitol Police officers John Gibson and Jacob Chestnut who 
             gave their lives last week in a vicious attack by a 
             deranged gunman.
               My heart goes out to the families of these officers, 
             both of whom spent 18 years in courageous and devoted 
             service to their country as members of the Capitol Police. 
             They gave their lives, not only protecting Members of 
             Congress, but the thousands of Americans and foreign 
             visitors to this great monument, the People's House of 
             government.
               Officers Gibson and Chestnut were both known as kind, 
             personable men who were especially devoted to their 
             families. They performed their jobs with a special kind of 
             pride in playing a small part in the smooth and efficient 
             conduct of the processes of government.
               As we go about our business in the Capitol, we tend to 
             take for granted the freedom and protection we enjoy 
             because of the selfless contributions of our Capitol 
             Police who are constantly on guard against the type of 
             insane acts that took the lives of Officers Chestnut and 
             Gibson and wounded an innocent civilian.
               This horrible act reminds us once again of the debt we 
             owe to those officers who do their jobs daily in 
             protecting those who work here and those who visit. With 
             few exceptions, problems, large and small, are prevented 
             so we are left free and comfortable to perform our jobs in 
             peace.
               We owe these men and their families a great debt of 
             gratitude for their sacrifice. They will not be forgotten, 
             and their contributions will be forever recognized by the 
             Members of the House of Representatives.

               Mr. MANZULLO. Mr. Speaker, I rise today to help express 
             my thoughts to the families of slain Capitol police 
             officers John Gibson and Jacob Chestnut. I say ``help 
             express'' because there is no total way to thank these men 
             for laying down their lives for others. I would defer to 
             the words of my wife, Freda, for these remarks, in the 
             joint letter she sent to the Gibson and Chestnut families.
              To the families of Officer John Gibson and Officer Jacob 
                                      Chestnut:
               My heart today is filled with a tremendous sense of debt 
             and gratitude to your fathers and husbands and the 
             sacrifice they have made. Scripture tells us in John 
             15:13, ``Greater love has no one than this, that one lay 
             down his life for his friend.'' Indeed, we consider each 
             officer at the Capitol a friend. Daily we give thanks for 
             their constant careful watch of the Members of congress 
             and the millions of visiting tourists. Last night as we 
             welcomed my husband, Congressman Donald Manzullo, home we 
             breathed a prayer of thanksgiving for his safe return. But 
             also your families and great loss were uppermost in our 
             thoughts. Our heartfelt thanks pour out to you. Our sorrow 
             at your loss is overwhelming. Another scripture comes to 
             mind, one that I believe the Lord said as he received your 
             loved ones into this eternal kingdom, ``Well done, good 
             and faithful servants; you were faithful with a few 
             things; enter into the joy of your master,'' Matthew 
             25:23.
                   With love and gratitude,
                           Freda Manzullo.

               Mr. KENNEDY of Massachusetts. Mr. Speaker, I rise today 
             to pay tribute to the two men who gave their last full 
             measure of devotion in defense of the People's House, the 
             U.S. Congress.
               Capitol Police Officers John Gibson and J.J. Chestnut 
             leave behind friends and family who will mourn their 
             sacrifice for years to come. Today, a grateful Nation 
             mourns with them.
               Thousands of Americans are paying tribute as we speak, 
             filing past their caskets in the Capitol Rotunda just a 
             few hundred feet from where they died.
               In the last few days, we've learned a great deal about 
             Officers Gibson and Chestnut--their love of family and 
             country, the many kindnesses they showed over the years to 
             everyone on Capitol Hill, from committee chairmen to 
             wandering tourists.
               The focus on the lives of these two courageous men has 
             been a poignant reminder of what America is really all 
             about.
               In death, Officers Gibson and Chestnut have been hailed 
             as heroes, but they were quiet heroes each day of their 
             lives. They symbolize what all of us strive to achieve.
               J.J. Chestnut served his country in Vietnam, raised five 
             children, loved gardening, and helped raise money in his 
             neighborhood for college scholarships. He and his wife 
             were often seen bicycling around their home in Fort 
             Washington, Md.
               John Gibson, from the great State of Massachusetts, 
             suffered from the regional malady known as Red Sox Fever 
             and shared his tragic affliction with all who would 
             listen.
               John was married to the niece of my good friend and 
             colleague Joe Moakley. A deeply religious man, John was 
             devoted to his wife and their three teenage children and 
             worked hard to give them a stable and loving home. In the 
             Lake Ridge neighborhood of Woodbridge, Va., John was known 
             for an easy smile, a generous laugh, and the best-kept 
             lawn on the street.
               In some ways, these were ordinary men leading ordinary 
             lives. But when duty called, they acted in extraordinary 
             fashion. They acted just the way all who knew them always 
             expected they would.
               Every one of us in this chamber owes them a special debt 
             of gratitude, They served the Congress faithfully. They 
             served the country faithfully. They swore an oath to 
             protect and serve, and they died as they lived--holding 
             true to those vows.
               There is nothing we can say or do to diminish the loss 
             felt by those who loved these men and knew them best. But 
             at one time or another, we have all lost friends, we have 
             all lost brothers, we have all lost fathers, and so we 
             share their loss as well.
               And today, we pause to remember not just what we have 
             lost, but what Officers Gibson and Chestnut gave to each 
             of us: a lesson of bravery and courage under fire and a 
             reminder of the greatest love of all--that of laying your 
             life down for others.
               That's what these quiet heroes did. I'm grateful for the 
             opportunity for us to come together as a Nation, here in 
             the temple of democracy they gave their lives to defend, 
             to offer them a final salute.
               My heart goes out to their families and all those who 
             feel their loss most of all.
               Finally, I hope this tragic incident makes us look 
             inside as a Nation to recognize the real meaning of 
             heroism--the selfless work that goes on every day by those 
             who take an oath to protect us.
               I would ask that we look around us today and take a 
             moment to appreciate the men and women of our law 
             enforcement community who serve with courage and devotion.
               They are police officers and firefighters, soldiers and 
             sailors, secret service and FBI agents. And, as we know 
             too well, they are also mothers and fathers, husbands, 
             sons, and daughters. Some serve in uniform, some do not, 
             but each carries the same badge of honor, and we should 
             never take them for granted.
               Because of the sacrifice of Officers Gibson and 
             Chestnut, I know I never will.

               Mr. ABERCROMBIE. Mr. Speaker, Officers Jacob J. Chestnut 
             and John M. Gibson are American heroes. They gave their 
             lives protecting us, our staffs, and visitors to the 
             United States Capitol. This tragedy reminds us that the 
             members of the Capitol Police and other police officers 
             across the country put their lives on the line for us 
             every day.
               We honor Officers Chestnut and Gibson for their bravery 
             and sacrifice. We lost two good men and fine police 
             officers. No words can adequately express our feelings on 
             this sad occasion. Our hearts go out to their families and 
             to their fellow officers.
               This tragedy highlights a dilemma as old as democracy 
             itself: the balance between security and openness. We have 
             made a decision--the correct decision, I believe--to 
             maintain public accessibility to the Capitol. The people's 
             business must be open to the public gaze. Every year 
             people from our districts, some traveling literally 
             thousands of miles, visit the Capitol to share their views 
             and urge us to support or oppose this or that bill. They 
             come to partake of the history that walks these halls. 
             They come simply to see us in the flesh, look us in the 
             eye, and take the measure of the men and women whom they 
             have elected to make our laws. Their right to do so is 
             enshrined in the very concept of democracy. Nowhere is it 
             more appropriate to exercise that right than here in the 
             People's House.
               At the same time, we cannot escape the reality of the 
             world in which we live. There are some individuals who 
             would take advantage of that openness to enter this 
             building and do violence to those engaged in the people's 
             business. Their actions defile this temple of democracy. 
             That is why it is necessary to have a Capitol Police 
             Force. Its members not only protect us as individuals, 
             they defend the accessibility of this building, 
             accessibility which is so important to our democracy.
               On Friday, July 24, 1998, two of those officers made the 
             ultimate sacrifice. Their bravery and devotion to duty 
             enshrine the names of Jacob Chestnut and John Gibson among 
             the heroes of our Nation. We bow our heads in sorrow and 
             gratitude. We pledge to honor their memories by keeping 
             our Nation's Capitol open, accessible, and safe for 
             everyone who desires to enter this building, the People's 
             House.

               Mr. LUTHER. Mr. Speaker, I would like to add my voice 
             today to the much-deserved tributes being paid to U.S. 
             Capitol Police Officers Jacob Joseph Chestnut and John 
             Michael Gibson. This is a sad day for Congress and our 
             Nation. Just a few short steps from here two American 
             heroes lay in honor in the Rotunda of the United States 
             Capitol. This past Friday these men gave the last full 
             measure of devotion to their country. Their honored 
             sacrifice no doubt saved numerous lives and served as a 
             stark reminder of the reality of the violent world in 
             which we live. This tragedy also reminds us of the price 
             that must sometimes be paid for the great privilege of 
             having our democratic form of government.
               So today it is appropriate that all of us pause for a 
             moment to thank officers Chestnut and Gibson for what they 
             did last week. Their sacrifice will never be forgotten. 
             And we should also extend our thanks to all of the members 
             of the Capitol Police Force and all other law enforcement 
             officers throughout our Nation. They have an incredibly 
             difficult mission--providing security while serving as 
             goodwill ambassadors for their communities. They do a 
             terrific job day in and day out, and frankly we don't do 
             enough to show our appreciation for all of their hard 
             work.
               And finally, Mr. Speaker, I just want to point out that 
             this seems like a different place today than it did when I 
             left here on Friday. The tragic events of last week seem 
             to have pulled us together. Democrats and Republicans, 
             Members and staff, as well as so many people of our 
             country have all joined hands in coming to terms with what 
             happened here. If there is a silver lining in these tragic 
             circumstances perhaps it is that we all may gain a little 
             more appreciation for the people we work with on a daily 
             basis and for the wonderful country we are proud to call 
             our own. The differences we have pale in comparison to the 
             bonds we share as Americans. A tragedy like this reminds 
             us of this simple truth and affords us the opportunity for 
             a renewed perspective as we face the challenges ahead.

               Mr. RODRIGUEZ. Mr. Speaker, I wish to pay tribute to the 
             ultimate sacrifice made by Detective John Gibson and 
             Officer Jacob J.J. Chestnut while conducting their duty 
             protecting the Capitol. I admire the tremendous sacrifice 
             made by these individuals and my thoughts are with their 
             families as they cope with the departure of their loved 
             ones. Like countless others, I did not personally observe 
             the tragedy. But like them, I have been shaken by the 
             event and moved by the warm reception all have provided in 
             memory of the fallen men.
               No one can bring back these brave officers who gave 
             their lives to protect us. But I stand today to recognize 
             the risks that our law enforcement personnel face each 
             day. I express the gratitude that I have for the 
             dedication of these people, who each day leave the 
             security of their homes and families to protect and serve 
             those in need all across America.

               Mr. UNDERWOOD. Mr. Speaker, upon my return from my home 
             district of Guam yesterday, I had the privilege of paying 
             my respects to slain Officers Jacob J. Chestnut and John 
             Gibson. As Members of Congress join the Nation in mourning 
             the passing of these two gentlemen who paid the supreme 
             sacrifice for our safety and protection, I could not help 
             but reflect upon my constituents from Guam, people who, 
             like me, have to overcome the rigors of traveling several 
             thousand miles in order to experience, to participate, or 
             maybe even just to catch a glimpse of their government at 
             work.
               As with everyone, the highlight of my constituents' 
             Washington, D.C. trip is a visit to Members' offices and a 
             tour of the Capitol. Times like these remind us of the 
             valuable service provided by police officers stationed at 
             different posts within the Capitol complex ensuring the 
             safety of constituents who travel the many miles in order 
             to visit members who represent them in this body.
               Speaking not only for myself but for the people of Guam, 
             I wish to express appreciation to the Capitol Hill Police 
             Force who, by the loss of Officers Gibson and Chestnut, 
             demonstrated their willingness to lay down their lives for 
             the safety and protection of Members of Congress and our 
             constituents. As quoted from the Book of John, ``Greater 
             love hath no man than this, that a man lay down his life 
             for his friends.'' John Gibson and J.J. Chestnut gave 
             their lives so that others may live.
               Roman Benavente, a retired Capitol Police officer--a 
             native son of Guam who has chosen to reside in the State 
             of Maryland, has called together members of the Guam 
             Society of America to honor the slain officers in a 
             Memorial Mass to be celebrated this Friday at St. Ignatius 
             Catholic Church in Oxon Hill, Maryland. I hope that my 
             colleagues would be able to join Guam residents in the 
             area for this memorial service.
               The sacrifice of Officers Gibson and Chestnut will never 
             be forgotten. On behalf of the people of Guam, I extend 
             sincerest thanks to Officer Chestnut and Officer Gibson 
             for their sacrifice. To the families and loved ones of 
             these two American heroes, we offer our most heartfelt 
             sympathies.

               Mr. ADERHOLT. Mr. Speaker, today we continue to mourn 
             the loss of two of the finest men this Capitol has known. 
             John 15:13 states that, ``Greater love hath no man than 
             this, that a man lay down his life for his friends.'' Had 
             John Gibson and J.J. Chestnut not put themselves in harm's 
             way, the lives of many would have been lost in last week's 
             tragic event. These two men of courage laid down their 
             lives so that Members of Congress, co-workers, and 
             tourists visiting from around the world would be safe. We 
             are truly blessed to have men and women of such noble 
             character and bravery serving on the Capitol Police Force.
               As thousands of visitors came together yesterday to walk 
             through the Capitol Rotunda to pay their respects to these 
             men of courage, I realized that we are only able to safely 
             visit this building which is a symbol of freedom because 
             of the service of the many members of law enforcement we 
             have here in Washington. We must never take for granted 
             those who serve to protect and preserve the freedoms that 
             we enjoy here in the United States Capitol, and across 
             this Nation.
               My prayers go out to the families of these two heroes 
             who died that we might live. The memory of their actions 
             will not be soon forgotten.

               Mr. DeLAY. Mr. Speaker, I want to place in the Record 
             further tributes to the police officers who died 
             protecting the United States Capitol last Friday.
                susan hirschman, chief of staff to the majority whip
               John Gibson made the ultimate sacrifice last Friday 
             defending us. John's professional skills saved each of us. 
             We will always remember John's sacrifice. But we will also 
             remember the many other contributions John made to our 
             lives. John's official duty was protecting Tom, the role 
             that ultimately cost him his life. However, I will also 
             remember that John had a quiet way of helping each of us 
             do our job better. For example, as the person who spent 
             more time with Tom than any of us, he was usually the 
             first person to see when things weren't working right. 
             Often, as I walked into the office passing his desk at the 
             back door, he would look at me and simply say ``Have you 
             talked with the boss yet?''--gently letting me know that 
             something was on Tom's mind. As we have gathered over the 
             past few days to discuss how much we will miss John, I was 
             not surprised that he had a similar way of helping every 
             person in the office. John was a friend to each of us and 
             he made our entire team work more effectively.
                     monica vegas kladakis, majority whip staff
               I got to know John Gibson better during the Republican 
             Convention in 1996. I remember squeezing into a cab with 
             him and a bunch of other staff people as we drove from 
             place to place, and I thought, ``He must really hate 
             this.'' I had thought he was reserved and maybe even a 
             little distant, but after that week I not only realized 
             that he had a lot of patience to deal with all of us 
             raucous staff people, I also discovered what a great sense 
             of humor he had, how kind he was, and how much fun he was 
             to be with.
               And now he has saved my life. I feel an overwhelming 
             sense of gratitude toward him, from a depth which I don't 
             know if I've ever reached before. We can never thank him 
             properly for what he did for us, but I hope he knows that 
             we will never forget it.
               I'll miss him.
                 special agent bob glynn and detective doug shugars
               Detective John M. Gibson and Officer Jacob J. Chestnut 
             are American heroes. Their heroic actions and personal 
             sacrifice was responsible for saving numerous lives and 
             ensuring the freedoms which all American enjoy continue.
               Officer Jacob J. Chestnut was a very professional member 
             of the United States Capitol Police. The polite and 
             friendly manner in which he did his job will always be 
             remembered. Every evening as Congressman DeLay and his 
             security would leave the U.S. Capitol, Officer Chestnut 
             would always extend a friendly, ``Have a good evening 
             sir.'' This remark always made for a nice ending to a very 
             long day.
               Detective John M. Gibson was a cop's cop. Anytime John 
             was working and there was some police action happening on 
             Capitol Hill, John would be there. It might be standing in 
             an intersection wearing a suit and directing traffic, 
             assisting with the evacuation of a Congressional building 
             that was on fire, or providing a backup for a fellow 
             officer. John was always there. It was no surprise that 
             John was involved in this kind of heroism. He would have 
             had it no other way. John loved working the security 
             detail for Congressman DeLay and took great pride in the 
             assignment. John was considered to be a part of 
             Congressman DeLay's staff and a very close friend to the 
             DeLay family. John's unselfish actions and personal 
             sacrifice ensured the safety and the lives of Congressman 
             DeLay, his staff, and the public. John was an excellent 
             police officer, a great partner and a wonderful friend. 
             You will be missed.
               There is an inscription on the National Police Memorial 
             in Washington, D.C. by Vivian Eney, another survivor of a 
             fallen Capitol Police Officer. This inscription is a 
             fitting tribute to both Officer Chestnut and Detective 
             Gibson: ``It's not how these Officers died that made them 
             heroes. It's how they lived.''
                 kelly potter, a trustee for the d.c. lodge of the 
                              fraternal order of police
               I keep this poem on my refrigerator at home, which I 
             thought was appropriate:
                               a part of america died
             Somebody killed a policeman today, and
             A part of America died.
             A piece of our country he swore to protect
             Will be buried with him at his side.
             The suspect who shot him will stand up in court,
             With counsel demanding his rights,
             While a young widowed mother must
             Work for her kids
             And spend alone many nights.
             The beat that he walked was a battlefield, too,
             Just as if he'd gone off to war.
             Though the flag of our Nation won't fly at half mast,
             To his name, they will add a gold star.
             Yes, somebody killed a policeman today.
             It happened in your town or mine.
             While we slept in comfort behind our locked doors,
             A cop put his life on the line.
             Now his ghost walks a beat on a dark city street,
             And he stands at each new rookie's side.
             He answered the call and gave us his all,
             And a part of America died.
                        shawna barnett, former delay staffer
               May John's kind nature and selfless acts remind us 
             always of our fallen hero. He is out of our grasp but so 
             very close to our hearts.
                             tom vincent, de lay staffer
               The biggest thing I remember was his sense of humor. I 
             keep thinking of John taking a special effort to joke and 
             tease Shawna Barnett and keep a smile on her face when she 
             was down. It wasn't just Shawna he kept smiling, he made 
             us all smile.
                            willy imboden, de lay staffer
               When I reflect on John Gibson, I remember a man of quiet 
             dignity, integrity, and resolve. He possessed a calming 
             presence about him, his steady bearing lending a tranquil 
             air to the constant chaos of Capitol Hill. In many ways, 
             his 18 years of patient service to Congress and to the 
             American people culminated finally in the greatest and 
             noblest sacrifice, the laying down of his life for others. 
             I am reminded of the Apostle Paul's words in the Epistle 
             to the Philippians: `Do nothing from selfishness or empty 
             conceit, but with humility of mind let each of you regard 
             one another as more important than himself; do not merely 
             look out for your own personal interests, but also for the 
             interests of others. Have this attitude in yourselves, 
             which was also in Christ Jesus . . .' John Gibson's life 
             and final sacrifice personified this ethic, and we are all 
             humbly and eternally indebted to him.''

               Mr. KUCINICH. Mr. Speaker, I rise to honor the memories 
             of Officer Jacob Chestnut and Special Agent John Gibson. 
             The untimely and tragic deaths of these two men demand 
             from all of us contemplation as to the awesome costs of 
             freedom as well as the delicate nature of life.
               The freedoms that we, as Americans, enjoy today are a 
             direct result of a brave decision made long ago by the 
             first Americans, a decision reaffirmed by every generation 
             of the Nation's citizenry. This was the decision made by 
             Officer Jacob Chestnut and Special Agent John Gibson this 
             past Friday. The measure of America's greatness, a 
             greatness in which Officer Chestnut and Special Agent 
             Gibson share, is this brave commitment to a free society.
               The burden of this commitment is an unflinching 
             vigilance against those who threaten our freedoms. Officer 
             Chestnut and Special Agent Gibson devoted their lives to 
             providing the very security that allows our free society 
             to flourish. It was in providing this security that these 
             two men lost their lives, a sacrifice which demands the 
             reverence of a grateful Nation.
               My fellow colleagues, let us learn from the sacrifices 
             of Officer Chestnut and Special Agent Gibson. The legacy 
             of these two patriots offers important lessons to us all.

               Ms. MILLENDER-McDONALD. Mr. Speaker, on behalf of the 
             people of the 37th Congressional District of California, 
             my family, my staff and the American people, I wish to 
             express our most heartfelt condolences and sympathy to the 
             wives, children, and extended families of United States 
             Capitol Police Detective John Gibson and Officer Jacob 
             ``J.J.'' Chestnut as we pay homage to the nobility of 
             service they rendered and their ultimate sacrifice: their 
             lives. I was deeply saddened to learn of the turn of 
             events that led to this tragedy. Their sacrifice is a 
             terrible reminder of the risk the men and women of the 
             United States Capitol Police and all law enforcement 
             personnel face on a daily basis in order to protect us and 
             our ability to serve the American people.
               Words are unable to capture the breadth and depth of the 
             sorrow I and the members of my staff feel.
               Yet, Friday's event is a reminder to those of us whose 
             lives are consumed in the work of this building that real 
             bonds of friendship, camaraderie, and a sense of family 
             can and do, indeed, develop. And, as in most families, 
             sometimes we take one another for granted. The simple 
             pleasantries we extend to one another can become all too 
             routine and often distracted by the burdens of the work we 
             perform. Unfortunately, a tragedy like this one makes us 
             aware of both the significance and the fragility of our 
             relationships, our responsibilities, and our friendships. 
             Let their sacrifice not only serve as a reminder of the 
             costs associated with duty, service, and commitment, but 
             let it also serve as a reminder of our own mortality and 
             humanity.
               I hope the circumstances surrounding the events on 
             Friday, July 24, 1998 will serve as a reflection of our 
             having known these fine officers, who were dedicated and 
             committed, and of the reality that much too often their 
             ultimate form of service could be their lives. Their 
             heroism and their duty to the People's House and to all of 
             us is the epitome of patriotism. May God grant the 
             families the strength to endure!

               Mr. JACKSON of Illinois. Mr. Speaker, with a heavy heart 
             I come before you today. On Friday, July 24, we lost two 
             members of our congressional family: Capitol Police 
             Officer Jacob J. Chestnut and Special Agent John Gibson.
               Although tragic, these men died in service to the 
             Nation, in service to us. In the Gospel of John, Jesus 
             says, ``Greater love has no man than this, that a man lay 
             down his life for his friends.''
               With faith and trust in God and the help of family and 
             friends the Chestnut and Gibson families will endure this 
             seemingly unbearable time. I hope that the families of 
             these two men--genuine American heroes--take comfort in 
             knowing that their husbands, their fathers, their 
             brothers, their sons, did not die in vain. By laying down 
             their lives, these two men upheld our most cherished 
             principles of liberty and democracy. I speak for all 
             Americans when I say I am grateful for and honored by 
             their courage, service, and sacrifice.
               While we mourn their death, we also celebrate the lives 
             of Officer Chestnut and Special Agent Gibson. All 
             Americans can rest assured that their freedom and the 
             future of this great land remain intact because Officers 
             Chestnut and Gibson died preserving liberty so that we may 
             survive in freedom. We all are forever indebted to them.
               On behalf of the people of the Second District of 
             Illinois, I thank Officers Chestnut and Gibson for giving 
             the ultimate sacrifice so that all Americans can sleep 
             tonight under a security blanket of freedom. Their earthly 
             lives may have drawn to a close, but their lives with God 
             are eternal. Psalm 30 reminds us that ``Weeping may endure 
             for a night, but joy comes in the morning.''

               Mr. TANNER. Mr. Speaker, I rise today to pay tribute to 
             Officer Jacob Chestnut and Detective John Gibson, and to 
             honor the sacrifice they made for their country last 
             Friday afternoon. These two dedicated Capitol Police force 
             officers never hesitated for one second when faced with a 
             situation where the lives of others were at risk. They had 
             been trained for such an event and without pause sprang 
             into action and fulfilled their duty.
               These men are indeed heroes, in every sense of the word. 
             But, they are ordinary men, with families and friends who 
             mourn their passing. While we have seen in the last few 
             days how dedicated they were to their jobs, we have also 
             learned of how caring they were in their homes and 
             neighborhoods. Testimony after testimony from friends and 
             loved ones has shown us the high regard these men were 
             held in their ``civilian'' lives. We have seen photos of 
             the prized garden ``J.J.'' kept and whose bounty he shared 
             with all. We have learned that John Gibson kept an eye on 
             his neighborhood and made sure all was right. For a police 
             officer, constant vigilance is the way of life and both of 
             these men lived that credo.
               Friday was no exception. As the gunman burst into the 
             Capitol Building through the detector, Officer Chestnut 
             immediately knew trouble was at hand and without 
             hesitation took action. Unfortunately, his assailant had a 
             split second on him and had his gun pulled. Detective 
             Gibson heard the gunshots and knew immediately what the 
             sound was. He was in the immediate vicinity of several 
             staff members and he took action to put himself between 
             them and the danger at hand. It ultimately took the lives 
             of these two officers, but the lives of many others were 
             spared because of the selfless acts by these two officers.
               No words can comfort their families. No words can change 
             the events of last Friday. No words can make these two men 
             come walking through the door. Our words can only serve as 
             some solace to their loved ones. Officer Chestnut and 
             Detective Gibson will long live in our consciousness, and 
             in our hearts. Time may ease the sharpness of the pain of 
             their loss, but, I say to their families, they will never 
             be forgotten.
               They are, now and forever, heroes of America's 
             democracy.

               Ms. GRANGER. Mr. Speaker, many years ago a poet 
             eulogized the sacrifice of hundreds of young men. The poet 
             was Tennyson. The poem was the ``Charge of the Light 
             Brigade.'' In this famous verse, Tennyson gave answer to 
             those who wondered why so many young men would give so 
             much. ``Theirs not to make reply,'' Tennyson explained. 
             ``Theirs not to reason why. Theirs but to do and die.''
               The price of freedom has never been cheap. But in 
             America, there have always been those willing to meet the 
             demand, bear the burden, and pay the price to keep our 
             Nation free.
               Mr. Speaker, I believe that America will remain the land 
             of the free only as long as it is the home of the brave. 
             Andrew Jackson once said that one man with courage is a 
             majority. Last Friday afternoon, not one but two 
             courageous leaders formed a supermajority--and thereby 
             saved the lives of others.
               When the moment of crisis arose last week, Officer Jacob 
             J. Chestnut and Detective John M. Gibson were not found 
             wanting. They were there. They responded. And they gave 
             their lives.
               The thin blue line held firm last Friday--thanks to two 
             heroes. Like the men of Tennyson's tribute, their 
             sacrifice was complete. It was theirs to respond. It is 
             ours to remember. Mr. Speaker, I hope America never 
             forgets that freedom isn't free. And I know that the 
             prayers and thoughts of every American are with the 
             Chestnut and Gibson family.
               May God Bless them. And May God Bless America.

               Mr. JOHN. Mr. Speaker, I wish to join my colleagues 
             today in honoring the selfless acts of Detective Gibson 
             and Private First Class Chestnut of the United States 
             Capitol Police.
               As we know, the U.S. Capitol is the People's House and 
             the dedicated men and women of the United States Capitol 
             Police guard this institution to protect the Members of 
             Congress, their staff, and millions of people who come to 
             bear witness to the working of our democratic process. The 
             Capitol is a living testament to the rights of our 
             citizens, and those that are sworn to guard it truly 
             defend the rights of mankind.
               On July 24, 1998, Officers Gibson and Chestnut made the 
             ultimate sacrifice for these unalienable rights in 
             courageously protecting the lives of tourists, staff, and 
             Members of Congress. We are forever indebted to these 
             brave men. Had it not been for their heroic actions, many 
             more innocent people could have been seriously injured or 
             killed.
               Mr. Speaker, I stand with my colleagues today to honor 
             these men killed in the line of duty and to pay my 
             condolences to their families. I vow to ensure their 
             legacy of defending the People's House will live on for 
             generations to come; symbolized by our continuing 
             commitment to open the halls of democracy to the public. 
             God bless Officers Gibson and Chestnut for their memory 
             will forever survive in the freedoms of our Nation's 
             Capitol.

               Mr. TAYLOR of North Carolina. Mr. Speaker, it's said 
             that tragedy can bring us together and result in stronger 
             bonds than existed before. The tragic deaths of Officers 
             Chestnut and Gibson have brought a most heartfelt 
             expression of the appreciation we all have for the heroic 
             efforts of not just Officers Chestnut and Gibson, but all 
             of our law enforcement officers throughout the Nation.
               Sue Stover Gaither, a volunteer chaplain with the 
             Asheville, North Carolina, Police Department was asked to 
             sing at the Department's Annual Awards Banquet. Sue asked 
             her brother, Jim to write a song meaningful `just for 
             them.' Sue made a special effort through my office to 
             share a recording of ``Heroes in Blue,'' with the Chestnut 
             and Gibson families; noting in her letter to the families, 
             that while the title of the song is ``Heroes in Blue,'' it 
             was written and is performed in appreciation of all law 
             enforcement officers, no matter what color their uniform 
             or department in which they serve.
               Mr. Speaker, I am proud to share the lyrics of ``Heroes 
             in Blue,'' by Jim Stover.
                                   Heroes in Blue
             To the footsoldier faithfully pounding the beat
             The one in the blue and one cruising the street
             Laying your life on the line, protecting mine
             There's always somebody who's breaking the rules
             Thugs in the alley and drugs in the schools
             In a war that never ends, you hold the line
             Chorus: To every hero dressed in blue
               Thank you all for everything you do
               Each and everyday you risk your lives
               And that makes you a hero in my eyes
             And when we fail to acknowledge the good deeds you do
             It may be that many are known to only a few
             You keep the faith, you fight the fight
             You teach the kids that right is right
             Into the dark, you bring some light
             Footsoldiers pounding, blue and whites cruising
             Good guys are winning, bad guys are losing
             Almighty God is on your side!
             Chorus: To every hero dressed in blue
               Thank you all for everything you do
               Each and everyday you risk your lives
               And that makes you a hero . . .
               Each and everyday you risk your lives
               And that makes you a hero
               And that makes you a hero
               And that makes you a hero in my eyes!

               Mr. FOSSELLA. Mr. Speaker, it is with a heavy heart that 
             I come here today to offer my condolences and prayers to 
             the families of Officer Chestnut and Detective Gibson. As 
             I was walking here just a few moments ago, I stopped to 
             speak to a retired Capitol Hill Police officer. As we were 
             discussing last week's tragic shooting, he said to me, 
             ``It could have been one of us.'' In many ways, I think 
             that characterizes the mood on Capitol Hill right now. 
             Many of us feel vulnerable today because, indeed, it could 
             have been one of us.
               The greatest gift one human being can give another is 
             his life. Officer Chestnut and Detective Gibson made the 
             ultimate sacrifice not because they sought to be heroes, 
             but because that was the type of men they were. In a 
             moment of intense fear, of extreme panic that I pray most 
             Americans will never know, Officer Chestnut and Detective 
             Gibson stood tall. They laid their lives down so that 
             others would not have to.
               Sadly, in my community on Staten Island, there is 
             another hero in need of our prayers. Police Officer Gerard 
             Carter is lying in a hospital bed right now with a bullet 
             lodged in his brain. He is holding onto life with the 
             faintest of grips, struggling to survive after being shot 
             in the right temple two nights ago by a 17-year old, two-
             time murderer. Police Officer Carter is truly one of New 
             York's finest, a brave young man who stared danger in the 
             face and sought to make a difference.
               Sometimes we may forget the danger that our law 
             enforcement officers face when they put on their uniforms, 
             clip on their badges, and take to the streets. They put 
             themselves in harm's way so that we may be safe. I offer 
             them our thanks, and to the families of Officer Chestnut, 
             Detective Gibson, and Police Officer Carter, I offer you 
             our prayers.

               Mr. FRANKS of New Jersey. Mr. Speaker, ``To everything 
             there is a season, and a time to every purpose under the 
             heaven; a time to be born, and a time to die . . . ''
               For Officer Jacob Joseph (J.J.) Chestnut and Detective 
             John Michael Gibson, the time to die came too soon. These 
             two brave men sacrificed their lives so that others might 
             live. Our Nation will never forget their acts of bravery 
             and courage.
               On behalf of all the citizens of the Seventh 
             Congressional District of New Jersey, I express our 
             sadness and grief to the families of these two heroes. 
             While words cannot mend their broken hearts, our thoughts 
             and prayers are with them.
               Officer Chestnut, Detective Gibson, you showed us what 
             courage really is. God bless you and God bless the United 
             States of America.

               Mr. EDWARDS. Mr. Speaker, at a time like this, it is 
             difficult to find appropriate words that do justice to the 
             people you are honoring. Officers Jacob J. Chestnut and 
             John Gibson made the ultimate sacrifice to protect the 
             People's House--the U.S. Capitol. A great American--
             President Abraham Lincoln--would see the great 
             significance of their sacrifice and understand what J.J. 
             Chestnut and John Gibson gave their lives to protect.
               The Rotunda where their bodies will lie in state is 
             shielded by a great dome built during the dark days of the 
             Civil War. President Lincoln knew in his heart that the 
             Capitol is more than just a building, that the Capitol 
             stands as a symbol of freedom and serves as the seat of 
             democracy. President Lincoln believed this so strongly 
             that he demanded the work being done to raise the dome 
             proceed, despite the war and its drain on government 
             resources. He knew that completing the Capitol dome would 
             show America that the United States would stand despite 
             the grueling war then being waged.
               Soldiers fighting to preserve the United States and 
             protect the Capitol camped on the same floor where 
             officer's Chestnut and Gibson will lie in state today. 
             President Lincoln's words uttered on a Gettysburg 
             battlefield nearly 135 years ago are proper to honor these 
             two protectors of freedom who fell in the line of duty.

                . . . We have come to dedicate a portion of that field, 
             as a final resting place for those who here gave their 
             lives that that Nation might live. It is altogether 
             fitting and proper that we should do this.
               But, in a larger sense, we cannot dedicate--we cannot 
             consecrate--we cannot hallow--this ground. The brave men, 
             living and dead, who struggled here have consecrated it, 
             far above our poor power to add or detract. The world will 
             little note, nor long remember what we say here, but it 
             can never forget what they did here. It is for us the 
             living, rather, to be dedicated here to the unfinished 
             work which they who fought here have thus far so nobly 
             advanced. It is rather for us to be here dedicated to the 
             great task remaining before us--that from these honored 
             dead we take increased devotion to that cause for which 
             they gave the last full measure of devotion--that we here 
             highly resolve that these dead shall not have died in 
             vain--that this Nation, under God, shall have a new birth 
             of freedom--and that government of the people, by the 
             people, and for the people, shall not perish from the 
             earth.

               In their lives and deaths, these two brave officers 
             helped keep the dream alive, the dream shared by Abraham 
             Lincoln and by Americans from coast to coast and from year 
             to year, the dream to preserve a government of, by, and 
             for the people. Our prayers go out to the families of 
             these brave men and our thanks for the sacrifice that was 
             made to protect and preserve freedom.

               Mrs. ROUKEMA. Mr. Speaker, in a few tragic moments of 
             July 24, the peace was shattered at the U.S. Capitol, and 
             two members of the United States Capitol Police were 
             killed in the line of duty. The work of the Congress 
             paused last week to remember the sacrifice of John Gibson 
             and J.J. Chestnut.
               The investigation into this horrible tragedy is 
             continuing. Without seeking to prejudge the outcome of 
             that investigation, the senseless death of two police 
             officers has proved to the world what many of us already 
             know: there are gaping holes in the network of services 
             designed to identify, assist, and treat those people with 
             mental illness.
               To this end, I will be working with my colleagues, 
             Representative Marcy Kaptur of Ohio in particular, to 
             develop an organized response to the Capitol tragedy. We 
             will be working with the joint Congressional Leadership to 
             design a method by which we can evaluate and respond to 
             the mental health crisis facing this Nation.
               In this context, I would like to draw the attention of 
             my colleagues to a column by Frank Rich which was 
             published in the New York Times of July 29. It should be 
             required reading for every Member of the House and Senate.
                      [From the New York Times, July 29, 1998]
                                This Way Lies Madness
                                   (By Frank Rich)
               The Capitol police officers Jacob Chestnut and John 
             Gibson had hardly been declared dead when Senator Robert 
             Torricelli, the New Jersey Democrat, sent out a press 
             release arguing that tighter gun control could have 
             prevented the tragedy. Not missing a beat, Trent Lott was 
             soon arguing that a $125 million bunker-barricade 
             camouflaged as a visitors' center would repel future 
             assailants. But in a city where most politicians are so 
             ignorant about mental illness that they still think 
             Whitewater, not the disease of depression, drove Vincent 
             Foster to suicide, no one said the obvious: It is the 
             gaping cracks in American mental-health care, not in 
             Capitol security or gun-control laws, that most clearly 
             delivered Russell Weston Jr. to his rendezvous with 
             history.
               Mr. Weston's paranoid schizophrenia surfaced long ago. 
             Yet, as The Times reported, this now 41-year-old man 
             ``received no regular psychiatric treatment or medication 
             over the last two decades and [his] family seemed to 
             understand little about how to seek help for him.'' This 
             is hardly an anomaly. E. Fuller Torrey, a psychiatrist who 
             campaigns for better mental-health care through the 
             Treatment Advocacy Center in Arlington, Va., says that of 
             the 2 to 2.5 million Americans with schizophrenia, ``40 
             percent are not receiving treatment on any given day.'' 
             Cases like Mr. Weston's--in which a mental patient eludes 
             follow-up care and medication after a hospital release--
             number ``in the hundreds of thousands.''
               How does this happen? Nearly as heartbreaking as the 
             preventable murders of officers Chestnut and Gibson is the 
             plight of Mr. Weston's family. They obviously love their 
             child; they knew he was sick; they wanted to get him help. 
             But, as Russell Sr. said: ``He was a grown man. We 
             couldn't hold him down and force the pills into him.'' A 
             comprehensive system of mental-health services, including 
             support for parents with sick adult children who refuse 
             treatment, doesn't exist. If it had, the Westons might 
             have had more success in rescuing their son--as might the 
             equally loving family of Michael Laudor, the Yale Law 
             School prodigy charged last month with murdering his 
             fiancee.
               That safety-net system doesn't exist because mental 
             illness is still in our culture's shadows--stigmatized, 
             misunderstood and therefore the beggar of American health 
             care. Though Mr. Weston's home state of Montana offers 
             particularly skimpy services, the national baseline is 
             ``not high,'' says Dr. Torrey. Poorly covered by health 
             insurance and spottily served by overcrowded and 
             underfinanced public institutions, mental illness is ``the 
             last discrimination,'' as Michael Faenza of the National 
             Mental Health Association puts it, even though we now have 
             the science to treat mental illness at a success rate 
             comparable to physical illness.
               It's not only politicians who are complicit in this 
             discrimination. The media sometimes compound the ignorance 
             that feeds it. Too many commentators look at Mr. Weston's 
             symptoms--such as his paranoid delusions about the CIA--
             and lump him in with gun-toting, anti-government 
             ideologies, making no distinction between the clinically 
             ill and political extremists. A Time reporter, on the 
             hapless CNN show ``Newsstand,'' expressed surprise that 
             Mr. Weston would so easily be diagnosed as a paranoid 
             schizophrenic given that he had no previous ``episodes of 
             violence.''
               In fact, the majority of those ill with paranoid 
             schizophrenia are not violent, and the disease has no 
             ideology. As Sylvia Nasar's new book, ``A Beautiful 
             Mind,'' documents, many of Mr. Weston's oddest symptoms 
             (including the conviction he was being beamed encrypted 
             messages) also characterized the paranoid schizophrenia of 
             John Nash, the brilliant, nonviolent Princeton 
             mathematician who won the Nobel Prize in Economics in 
             1994.
               Back in 1835, one of the very first patients at 
             Washington's Government Hospital for the Insane--as St. 
             Elizabeth's Hospital was then known--was Richard Lawrence, 
             a pistol-armed man who tried and failed to assassinate 
             Andrew Jackson in the Capitol's Rotunda and was then 
             pronounced not guilty by reason of insanity in a trial 
             whose jury deliberations took five minutes. More than a 
             century and a half of medical and economic advances later, 
             what kind of progress is it that we still so often fail to 
             treat the mentally ill until after tragedy strikes?

               Mr. BRADY of Pennsylvania. Mr. Speaker, I rise to echo 
             all the remarks made by my colleagues. My father was a 
             police officer and I know how our family felt every time 
             he went to work protecting the people under his 
             jurisdiction. I can only imagine what the families of 
             Officer Jacob J. Chestnut and Special Agent John M. Gibson 
             are going through right now, the emptiness, the pain, and 
             the sorrow.
               I can only hope that the bravery and the distinguished 
             act of courage by these two outstanding police officers--
             and the more than appropriate tribute being paid to them 
             will ease just a little of their pain and make the days 
             pass a little easier for the Chestnut and Gibson families.

               Mr. WATKINS. Mr. Speaker, I would like to have printed 
             in the Congressional Record a prayer I received from 
             Chaplain James Paul Maxwell from Shawnee, Oklahoma. When 
             Reverend Maxwell learned of the tragic deaths of Officer 
             Chestnut and Detective Gibson he composed a beautiful 
             prayer and asked that I share it with Congressman DeLay. 
             After reading the prayer myself, I was so moved that I 
             felt it would be a shame not to share this with the entire 
             Congress so I therefore ask that it be made a part of the 
             formal Congressional Record.

               Dear Heavenly Father, Our Lord
               We come to rejoice in Your gracious mercy and 
             forgiveness of sins. Today we praise Your name for taking 
             bad things and working them together for good.
               Lord, we are grieved at the unnecessary death of two 
             Washington, D.C. police officers. We come to You, leaning 
             on Your love and Holy Spirit for patience, for strength, 
             and for courage in the midst of great sorrow.
               Dear Lord, we pray for the wives and children of Officer 
             Jacob J. Chestnut and Officer John Gibson. And we pray for 
             the family, friends, and colleagues of these men. We know 
             their hurt and sorrow is almost unbearable. Lift these up 
             with Your love and healing and fill their loneliness 
             magnified with grief with the presence of Your Spirit, and 
             the Hope of Your gift of eternal life.
               Heavenly Father, we pray for our Nation's congressional 
             leaders and for our President. Give our Nation's leaders 
             Your wisdom that they will lean upon You for understanding 
             and direction.
               Lord we pray for all law-enforcement officers. Give them 
             Your protective care and wisdom to respond in courage to 
             perform their duties with firmness and with love. We long 
             for the final victory over sin and evil and sorrow in this 
             world and pray that You will give us determination and 
             faith to take our stand for righteousness in our land. 
             Thank You Lord Jesus for laying down Your life for us that 
             we might have life and have it more abundantly. Lift us up 
             through this darkness of evil that we might praise You in 
             Jesus' Name. Amen.
               Chaplain James Paul Maxwell, Shawnee Police Department, 
             Shawnee, Oklahoma.
                                               Wednesday, July 29, 1998
               Mrs. MALONEY of New York. Mr. Speaker, it's difficult to 
             add to what my fellow Members of Congress have said here 
             today about the dedication and commitment of the Capitol 
             Police Force.
               Officers Jacob Chestnut and John Gibson gave their lives 
             so that some of my colleagues might live.
               I did not know officers Gibson or Chestnut. But they 
             laid down their lives for my fellow Members and in so 
             doing, they were my friends.
               I want to simply thank the Capitol Police Force for 
             their acts of bravery. And I deeply admire their courage--
             not only in the face of danger but also in the face of 
             tremendous grief these past few days.
               Officers Jacob Chestnut and John Gibson are leaving 
             behind wives and children. I extend my condolences to 
             them, and I also extend my condolences to my fellow 
             Members of the House because we all clearly have lost two 
             friends--two people who were committed to service--who 
             were committed to us, committed to this country, and 
             committed to democracy.
               They have continued to stand proudly and helpfully on 
             the streets and corners of Capitol Hill carrying on 
             through these difficult days.
               We remember these two brave officers today--and will 
             memorialize them in the Capitol building.
               It's also a time to remember the officers across the 
             country who have laid down their lives for the citizens 
             they protect.
               Right now--near my home town--a 28-year-old officer is 
             struggling to stay alive after a teenager shot him in cold 
             blood. Officer Gerard Carter took a bullet to his head as 
             he walked with a fellow officer apparently on his beat in 
             Staten Island.
               Officer Carter had recently received the ``Policeman of 
             the Month'' award. He is married and has a young son. I 
             pray for his survival.

               Mr. BECERRA. Mr. Speaker, on July 27, 1998, I was away 
             from the House on official business during Monday's roll 
             call vote No. 340, on agreeing to the resolution honoring 
             the memory of Detective John Gibson and Private First 
             Class Jacob Chestnut of the United States Capitol Police. 
             Had I been present for the vote, I would have voted 
             ``yes.''
               As the official designee of the House Minority Leader, I 
             was present in Albuquerque, New Mexico, on July 27 along 
             with three of my Congressional colleagues representing the 
             Speaker of the House, the Senate Majority Leader, and the 
             Senate Minority Leader to join the President of the United 
             States as participants in ``The Great Social Security 
             Debate #3.'' May I note for the record that immediately 
             prior to the commencement of this debate President Clinton 
             asked all in attendance, in person and via television, to 
             observe a moment of silence in memory of the two heroic 
             officers.
               I join with my colleagues in the House to express my 
             deepest condolences to the families of Detective John 
             Gibson and Private First Class Jacob Chestnut who 
             sacrificed their lives for our Nation. For their acts of 
             courage, this country is forever grateful; their memory 
             will never be forgotten.

               Ms. NORTON. Mr. Speaker, today I am introducing the 
             Jacob Joseph Chestnut-John Michael Gibson United States 
             Capitol Visitor Center Act of 1998 (Chestnut-Gibson Act). 
             I feel a special obligation to do so because I represent 
             the District of Columbia in which the Capitol is located. 
             I also introduce the bill because the residents of the 
             District have a special relationship with the Capitol 
             Police. In 1992, when there was a large spike in crime in 
             the District, Congress passed the United States Capitol 
             Police Jurisdiction Act, a bill I introduced authorizing 
             the Capitol Police to patrol parts of the Capitol Hill 
             residential community closest to the Capitol where various 
             facilities of the Capitol are located. Capitol Police 
             officers were not only willing; they were enthusiastic to 
             use their excellent training and professionalism for the 
             benefit of residents and the many tourists and visitors 
             whose safety might be compromised by having to travel 
             through high-crime areas in order to get to the Capitol.
               My bill authorizes the Architect of the Capitol ``to 
             plan, construct, equip, administer, and maintain a Capitol 
             Visitor Center under the East Plaza of the Capitol'' 
             grounds. The primary purpose of the bill is to increase 
             public safety and security. A second purpose is to provide 
             a place to welcome visitors who are seeking tours, taking 
             into account their health and comfort. To guard against 
             excessive costs and to obtain quick action, the bill 
             requires the Architect to consider existing and 
             alternative plans for a visitor center and to submit ``a 
             report containing the plans and designs'' within 120 days.
               I have supported a Capitol Visitor Center since it was 
             first extensively discussed in 1991. During this decade of 
             high deficits, the reluctance of Congress to appropriate 
             funds for such a center has perhaps been understandable, 
             until last Friday. No one knows whether Officer Chestnut 
             or Detective Gibson or, for that matter, any other officer 
             or individual would have been spared had a visitor center 
             been in place. What we do know is that our nineteenth 
             century Capitol was not built with anything like today's 
             security hazards in mind. According to the Capitol Police 
             and the United States Capitol Police Board, a visitor 
             center would provide significant distance between the 
             Capitol and visitors, and for a host of reasons they have 
             documented, would make the Capitol more secure.
               Our foremost obligation is to protect all who visit or 
             work here and to spare no legitimate consideration in 
             protecting the United States Capitol. The Capitol is a 
             temple of democracy and is the most important symbol of 
             the open society in which we live. It is more so than the 
             White House, in part because the President's workplace is 
             also a residence and cannot be entirely open. However, the 
             Capitol symbolizes our free and open society not only 
             because it is accessible but also because of what 
             transpires here. It is here that the people come to 
             petition their government, to lobby and to persuade us, 
             and ultimately to discharge us if we stray too far from 
             their democratic demands. Thus, we neither have nor would 
             we want the option to make the Capitol more difficult to 
             access. After last Friday's tragedy, we have an obligation 
             to demonstrate that security is not inconsistent with 
             democracy.
               There is a second reason why this bill is necessary. 
             Visitors are safe when they come to the Capitol, but the 
             conditions they encounter do not ensure their health, 
             convenience, and cordiality, nor afford them the welcome 
             to which they are entitled. Members address constituents 
             seated on stone steps outdoors. In the blistering heat and 
             merciless cold of Washington, visitors wait in line 
             outdoors to tour the Capitol. During this summer, the 
             hottest on record in the United States, it has not been 
             uncommon for tourists to faint during lengthy waits on 
             line and then be rushed inside to be treated by our 
             physicians. Even if the Capitol had not incurred a 
             terrible tragedy, we would be in need of a more civil way 
             to welcome the people we represent.
               I will seek co-sponsors for this bill at once. I have 
             not waited to do so because I believe a bill requiring 
             plans for a visitor center is necessary to provide the 
             assurance of safety and comfort the public has a right to 
             demand. We must do more than try to recover from the shock 
             of the invasion of the Capitol by a gunman. We must do 
             more than mourn the irreplaceable loss of two fine men. We 
             must do what we can and we must do it now.
                                                Thursday, July 30, 1998
                                       Prayer
               The Reverend W. Douglas Tanner, Jr., Faith & Politics 
             Institute, Washington, D.C., offered the following prayer:
               Let us pray. Almighty God, we come before You this day 
             with hearts still heavy from the tragic events of last 
             Friday. Even as we begin to heal, we are conscious that 
             the pain of this week has been seared into our souls.
               And yet, in our sorrow and vulnerability, we have deeply 
             experienced our common humanity. Fierce political 
             adversaries have reached out to each other. Mutual respect 
             and genuine appreciation have been accorded across the 
             lines of party, ideology and station. We have known in our 
             hearts that every elected official, every police person, 
             every staff member, every tourist is, first, a fellow 
             human being. For that we are grateful.
               We pray that a constant awareness of each other's 
             humanity in this often fractious Capitol Hill community 
             might become the lasting legacy of officers J.J. Chestnut 
             and John Gibson. Amen.

               Mr. THOMAS. Mr. Speaker, I ask unanimous consent that 
             the Committee on House Oversight and the Committee on Ways 
             and Means be discharged from further consideration of the 
             bill (H.R. 4354) to establish the United States Capitol 
             Police Memorial Fund on behalf of the families of 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police, 
             and ask for its immediate consideration in the House.

               The Clerk read the title of the bill.

               The SPEAKER pro tempore. Is there objection to the 
             request of the gentleman from California?

               Mr. HOYER. Mr. Speaker, reserving the right to object, 
             and of course I will not object, but under my reservation, 
             I would yield to the gentleman from California (Mr. 
             Thomas), the chairman of the Committee on House Oversight.

               Mr. THOMAS. Mr. Speaker, I thank the gentleman from 
             Maryland (Mr. Hoyer) for yielding.
               Mr. Speaker, this bill establishes the United States 
             Capitol Police Memorial Fund on behalf of the families of 
             detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut.
               I want to make sure people understand that this bill 
             establishes by law an official fund in the United States 
             Treasury. Because of that, it is not only permissible, but 
             obviously appropriate, to use official House resources in 
             support of and to solicit contributions to the memorial 
             fund.
               In addition to that, the reason the Committee on Ways 
             and Means had jurisdiction over this measure is that those 
             donations to this fund are considered charitable and are, 
             therefore, tax deductible. In addition, there is a 
             provision which says that Federal campaign committees may, 
             in fact, donate funds to the memorial fund.
               It is an appropriate gesture, structured in the 
             appropriate way, that it is a tax deduction and no tax 
             would be levied against it.
               Mr. Speaker, I thank the gentleman for yielding under 
             his reservation.

               Mr. HOYER. Mr. Speaker, I thank the gentleman for his 
             explanation.
               Mr. Speaker, continuing under my reservation, many of us 
             attended the funeral of Detective Gibson today, and 
             tomorrow morning we will be attending the funeral of 
             Officer Chestnut. It has been a sad week for us all; in 
             some ways, however, a very proud week as well when we 
             consider the actions of these two brave and courageous 
             men, and indeed, the actions of their colleagues on the 
             Capitol Police Force and other emergency response teams 
             that came to the Capitol to assist our own Capitol Police.
               Mr. Speaker, as we drove from the church, there were 
             literally thousands upon thousands of Americans who stood 
             by the curb and watched the procession go by, waved, 
             saluted, placed their hands on their hearts, in 
             recognition of the contribution to their own welfare and 
             the welfare of their country, that these two brave and 
             courageous Americans had performed and the sacrifice they 
             had made.
               This will allow all of us, all Americans and indeed 
             others, in a very tangible way to participate in showing 
             to the families of Officer Chestnut and Detective Gibson 
             that our words are not the only thing that we are prepared 
             to raise on their behalf.
               Mr. Speaker, I thank the gentleman from California for 
             this action.

               Mr. THOMAS. Mr. Speaker, will the gentleman yield?

               Mr. HOYER. I yield to the gentleman from California.

               Mr. THOMAS. Mr. Speaker, the gentleman's words are quite 
             appropriate and timely in terms of the death of these two 
             particular officers.
               I do want to underscore that the establishment of this 
             United States Capitol Police Memorial Fund is dedicated on 
             an even basis to the families of these two gentlemen for a 
             6-month period. It means that this fund will live beyond 
             these two families' needs, and that it will become a 
             perpetual memorial fund available to the Capitol Police; 
             entirely appropriate for this occasion, but available in 
             the future, unfortunately, if needed. I thank the 
             gentleman for yielding.

               Mr. HOYER. Mr. Speaker, reclaiming my time, I thank the 
             gentleman for his comments.
               Mr. Speaker, obviously I am in strong support, as I know 
             every Member of this House is, of this resolution.
               Mr. Speaker, continuing my reservation for just a 
             minute, I yield to the gentleman from Virginia (Mr. 
             Moran).

               Mr. MORAN of Virginia. Mr. Speaker, I thank the 
             gentleman from Maryland for yielding to me.
               I would just like to mention at this point there is 
             another organization that has fulfilled a complementary 
             role. That organization's name is Heroes, Incorporated. 
             They responded immediately with cash assistance to the 
             family and are also prepared to provide scholarship funds, 
             as they have for every police officer killed in the 
             District of Columbia, I think it is over 300 now, and 
             dozens of children are receiving college scholarships as a 
             result of this organization. This is a wonderful fund, and 
             I mean nothing pejorative, and I wholly support it. But I 
             think it might be appropriate to mention the fact that the 
             Heroes also responded in a very generous fashion and 
             deserve some credit for doing that as well.

               Mr. HOYER. Mr. Speaker, reclaiming my time, I thank the 
             gentleman for his comments, and I would point out that 
             when the gentleman from Texas (Mr. DeLay), the majority 
             whip, made his initial presentation, he did, in fact, 
             speak directly of Heroes and the wonderful work they had 
             done, not only with respect to their immediate response 
             for these two officers, but the work that they had done 
             for so many other officers, and indicated as well that the 
             Hero scholarship is probably the most generous scholarship 
             that is given in America and will ensure that the children 
             of Detective Gibson and Officer Chestnut will not need to 
             worry about their educational expenses.
               But I thank the gentleman for his very appropriate 
             remarks.

               Mr. THOMAS. Mr. Speaker, I ask unanimous consent to 
             temporarily withdraw the bill.

               The SPEAKER pro tempore. Is there objection to the 
             request of the gentleman from California?
               There was no objection.

               Ms. ROYBAL-ALLARD. Mr. Speaker, due to business in my 
             Congressional District, it is with deep regret that I was 
             unable to vote in support of roll call vote 340, a 
             resolution honoring the slain capitol police officers, 
             Jacob Chestnut and John Gibson. My sincerest condolences 
             go out to their families and loved ones.
                                                  Friday, July 31, 1998
               Mr. THOMAS. Mr. Speaker, I ask unanimous consent that 
             the Committee on House Oversight and the Committee on Ways 
             and Means be discharged from further consideration of the 
             bill (H.R. 4354) to establish the United States Capitol 
             Police Memorial Fund on behalf of the families of 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police, 
             and ask for its immediate consideration in the House.

               The Clerk read the title of the bill.

               The SPEAKER pro tempore (Mr. Dreier). Is there objection 
             to the request of the gentleman from California?

               Mr. HOYER. Mr. Speaker, reserving the right to object, 
             and I will not object, but under my reservation, I yield 
             to the gentleman from California.

               Mr. THOMAS. Mr. Speaker, I thank the gentleman for 
             yielding.
               As we were discussing last night, this is a resolution 
             to create a memorial fund under the title ``United States 
             Capitol Police Memorial Fund.'' It will initially be on 
             behalf of the Gibson and Chestnut families for a period of 
             6 months, when it will continue in perpetuity as a United 
             States Capitol Police Memorial Fund. It is to create an 
             official fund in the United States Treasury. Therefore, 
             the support and oversight of that is entirely appropriate 
             in using Federal funds.
               In addition to that, any contributions to the fund are 
             tax deductible as charitable donations, and because of the 
             description and type of the fund, Federal campaign 
             committees may be able to contribute to the funds as well.
               When the gentleman finishes his comments and withdraws 
             his reservation, Mr. Speaker, I have an amendment at the 
             desk which will allow us to conclude the resolution.

               Mr. HOYER. Mr. Speaker, reclaiming my time, I said 
             yesterday that for the past 2 days, all of America has 
             paid its respect, its admiration, and its thanks to two 
             heroic officers, two officers who themselves acted in the 
             defense of freedom and this institution, but who also 
             symbolize those who every day place themselves in harm's 
             way to ensure civil order in our democracy, civil order 
             which is absolutely essential if our democracy is to 
             function as our Founding Fathers conceived it.
               Mr. Speaker, this resolution, if adopted as I expect it 
             to be unanimously, will provide an additional way in which 
             we can honor those two officers through contributions to 
             this fund that will ensure that the families who have 
             sustained an inestimable loss will find that loss to some 
             small degree diminished, to the extent that we can as a 
             generous Nation provide for them from an economic 
             standpoint. It is an appropriate resolution, an 
             appropriate action, and I would be pleased again, under my 
             reservation, Mr. Speaker, to yield to the distinguished 
             gentleman from California (Mr. Thomas), chairman of the 
             Committee on House Oversight.

               Mr. THOMAS. Mr. Speaker, it is entirely appropriate that 
             at the time that the Chestnut family is, in fact, 
             remembering their father and husband and friend and 
             relative, that we establish this fund. At this time I 
             would also like to thank the gentleman from Maryland for 
             the courtesies and cooperation that he exhibited; indeed, 
             all of the Members of this House, in terms of the level of 
             intensity of their response to an extremely tragic and 
             unfortunate situation. In all likelihood, this will be the 
             last resolution on this particular subject to come before 
             the House, and I did want to indicate that the House is an 
             institution and each individual in it, I believe, can be 
             extremely proud of the way in which the Capitol community 
             responded to such a tragic incident affecting two of its 
             own.

               Mr. HOYER. Mr. Speaker, I withdraw my reservation of 
             objection.

               The SPEAKER pro tempore. Is there objection to the 
             request of the gentleman from California?
               There was no objection.
               The Clerk read the bill, as follows:
                                      H.R. 4354
               Be it enacted by the Senate and House of Representatives 
             of the United States of America in Congress assembled,
             SECTION 1. ESTABLISHMENT OF UNITED STATES CAPITOL POLICE 
                  MEMORIAL FUND.
               There is hereby established in the Treasury of the 
             United States the United States Capitol Police Memorial 
             Fund (hereafter in this Act referred to as the ``Fund''). 
             All amounts received by the Capitol Police Board which are 
             designated for deposit into the Fund shall be deposited 
             into the Fund.
             SEC. 2. PAYMENTS FROM FUND FOR FAMILIES OF DETECTIVE 
                  GIBSON AND PRIVATE FIRST CLASS CHESTNUT.
               Subject to the regulations issued under section 4, 
             amounts in the Fund shall be paid to the families of 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police 
             as follows:
               (1) 50 percent of such amounts shall be paid to the 
             widow and children of Detective Gibson.
               (2) 50 percent of such amounts shall be paid to the 
             widow and children of Private First Class Chestnut.
             SEC. 3. TAX TREATMENT OF FUND.
               (a) Contributions to Fund.--For purposes of the Internal 
             Revenue Code of 1986, any contribution or gift to or for 
             the use of the Fund shall be treated as a contribution or 
             gift for exclusively public purposes to or for the use of 
             an organization described in section 170(c)(1) of such 
             Code.
               (b) Treatment of Payments From Fund.--Any payment from 
             the Fund shall not be subject to any Federal, State, or 
             local income or gift tax.
               (c) Exemption.--For purposes of such Code, 
             notwithstanding section 501(c)(1)(A) of such Code, the 
             Fund shall be treated as described in section 501(c)(1) of 
             such Code and exempt from tax under section 501(a) of such 
             Code.
             SEC. 4. ADMINISTRATION BY CAPITOL POLICE BOARD.
               The Capitol Police Board shall administer and manage the 
             Fund (including establishing the timing and manner of 
             making payments under section 2) in accordance with 
             regulations issued by the Board, subject to the approval 
             of the Committee on Rules and Administration of the Senate 
             and the Committee on House Oversight of the House of 
             Representatives. Under such regulations, the Board shall 
             pay any balance remaining in the Fund upon the expiration 
             of the 6-month period which begins on the date of the 
             enactment of this Act to the families of Detective John 
             Michael Gibson and Private First Class Jacob Joseph 
             Chestnut in accordance with section 2, and shall disburse 
             any amounts in the Fund after the expiration of such 
             period in such manner as the Board may establish.
                           amendment offered by mr. thomas
               Mr. THOMAS. Mr. Speaker, I offer an amendment.
               The Clerk read as follows:

               Amendment offered by Mr. Thomas:
               Add at the end of section 4 the following: ``Under such 
             regulations, and using amounts in the Fund, a financial 
             adviser or trustee, as appropriate, for the families of 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police 
             shall be appointed to advise the families respecting 
             disbursement to them of amounts in the Fund.''.

               Mr. THOMAS. Mr. Speaker, I urge that the resolution and 
             amendment be adopted.

               Mr. HOYER. Mr. Speaker, I support the amendment.

               The SPEAKER pro tempore. The question is on the 
             amendment offered by the gentleman from California (Mr. 
             Thomas).

               The amendment was agreed to.

               The SPEAKER pro tempore. The question is on the 
             engrossment and third reading of the bill.

               The bill was ordered to be engrossed and read a third 
             time, and passed, and a motion to reconsider was laid on 
             the table.
                                                 Monday, August 5, 1998
               Ms. KAPTUR. Mr. Speaker, we all know the name Russell 
             Weston, Jr., and we all know that he tragically took the 
             lives of two fine Americans, Officers Jacob J. Chestnut 
             and John Gibson. But many Americans still do not know that 
             this tragedy could have been avoided, not by installing 
             even more security here, but by improving the state of 
             health care available to the seriously mentally ill among 
             our citizens.
               The state of psychiatric care in our country has spawned 
             growing homelessness, more neglect, as well as increasing 
             violence since deinstitutionalization of mental patients 
             occurred over 2 decades ago with no community follow-up.
               The gentlewoman from New Jersey (Mrs. Roukema) and I are 
             working hard to establish a special House task force on 
             serious mental illness. This task force would be 
             responsible for examining the state of our mental health 
             system, especially those who are not being adequately 
             treated. This task force would gather testimony about what 
             America can and should do.
               Please support our effort to establish a task force on 
             mental illness. Contact the leadership. Urge them to move 
             so we can begin to repair the tattered dreams of millions 
             of American families.
                                             Friday, September 18, 1998
                            Public Bills and Resolutions
               Mr. HOYER. Mr. Speaker, I have today introduced in the 
             House a concurrent resolution. That resolution renames the 
             headquarters of the Capitol Police in the memory of 
             Officers Christopher Eney, Jacob Chestnut and Detective 
             John Gibson. I am introducing this resolution along with 
             Senator Paul Sarbanes, and I know that many Members on 
             both sides of the aisle will want to cosponsor it as well.

               H. Con. Res. 327. A concurrent resolution to redesignate 
             the United States Capitol Police headquarters building 
             located at 119 D Street, Northeast, Washington, D.C., as 
             the ``Eney, Chestnut, Gibson Memorial Building''; to the 
             Committee on Transportation and Infrastructure.

               Mr. Speaker, these men are fallen heroes of the Capitol 
             Police. Officer Eney lost his life during a training 
             exercise in August of 1984. He was the first Capitol 
             officer to lose his life. As we tragically know, Officer 
             Chestnut and Detective Gibson were struck down in the line 
             of duty just a few weeks ago on July 24. They were 
             defending this Capitol, innocent citizens, staff, and 
             Members from a maniacal and senseless shooting spree at 
             this Capitol.
               Mr. Speaker, August 24, 1984, and July 24, 1998, will 
             forever remind us that the risk is always present for 
             those we ask to defend this free society. The Capitol 
             police force, as a family who wish to honor the colleagues 
             of the family who died while performing their duties by 
             renaming their headquarters after them.
               This resolution would rename the United States Capitol 
             Police Headquarters as ``The Eney Chestnut Gibson Memorial 
             Building.'' This was popularly selected by the Capitol 
             Police and reflects the order in which each man lost his 
             life.
               I am proud and honored on behalf of all of my colleagues 
             to work with Senator Sarbanes and his colleagues in the 
             Senate to honor these heroes and their families.
               Mr. Speaker, these men and women of law enforcement, 
             like those we ask to join the armed forces and defend 
             freedom abroad, are responsible for us being able to meet 
             in this body in a society that honors peace and order and 
             law. The least we can do as a people is to honor our 
             fallen officers by naming the headquarters where they 
             served with dignity and pride.
               I know that my colleagues will want to join me in co-
             sponsoring this resolution.
                                             Monday, September 28, 1998
               Mr. NEY. Mr. Speaker, I ask unanimous consent that the 
             Committee on House Oversight be discharged from further 
             consideration of the concurrent resolution (H.Con.Res. 
             317), expressing the sense of Congress that Members of 
             Congress should follow the example of self-sacrifice and 
             devotion to character displayed by Jacob Chestnut and John 
             Gibson of the United States Capitol Police, and ask for 
             its immediate consideration.

               The Clerk read the title of the concurrent resolution.

               The SPEAKER pro tempore. Is there objection to the 
             request of the gentleman from Ohio?

               Mrs. MYRICK. Mr. Speaker, reserving the right to object, 
             this past July, the United States Congress and our entire 
             nation were gripped by a terrible tragedy, the deaths of 
             the Capitol Police Officers Jacob Chestnut and John 
             Gibson. Officers Chestnut and Gibson gave their lives 
             defending the United States Capitol, all of us who work in 
             this complex and the American people who visit it to see 
             their democracy in action. They died heroically while 
             defending our democracy.
               The outpouring of affection and gratitude for these two 
             men was as deep and genuine as any I have witnessed, and I 
             am certain that the many tributes to them served as a 
             comfort to their families.
               Of course, no words or tributes can replace their loss. 
             In the aftermath of this tragedy and the heartfelt 
             sympathy of the American people, we in this body were 
             briefly changed. We came together as one family to pay our 
             respects, to reflect on the almost surreal tragedy of that 
             July afternoon and, for a time, respect, civility, and 
             comity ruled the day.
               In fact Pastor Marcom, in delivering Officer Chestnut's 
             eulogy, remarked on the change that tragedy had on our 
             relations with one another, and he speculated that 
             probably the next week it would be business as usual. In 
             the weeks and months since this time, I have thought long 
             and hard about what we all experienced. I am convinced 
             that what we admired about Officer Gibson and Officer 
             Chestnut and what made them heroes is not the way they 
             died but the way in which they lived.
               Officers Chestnut and Gibson were honest, genuine, hard-
             working family men who loved their jobs and loved their 
             country. In an age where too many people seem consumed by 
             life's most superficial pleasures, they showed us that 
             America is populated by common men of the most substantial 
             and admirable character.
               Of course, the great tragedy is that it took their 
             deaths for us to recognize what heroes they had been all 
             along.
               Mr. Speaker, there is a lesson here. We would do well to 
             learn it. While we too often argue, bicker, and consume 
             ourselves with political maneuvering and intrigue, the 
             Nation cries out for real leadership, not in words but in 
             deeds. These complicated times demand a Congress dedicated 
             to integrity, good works, and behavior that reflects 
             admirably, not just on ourselves but on our sacred rights 
             and responsibilities as constitutional officers. But that 
             is too rarely the case.
               Simply put, Mr. Speaker, we are too much like a 
             caricature of ourselves and too little like Officers Jacob 
             Chestnut and John Gibson. We are too much like adversaries 
             and too little like we were in the days after the gun fire 
             erupted in the Capitol.
               This resolution asks that we honor those officers by 
             living our lives and performing our duties with the same 
             dignity, love, and respect with which these men lived 
             their lives and performed their duties.
               This resolution asks us to honor them by honoring the 
             people they protected and the people we represent, by 
             living up to a standard of service and behavior that we 
             can be proud of, as much as we were proud of the service 
             of these two men. This resolution asks us to exemplify 
             what is best in America, to lead rather than follow. If 
             one thinks about it, it is really not much to ask, and it 
             is long, long overdue.
               Mr. Speaker, I would like to thank the honorable 
             gentleman from Georgia (Mr. Lewis), my friend, for his 
             assistance with this resolution, as well as the gentleman 
             from Texas (Mr. DeLay), the honorable majority whip, for 
             his continued courage in the aftermath of a tragedy that 
             struck him so close to home.
               Mr. Speaker, in drafting this resolution, we consulted 
             the United States Capitol Police and the Chestnut and 
             Gibson families, who believe it to be appropriate and 
             fitting.
               Mr. Speaker, I withdraw my reservation of objection.

               The SPEAKER pro tempore (Mr. Fossella). Is there 
             objection to the request of the gentleman from Ohio?
               There was no objection.

               The Clerk read the concurrent resolution, as follows:

               Whereas Jacob Chestnut and John Gibson of the United 
             States Capitol Police laid down their lives for their 
             country and all of us;
               Whereas beyond the devotion of Jacob Chestnut and John 
             Gibson to duty, honor, and country was their commitment to 
             respect;
               Whereas Jacob Chestnut and John Gibson were simple, 
             humble, private men who deeply moved this nation simply by 
             doing their jobs;
               Whereas the focus on their exemplary personal character 
             could not have come at a time of greater need as many in 
             our country seem more and more dedicated to self-
             indulgence; and
               Whereas the Members of Congress have an unparalleled 
             opportunity to be urgently needed role models of respect 
             and dignity with no loss of personal principles: Now, 
             therefore, be it
               Resolved by the House of Representatives (the Senate 
             concurring), That Members of Congress should follow the 
             example of Jacob Chestnut and John Gibson by living lives 
             of love, respect, and integrity every day at all times, 
             including on the floor of the Senate and House of 
             Representatives, and should deserve the title 
             ``Honorable'' by setting an example so that Jacob Chestnut 
             and John Gibson did not die in vain.

               The concurrent resolution was agreed to. A motion to 
             reconsider was laid on the table.
                              Proceedings in the Senate
                                                  Monday, July 27, 1998
               The Senate met at 12 noon, and was called to order by 
             the President pro tempore (Mr. Thurmond).
                                       Prayer
               The Chaplain, Dr. Lloyd John Ogilvie, offered the 
             following prayer:
               Gracious Father, the source of comfort and courage in 
             times of grief, our hearts are at half-mast in honor of 
             Capitol Police Officers Jacob Chestnut and John Gibson who 
             were killed in the line of duty here in the Capitol last 
             Friday afternoon. These officers are like members of our 
             family. Their loss creates an empty place in our hearts. 
             Now that place is filled with profound gratitude for them 
             and their heroism. They lost their lives protecting all of 
             us who work here and those who visit the Capitol. Greater 
             love has no man than this, to give his life for his 
             friends.
               Dear Father, we can only imagine the wrenching grief of 
             the families of these valorous men. Place around them Your 
             arms of love, encouragement, and peace. Most of all, help 
             them to know that, for believers in You, death is not an 
             ending. Bullets cannot kill the soul. John and J. J. are 
             alive in You.
               Now we ask for one more thing. Make us more sensitive to 
             the dangers our officers face daily. Help us to express 
             our gratitude for what they do and for the great friends 
             they are. In the name of He who is the Resurrection and 
             the Life. Amen.

               Mr. LOTT. Mr. President, what happened in the Capitol 
             last Friday afternoon was a tragedy for our Nation. But 
             for all of us here it was something more. It was a death 
             in the family.
               We work here every day together, as Senators and as 
             officers of the Senate, staff members, pages, policemen. 
             We see them, and we pass them, over and over again. We 
             talk to them. Some of them we get to know quite well.
               I have had the occasion myself to develop a very 
             personal relationship with the man who was my security 
             detail when I was the whip in the House, a man named 
             George Awkward. He did for me what John Gibson did for Tom 
             DeLay as the whip in the House. We got to be very personal 
             friends. He had pizza at night, when we would get home 
             late, with my wife and with me and my children.
               So I know how much these men and women put their lives 
             on the line, and how much they mean to us on an individual 
             basis, but also how far too often we walk past them; we 
             take them for granted; we don't realize that they really 
             are there for a very important purpose--protection of our 
             constituents and of all of us and of this magnificent 
             building in which we serve.
               Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut were members of our congressional 
             family. They died defending us.
               They died defending this Capitol building, this temple 
             of law, where armed violence is a sacrilege against our 
             democratic institutions.
               So much has been said in their praise, and yet we need 
             to say more.
               So much has been offered in their honor, but we still 
             look for ways to express our admiration, our gratitude, 
             and most of all, our sorrow.
               We search for words to comfort their families, and it is 
             not easy to find them. Some losses stay with us forever.
               But far more important than our words and our 
             condolences is the assurance of Scripture, that our 
             Chaplain just gave--that ``greater love than this has no 
             man, than that he lay down his life for his friends.''
               That is what the speaker of those words did, almost 
             2,000 years ago, and that is what officers Chestnut and 
             Gibson did 3 days ago.
               In fact, it is what they were ready to do every day of 
             their career, every day when they left their homes and 
             loved ones knowing that they could face a deadly peril in 
             their daily routine.
               We do not think often enough of the quiet bravery it 
             takes for officers like those two--the men and women who 
             come to work, here at the Capitol and in communities 
             throughout the country, knowing that this might be the day 
             they encounter mortal danger in the course of their 
             duties.
               In my own area of the country--the gulf coast of 
             Mississippi--we recently lost a policeman in the line of 
             duty in Long Beach, Miss., and it made an indelible mark 
             on that community and on our whole region.
               Senators have already been informed that Officers 
             Chestnut and Gibson will lie in state tomorrow in the 
             great Rotunda of the Capitol.
               This is an extraordinary honor that we are paying to 
             them. In the past only Presidents, Supreme Court Justices, 
             and generals like Pershing and MacArthur, former Senator 
             Pepper, have lain in repose in the Rotunda. But I think it 
             is appropriate that these two men, who gave their lives 
             just down one flight of stairs defending that room always 
             packed with constituents, would have this moment to be 
             honored the way they deserve in that room.
               There will be times throughout the day for Members and 
             staff and the general public to pay their respects to 
             these two men to say a prayer, to consider how much we owe 
             these fallen colleagues and their families and all those 
             like them throughout the country.
               It is important to note that the public will be welcome 
             in the Capitol during that time, and welcome to join us in 
             our solemn tribute in the Rotunda, with the exception of 
             only one hour in the afternoon where there will be a 
             private opportunity for Members of Congress to observe and 
             to pay our respects to these men.
               It is most fitting that the public, our constituents 
             from all over the country and all over the world, should 
             be there with us, as they will be, for Officers Chestnut 
             and Gibson and their colleagues were defending them, too.
               I can understand the wish in some quarters to make the 
             Capitol absolutely impregnable, or even to close it to the 
             general public so that nothing like this could ever happen 
             again. We will, of course, examine closely all of our 
             security procedures again as we continue to do almost 
             daily to see whether anything can be done to improve it. 
             But we have to keep in mind that this Capitol is, more 
             than any other edifice in the country, and certainly I 
             believe in the world, the People's House.
               When I walk out of my majority leader's office and take 
             three steps, I am standing with constituents from all 
             across America. They are there every day. Sometimes they 
             seem surprised that they would see Senators and 
             Congressman walking among them. But that is the way it 
             should be. This building is accessible and it amazes our 
             visitors, domestic and foreign, many of whom have had 
             chance encounters with Members of Congress, the 
             President's Cabinet, in the halls, in the dining rooms, in 
             the elevators. The reason the Capitol is so open is that 
             our society is so open. We pride ourselves on that fact.

               The people's access to their Capitol is the physical 
             manifestation of democracy. It represents something rare 
             and precious, something all Americans take for granted. It 
             represents the bond between those in high office and those 
             who put them there. It represents, in short, our freedom.

               For that freedom, throughout our history, men and women 
             have been willing to stand guard, to fight if necessary, 
             and to die on many fields in many places in the world.

               They have done all that to protect their homes, to 
             shield their loved ones, and to preserve their Nation. 
             Some of those brave individuals are memorialized in the 
             Capitol itself in statues of bronze and marble. They stand 
             among us, mute but strangely eloquent about the price of 
             liberty.

               Tomorrow, amid those grand statues of heroes past, we 
             will honor two of our own to whom heroism was simply duty. 
             For those two, for Officers Jacob Chestnut, affectionately 
             known as J.J., and John Gibson, this open Capitol, with 
             wide-eyed kids learning the Nation's history, with 
             strangers from abroad awed by its grandeur, with Americans 
             of all creeds and races and religions celebrating their 
             common faith in God, and in one another, this Capitol 
             itself will be their enduring monument.

               Mr. President, the Senate later on today will adopt an 
             appropriate resolution. It will be a joint resolution, 
             House and Senate. We will confer with the leaders of both 
             bodies on both sides of the aisle as to the appropriate 
             time to have that vote, and we are reviewing the language 
             at this time.

               I thank all Senators in advance for their cooperation.

               I yield the floor.

               Mr. THURMOND addressed the Chair.

               The PRESIDING OFFICER (Mr. Hagel). The Senator from 
             South Carolina.

               Mr. THURMOND. Mr. President, I have another engagement 
             at this time, but sometime during the day I expect to make 
             a statement on the death of Officer Chestnut and Officer 
             Gibson, heroes of the Senate.

               Mr. MACK. Mr. President, I rise today to honor John 
             Gibson and Jacob ``J.J.'' Chestnut, the officers who gave 
             their lives Friday in the line of duty.
               For Members of the Senate, I would remind them that John 
             Gibson was one of the individuals who was a part of our 
             security detail on our most recent retreat. Yesterday 
             morning, after an early morning run, I stopped by the 
             Capitol where people had placed flowers at the steps, and 
             I talked with a young officer who told me how proud he was 
             of J.J. J.J. was the kind of person who, after 20 years of 
             service in the military, took under his wing the new men 
             and women who were coming into the Capitol Hill Police 
             Force and helped them on a personal basis, giving them 
             tips about the kinds of things to which they needed to pay 
             attention with their training, the kinds of things they 
             ought to try to accomplish when they are dealing with our 
             constituents when they come into the Capitol.
               Many times, I am sure, we forget the difficulty of the 
             duty that they have, on the one hand to be trained to the 
             extent to react the way they reacted on Friday, 
             unselfishly, putting themselves in harm's way so that 
             others may survive, but at the same time having the 
             responsibility of treating with such graciousness our 
             constituents, our friends, our neighbors, when they come 
             to the Capitol. It is a really difficult job, and I just 
             want to express to the members of the Capitol Hill Police 
             Force, all of those who participate in providing security, 
             our deep appreciation for what they do on a day-to-day 
             basis. Each day we come to work, we pass these officers. 
             As the majority leader said, some of them we know by name, 
             others we have befriended.
               I particularly remember C.J. Martin over at the Delaware 
             entrance in the Russell Building, how each morning we 
             would discuss some very personal things about our lives, 
             the kinds of common bonds, if you will, that we shared. 
             And so, while I didn't know J.J. Chestnut and John Gibson 
             to the degree that I have known other members of the 
             police force here, I know that they were very special 
             people. Again, listening to that young officer talk about 
             how J.J. would stand at that door, erect in that military 
             stance, with great pride, frankly, in the job that he 
             performed, and the reaction that he had, again, with the 
             people as they came in, we don't take what they do for 
             granted, and we want them to know that we are concerned 
             about them and we are concerned about their families.
               I had the opportunity on Friday evening to visit the 
             families of J.J. Chestnut and John Gibson and to express 
             to them our deep concern and our love for them, wanting 
             them to know that we cherish their fathers, their 
             husbands, that they mean a great deal to us, that we will 
             do what we can to comfort them, that we won't forget them, 
             that we will remember the families.
               While the officers are the ones who lost their lives, 
             now it is a tough and difficult time for the families. 
             Each one of us, I know, has had the experience of losing 
             someone close to us and we can feel the pain of the 
             tragedy that took place, and we want those families to 
             know that we have not forgotten them and that we will do 
             what we can over the years to see that they are not 
             forgotten.
               Friday, in talking with the young sons of ``Gibson,'' as 
             they refer to him, I can only imagine the hurt and pain 
             that those boys 14 and 15 years old must be feeling. I say 
             to all of us, regardless of the role that we play in the 
             Senate or in the House, we are all one big family.
               In a sense, there are many families within the family. 
             There is the family of officers and the special grief that 
             they must be experiencing today, as they are required to 
             carry out their duties at a moment in which their minds 
             and hearts must be focused on their lost officers and 
             their families. So I ask everyone, if they would, during 
             this day and the next several days, to pray for those 
             families--for comfort, for love, and for hope.
               Again, I can remember a particular time in which my 
             younger brother passed away. I was so angry about his 
             loss; people would come up to me and say, ``Connie, time 
             will take care, time will heal,'' and I was so angry I 
             said, ``I don't want it to be healed. I don't want time to 
             take care of it. I am angry.''
               But I hope that the families, especially the children, 
             will deal with those feelings inside, that they will share 
             those thoughts to get them out so they don't carry around 
             that hurt and that pain. We want them to know that we 
             truly love them, that we will miss their fathers, their 
             husbands, and we will try to make the Senate and House and 
             the Capitol a place in which they can be proud.
               I yield the floor.

               Mr. LOTT. Mr. President, I suggest the absence of a 
             quorum.

               The PRESIDING OFFICER. The clerk will call the roll.

               The legislative clerk proceeded to call the roll.

               Mr. KEMPTHORNE. Mr. President, I ask unanimous consent 
             that the order for the quorum call be rescinded.

               The PRESIDING OFFICER. Without objection, it is so 
             ordered.

               Mr. KEMPTHORNE. Mr. President, for the past 5 years I 
             have had the honor of sponsoring the resolution 
             designating National Peace Officers Memorial Day. This 
             year we added the names of 159 officers to the National 
             Law Enforcement Officers Memorial. Since the inception of 
             this memorial, 14,662 peace officers have been added to 
             the wall.
               Next year, two more names will now be added to the wall. 
             These memorials and others around the Nation serve as 
             proof that the individuals who serve this Nation, as our 
             guardians of peace, do so at great personal risk. There 
             are few communities in America that have not been touched 
             by the senseless death of a peace officer by violent 
             means.
               This community of Capitol Hill has been touched by 
             tragedy. On Friday, two of our own, Officers John Gibson 
             and J.J. Chestnut, were felled by an assailant while they 
             performed their duties.
               America should know that for all the influence of this 
             city and this place, this is, in some ways, like a small 
             town. We know the people in this community as well as we 
             know the people in our own communities back home. The 
             employees who work here day to day become very familiar 
             faces to those of us who are sent here temporarily by our 
             States.
               The Capitol Hill Police have a very special duty and a 
             very special trust. They guard this place, this summit of 
             freedom, this People's House, and keep it safe for the 
             citizens of the world. The Capitol Hill Police perform 
             this duty with an unwavering commitment to our safety. And 
             they are willing, as Officers Gibson and Chestnut proved, 
             to lay down their lives for all of our safety.
               John Gibson--whom I knew personally--was a tremendous 
             professional in every sense of the word. When I saw his 
             photograph in the paper, the difference was every time 
             that I would see John or have a word with him his face 
             always had a smile.
               J.J. Chestnut, who worked in one of the entrances to 
             this great building, like so many of our officers, was 
             perceived to be more than just a police officer to the 
             wonderful citizens who come to this magnificent building. 
             I think they sense that instead of just a police officer, 
             they are being greeted by ambassadors in the People's 
             House.
               I believe that our Capitol Police Department exemplifies 
             the finest in America. I have never heard any statement 
             that any of our police officers have been badge-heavy. I 
             have simply heard great reviews of the professionals who 
             carry the badge of the Capitol Police Department.
               I know many of the Capitol Police officers personally. I 
             have listened to stories about their families. I have seen 
             photographs of their kids--just parent talking to parent 
             who share a funny story or observation or simply a good 
             word at the end of the day. But in the end, put most 
             simply, they are here to take care of us.
               As we near the end of this century, we are often 
             impelled to observe this country is cynical. It is, I 
             suppose, in the American character to question our 
             condition and bemoan the things that are not now as we 
             remember them to be. But in truth, the sacrifice of these 
             men and their families are akin to the selfless ideal that 
             has made this country great. The bravery and the 
             commitment to community that these men possessed will be 
             carried on by their families.
               I have had the honor to meet with the families of slain 
             officers from my home State. The strength and the 
             perseverance that is exemplified by each of them is an 
             inspiration to me.
               My thoughts and prayers go out to these families and 
             others who have been devastated by this type of senseless 
             violence. There is no answer to the meaningless violence 
             that occurs, but we must celebrate and memorialize the 
             lives of the officers who serve and protect us.
               To the Capitol Hill Police, I would like to simply say, 
             I am sorry for your loss and for our loss because we are 
             family here, to say how proud all of us are of you and to 
             thank you for your service that you give to us each day, 
             and to say to the families of Officer Gibson, Officer 
             Chestnut: Your husband, your father, demonstrated service 
             beyond self in the most dramatic way--by sacrificing their 
             lives for our safety, for our freedom.
               Our prayers are with John, with Officer Chestnut, with 
             their families, and with the other officers who continue 
             that tradition of being truly some of the finest anywhere 
             in the Nation or the world. You are our friends, you are 
             our guardians, so that we can do our duty here in the 
             Nation's Capitol. God bless these two officers and God 
             bless what they mean to all of us.
               I yield the floor.

               The PRESIDING OFFICER. The Senator from Connecticut.

               Mr. LIEBERMAN. I thank the Chair.
               Mr. President, it has struck me often in my 10 years 
             here in the Senate that one can look at the life we lead 
             here in different ways. In one sense, in a sense that is 
             most visible, we do the work of the country: We hold 
             hearings, we meet with constituents, we legislate. This is 
             the Congress of the United States.
               But in another sense, it has struck me increasingly over 
             the years I have been honored to be here that there is 
             another level of experience in this Capitol, which is that 
             we are, in our own way, a small town of our own. We are a 
             community. Yes, we have the Members of Congress and we 
             have all who serve in our offices so well. We have the 
             officers of both Chambers and those who work to keep these 
             Chambers going. But there is a broader community here that 
             we are all part of. It is the people who keep the 
             buildings in such good repair.
               We have doctors, we have nurses, we have clergy people, 
             we have representatives of the media who live in this 
             community with us who cover us. We even have our own 
             newspapers. And we have police officers. We are a small 
             town in the way that life is lived in so many small towns 
             across America. But we are very different from most any of 
             those small towns in that hundreds of thousands of fellow 
             Americans--indeed, people from all over the world--come 
             and walk through this great citadel of democracy, this 
             great symbol of freedom, peacefully and respectfully, 
             coming through our community.
               On Friday, as we all know, one madman disrupted the 
             tranquility of our community and took two of our own, 
             Special Agent John Gibson, Officer Jacob Chestnut. There 
             is a sense of palpable sadness and grief in this Capitol 
             today, a sense of mourning at the loss of these two 
             officers, because they were members of our community. We 
             saw them every day. We exchanged greetings with them. We 
             deeply regret and in some ways, I am sure, feel anger at 
             what happened on Friday to take these two fine men, these 
             two heroes, from us.
               As we mourn their loss, I do think it is important for 
             us to remember the extraordinary and unique war that law 
             enforcement officers play in this small town, our little 
             community, the Capitol of the United States, which is 
             similar to the part they play in every other community 
             across America. Think of what happened in those few 
             tragic, jolting moments on Friday afternoon when danger 
             occurred and the sound of bullets resonated through the 
             halls of the Capitol. Most everyone in the Capitol ran for 
             cover, locked their office doors, jumped under tables and 
             desks, got out of the way of danger. But the law 
             enforcement officers, the Capitol Police throughout this 
             Capitol, including these two fallen heroes, rushed to the 
             danger. That is their job, to protect the rest of us. It 
             is an extraordinary difference in a quiet, normal moment 
             on a midsummer Friday afternoon. Suddenly, one madman 
             pierces all of that, and every officer, every Capitol 
             Police officer in our small town rushes to their duty 
             station. These two responded with instinctive but 
             extraordinary, heroic impulses to stop this man, and 
             ultimately did, and save so many lives through their 
             heroism.
               Mr. President, I mentioned this to pay tribute in some 
             small way to Special Agent Gibson and Officer Chestnut, 
             but also to remind us how much we owe these people in this 
             small town of ours, and in every city and town across 
             America, and why we ought not to just treat them with a 
             warm hello but feel, as we do today, in some measure every 
             day the gratitude we have to them and express that in the 
             best way we can, which is not only as friends and fellow 
             citizens of our communities, but when we have a chance, as 
             employers, to treat them appropriately and according to 
             the extraordinary responsibilities that they bear in a 
             moment of crisis.
               Mr. President, by coincidence this morning I was reading 
             from Jeremiah's Book of Lamentations and I read the 
             commentary on Lamentations in which were cited the 
             comments of an ancient rabbi who was interpreting David's 
             Book of Psalms. In dealing with the sadness, the sense of 
             gloom that is so at the heart of the Book of Lamentations, 
             this sage of old expressed a thought that is familiar to 
             all religions, which is, ``If I had not fallen, I could 
             never have arisen. If I had not sat in darkness, I could 
             never have seen the light of God.''
               So in this time of deep and heavy darkness for our 
             community here on Capitol Hill, we pray with faith 
             together and the faith that unites us in our community, 
             unites us as faith has always united people in American 
             communities, that Special Agent Gibson and Officer 
             Chestnut are seeing the light of God, that they are being 
             welcomed in the warm embrace of eternal life, greeted as 
             the heroes that they are. We pray, also, that God will 
             grant strength and comfort to their families, to their 
             friends, to their fellow officers in the Capitol Police 
             corps, and in some measure to all of us in this small 
             town, Capitol Hill, who, today, mourn their loss.
               I thank the Chair and I yield the floor.

               Mr. ROBB addressed the Chair.

               The PRESIDING OFFICER. The distinguished Senator from 
             Virginia is recognized.

               Mr. ROBB. Mr. President, first, I ask unanimous consent 
             the period for morning business be extended by an 
             additional 15 minutes--I know there is at least one other 
             colleague on the floor and there may be others--so that we 
             might spend a moment in additional tribute to the two 
             officers.

               The PRESIDING OFFICER. Without objection, it is so 
             ordered.

               Mr. ROBB. Mr. President, I just want to add my voice to 
             those who have already spoken and those who will.
               Friday was a difficult day for all of us here as part of 
             the family. That has been more eloquently described than I 
             can describe it both today and elsewhere. Like many of the 
             Members, I happened to be in my office less than 100 yards 
             away from where the shooting took place. I was unaware of 
             the shooting. I heard the sirens and I heard the 
             helicopter when it approached to take the victims to the 
             trauma center. At that point, I tuned in and observed what 
             was happening.
               There was a sense on the part of all of us that 
             something very tragic had occurred to members of the 
             family. It wasn't until the names were released that we 
             knew which members of the family had been affected. I 
             realized when I heard the names and saw the pictures that 
             Officer J.J. Chestnut was the person who had been on that 
             post any number of times. Many of us who come and go from 
             the Nation's Capitol late in the evening find that is one 
             of the few doors that is open. So we get to know the 
             people who are there, and they are always greeting us with 
             a smile.
               In truth, I didn't know that I knew or had a 
             relationship with Special Agent Gibson until I found out 
             from my wife and mother-in-law that during a recent visit 
             he had accompanied them throughout a tour of the Capitol, 
             and they had been very grateful for the professional 
             courtesies and kindness that he had extended to them. I 
             found out that he was a resident of Lake Ridge, Va. It 
             just so happens that the other person who was wounded, 
             Angela Dickerson, who was a tourist taking a family on a 
             tour, also happens to be from Chantilly, Va. I noted that 
             J.J. Chestnut was a Vietnam veteran and is going to be 
             accorded full military honors when he is buried Friday in 
             Arlington.
               These were very special people. The initial feeling 
             among many when we heard that there had been gunfire 
             inside the Capitol was that somehow the security system 
             had broken down. I was relieved and pleased, as I think 
             all of our Members were, to know that in this case the 
             system had actually worked, and it had worked superbly. 
             The men who ultimately gave their lives had done so in 
             precisely the way they were trained to protect the Capitol 
             and all who serve in it. I think that is a testament to 
             the professionalism of the Capitol Police and to all of 
             the members of this extended family.
               I didn't go out and talk to the media on Friday, but two 
             down-State reporters came to my office, unsolicited, and I 
             talked to them for a couple of minutes. One asked me, 
             ``What should we do?'' I said, ``I hope we don't do much 
             of anything. We will take a look at the procedures, but we 
             want to keep the People's House as open as we possibly 
             can.'' I think this is a symbol of democracy, and these 
             two men died in defending that symbol. But we want to be 
             careful not to take the wrong actions.
               What we can do, and what we ought to do, is remember to 
             thank those who serve us--whose service we sometimes take 
             for granted. On the way out of the Capitol later that 
             evening, I stopped and thanked the Capitol Police officers 
             who were still on duty. They were still doing their duties 
             professionally, although they were grieving. I happened to 
             go to an engagement that I had that evening and I was late 
             coming back. It didn't conclude until almost midnight. I 
             said, ``I want to go back to the Capitol. The midnight 
             shift will have come on now and they are going to take it 
             pretty hard as well.'' I had a chance to quietly visit 
             with some of the other members of the Capitol Police.
               Many of us are trying to find a way to say to those men 
             and women who serve so ably, and sometimes without the 
             recognition that they deserve, that we are grieving with 
             them, that we appreciate what they did, what they continue 
             to do. I suggest to people who might not be a part of the 
             extended family here in the Capitol that all of us feel 
             that if you want to find a way to express your 
             appreciation, stop your local policeman on the street and 
             say ``thank you'' because they, too, are providing a kind 
             of service that, in many cases, we end up taking for 
             granted; yet, it is critically important. When the chips 
             are down, these folks respond. And as my distinguished 
             colleague from Connecticut noted a minute ago, when many 
             seek cover, that is the time they put themselves directly 
             in harm's way to ensure that access to our Nation's 
             Capitol and the freedom to move about goes uninterrupted 
             for all of us who benefit from their services.
               With that, I will close. I just wanted to say to all of 
             those who continue to serve: Thank you. We don't always 
             remember to say that. To the families of J.J. Chestnut and 
             John Gibson, in particular, we share your loss. You are in 
             our thoughts and prayers, and to all who serve us in ways 
             too numerous to count, we do appreciate what you have done 
             for us and what you continue to do for us. We will 
             continue to remember the extraordinary service and the 
             ultimate sacrifice that was made by these two fine 
             officers in defense of our Nation's Capitol.
               With that, Mr. President, I yield the floor.

               Mrs. HUTCHISON. Mr. President, I just want to say that 
             all of us in the Capitol have one overriding thought in 
             our minds right now, and that is that our hearts go out to 
             the families of the two officers who were slain in the 
             line of duty last Friday.
               All of us were in a different place. But I will never 
             forget where I was when learning this tragic news. I had 
             left the Capitol that morning and had returned home to 
             Texas. I was just stunned. And when I learned that these 
             officers had passed away after their injuries, I was 
             heartsick, as all of us were.
               There is no question that the Capitol Police are friends 
             to all of us. When I came into the Capitol this morning 
             and saw the black tape across their badges, it all hit. 
             And I want to say there is not anyone here who has worked 
             with these fine men and women who doesn't appreciate every 
             day the job they do protecting all of us and every visitor 
             to the Capitol.

               Mr. SARBANES. Mr. President, I want to take just a 
             moment to join those of my colleagues who have already 
             spoken with respect to our profound shock at the death of 
             Jacob ``J.J.'' Chestnut and John Gibson, two Capitol 
             Police officers who lost their lives in the line of duty 
             on this past Friday, and to express my very heartfelt 
             sympathies to their families.
               J.J. Chestnut and John Gibson have been engaged over 
             their working careers in the dedicated mission of 
             protecting the lives of their fellow citizens, literally 
             thousands of people who move in and out of the Capitol 
             Building each day, those who work here, those who visit 
             here, both our own citizens and from abroad.
               As we all know, on Friday, the People's House, the U.S. 
             Capitol, was violated by a gunman. Officer Chestnut and 
             Special Agent Gibson put themselves on the line, as do all 
             law enforcement officials each day, both at work and, 
             since they are committed to law enforcement, even when 
             they are off work, literally all the time, in order to 
             protect the physical well-being--indeed, to protect the 
             freedoms that so many of us have taken for granted.
               In its editorial today, Roll Call, which, of course, as 
             we all know, is the newspaper devoted to reporting the 
             activities on Capitol Hill, said this:

               Sometimes, given the comparative low level of violence 
             around the Capitol complex and given that Capitol Police 
             officers are usually seen cheerfully directing traffic and 
             gently herding tourists, it's forgotten that ours [meaning 
             the Capitol Police Force] is a real police force. We who 
             live and work around the Capitol know--but others don't--
             that our police also fight crime in the neighborhood as 
             well as watch the Capitol. But now all of America 
             understands that the Capitol Police do not just stand 
             guard, but also stand ready to be heroes. That knowledge 
             was derived last week at heartrending cost.

               We call them heroes today, and they truly are, but 
             Officer Chestnut and Special Agent Gibson were also 
             husbands, fathers, grandfathers--already heroes to their 
             wives, to their children and grandchildren, to their other 
             family members, and to their neighbors who respected them 
             not only for their uniforms but for the laws they vowed to 
             uphold and the lives they protected on a daily basis. It 
             is these loving people they leave behind, having given of 
             themselves to protect the lives of others and to defend 
             one of the great symbols of this democratic Nation, 
             perhaps the preeminent symbol of our democratic Nation--
             the United States Capitol.
               Mr. President, may God bless J.J. Chestnut and John 
             Gibson. They are true heroes, and I join with my 
             colleagues in expressing my condolences to their family 
             members.

               Mr. DODD. Mr. President, I join other colleagues of ours 
             who today, and I hope tomorrow as well, will find time to 
             express their deep sense of sorrow over the loss of two of 
             our Capitol Hill police officers last Friday, as well as 
             to express their sincere condolences to the families and 
             friends of these two very fine officers, J.J. Chestnut and 
             John Gibson.
               The events of last Friday, July 24, certainly will leave 
             an indelible mark on this community--this Capitol 
             community, if you will--and our Nation. The tragic legacy 
             of this incident will not only be the courage displayed 
             opposing this senseless act of savagery but will also be 
             the premature loss of these two fine, brave men.
               J.J. Chestnut and John Gibson were not just courageous 
             officers, they were fine human beings. They were friends 
             of many here and in the House of Representatives. All of 
             us in this Chamber cannot help but take this loss 
             personally, because Officers Chestnut and Gibson worked 
             every day to ensure the safety of every one of us in this 
             Capitol Building. I think that every American should look 
             into their hearts and thank these two men for their 
             sacrifices, because they also worked to protect all of 
             those who visit this great Capitol Building, this symbol 
             of democracy, as well as the freedoms which the Capitol 
             represents.
               All Americans should give thanks and say a prayer for 
             these two fine men and all of the men and women in uniform 
             throughout our Nation who take that oath to ensure our 
             safety every day. Our police officers are husbands, they 
             are parents and friends, they are neighbors--in many ways, 
             ordinary citizens just like the rest of us. But in one 
             very important way, these individuals are quite 
             extraordinary. Every day when they put on their uniforms, 
             their work clothes, and they say goodbye to their families 
             and go to work, they literally put their lives on the line 
             so that we may enjoy the safety and the freedoms that too 
             often, I think, we take for granted. We describe their 
             actions as heroism, but they simply view them as their 
             duty.
               President John Kennedy once said:

               The courage of life is often a less dramatic spectacle 
             than the courage of a final moment; but it is no less a 
             magnificent mixture of triumph and tragedy. A man does 
             what he must--in spite of the personal consequences, in 
             spite of obstacles and dangers and pressures--and that is 
             the basis of all morality.

               While we will forever remember Officer Chestnut and 
             Detective Gibson for their actions on July 24, they 
             deserve our respect and admiration not only for the way 
             they performed their duties on that day but for the way 
             they and those who share a similar uniform carry 
             themselves every day throughout their lives--always 
             working in the service of others, with great courage and 
             character.
               It is important that we remember not only those who gave 
             their lives but also express our gratitude to those who 
             are left to carry on their mission.
               Officers Chestnut and Gibson's colleagues must put these 
             events behind them and carry on with their everyday lives 
             and continue performing the services that are so 
             important. We are all very grateful for the sacrifices 
             they make every day and the commitment to their 
             communities that these men and women display.
               It has been ordered that their bodies will lie in state 
             in the Capitol Rotunda tomorrow, the same Capitol where 
             they gave their lives in service to their country. This 
             honor is usually reserved for our Nation's most prominent 
             leaders, Presidents, Supreme Court Justices, and Generals. 
             But I know all of us in this Chamber feel that this is an 
             appropriate tribute to the two men whose commitment to 
             their country and their community is surpassed by none.
               J.J. Chestnut and John Gibson leave behind loving wives 
             and children. I offer my heartfelt condolences to both 
             families and their friends, and, on behalf of this body, I 
             know I speak for all of our colleagues in saying they will 
             long be remembered for their friendship and their courage.

               Mr. BENNETT. Mr. President, I wish to make a personal 
             comment about the tragedy that occurred in this building 
             on Friday and add my voice to those that have been raised 
             in tribute to the professionalism, courage, and compassion 
             of the members of the Capitol Police Force.
               I remember, when I first came to Washington as an intern 
             in 1950, a student from the university, the Capitol Police 
             Force was affectionately referred to as the ``campus 
             cops.'' It was a patronage job, and people who served on 
             the Capitol Police Force in those days were appointed by 
             their Senators. Usually, they were law students who were 
             going to school at George Washington University that 
             taught the entire curriculum at night. So the Capitol 
             Police could earn their way through law school by sitting 
             at their various stations in the Capitol during the 
             daytime and taking their classes at night. One of the more 
             prominent attorneys in Salt Lake City got his law degree 
             that way and said he did all of his studying at his desk 
             as a Capitol policeman and commented, ``If I had ever been 
             called upon to draw my weapon, I wouldn't have known what 
             to do. I would have been scared to death if anybody had 
             ever confronted me in my position as a policeman.''
               That was the situation 40, 45 years ago. The 
             professionalism of those who did draw their weapons and 
             handled them expertly in the crisis that occurred last 
             Friday demonstrates how far we have come and how great a 
             debt those of us who labor here, hopefully doing the 
             people's business, have to those who have produced that 
             kind of professionalism and produced that kind of change 
             from what we once had. I add my voice to those that have 
             been raised in tribute to those who serve us in that 
             capacity.

               Mr. MURKOWSKI. Mr. President, I rise to pay tribute to 
             the memory of the two Capitol Hill Police officers who 
             gave their lives in the line of duty Friday afternoon.
               Jacob J. Chestnut and John Gibson were dedicated 
             officers whose deaths are mourned by all of us on Capitol 
             Hill, and by many across America.
               A sense of genuine grief grips us as we come to terms 
             with the tragedy that unfolded in our midst on Friday. At 
             the same time, we stand in awe of the heroism they and 
             other officers displayed in ending a gunman's rampage and 
             saving the lives of innocent citizens.
               Jacob Chestnut and John Gibson were committed to the 
             United States, having sworn to protect lawmakers, 
             citizens, and the peace as Capitol Police officers. While 
             I did not have the honor of knowing them personally, I am 
             truly grateful for their dedication and service--as well 
             as the dedication and service of all who serve as police 
             officers.
               As a father of six and grandfather of eleven, I know how 
             important family is. The loss of a son, father, husband, 
             and friend is devastating. My thoughts and prayers and 
             those of my wife Nancy are with those who knew and loved 
             these two quiet heroes.
               Officer Gibson has left behind his wife, Evelyn, and 
             three children. While the loss of Officer Gibson as a 
             father and husband is immeasurable, I know his memory will 
             be a source of strength for his family.
               Officer Chestnut is survived by his wife, Wen-Ling, and 
             five children: Joseph, William, Janet, Janece, and Karen. 
             Grief has surely stricken this family and the death of 
             their cornerstone can never be as deeply felt by others, 
             but Officer Chestnut died a hero, protecting his country 
             as he had sworn to do both during his years in the Air 
             Force and as a Capitol Police Officer.
               Mrs. Chestnut, Mrs. Gibson--please accept our 
             condolences are prayers. We are all indebted to both your 
             husbands for their dedication and their selfless, heroic 
             acts.
               I yield the floor.

               Mr. LOTT. Mr. President, on behalf of myself, the 
             Democratic leader, and the entire Senate Membership, I 
             send a Senate concurrent resolution to the desk regarding 
             the fallen U.S. Capitol policemen. And I ask unanimous 
             consent that the Senate proceed to its immediate 
             consideration, and ask that the clerk read the resolution 
             in its entirety.

               The PRESIDING OFFICER. Without objection, the clerk will 
             report and read the concurrent resolution.

               The legislative clerk read as follows:

               A concurrent resolution (S. Con. Res. 110) honoring the 
             memory of Detective John Michael Gibson and Private First 
             Class Jacob Joseph Chestnut of the United States Capitol 
             Police for their selfless acts of heroism at the United 
             States Capitol on July 24, 1998.
               Whereas the Capitol is the People's House, and, as such, 
             it has always been and will remain open to the public;
               Whereas millions of people visit the Capitol each year 
             to observe and study the workings of the democratic 
             process;
               Whereas the Capitol is the most recognizable symbol of 
             liberty and democracy throughout the world and those who 
             guard the Capitol guard our freedom;
               Whereas Private First Class Jacob ``J.J.'' Chestnut and 
             Detective John Michael Gibson sacrificed their lives to 
             protect the lives of hundreds of tourists, staff, and 
             Members of Congress;
               Whereas if not for the quick and courageous action of 
             those officers, many innocent people would likely have 
             been injured or killed;
               Whereas through their selfless acts, Detective Gibson 
             and Private First Class Chestnut underscored the courage, 
             honor, and dedication shown daily by every member of the 
             United States Capitol Police and every law enforcement 
             officer;
               Whereas Private First Class Chestnut, a Vietnam veteran 
             who spent 20 years in the Air Force, was an 18-year 
             veteran of the Capitol Police, and was married to Wen Ling 
             and had five children, Joseph, Janece, Janet, Karen and 
             William;
               Whereas Detective Gibson, assigned as Rep. Tom Delay's 
             bodyguard for the last three years, was an 18-year veteran 
             of the Capitol Police, and was married to Evelyn and had 
             three children, Kristen, John and Daniel;
               Whereas Private First Class Chestnut and Detective 
             Gibson were the first United States Capitol Police 
             officers ever killed in the line of duty;
               Whereas Private First Class Chestnut and Detective 
             Gibson, and all those who helped apprehend the gunman, 
             assist the injured, and evacuate the building, are true 
             heroes of democracy, and every American owes them a deep 
             debt of gratitude: Now, therefore, be it
               Resolved by the Senate, (the House of Representatives 
             concurring), That--
               (1) Congress hereby honors the memory of Detective John 
             Michael Gibson and Private First Class Jacob Joseph 
             Chestnut of the United States Capitol Police for the 
             selfless acts of heroism they displayed on July 24, 1998, 
             in sacrificing their lives in the line of duty so that 
             others might live; and
               (2) when the Senate and the House of Representatives 
             adjourn on this date, they shall do so out of respect to 
             the memory of Detective John Michael Gibson and Private 
             First Class Jacob Joseph Chestnut.

               The Senate proceeded to consider the concurrent 
             resolution.

               Mr. DASCHLE. Mr. President, I want to extend my deepest 
             sympathy to the families of Officer J.J. Chestnut and 
             Detective John Gibson, and to the many friends that they 
             leave, particularly their brothers and sisters in arms, 
             the members of the United States Capitol Police. Our 
             hearts ache for them as they struggle with their 
             staggering loss.
               Like many Members of Congress, I was headed home Friday 
             afternoon when Officer Chestnut and Detective Gibson were 
             slain. I was in the airport in Minneapolis, changing 
             planes, when I first learned of what had happened. I was 
             shocked and sickened and saddened.
               Throughout the airport, wherever there was a TV, people 
             crowded around it to watch the news, and try to 
             understand.
               At home in South Dakota this past weekend, I spoke with 
             countless people who told me how terribly sad they are 
             about the deaths of these two brave men.
               In that airport, in South Dakota, and across our Nation, 
             Americans understand that Officer Chestnut and Detective 
             Gibson sacrificed their lives to guard and protect 
             something that is sacred to all of us.
               This Capitol truly is ``the People's House,'' a symbol 
             of freedom and democracy, recognized the world over.
               That is one of the reasons Officer Chestnut and 
             Detective Gibson loved it so, and were so proud to work 
             here.
               It is difficult, unless you have worked here, to 
             understand what a close-knit family the Capitol community 
             is. We come to work every day, pass each other in the 
             halls. We ask about each others' families, joke with each 
             other.
               And today, we try to comfort each other.
               Whenever you suffer a death in the family, as we have in 
             the Capitol Hill family, there is at first a sort of 
             unreality about it.
               That is especially true when the person is taken 
             suddenly, or too young, as Officer Chestnut and Detective 
             Gibson were.
               But then, you come to where they should be and there is 
             a hole in the world and you begin to understand that it's 
             true.
               Coming back to work today, we have all experienced that 
             void.
               Inside the Capitol, another officer stands where Officer 
             Chestnut should be.
               And the door over the House Majority Whip's office, 
             where Detective Gibson was stationed, is draped in black 
             bunting.
               Everywhere, the voices are quieter than usual. Tears rim 
             the eyes of many people. Outside, the flag over the 
             Capitol flies mournfully at half-staff.
               Below it, on the white marble steps, lay flowers and 
             cards left by a grateful public to honor two fallen 
             heroes.
               Then, there is perhaps the saddest sight of all: the 
             black bands stretched like a gash over the badges of the 
             Capitol Police officers.
               These are the inadequate tributes we pay to these two 
             extraordinary men whose professionalism, courage, and 
             selfless dedication last Friday afternoon surely saved 
             many innocent lives.
               But the real tribute is not what is different about the 
             Capitol today. The real tribute is what is the same.
               The halls of ``the People's House'' are filled today--as 
             they are every day--with vacationing families, school 
             children, Scout troops, and thousands of others who have 
             come to see their government in action. They walk these 
             majestic halls and marvel--as they do every day--at the 
             beauty of this building, at its history and its openness.
               That is the real tribute to Officer Chestnut and 
             Detective Gibson.
               Because they made us feel so safe, we may not have 
             understood fully the risks they took each day when they 
             put on their badges and came to work. But they understood.
               They knowingly risked their lives because they loved 
             this building and what it represents, and they wanted 
             others to be able to see their government at work.
               Among the bouquets on the steps outside is a handmade 
             tribute: a collage of a silvery cross on black paper. 
             Glued across the top of the collage is the headline from 
             Saturday's newspaper. It reads ``2 Slain Officers 
             Remembered, Called Heroes.''
               Today, as we struggle to accept that loss, we offer our 
             condolences and thanks to the men and women of the Capitol 
             Police Department especially those who were at work last 
             Friday afternoon and who reacted with such selfless 
             professionalism as well as those who worked through the 
             weekend so that ``the People's House'' could remain open 
             to the people.
               We can only imagine how awful these days are for you, 
             and how difficult it must be for you to be here.
               We are proud to work with you, and deeply grateful to 
             you for your courage and dedication.
               Above all, our thoughts and prayers are with the 
             families and friends of Officer Chestnut and Detective 
             Gibson. May God comfort them and ease their terrible 
             anguish.
               Tomorrow, we will put aside our normal schedule in order 
             to pay our final respects to Jacob Joseph Chestnut and 
             John Gibson.
               Their bodies will lie in honor in the Rotunda, 
             surrounded by statues of other American heroes. That is as 
             it should be, for they truly are heroes. They gave their 
             life for their country and, in doing so, saved the lives 
             of countless others. We are in awe of their sacrifice, and 
             we are grateful to them beyond words.

               Ms. MIKULSKI. I also want to voice my sorrow and the 
             sorrow of the people of Maryland following the tragic 
             events on Friday, July 24.
               And I rise in tribute to the heroic acts of Officer 
             Jacob ``J.J.'' Chestnut, from Ft. Washington in my home 
             state of Maryland, and special agent John Gibson, of 
             nearby Woodbridge, Virginia, who gave their lives to 
             protect the U.S. Capitol and its residents, to protect 
             this building that is the symbol of freedom and democracy 
             the world over.
               No words can adequately express my pain and outrage at 
             the senseless killings that took place at 3:40 on Friday. 
             No words can adequately comfort those who were emotionally 
             and physically injured, nor relieve the pain of the 
             families who lost loved ones. No words can erase the 
             horror of the Weston family upon learning that their son 
             may have committed this horrific act. And no words can 
             adequately express the sorrow that millions of Americans 
             feel today about this assault on our Nation's heritage and 
             democratic institutions.
               However, words can be used to remember and applaud the 
             lives and heroism of Officer Chestnut and Detective 
             Gibson. And I want to add my voice to the call today to 
             remember those brave men and commend all the Capitol Hill 
             police officers who put their lives on the line to protect 
             democracy. And I want to add my voice to the call to 
             ensure that the People's House remains open to the people, 
             while preserving the safety of those who work and visit 
             this great institution.
               Many of my colleagues know how indispensable and brave 
             the Capitol Hill Police Officers are, but many other 
             Americans learned of these brave troops just on Friday. 
             Let me tell you what I think many people didn't really 
             know until Friday: what a Capitol Hill Police Officer does 
             and what makes them so special.
               These men and women are some of the most unique officers 
             in the country. First, they are excellent federal law 
             enforcement officials who protect Members of Congress from 
             crooks, terrorists, or anyone else who would want to harm 
             us. They also protect all the people in the building, 
             whether it's a foreign dignitary, like Mr. Mandela, or a 
             girl-scout troop from Iowa. Second, they are also 
             ``Officer Friendly''--welcoming people and answering 
             questions. Many have taken special language training to 
             help visitors from around the world. Third, many are also 
             trained for other possible emergencies: to provide basic 
             paramedic help in the case of an ill tourist, or to 
             provide basic fire-fighting and help evacuate buildings in 
             the case of fires.
               These police are like our own ``cops on the beat.'' Many 
             of the officers are assigned a primary beat, which means 
             they get to know particular Members, our hours, and our 
             staffs; the regular delivery people; and others. They know 
             who are the usual folks coming in and can then detect 
             anyone who is strange, or who is acting strange. So, just 
             like thousands of towns across the country, Capitol Hill 
             has its own community policemen. They have a beat, they 
             get to know us, and we get to know them.
               And if you're on the beat, you get to know the officers 
             on your beat. We talk about the Orioles. We talk about 
             their families. There is always the proud dad. The one 
             who's getting off early because his daughter is going to a 
             prom and he's chaperoning. Or one who is the first in her 
             family to get her college degree.
               They also get to know us. We talk to them about our own 
             families. I know when my own mother was ill and we thought 
             she needed surgery, they volunteered to organize a blood 
             drive if I needed it. They told me that I never had to 
             worry, that if I needed extra people to come to Baltimore, 
             they would. They just said, ``Don't worry, Senator Barb, 
             we'll be there for you.''
               Finally, so many of the Capitol Hill Police Officers are 
             my Maryland constituents, just like J.J. Chestnut. So, I'd 
             hear if the fishing was good down in Southern Maryland, or 
             if the traffic was congested. Officer Chestnut was from 
             Ft. Washington in Prince Georges County. It's close to the 
             Potomac River, and it is where a lot of our officers live. 
             Where they can have a wonderful family life, fish in the 
             Potomac, or, as I've learned about Officer Chestnut, tend 
             a wonderful vegetable garden. Officer Chestnut was always 
             one of the stars--trained as an MP in the military, he'd 
             been with the Capitol Police for eighteen years and was 
             known for having a unique touch with tourists and 
             constituents. We were very proud of him and that he was 
             even nominated at one time as Capitol Police Officer of 
             the Year.
               And I know how proud we were of Detective Gibson as 
             well. He was from just across the River in Virginia, and 
             was also a star and a hero. From helping tourists to 
             protecting dignitaries, Detective Gibson always made the 
             safety of others his top priority. I know he was a true 
             hero on Friday, when he stopped the gunman from entering 
             further into the building.
               The Capitol Hill Police Officers are our hi-touch, hi-
             tech community police officers and we are very proud of 
             them. We are profoundly grieved at the passing of two of 
             that force's brightest lights, Officer Chestnut and 
             Detective Gibson.
               My heart and prayers go out to their families, as they 
             cope with their overwhelming loss. And my heart goes out 
             to the family of the suspect, Mr. Weston. From everything 
             I've seen and heard, Mr. Weston was mentally ill. From 
             interviews I've seen, the Weston family is a good family 
             and his mom and dad are absolutely grief-stricken at the 
             thought that their son could have done such a terrible 
             act. Our thoughts and prayers should be with them as well 
             today.
               Mr. President, I know the entire Senate joins me in 
             saying that this act was a horror and that no family, no 
             nation, should have to endure the pain we feel today. I 
             know that we will honor them tomorrow in a service 
             befitting heroes because, Madam President, they were 
             heroes. Giving their lives so that others might be safe is 
             the ultimate act of heroism. We know that Officer Chestnut 
             and Detective Gibson are heroes for today and all 
             eternity.
               Madam President, I hope that as we respond, we are very 
             careful to ensure that the public access continues to be 
             granted here. We need to ensure that what they died for, 
             which was defending not only the building, but what the 
             building stands for, remains accessible so that the public 
             can always come see us doing our work while they so 
             valiantly did their work. I thank the Chair and my 
             colleague, the senior Senator, for yielding me this time.
               I yield the floor.

               Mr. WARNER. Mr. President, on Friday, two veteran 
             Capitol Police Officers were killed in the line of duty 
             during a tragic attack in the United States Capitol. Their 
             sacrifice in performance of duty will forever be 
             remembered in the halls of the United States Congress.
               Tomorrow in the Rotunda of the Capitol we will 
             memorialize the bravery and sacrifice of these two 
             officers--the first Capitol Police Officers to be killed 
             in the line of duty.
               Officer ``J.J.'' Chestnut was 58 and the father of five 
             children. He was a grandfather and a 20-year veteran of 
             the United States Air Force with service in Vietnam. 
             Officer Chestnut was a member of the Capitol Police Force 
             for 18 years.
               Special Agent John Gibson was 42 and the father of three 
             children. He was an 18-year veteran of the Capitol Police 
             Force who served as a Special Agent assigned to House 
             Majority Whip, Tom DeLay for the last three years.
               To the families of these men, we extend our deep and 
             heartfelt sympathy during this very difficult time. The 
             Capitol Hill community has lost two respected and brave 
             defenders of democracy.
               To the fellow officers of these fallen heroes, you have 
             our unqualified support as daily you carry your duties to 
             protect the halls of freedom. Your dedication and service 
             to the Nation is deeply appreciated.
               Indeed, all Americans are indebted to Officer Chestnut 
             and Special Agent Gibson for their devotion to duty and 
             their sacrifice in the defense of freedom.
               Mr. President, as chairman of the Rules Committee, I 
             also had the opportunity over the weekend to maintain 
             close contact with those here under the direction of our 
             distinguished majority leader and minority leader, notably 
             the Sergeant at Arms and the chief of police. I wish to 
             commend them in the manner in which they very quickly took 
             charge of this tragic situation and, once again, reopened 
             the People's House--that is what this magnificent 
             structure is--so that the people from the United States, 
             people from all over the world, can continue to come and 
             share the magnificence of this edifice.
               A great debt of gratitude is owed, of course, especially 
             to these two officers and to their families. As I look 
             into the eyes of the men and women who guard the Capitol, 
             each day, I silently express my gratitude, for we couldn't 
             have 32,000 visitors as we did the day before and probably 
             in the days to come, who could walk through these 
             magnificent halls with a sense of safety and confidence--
             we couldn't have that without the dedicated service of our 
             Capitol Police. Nor could the business of the Congress 
             itself take place without their taking a risk every minute 
             of the day and night that this edifice is open for the 
             people's business.
               I also thank the medical department. They responded and 
             were on the scene within less than 2 minutes. I went down 
             to personally express my appreciation and their reply to 
             me was, we are there, we did our duty like everyone else, 
             and we are delighted to be a part of this team that 
             functions to make this magnificent organization and this 
             building serve the people of this country and, indeed, 
             stand as a symbol to the whole free world.
               I thank the Chair and I thank my distinguished 
             colleague.

               The PRESIDING OFFICER. The Senator from Florida.

               Mr. GRAHAM. Mr. President, I wish to join briefly in the 
             comments that have been made. The heroism of the two slain 
             officers will be a permanent memorial to the hundreds of 
             others, the thousands, the tens of thousands of others 
             here and across our land who daily put their lives at risk 
             so we can live as free and secure people.
               The greatest testimony that we could give to these two 
             brave men would be to continue the practice of openness in 
             this Capitol. Our democracy depends upon a very special 
             relationship between the people and those who are 
             fortunate enough to be their representatives. We must not 
             break that bond. We must be prudent in our actions, but 
             not closed in our demeanor toward the thousands of 
             citizens who come here on a daily basis to observe their 
             democracy.
               So I join in the comments that have been made by our 
             leaders and extend our heartfelt sympathy to those 
             families who have been so tragically ruptured by this 
             senseless act.

               Mr. KENNEDY addressed the Chair.

               The PRESIDING OFFICER. The Senator from Massachusetts.

               Mr. KENNEDY. Mr. President, the Nation was stunned as we 
             learned of the tragic deaths of John Gibson and J.J. 
             Chestnut, two veteran officers of the Capitol Police who 
             lost their lives in the line of duty in the tragic and 
             senseless shootings last Friday. The extraordinary 
             dedication and heroism of these two courageous officers 
             clearly prevented greater loss of life in the Capitol, and 
             I join all Americans in mourning their deaths.
               These brave men represented the very finest traditions 
             of American law enforcement. They protected a building--
             the Nation's Capitol--and in doing so they were also 
             defending our democracy. Unless citizens can come freely 
             into the Capitol building and meet with their elected 
             Senators and Representatives, our democracy and our 
             freedoms are greatly diminished. Special Agent Gibson and 
             Officer Chestnut understood this, and with professionalism 
             and dedication, they served Congress well and served the 
             country well too.
               It is fitting that these two brave men will lie in state 
             tomorrow in the Capitol building where they gave their 
             lives. They made the ultimate sacrifice to protect us, and 
             we will forever owe them and their families a debt of deep 
             gratitude.
               Our thoughts and prayers go out especially to the Gibson 
             and Chestnut families. My family too has suffered the 
             sudden loss of loved ones, and I know that there is no 
             greater tragedy, no greater sadness for a family.
               Special Agent Gibson is a son of Massachusetts, and we 
             were all especially proud of him. He loved his family, his 
             country, his church, and his Capitol. Our hearts go out to 
             his wife Lynn and his three children during this very 
             difficult time of loss.
               Officer Chestnut, too, was well known by anyone who 
             entered the Document Room door. He was always friendly to 
             everyone, and was a consummate professional in the conduct 
             of his duties. I join Wendy and the rest of Officer 
             Chestnut's family in mourning his loss.
               We cannot help but be angry at the senseless act that 
             led to the death of these two extraordinary officers. One 
             minute, the Capitol building is full of the people's 
             business--with debates and meetings and visitors from 
             across the country in this great and open symbol of our 
             free government. The next minute, the Nation was shocked 
             to learn the news that a man who had no business 
             possessing a handgun had taken the lives of these officers 
             in two brutal acts that shocked the conscience of Congress 
             and the country.
               In the days ahead, we will consider what steps may be 
             taken to ensure a secure--and yet open--Capitol. I hope 
             Congress will also consider further actions to keep guns 
             out of the hands of those who so easily misuse them. As we 
             saw on Friday, our failure to do so leads to tragedy far 
             too often.
               The Gibson and Chestnut families know that all of us in 
             Congress embrace them at this sad time. The Nation loves 
             them. We are grateful for their extraordinary service, and 
             saddened by their tragic sacrifice.
               Mr. President, on Saturday, at Andrews Air Force Base, 
             President Clinton spoke eloquently and movingly about the 
             loss of these two brave officers. I ask unanimous consent 
             that his remarks be printed in the Record at this point.
               There being no objection, the material was ordered to be 
             printed in the Record, as follows:
                     Remarks of President Clinton, July 25, 1998
               Good morning. The shooting at the United States Capitol 
             yesterday was a moment of savagery at the front door of 
             American civilization. Federal law enforcement agencies 
             and the United States Attorneys' office are working 
             closely with the D.C. Police and the Capitol Police to 
             ensure that justice is pursued.
               Meanwhile, I would ask all Americans to reflect for a 
             moment on the human elements of yesterday's tragedy. The 
             scripture says ``greater love hath no man than this, that 
             he lay down his life for his friends.''
               Officer Jacob ``J.J.'' Chestnut and Detective John 
             Gibson laid down their lives for their friends, their co-
             workers, and their fellow citizens--those whom they were 
             sworn to protect. In so doing, they saved many others from 
             exposure to lethal violence.
               Every day, a special breed of men and women pin on their 
             badges, put on their uniforms, kiss their families good-
             bye, knowing full well they may be called on to lay down 
             their lives. This year alone 79 other law enforcement 
             officers have made the ultimate sacrifice. Every American 
             should be grateful to them, for the freedom and the 
             security they guard with their lives. And every American 
             should stand up for them and stand against violence.
               Officer Chestnut was a Vietnam veteran, a member of the 
             Capitol Police for 18 years, just months away from 
             retirement.
               Detective Gibson was a deeply religious man, beloved by 
             his co-workers and, being from Massachusetts, devoted to 
             the Red Sox and the Bruins.
               Both leave behind loving wives and children, the 
             affection of neighbors, friends, and co-workers, and the 
             deep gratitude of those who are alive today because of 
             their bravery.
               In this one heartless act, there were many acts of 
             heroism, by strangers who shielded children with their 
             bodies, by officers who fanned across the Capitol, by Dr. 
             Bill Frist, a renowned heart surgeon before his election 
             to the Senate from Tennessee, who had just put down his 
             gavel, when he rushed to tend the injured.
               To all these and others, who stood for our common 
             humanity, we extend the thanks of our Nation. To the 
             families of Officer Chestnut and Detective Gibson, nothing 
             we say can bring them back. But all Americans pray that 
             the power of a loving God, and the comfort of family and 
             friends, will with time ease your sorrow and swell your 
             pride for loved ones and the sacrifice they made for their 
             fellow citizens.
               To Angela Dickerson, the young woman who was injured in 
             the shooting, we extend our prayers and hope for your 
             speedy recovery.
               To every American who has been shaken by this violent 
             act, to the millions of parents who have taken your 
             children through those very same doors, I ask you to think 
             about what our Capitol means. All around the world, that 
             majestic marble building is the symbol of our democracy 
             and the embodiment of our Nation. We must keep it a place 
             where people can freely and proudly walk the halls of 
             their government. And we must never, ever take for granted 
             the values for which it stands, or the price of preserving 
             them.

               Mr. HATCH addressed the Chair.

               The PRESIDING OFFICER. The Senator from Utah.

               Mr. HATCH. Mr. President, I have been honored to serve 
             here in the Senate for 22 years. I have to say that, to a 
             person, our Capitol Hill Police are terrific human beings; 
             to a person, they are dedicated to their jobs and they 
             want to do the best they can. Frankly, without them, I 
             think this place would not run anywhere near as well as it 
             does. To a person, those of us who knew John Gibson and 
             J.J. Chestnut have to say these are two of the finest who 
             have ever served on Capitol Hill. These are people for 
             whom everybody should have a sense of deep gratitude. They 
             gave their lives as a last full measure of devotion so 
             that many others might live.
               It is a shame that we have people who violate the law 
             and who may be emotionally disturbed and do things like 
             this. And it is an absolute catastrophe and tragedy for 
             the families of these two fine men. Our hearts go out to 
             them. Elaine and I have them in our prayers, as I know 
             other Members of Congress and Members of the Senate do as 
             well. These were two fine men--always courteous, always 
             looking out for not only the Members as they came in and 
             out of those doors and in and out of the Capitol, but for 
             every citizen who came to the People's House time after 
             time--and millions of them do. Both of them had long 
             tenures here and both served every day of those tenures 
             with distinction.
               Mr. President, I want to personally express my gratitude 
             to these men for the sacrifice they have made, and to 
             their families for the sacrifice that they have made. I am 
             sure the families will be taken care of. I hope we will do 
             some good for them and that they will realize how deeply 
             we all feel about the sacrifice that these two brave men 
             gave for us.
               Mr. President, this is one of the great spots on this 
             Earth. It is visited by millions of people. It means so 
             much to those of us who serve in this building. We are 
             vulnerable to people who are emotionally disturbed or who 
             may be terrorists. We are vulnerable to people who are 
             insensitive to the needs of those who serve here. On the 
             other hand, every one of us feels it to be such a 
             privilege to serve in these two great bodies, in this 
             separate branch of government that means so much to the 
             people. We could not serve very well, nor could we 
             accomplish very much if it weren't for the sacrifices of 
             all of our people here on Capitol Hill who work so hard--
             like John Gibson and J.J. Chestnut.
               Again, Mr. President, I pray to our Father in Heaven 
             that the families of these two heroes will be comforted 
             and cared for. As a Nation, we are deeply grateful for 
             their service. God bless those who remain that we all 
             might keep in remembrance the sacrifice of these two fine 
             men.

               Mr. DURBIN addressed the Chair.

               The PRESIDING OFFICER. The Senator from Illinois is 
             recognized.

               Mr. DURBIN. Mr. President, this is a special moment in 
             the history of this body. I wanted to be heard for a very 
             brief moment on what happened in the last few days here in 
             this building. I guess it is customary, when you work in a 
             building for many years, to get used to it and not to be 
             stirred by it, but not this building. For 16 years, it has 
             been my honor to serve in the House and the Senate, and I 
             can tell you that as I walk up to this building still in 
             daylight, or in the middle of the night, it still has a 
             special impact on me, as it does on so many Americans. 
             There have been those who have come before us, and my 
             colleague from West Virginia, who is a historian of this 
             body, remembers, I'm sure, better than most that when 
             President Lincoln was engaged in the Civil War, we were in 
             the process of building the great white dome that we now 
             see on the top of this Capitol Building.
               People came to him, and said, ``Mr. President, we can't 
             continue this construction. We have a war to fight.'' He 
             said, ``No. We will continue this construction. We will 
             build this dome during the war as a symbol of what this 
             Nation will be after the war; that it will be united 
             again; and that this building will be the symbol of that 
             unity.''
               President Lincoln had it right. As you reflect on this 
             building and what it means to so many of us, you have to 
             also reflect on its history.
               This is not the first act of violence in this building. 
             It is not the first time that lives were lost, or that 
             blood was shed.
               The British invaded this building and came up the spiral 
             staircase. During the Civil War, the Union troops who had 
             been felled in battle were brought here and laid in the 
             Rotunda in a hospital where they were treated. In the 
             1950s, a group of terrorists took control of the Chamber 
             of the House for a few brief minutes, firing pistols on 
             the floor and injuring people. In 1983, just outside this 
             Chamber, there was a bomb that was detonated late at 
             night. We have never discovered the cause of that bombing. 
             And then, of course, the tragic incident which occurred 
             last Friday involving one very troubled, disturbed 
             individual who took two lives and injured another person.
               I guess each of us who walk in the door of the Capitol 
             each day take for granted the warm greeting and the smile 
             from the Capitol Police and forget that it is more than 
             just a responsibility to greet. It is a responsibility to 
             protect that brings them to this building. Like so many 
             Senators, I came to take that for granted. You think it is 
             always going to be safe and that they will never need to 
             take the pistols from their holsters, or use them. And yet 
             last Friday that all changed.
               When I came to this building today and walked in the 
             entrance and saw the Capitol policeman at his post, I 
             looked at him in a different way, understanding that he 
             was doing more than just his duty. He was protecting me 
             and thousands of others who come to this building.
               On behalf of John Gibson and Mr. Chestnut, J.J. 
             Chestnut, my sympathies go out, from the people of 
             Illinois and all of my friends and my staff, to their 
             families. They have left behind eight children who now 
             should be cared for, and I hope all of us will join in 
             that effort to make certain that that occurs--and that 
             their family goes through this period of mourning 
             understanding that they do not stand alone, that we stand 
             with them shoulder to shoulder in gratitude for what they 
             have given us. Because what they have given us is 
             something we all hope to bring to this building--to bring 
             more honor to this building, to the people who work here, 
             and to the great tradition in history of the U.S. Capitol. 
             We do it in our daily activities, in our speeches, in our 
             conduct. What these men have done is to give their lives 
             in the service to that great tradition and that great 
             history.
               There will be another time and another place when we 
             will talk about how this tragedy might have been averted 
             with better security measures, or better efforts in terms 
             of the control of guns, or keeping guns out of the hands 
             of those who should not have them. But let's save that 
             debate for another day. Let us close this debate with fond 
             memory of the contributions made by these two men, and 
             with gratitude not only to them but to all of the men and 
             women who protect our lives in law enforcement, and 
             particularly those on the Capitol Hill Police Force.

               Mr. THURMOND. Mr. President, I rise today to join my 
             colleagues in expressing shock, dismay, and most 
             significantly, sorrow at the tragic events that unfolded 
             not far from this Chamber last Friday.
               The killing of a police officer is always a disturbing 
             event because a mortal attack on a law enforcement officer 
             is also an attack on society at large. After all, it is 
             those men and women who are sworn law enforcement officers 
             who stand between the law abiding citizens of the United 
             States and those elements within our society that seek to 
             do harm. Being any sort of law enforcement officer is a 
             thankless job fraught with danger, two facts that it is 
             sometimes easy to forget.
               The deaths of Capitol Police Officers Jacob Chestnut, 
             known as J.J., and John Gibson, not only remind us of just 
             how dangerous law enforcement is, but also of the 
             admiration we have for those who protect us. What makes 
             their deaths all the more disturbing is that they were 
             attacked in the United States Capitol, a place that is 
             more than an office building; it is a symbol of our 
             Nation. What makes their deaths all the more sad is that 
             close interaction each of us has with Capitol Police 
             officers. We have come to think of these men and women as 
             much more than simply protectors; we have come to view 
             them as friends.
               Since its founding in 1828, the United States Capitol 
             Police and its officers have worked, largely in anonymity, 
             to protect Members of Congress, their staffs, the Capitol, 
             and all those who visit this magnificent building. They 
             are a force that carries out its responsibilities 
             professionally and effectively, and they manage to bring 
             credible security and protection to one of the most 
             publicly accessible places in the world. Last Friday, fate 
             forced Officers Gibson and Chestnut to shed their 
             anonymity in the most tragic and brutal of manners, but 
             the manner in which they put duty and aiding others above 
             personal safety is a credit to not only each of them, but 
             to all the members of the United States Capitol Police. 
             The members of the South Carolina Congressional Delegation 
             feel a special sense of grief as ``J.J.'' Chestnut was 
             both a native of Myrtle Beach, South Carolina and a 20-
             year veteran of the United States Air Force who retired as 
             a Master Sergeant
               Many have likened Capitol Hill to a small town, as this 
             is a place where people know each other, stop to talk, and 
             where there is a true sense of congeniality and 
             hospitality. That spirit is certainly evident in the 
             outpouring of grief, support, and sympathy we are seeing 
             for these two slain officers. Sadly, no amount of 
             expressed condolences or high praise will bring these two 
             brave men back to their families and loved ones. I think, 
             however, that each of us hopes that these expressions will 
             convey the high regard we hold for these two men, and our 
             inexpressible gratitude that Officers Chestnut and Gibson 
             were on duty. Their actions truly saved the day and they 
             will no doubt forever be remembered as ``heroes.''

               Mr. HOLLINGS. Mr. President, as with everyone in 
             Congress and the Nation, my thoughts today are with the 
             victims of Friday's shooting and their families. And like 
             many of my colleagues, I wish to pay tribute to the 
             heroism of Capitol Police officers Jacob Chestnut and John 
             Gibson and to mourn their passing.
               This is a terrible time for the Congress and the Nation. 
             It reminds me, Mr. President, of having to write the 
             families of dead comrades in World War II. How does one 
             summarize the achievements and meaning of two lifetimes in 
             a short letter or brief remarks? How does one do justice 
             to men who gave the last full measure of devotion so that 
             others might live? Consoling the families of the dead and 
             doing justice to the ultimate sacrifices and nobility of 
             heroes is never easy. It is particularly hard in time of 
             peace, when we take our safety and security for granted.
               But even in peace time, Mr. President, unfathomable evil 
             exists and threatens to shatter our security at any 
             moment. Officers Chestnut and Gibson knew that the price 
             of our safety here in the Capitol was their unceasing 
             vigilance; and they showed us that even in peace time, the 
             heroism of brave and selfless individuals like them often 
             is all that enables us to live in freedom and work in 
             safety. It is easy to forget this; but we must not forget, 
             and Friday's events ensure that we will not forget. 
             Officer Chestnut, a South Carolina native who served with 
             distinction in the Air Force for many years, would not 
             want us to forget. He knew the price of freedom, and he 
             was willing to give his life for his fellow citizens.
               Who knows how many lives officer Gibson saved by 
             confronting the gunman, Russell Weston, outside the office 
             of Representative Tom DeLay? Who knows how many tourists 
             and staffers would have died were it not for the bravery 
             and heroism not only of officers Gibson and Chestnut but 
             of all the Capitol Police?
               Friday's shootings were a reminder that all of us who 
             live and work on Capitol Hill owe an unpayable debt to the 
             Capitol Police. The brave men and women of that force put 
             their lives on the line for us every time they put on a 
             uniform. It is their job to stand between us and harm's 
             way, and they perform it with unceasing devotion and 
             consummate professionalism. We should all give thanks to 
             God that we are protected by these officers. And we should 
             realize that it is thanks to their zealous devotion to 
             duty that we live in freedom from constant fear and 
             danger.
               For those of us who see the Capitol Police every day, it 
             is easy to forget they are fathers and mothers, sons and 
             daughters. Officers Chestnut and Gibson were not only 
             exemplary guardians of the public safety--they also were 
             dedicated and loving family men. Each leaves behind a wife 
             and children. These shattered homes are the legacy of one 
             lunatic's senseless violence.
               Jacob Chestnut and John Gibson's heroic deaths are all 
             the more painful for the loss their families will forever 
             feel. We whom they died to protect can only hope that the 
             nobility of their sacrifice and the priceless ideal for 
             which they gave their lives--not us, but freedom and 
             democratic government--will be of some small comfort to 
             their families.
               I join with all Americans today in offering my deepest 
             thanks to these men, my condolences to their families, and 
             my promise that their sacrifice will not be forgotten.

               Mr. CAMPBELL. Mr. President, today I pay tribute to two 
             Capitol Police officers, two heroes, who last Friday gave 
             their lives in the line of duty while serving their 
             country, Detective John Gibson and Officer Jacob Chestnut.
               Last Friday's shocking and senseless violence in the 
             halls of the U.S. Capitol both saddened our Nation and 
             took the lives of two of our finest. I would like to take 
             a moment to share a few memories and thoughts about the 
             two slain officers.
               About a month ago, in late June, I had the chance to 
             start a new friendship with a good man. I had the pleasure 
             to get to know John Gibson, not just as an able and 
             dedicated detective, but also as a gentleman and dedicated 
             family man.
               During our time together, I learned that we shared 
             common values and a similar hobby. As a former deputy 
             sheriff myself, it quickly became evident that Detective 
             Gibson and I shared an understanding of the daily perils 
             facing law enforcement officers.
               Detective Gibson and I also discovered that we both 
             shared the rather unique hobby of collecting police 
             patches. In fact, just last month I sent him several 
             police arm patches from Colorado to add to his collection 
             as a small token of my appreciation for his dedicated 
             service.
               I understand that it was Detective John Gibson's final 
             shot, his final act as a defender of the peace, that 
             brought the gunman down and ended the violent rampage. The 
             Detective's steadfast valor, while already having been 
             shot several times, was the difference that saved many 
             lives. We all owe him a deep debt of gratitude.
               Officer Jacob Chestnut was posted at the Document Door 
             entrance on the Capitol's East Front. Officers posted to 
             this entrance are the first faces that many tourists see 
             when they come to visit the Capitol. Officer Chestnut's 
             post, which involves achieving a delicate balance between 
             the ensuring safety of those who visit the Capitol while 
             keeping the People's House as free and open as possible, 
             requires a very special combination of hospitality, humor, 
             patience, and professionalism. To his credit, Officer 
             Chestnut excelled in this endeavor.
               If it had not been for the heroic actions of these two 
             brave officers, this dangerous gunman would almost 
             certainly have killed many more innocent people. The 
             officers' ultimate sacrifice saved lives. I extend my 
             deepest sympathies to the families of these two fallen 
             heroes.
               This building, the U.S. Capitol, is far more than just a 
             building, it is a living monument to freedom and 
             democracy. It is perhaps the only building on earth that 
             simultaneously houses a healthy democracy at work, while 
             standing as a tribute to freedom that attract millions of 
             visitors from all over the U.S. and the entire world each 
             year. The Chambers, galleries, and halls of our Capitol 
             are full of statues, busts, paintings, and displays that 
             commemorate heroes and key events in our Nation's history. 
             The men and women honored under this magnificent dome have 
             served their country in a wide variety of ways. Some have 
             been great visionaries and statesmen. Some have been 
             leaders in science or adventurers, like Colorado's son, 
             astronaut Jack Swigert whose statue stands in these halls. 
             Each of these heroes has contributed and sacrificed in his 
             or her own very real and personal way.
               Some of these heroes have made the greatest sacrifice 
             for their Nation, giving their lives. Detective John 
             Gibson and Officer Jacob Chestnut have joined this honored 
             rank. They gave their lives for their Nation while 
             protecting our Nation's Capitol, and it is fitting that 
             they will lie in honor in the Capitol's Rotunda while a 
             grateful Nation pays its respects.
               Not only is the Capitol the American People's House, it 
             stands as a bright beacon of hope to all of the world's 
             freedom loving people. While traveling this building's 
             halls, I have been regularly awed by the comments of 
             visitors from other countries as they comment in 
             astonishment how open and free this building is. They 
             state how they would never be allowed to walk so freely 
             through the halls of their own capital buildings back home 
             in their respective countries. This is an important part 
             of what makes America great.
               Whenever I have heard such sentiments, I am reminded of 
             just how fortunate I am, and we all are, to be Americans. 
             Our Capitol is the People's House, and it must remain open 
             and accessible to all.
               Thanks to the sacrifices of Detective John Gibson and 
             Officer Jacob Chestnut, and the dedication and 
             professionalism of the entire U.S. Capitol Police Force, 
             our Nation's Capitol building is freely accessible and 
             continues to serve as a beacon of freedom.

               Mr. GLENN. Mr. President, today we mourn the loss in our 
             Capitol family of two brave men who gave their lives in 
             service to our Nation.
               Last Friday, in a running gun battle, United States 
             Capitol Police Officer Jacob J. Chestnut and Detective 
             John M. Gibson were killed in the line of duty.
               Mr. President, each of us who works in the Capitol feels 
             a kinship to and a deep appreciation of the officers of 
             the U.S. Capitol Police. We know that our lives are 
             protected each day by the work that they do. In the 
             twenty-four years that I have served Ohio as Senator, I 
             have come to know many of the fine officers on the force. 
             A former member of my staff is currently a member of the 
             force and other staff members have officers among their 
             immediate family members.
               This highly trained and professional force polices our 
             Nation's Capitol and performs numerous law enforcement 
             duties as they monitor the entrances of our buildings, 
             ensure the safety of the millions of tourists who visit 
             the Capitol each year, and provide a kind word and a 
             watchful eye as we come and go. These officers go about 
             their duties with dedication and great skill.
               In a senseless, momentary act of violence, these fine 
             officers gave their all. They gave their lives in the 
             defense of all who visit and work here. Mr. President, we 
             may never understand why such a tragedy occurred in our 
             halls last Friday afternoon. Despite this lack of 
             comprehension, we will always be certain that J. J. 
             Chestnut and John Gibson fulfilled their responsibilities 
             to our Nation and will be remembered as heroes.
               I think that it is a fitting tribute that these officers 
             will lay in state in the Capitol tomorrow, an appropriate 
             commendation for the selfless sacrifice that they gave in 
             the performance of their duties. My wife, Annie, joins me 
             in extending my deepest sympathy to the families of 
             Officer Chestnut and Detective Gibson.

               Mr. THOMPSON. Mr. President, I want to join my 
             colleagues in expressing my sincere condolences to the 
             families of the two Capitol Police officers who gave their 
             lives last Friday defending the Capitol and all of us who 
             work here, as well as the many Americans who come here 
             from around the country to see their government in action.
               Officers J.J. Chestnut and John Gibson are American 
             heroes in the truest sense of the word. Their actions last 
             week unquestionably prevented a terrible tragedy from 
             becoming even more deadly. I know I speak for every Member 
             of Congress in expressing my respect and gratitude to 
             them, their families, and their colleagues on the Capitol 
             Police Force.
               At the first sign of trouble, Officers Chestnut and 
             Gibson acted on instinct, doing what they were trained to 
             do and saving lives in the process. When an event like 
             this happens, I think many of us react according to 
             instinct, and our instincts differ depending on the 
             varying experiences we've had.
               As most people know by now, my colleague from Tennessee, 
             Senator Frist, also acted on instinct when he heard the 
             news of Friday's shootings. Upon returning to his office 
             from speaking on the Senate floor and learning what had 
             happened, Senator Frist immediately called the Capitol 
             physician's office to see if they needed assistance, and 
             then rushed over to the scene of the shootings to lend a 
             hand however he could. He assisted in treating one of the 
             two fallen police officers, administered CPR, made sure 
             that he made it safely to a waiting ambulance--and then 
             went back inside to treat another of the victims. After 
             restarting this second victim's heart, he rode with him to 
             D.C. General Hospital to ensure that, if paramedics had to 
             open up his chest on the way to the hospital, he would be 
             there to provide assistance or do the procedure himself.
               Mr. President, Senator Frist's actions are both a 
             reminder of the very different routes each of us took in 
             coming to the United States Senate, and of the importance 
             of preserving the diversity of backgrounds that we have in 
             this body. His instinct as a heart surgeon and trauma 
             specialist took over last Friday, and he rushed to the 
             scene to provide whatever help he could--just as he's done 
             hundreds of times before when patients were relying on 
             him.
               I want to take this opportunity to salute my colleague 
             from Tennessee for his heroic actions last Friday, and for 
             all of the other times he has provided medical assistance 
             since coming to the Senate three and a half years ago. 
             Many people will remember that a couple of years ago, one 
             of our constituents, a man from Cleveland, Tennessee, had 
             a heart attack in the Dirksen Building, just outside of 
             Senator Frist's office. Senator Frist immediately came to 
             the rescue, and saved this Tennessean's life. Now that's 
             what I call constituent service.
               Mr. President, the events of last Friday have affected 
             all of us very deeply. We will not soon get over the 
             memory of the tragedy that occurred inside ``the People's 
             House'' or of the heroic sacrifice made by Officers 
             Chestnut and Gibson. Again, I want to offer to their 
             families and Capitol Police colleagues our sincere 
             condolences and our deepest thanks.

               Mr. MOYNIHAN. Mr. President, the U.S. Capitol Police--so 
             ubiquitous, so steady, so utterly competent. We take them 
             for granted. Yet every day they defend us, our families, 
             our staff, millions of tourists, ready to lay down their 
             lives. Last Friday, two of them did: Officer Jacob J. 
             Chestnut and Detective John Gibson, each an 18-year 
             veteran, each married, each with children. One in the 
             prime of life; the other, a few short months from 
             retirement. What a tragedy.
               What happened on Friday could happen at any instant. One 
             never knows when. In the crucible of a gun battle, 
             Chestnut, Gibson, and other Capitol Police officers 
             performed their duty in the most exemplary fashion. 
             Chestnut and Gibson made the ultimate sacrifice, laying 
             down their lives to defend others. We can only speculate 
             how many bystanders would have been killed if not for 
             their--and the other officers'--quick and appropriate 
             actions.
               To the wives and children, other family members, and 
             friends and colleagues of Officer Chestnut and Detective 
             Gibson, our words cannot assuage your grief. But perhaps 
             there is some solace in knowing that these fine two men, 
             killed in the line of duty, have died the most honorable 
             deaths, defending the United States Congress and its most 
             sacred building. They are heroes. Remember, as Pindar 
             wrote, that ``the bright gleam of noble deeds moves on 
             with undying voice, ever unquenchable.'' And as you 
             struggle to be brave in the days and weeks ahead, know 
             that courage is marked not by the absence of fear, but 
             rather by the presence of faith. May God be with you, and 
             may God be with J.J. Chestnut and John Gibson.

               Mrs. HUTCHISON. Mr. President, I join my colleagues and 
             our fellow citizens all across this country in honoring 
             the memories of Detective John Gibson and Private First 
             Class Jacob Chestnut. These two fine law enforcement 
             officers gave their lives in the line of duty during a 
             tragedy on Friday, July 24, 1998, while guarding the 
             United States Capitol. Our thoughts and prayers go out to 
             the families of these two fine gentlemen.
               The United States Capitol is recognized the world over 
             as the symbol of American freedom and of the still 
             revolutionary idea that citizens confer power upon those 
             who serve us in government. That it could become the scene 
             of so heinous an act as this cannot but shake us from the 
             complacency by which we sometimes take this all for 
             granted.
               But on a beautiful summer day and with thousands of 
             ordinary people in sight, Officers Chestnut and Gibson 
             gave their lives as proof that everyday, in places as near 
             as our Capitol and as far away as seven seas, men and 
             women serve selflessly to protect the freedom that is the 
             American birthright and the dream of millions around the 
             globe.
               I commend the United States Capitol Police, the D.C. 
             Metropolitan Police, and the other law enforcement 
             agencies that have performed so professionally throughout 
             this difficult period. They are a continuing tribute to 
             their fallen comrades, and I trust that they will be 
             inspired to serve on in their memory.

               Mr. CONRAD. Mr. President, I rise today to pay tribute 
             to Jacob J. Chestnut and John M. Gibson, Capitol Police 
             officers who were tragically killed in the line of duty on 
             Friday.
               Officers Chestnut and Gibson were decent and highly 
             capable law enforcement professionals. On Friday, their 
             selfless devotion to duty saved countless lives. Their 
             deaths were not in vain.
               The service of these Capitol Police officers will not be 
             forgotten by the Congress. In particular, I will always 
             remember the spirit and good humor brought to this job by 
             J.J. Chestnut, whom I knew personally from years of 
             working together here at the Capitol. This institution has 
             known few, if any, who were more friendly and able 
             protectors.
               On this day of reflection, I think it is important to 
             note that incidents such as occurred on Friday do not 
             happen every day precisely because Gibson, Chestnut, and 
             other Capitol Police officers have done their jobs so 
             well. Even as they stood their ground and gave their 
             lives, Gibson and Chestnut demonstrated that attacks on 
             this building and the Members and staff who work here will 
             simply not succeed.
               Mr. President, every day of their careers here on the 
             Hill, Chestnut and Gibson provided a unique and important 
             service to every American. By protecting the United States 
             Congress, they made it possible for our Nation's 
             legislature and our county's greatest public building to 
             be open and accessible to the American people. American 
             democracy could not function as it does in the sunlight of 
             public scrutiny, engagement, and participation if not for 
             the safety provided by officers Gibson and Chestnut. If 
             for this reason alone, every American owes these 
             officers--and everyone serving in the United States 
             Capitol Police--a deep debt of gratitude.
               It is difficult for those of us who knew these officers 
             to let them go easily, but certainly not as trying as this 
             loss has been for their families. With our friends and 
             colleagues here in the Senate and millions of Americans 
             throughout our country, my wife Lucy and I will be sure to 
             keep the families of Chestnut and Gibson in our thoughts 
             and prayers. It is my understanding that a scholarship 
             fund is being established in their honor, and I would urge 
             every Member and staff member to contribute.
               Mr. President, I think the most important message we can 
             deliver here today is one of thanks. Officers John Gibson 
             and Jacob Chestnut made the ultimate sacrifice: they laid 
             down their lives so that others could live. For that, they 
             deserve our unending gratitude and respect. Mr. President, 
             I yield the floor.

               Mr. D'AMATO. Mr. President, I rise today to take time 
             out of our busy schedule to recognize the bravery and 
             valor of U.S. Capitol Police Officers John M. Gibson and 
             Jacob J. Chestnut. These two fine officers were killed in 
             the line of duty while protecting our Nation's Capitol 
             building and protecting those who pass through this great 
             building. They died fulfilling their sworn duty to protect 
             the public, and they did so in an exemplary way. They are 
             heroes who saved many lives by their actions.
               I remember a period of time after the World Trade Center 
             bombing in New York in 1993 when law enforcement officials 
             informed me of threats against my life. The Capitol Police 
             quickly formed a detail for my protection. Officer Gibson 
             was a member of this detail. I feel a personal loss. This 
             man was willing to lay down his life for mine and, in 
             fact, he did for others.
               Tomorrow we will pay homage to their memory as they lay 
             in honor beneath the majestic Rotunda in the very building 
             in which they gave their lives to protect.
               The thoughts and prayers of this great body, as well as 
             that of the Nation, goes out to the families and friends 
             of officers Gibson and Chestnut.

               Ms. MOSELEY-BRAUN. Mr. President, I would like to say a 
             few words about the tragedy that occurred last Friday here 
             in the Capitol. As all the world now knows, the heart of 
             our democracy was invaded that day by a gunman who opened 
             fire in an area crowded with tourists. Before the melee 
             was over, two Capitol Police officers were dead and an 
             innocent bystander was wounded.
               Even before Friday's events, every Member of this 
             Congress was well aware of how critical the Capitol Police 
             are to the functioning of our democracy. We are here to do 
             the people's business, but the sad fact is that there are 
             those--both at home and abroad--who do not wish us well in 
             our efforts. Instead of the free exchange of ideas central 
             to the concept of democracy, some of those individuals 
             would, if given the chance, express their views through 
             bullets and explosives. The only thing that stands between 
             those individuals and the daily practice of our democratic 
             ideals is the Capitol Police. They are nothing less than 
             the guardians of those ideals--for what meaning would such 
             principles have if they could not be safely exercised?
               On Friday, Officer John Gibson and Officer Jacob J. 
             Chestnut sacrificed their lives defending those 
             principles. An 18-year veteran of the force, Officer 
             Chestnut was serving that day as the Capitol's first line 
             of defense, manning the metal detector designed to keep 
             instruments of violence out of these halls. When the 
             gunman set off the alarm, Officer Chestnut immediately 
             responded, but, tragically, was mortally wounded before he 
             could stop the intruder. Officer Gibson, also an 18-year 
             member of the force, performed several acts of bravery 
             before his death, pushing a French tourist out of harm's 
             way, hiding a congressional staff member under a desk, 
             ensuring that Representative Tom DeLay and members of his 
             staff were hidden from danger, and then helping to bring 
             down the gunman in the battle that ultimately cost his 
             life. Before he died, Officer Gibson singlehandedly kept 
             the gunman out of Representative DeLay's office and, in so 
             doing, saved the lives of both the Congressman and his 
             staff.
               Those of us who work here--the Senators, the 
             Representatives, the staff members, the Capitol Police--
             have lost two members of our congressional family. But it 
             is not only those who work and visit the Capitol who owe 
             an unrepayable debt to those officers--every citizen of 
             the United States is indebted to them. For Officers 
             Chestnut and Gibson died defending an institution that is 
             the very embodiment of all the democratic freedoms that we 
             Americans hold dear.
               Mr. President, our democracy does not exist in a vacuum; 
             it functions in a very dangerous world. For that reason, a 
             system of security has been established in the Capitol to 
             try to insulate the Congress from those who would do it 
             harm while guaranteeing that we remain accessible to the 
             people we serve. On Friday, that system worked. This is 
             ``the People's House,'' and each year we welcome roughly 
             four million people to it. That is precisely the way it 
             should be. This Capitol--the greatest symbol of democracy 
             of the greatest democratic republic the world has ever 
             known, a building aptly described by President Clinton as 
             ``the front door of American civilization''--belongs to 
             the people of the United States, and it must always be 
             open to them. I do not oppose calls for tighter security, 
             but I would take issue with any measure that would make it 
             more difficult for the American people to visit their 
             House.
               Mr. President, I am the daughter and sister of police 
             officers. I know the terrible fear that every law 
             enforcement officer's family endures--the fear that when 
             their loved one departs for work, he or she may never 
             return home. It is my good fortune that, throughout my 
             life, I have never seen that fear materialize. Therefore, 
             I cannot claim to have any concept of what the families of 
             Officers Gibson and Chestnut are going through right now. 
             Nevertheless, I want to express my heartfelt sorrow to 
             them. Our prayers are with you and the entire Nation will 
             forever be grateful for the heroism and sacrifice that 
             your loved ones made on our behalf.

               Ms. SNOWE. Mr. President, I rise today to pay tribute to 
             the two Capitol Police Officers who gave their lives to 
             protect Members of Congress, their staffs, and visitors 
             from throughout the world during last Friday's tragic 
             shooting at the United States Capitol.
               For those of us who work in the Capitol, Special Agent 
             John Gibson and Officer Jacob Chestnut were among the 
             people who are part of our daily lives. And over the 
             twenty years I have served in Congress, I've been 
             constantly impressed with their courteous manner and their 
             friendliness and the way they know all of us by name, all 
             the while maintaining the highest degree of 
             professionalism in carrying out their solemn duties. They 
             become extensions of our staffs, and they become our 
             friends.
               Sometimes, in the commotion of everyday life around 
             here, it is easy to forget that each new day brings the 
             potential for unknown dangers for these brave men and 
             women. The fact is, those assigned to protect the sanctity 
             and safety of the U.S. Capitol put themselves in harm's 
             way on a daily basis, and three days ago, two of them came 
             to work in the morning never to return to the lives and 
             families they loved.
               It is difficult for us to understand how a day which 
             began like so many other summer days here on Capitol Hill 
             could so suddenly end in violence and terror. Here beneath 
             this dome of marble and stone, here behind these historic 
             walls, and here at the epicenter of the world's greatest 
             democracy we feel somehow that such heinous acts are 
             simply too incongruous with our noble surroundings to be 
             possible. And yet, history and reality tell us they are, 
             in fact, all too possible.
               It vividly brings back to me one such incident fifteen 
             years ago, when I was in the House of Representatives. My 
             future husband, Congressman John McKernan, and I were 
             standing with others on the House floor when, right above 
             us, two officers tackled a man brandishing a bomb in the 
             House gallery. These two men unhesitatingly put the safety 
             of the entire House Chamber before their own, without 
             questioning the danger they faced.
               Such was the case last Friday--as certainly more would 
             have been injured or killed had it not been for the 
             willingness of Special Agent Gibson and Officer Chestnut 
             to put their lives on the line. Their actions not only 
             prevented what could have been an even greater 
             catastrophe, but sent a message to those who would violate 
             the People's House that they will never prevail.
               During what I know is the most difficult of times for 
             the families of Agent Gibson and Officer Chestnut, I hope 
             it will be at least some measure of comfort for them to 
             know that so many here and across America are keeping them 
             in their thoughts and prayers. The entire Nation shares in 
             their sense of loss, and our hearts go out to the loved 
             ones that these brave individuals have left behind.
               I also want to extend my sympathies to all the men and 
             women of the Capitol Police Force. They have lost two of 
             their finest--men whose actions under the most dire 
             circumstances have brought tremendous credit to the 
             Capitol Police. As members of the force go about their 
             vital duties, I want them to know that they have our 
             fullest support, trust, and appreciation for all they do 
             to keep us safe.
               Last Friday's shootings stunned the Nation and affected 
             us all in very personal ways. For those of us here on 
             Capitol Hill, we lost two members of our family. And in 
             Maine and throughout the country, people felt a sense of 
             outrage that this symbol of freedom of democracy--the 
             greatest public building in the country--would be stained 
             with the mark of violence.
               Today, let us as a country be grateful that people like 
             Special Agent John Gibson and Officer Jacob Chestnut are 
             willing to make the ultimate sacrifice so that this 
             building will always remain the People's House. Let us 
             mourn their loss, celebrate their lives, and never forget 
             their courageous deeds on behalf of all the citizens of 
             our great Nation.

               Mr. KERRY. Mr. President, all of America mourns the loss 
             of two brave Capitol Police Officers--John Gibson and 
             Jacob Chestnut. We will never understand the senseless 
             violence that took their lives, never be able to explain 
             why two fine men who loved their families have been stolen 
             away from their wives and children. But we know for 
             certain that Special Agent Gibson and Officer Chestnut 
             made the ultimate sacrifice in the line of duty.
               It has become almost cliche to say that Congress is the 
             ``People's House.'' What many forgot, though, until last 
             Friday, is that John Gibson and Jacob Chestnut were two 
             very real people who kept the People's House safe for over 
             a million visitors and thousands of staff members in the 
             Capitol each year. Members of Congress know the Capitol 
             police as men and women who come to work each day to 
             protect us. We see them every morning and late into the 
             night. We spend free moments in the hallways and off the 
             Senate floor talking with them--talking about family, the 
             score of last night's ball-game, the weather, and, of 
             course, the prospects of getting home for the weekend. 
             There is a special bond between us, those who are elected 
             to serve here for a period of time and those who put on a 
             uniform to serve in a different way. It is a bond of 
             public service, a common purpose too often overlooked in 
             the hustle and bustle of everyday life in Washington.
               This remains a country where we allow the media 
             spotlight and our collective imagination to transform our 
             public figures into heroes. John Gibson and Jacob Chestnut 
             require no exaggeration or rhetorical enlargement to be 
             seen as something above and beyond the ordinary. They 
             are--quite simply--and will be, forever--heroes.
               John Gibson was a native of Massachusetts who, although 
             he made his career here in Washington and his home in the 
             suburbs of Northern Virginia, never left his allegiance to 
             Massachusetts--or to the Boston Red Sox--behind. John 
             Gibson cherished his Waltham accent and his deep roots in 
             our state. He carried with him, everywhere, the values 
             instilled in him in Waltham. He is remembered by those who 
             knew him as the kind of husband and father who never went 
             anywhere--not even on a routine errand to the corner 
             store--without one of his children happily in tow. John 
             Gibson served with total dedication to protect 
             Representative Tom DeLay, and died because his commitment, 
             when tested under fire, remained resolute. I want to 
             extend my deepest condolences to John Gibson's family, to 
             his wife and their three children, Kristen, John, and 
             Daniel, and to the Moakley clan which is mourning John's 
             loss. John Gibson became a part of Massachusett's biggest 
             extended political family when he married Joe Moakley's 
             niece, Evelyn. Whether debating Boston College football or 
             sharing Irish stories in the afternoon, John Gibson was a 
             special friend to the dean of our congressional 
             delegation. Even in his sadness, Congressman Moakley knows 
             that the young man from Waltham who joined the Capitol 
             police force 18 years ago, served as a professional who 
             took his sense of duty to heart.
               Jacob Chestnut, too, died as he lived--giving selflessly 
             of himself to help others. The tragedy on Friday made 
             Jacob Chestnut a hero throughout the country, but, long 
             before that, he was a hero to the community in Maryland 
             where he made his home. Jacob Chestnut was the neighbor 
             who always lent a helping hand to those who needed it, the 
             good Samaritan who expected nothing in return and served 
             his community because it was the right thing to do. Long 
             before he was a hero to his country, Jacob Chestnut was a 
             role-model to his children and grandchildren.
               One never knows how one will react under fire, how, when 
             the shots ring out and the adrenaline flows--at the moment 
             when duty calls--one will call upon the inner strength to 
             react with bravery. It requires a degree of courage found 
             in the deepest reserves of the human character. Every 
             police officer in this country chooses to serve with the 
             knowledge that the day may come when that commitment will 
             be tested. John Gibson told a friend--just a week before 
             he was struck down at the Capitol--that he hoped that if 
             that moment came, if he was called upon to draw his gun 
             and defend tourists or Members of Congress or a fellow 
             officer, that he would rise to the occasion. It is a 
             thought that accompanies every police officer through 
             every step of what is at once a dangerous and vital 
             career. History will record that when that moment came for 
             John Gibson and Jacob Chestnut, they rose to the occasion, 
             remembered their duty, and gave their lives selflessly to 
             protect not just the People's House, but the people 
             themselves who make that Capitol a home. For the families 
             they left behind, for those among us privileged to work 
             with them, and for all Americans, these two officers will 
             forever be heroes.
               Even as we pay tribute to these brave, fallen officers, 
             we must remember that we are obligated to honor their 
             memory with more than words alone. There is a temptation 
             in this country to focus only on the extraordinary 
             circumstances of these tragic deaths, to remember merely 
             that John Gibson and Jacob Chestnut were fatally wounded 
             in the ``People's House.'' Too many commentators in the 
             last few days have said--again and again--``can we believe 
             that this type of violence could occur in our Nation's 
             Capitol?'' The truth is--and police officers on the front 
             lines know this better than we can imagine--violence does 
             occur in the Nation's Capitol, and in our classrooms, and 
             our tree-lined neighborhoods, and in homes across this 
             country. To pay tribute to John Gibson and Jacob 
             Chestnut--to truly honor them for their sacrifice--we must 
             make clear our conviction as a Nation that we will not 
             tolerate any form of violence in this country. To remember 
             John Gibson and Jacob Chestnut in a way that lifts us all 
             up--in a way that creates a safer world for the eight 
             children these fine men left behind--we must commit 
             ourselves to safer neighborhoods, violence-free schools, 
             and communities where the sound of our children's 
             laughter--not the sound of gun shots--fills the air.

               Mr. FAIRCLOTH. Mr. President, I rise to give my 
             condolences to the slain officers and their families. Both 
             of these brave men gave their lives to defend innocent 
             visitors to our Nation's Capitol. Both gave their lives so 
             that the Capitol can remain a free and open institution, 
             visited by millions each year from this Nation and nations 
             of the world. But for their acts of bravery, we don't know 
             how many others may have lost their lives. The entire 
             Capitol Police Force deserves congratulations, because I 
             know there were other officers who assisted in bringing 
             the situation to a close. Further, I share the sentiments 
             expressed by the Majority Leader that we do everything we 
             can to ensure that their families are well taken care of, 
             I am sure that is what these two brave officers would have 
             wanted most. On behalf of the citizens of North Carolina, 
             we collectively express our deep sorrow about this tragedy 
             and extend our heartfelt condolences to their families.

               Mr. LOTT. Mr. President, I ask unanimous consent that 
             the resolution be agreed to, the preamble be agreed to, 
             and the motion to reconsider be laid upon the table.

               The PRESIDING OFFICER. Without objection, it is so 
             ordered.

               The concurrent resolution (S. Con. Res. 110) was agreed 
             to.
               The preamble was agreed to.

               Mr. LOTT. Mr. President, I send a second concurrent 
             resolution to the desk regarding the use of the Rotunda in 
             memory of Detective Gibson and Private First Class 
             Chestnut and ask unanimous consent that the Senate proceed 
             to its immediate consideration.

               The PRESIDING OFFICER. Without objection, the clerk will 
             report the resolution.

               The assistant legislative clerk read as follows:

               A concurrent resolution (S. Con. Res. 111) authorizing 
             the use of the Rotunda of the Capitol for a memorial 
             service for Detective John Michael Gibson and Private 
             First Class Jacob Joseph Chestnut of the United States 
             Capitol Police, and for other purposes.

               The Senate proceeded to consider the concurrent 
             resolution.

               Mr. LOTT. I ask unanimous consent that the resolution be 
             agreed to, the preamble be agreed to, and the motion to 
             reconsider be laid upon the table.

               The PRESIDING OFFICER. Without objection, it is so 
             ordered.

               The concurrent resolution (S. Con. Res. 111) was agreed 
             to.
               The preamble was agreed to.
               The concurrent resolution (S. Con. Res. 111), with its 
             preamble, was read.
                               MESSAGES FROM THE HOUSE
               At 1:22 p.m., a message from the House of 
             Representatives, delivered by Mr. Hays, one of its reading 
             clerks, announced that the House has passed the following 
             bill, in which it requests the concurrence of the Senate:

               H.R. 4193. An act making appropriations for the 
             Department of the Interior and related agencies for the 
             fiscal year ending September 30, 1999, and for other 
             purposes.
               The message also announced that the House has agreed to 
             the following concurrent resolution, in which it requests 
             the concurrence of the Senate:

               H. Con. Res. 310. Authorizing the use of the Rotunda of 
             the Capitol for memorial service for Detective John 
             Michael Gibson and Private First Class Jacob Joseph 
             Chestnut of the United States Capitol Police, and for 
             other purposes.

               Mr. LOTT (for himself, Mr. Daschle, Mr. Abraham, Mr. 
             Akaka, Mr. Allard, Mr. Ashcroft, Mr. Baucus, Mr. Bennett, 
             Mr. Biden, Mr. Bingaman, Mr. Bond, Mrs. Boxer, Mr. Breaux, 
             Mr. Brownback, Mr. Bryan, Mr. Bumpers, Mr. Burns, Mr. 
             Byrd, Mr. Campbell, Mr. Chafee, Mr. Cleland, Mr. Coats, 
             Mr. Cochran, Ms. Collins, Mr. Conrad, Mr. Coverdall, Mr. 
             Craig, Mr. D'Amato, Mr. DeWine, Mr. Dodd, Mr. Domenici, 
             Mr. Dorgan, Mr. Durbin, Mr. Enzi, Mr. Faircloth, Mr. 
             Feingold, Mrs. Feinstein, Mr. Ford, Mr. Frist, Mr. Glenn, 
             Mr. Gorton, Mr. Graham, Mr. Gramm, Mr. Grams, Mr. 
             Grassley, Mr. Gregg, Mr. Hagel, Mr. Harkin, Mr. Hatch, Mr. 
             Helms, Mr. Hollings, Mr. Hutchinson, Mrs. Hutchison, Mr. 
             Inhofe, Mr. Inouye, Mr. Jeffords, Mr. Johnson, Mr. 
             Kempthorne, Mr. Kennedy, Mr. Kerrey, Mr. Kerry, Mr. Kohl, 
             Mr. Kyl, Ms. Landrieu, Mr. Lautenberg, Mr. Leahy, Mr. 
             Levin, Mr. Lieberman, Mr. Lugar, Mr. Mack, Mr. McCain, Mr. 
             McConnell, Ms. Mikulski, Ms. Moseley-Braun, Mr. Moynihan, 
             Mr. Murkowski, Mrs. Murray, Mr. Nickles, Mr. Reed, Mr. 
             Reid, Mr. Robb, Mr. Roberts, Mr. Rockefeller, Mr. Roth, 
             Mr. Santorum, Mr. Sarbanes, Mr. Sessions, Mr. Shelby, Mr. 
             Smith of New Hampshire, Mr. Smith of Oregon, Ms. Snowe, 
             Mr. Specter, Mr. Stevens, Mr. Thomas, Mr. Thompson, Mr. 
             Thurmond, Mr. Torricelli, Mr. Warner, Mr. Wellstone, and 
             Mr. Wyden) submitted the following concurrent resolution; 
             which was considered and agreed to:
                                  S. Con. Res. 110
               Whereas the Capitol is the People's House, and, as such, 
             it has always been and will remain open to the public;
               Whereas millions of people visit the Capitol each year 
             to observe and study the workings of the democratic 
             process;
               Whereas the Capitol is the most recognizable symbol of 
             liberty and democracy throughout the world and those who 
             guard the Capitol guard our freedom;
               Whereas Private First Class Jacob ``J.J.'' Chestnut and 
             Detective John Michael Gibson sacrificed their lives to 
             protect the lives of hundreds of tourists, staff, and 
             Members of Congress;
               Whereas if not for the quick and courageous action of 
             those officers, many innocent people would likely have 
             been injured or killed;
               Whereas through their selfless acts, Detective Gibson 
             and Private First Class Chestnut underscored the courage, 
             honor, and dedication shown daily by every member of the 
             United States Capitol Police and every law enforcement 
             officer;
               Whereas Private First Class Chestnut, a Vietnam veteran 
             who spent 20 years in the Air Force, was an 18-year 
             veteran of the Capitol Police, and was married to Wen Ling 
             and had five children, Joseph, Janece, Janet, Karen and 
             William;
               Whereas Detective Gibson, assigned as Rep. Tom DeLay's 
             bodyguard for the last three years, was an 18-year veteran 
             of the Capitol Police, and was married to Evelyn and had 
             three children, Kristen, John and Daniel;
               Whereas Private First Class Chestnut and Detective 
             Gibson were the first United States Capitol Police 
             officers ever killed in the line of duty;
               Whereas Private First Class Chestnut and Detective 
             Gibson, and all those who helped apprehend the gunman, 
             assist the injured, and evacuate the building, are true 
             heroes of democracy, and every American owes them a deep 
             debt of gratitude: Now, therefore, be it
               Resolved by the Senate, (the House of Representatives 
             concurring), That--
               (1) Congress hereby honors the memory of Detective John 
             Michael Gibson and Private First Class Jacob Joseph 
             Chestnut of the United States Capitol Police for the 
             selfless acts of heroism they displayed on July 24, 1998, 
             in sacrificing their lives in the line of duty so that 
             others might live; and
               (2) When the Senate and the House of Representatives 
             adjourn on this date they shall do so out of respect to 
             the memory of Detective John Michael Gibson and Private 
             First Class Jacob Joseph Chestnut.

               Mr. LOTT (for himself, Mr. Daschle, Mr. Abraham, Mr. 
             Akaka, Mr. Allard, Mr. Ashcroft, Mr. Baucus, Mr. Bennett, 
             Mr. Biden, Mr. Bingaman, Mr. Bond, Mrs. Boxer, Mr. Breaux, 
             Mr. Brownback, Mr. Bryan, Mr. Bumpers, Mr. Burns, Mr. 
             Byrd, Mr. Campbell, Mr. Chafee, Mr. Cleland, Mr. Coats, 
             Mr. Cochran, Ms. Collins, Mr. Conrad, Mr. Coverdell, Mr. 
             Craig, Mr. D'Amato, Mr. DeWine, Mr. Dodd, Mr. Domenici, 
             Mr. Dorgan, Mr. Durbin, Mr. Enzi, Mr. Faircloth, Mr. 
             Feingold, Mrs. Feinstein, Mr. Ford, Mr. Frist, Mr. Glenn, 
             Mr. Gorton, Mr. Graham, Mr. Gramm, Mr. Grams, Mr. 
             Grassley, Mr. Gregg, Mr. Hagel, Mr. Harkin, Mr. Hatch, Mr. 
             Helms, Mr. Hollings, Mr. Hutchinson, Mrs. Hutchison, Mr. 
             Inhofe, Mr. Inouye, Mr. Jeffords, Mr. Johnson, Mr. 
             Kempthorne, Mr. Kennedy, Mr. Kerrey, Mr. Kerry, Mr. Kohl, 
             Mr. Kyl, Ms. Landrieu, Mr. Lautenberg, Mr. Leahy, Mr. 
             Levin, Mr. Lieberman, Mr. Lugar, Mr. Mack, Mr. McCain, Mr. 
             McConnell, Ms. Mikulski, Ms. Moseley-Braun, Mr. Moynihan, 
             Mr. Murkowski, Mrs. Murray, Mr. Nickles, Mr. Reed, Mr. 
             Reid, Mr. Robb, Mr. Roberts, Mr. Rockefeller, Mr. Roth, 
             Mr. Santorum, Mr. Sarbanes, Mr. Sessions, Mr. Shelby, Mr. 
             Smith of New Hampshire, Mr. Smith of Oregon, Ms. Snowe, 
             Mr. Specter, Mr. Stevens, Mr. Thomas, Mr. Thompson, Mr. 
             Thurmond, Mr. Torricelli, Mr. Warner, Mr. Wellstone and 
             Mr. Wyden) submitted the following concurrent resolution; 
             which was considered and agreed to:
                                  S. Con. Res. 111
               Resolved by the Senate, (the House of Representatives 
             concurring),
             SECTION 1. AUTHORIZING USE OF ROTUNDA OF THE CAPITOL FOR 
                  MEMORIAL SERVICE FOR DETECTIVE JOHN MICHAEL GIBSON 
                  AND PRIVATE FIRST CLASS JACOB JOSEPH CHESTNUT.
               The Rotunda of the Capitol is authorized to be used for 
             a memorial service and proceedings related thereto for 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police 
             on Tuesday, July 28, 1998, under the direction of the 
             United States Capitol Police Board.
             SEC. 2. PLACEMENT OF PLAQUE IN CAPITOL IN MEMORY OF 
                  DETECTIVE GIBSON AND PRIVATE FIRST CLASS CHESTNUT.
               The Architect of the Capitol shall place a plaque in 
             honor of the memory of Detective John Michael Gibson and 
             Private First Class Jacob Joseph Chestnut of the United 
             States Capitol Police at an appropriate site in the United 
             States Capitol, with the approval of the Speaker of the 
             House of Representatives and the President Pro Tempore of 
             the Senate.
             SEC. 3. PAYMENT OF FUNERAL EXPENSES FOR JOHN GIBSON AND 
                  JACOB JOSEPH CHESTNUT.
               (a) In General.--The Sergeant at Arms of the House of 
             Representatives is authorized and directed to make such 
             arrangements as may be necessary for funeral services for 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police, 
             including payments for travel expenses of immediate family 
             members, and for the attendance of Members of the House of 
             Representatives at such services, including payments for 
             expenses incurred by Members in attending such services.
               (b) Source and Manner of Making Payments.--Any payment 
             made under subsection (a) shall be made from the 
             applicable accounts of the House of Representatives, using 
             vouchers approved in a manner directed by the Committee on 
             House Oversight.
             SEC. 4. PAYMENT OF SURVIVOR'S GRATUITY TO WIDOWS OF JOHN 
                  GIBSON AND JACOB JOSEPH CHESTNUT.
               (a) In General.--In accordance with the first sentence 
             of the last undesignated paragraph under the center 
             heading ``HOUSE OF REPRESENTATIVES'' in the first section 
             of the Legislative Branch Appropriation Act, 1955 (2 
             U.S.C. 125), the Chief Administrative Officer of the House 
             of Representatives is authorized and directed to pay, from 
             the applicable accounts of the House of Representatives--
               (1) a gratuity to the widow of Detective John Michael 
             Gibson of the United States Capitol Police in the amount 
             of $51,866.00; and
               (2) a gratuity to the widow of Private First Class Jacob 
             Joseph Chestnut of the United States Capitol Police in the 
             amount of $47,280.00.
               (b) Treatment as Gift.--Each gratuity paid under 
             subsection (a) shall be held to have been a gift.
             SEC. 5. SENSE OF CONGRESS REGARDING ESTABLISHMENT OF 
                  CAPITOL POLICE MEMORIAL FUND.
               It is the sense of Congress that there should be 
             established under law a United States Capitol Police 
             Memorial Fund for the surviving spouse and children of 
             members of the United States Capitol Police who are slain 
             in the line of duty.

               Mr. WARNER (for himself, Mr. Moynihan, and Mr. Ford) 
             submitted the following concurrent resolution; which was 
             considered and agreed to:
                                  S. Con. Res. 112
               Resolved by the Senate (the House of Representatives 
             concurring), That the eulogies for Detective John Michael 
             Gibson and Private First Class Jacob Joseph Chestnut of 
             the United States Capitol Police, as expressed in the 
             House of Representatives and the Senate together with the 
             text of the memorial services, shall be printed as a 
             tribute to Detective Gibson and Officer Chestnut, with 
             illustrations and suitable binding. The document shall be 
             prepared under the direction of the Joint Committee on 
             Printing. There shall be printed 300 casebound copies; 50 
             to be delivered to each of the families of Detective 
             Gibson and Officer Chestnut, and 200 for the use of the 
             United States Capitol Police.

               Mr. HATCH. Mr. President, I ask unanimous consent that 
             the Senate proceed to the immediate consideration of S. 
             Con. Res. 112 submitted earlier today by Senators Warner, 
             Moynihan, and Ford.

               The PRESIDING OFFICER. The clerk will report.

               The bill clerk read as follows:

               A concurrent resolution (S. Con. Res. 112) authorizing 
             the printing of the eulogies of the Senate and House of 
             Representatives for Detective John Michael Gibson and 
             Private First Class Jacob Joseph Chestnut.

               The PRESIDING OFFICER. Is there objection to the 
             immediate consideration of the concurrent resolution?

               There being no objection, the Senate proceeded to 
             consider the concurrent resolution.

               Mr. HATCH. Mr. President, I ask unanimous consent that 
             the resolution be agreed to, the motion to reconsider be 
             laid on the table, and that any statements relating to the 
             resolution appear in the Record.

               The PRESIDING OFFICER. Without objection, it is so 
             ordered.

               The concurrent resolution (S. Con. Res. 112) was agreed 
             to.

               The PRESIDING OFFICER. Under the previous order, the 
             Senate stands adjourned as a further mark of respect to 
             the memory of Detective John Michael Gibson and Private 
             First Class Jacob Joseph Chestnut, until 9:45 a.m., 
             Tuesday, July 28, 1998.

               Thereupon, the Senate, at 7:23 p.m., adjourned until 
             Tuesday, July 28, 1998, at 9:45 a.m<plus-minus>.
                                                 Tuesday, July 28, 1998
               The Senate met at 9:45 a.m., and was called to order by 
             the President pro tempore (Mr. Thurmond).
                                       prayer
               The Chaplain, Dr. Lloyd John Ogilvie, offered the 
             following prayer:
               Gracious Father, whose mercies are new every morning, we 
             praise You for Your faithfulness. We exalt You with a 
             rendition of the words of that wonderful old hymn, ``Great 
             is Your faithfulness! Great is Your faithfulness! Morning 
             by morning, new mercies we see; all we have needed Your 
             hand has provided. Great is Your faithfulness, Lord, unto 
             us!'' As we begin this new day, we thank You for Your 
             faithfulness to our Nation throughout history. And one of 
             the ways You express that now is through the labors of the 
             women and men of this Senate. May they experience fresh 
             assurance of Your faithfulness that will renew their 
             faithfulness to be God-centered, God-honoring, God-guided, 
             God-empowered leaders.
               In the quiet of this moment, we ask You to help us 
             experience Your grace in the midst of the grief of this 
             day. We ask You to be with us as we honor the memory of 
             Officers Chestnut and Gibson. Especially, Lord, be with 
             their families and with their fellow officers, that they 
             may know that You are the Lord of life and eternity. 
             Through our Lord and Savior. Amen.

               Mr. LEAHY. Mr. President, much has been said on the 
             Senate and the House floor about John Gibson and Jacob 
             ``J.J.'' Chestnut, two police officers on the Capitol 
             Police Force. And much more will be said. I add my words 
             of praise and appreciation to both of them.
               I knew both these police officers. Officer Chestnut--
             J.J.--would see us come through the Senate at several 
             different times, and he would tell me a member of my 
             family has already gone through because he had seen them, 
             or conversely, if they came through he would tell them 
             where I was.
               Detective Gibson traveled with many of us at different 
             occasions. He even came to one, I believe, with the 
             ``Singing Senators'' from the other side of the aisle. He 
             was the man who at events where Senators would gather, 
             would be there because he would recognize not only the 
             Senators, but their spouses; would wave them on through, 
             would greet them, would make them know they were among 
             friends. We always knew we were.
               Mr. President, I have been a Senator now for nearly 24 
             years. I walk into this building every day that we are in 
             session, many when we are not. I have gotten to know many 
             of the police officers, and so many others, the hundreds 
             of people that make this body run, make this Capitol run.
               This truly is a death in the family.
               Even if I had not known the officers as I did, I would 
             feel that way. But knowing them in some ways makes it even 
             sadder, more poignant, more difficult.
               I love the Senate and I love the symbol of democracy 
             that our Capitol holds to the public. To see this terrible 
             thing happen in something that means so much to all of us, 
             it is almost impossible to describe my feelings.
               My wife and I had flown to Vermont last Friday. We got 
             to my office in Burlington and were there only a matter of 
             minutes and heard the news. Much of the rest of the 
             evening was a blur, just sitting in our farmhouse watching 
             the news and not believing it.
               Probably the greatest tribute to two brave police 
             officers was the fact that this Capitol, this symbol of 
             democracy not only to our own Nation of a quarter of a 
             billion people but to the rest of the world, this Capitol 
             was open almost immediately thereafter.
               There is no way we could bring these officers back. It 
             is a tragedy that will be felt by their spouses and their 
             children, in one case, grandchildren, for the rest of 
             their lives. No matter what we do as Members of the Senate 
             or the House, we cannot bring them back to their families. 
             We can only offer our profound sympathy to their families. 
             It is a sympathy that is felt deeply by every single 
             Member of the Congress, Republican or Democrat. It makes 
             no difference whether they have been here a long time or a 
             short time. Our hearts go out as human beings to the 
             families of these officers.
               What we have done in immediately reopening the Capitol, 
             in saying to the public today they can walk in here at any 
             time as they do in the galleries today, we are saying to 
             those officers that your deaths were not in vain. Think, 
             Mr. President, what a different country this would be if 
             somehow this Capitol, this symbol of democracy, was closed 
             down. Think what it would be like if the public, not only 
             Americans but those visiting from around the world, think 
             what it would be like if they could not come into this 
             Capitol, as I did when I was a law student here in 
             Washington or when I first came here with my parents as a 
             teenager. If we could not be here, the public could not 
             come in and see us debate great matters and tiny matters, 
             they could not see that.
               Mr. President, at the time of the breakup of the Soviet 
             Union, I remember so many who came here and met with all 
             of us and asked, ``How does your democracy work,'' and 
             they told me--I heard this over and over again--that they 
             would see the picture of our Capitol when they came to 
             Washington, that was the thing they recognized before 
             anything else. They said they saw it sitting up here.
               I have been coming to this Capitol Building as a Senator 
             for 24 years. I feel a thrill every time I come up here. I 
             hope I always will because I know it represents democracy. 
             These two brave officers, just like the hundreds of other 
             men and women who guard these halls, they keep it open. 
             Let's hope they always will. Let us hope that we always 
             have the courage to do that. Then the lives that every one 
             of us would pray we could bring to the family, those lives 
             would not be lost in vain.
               Like some others in this body, I had the privilege to 
             serve in law enforcement for years before coming here. I 
             know how all of us felt in law enforcement at that time if 
             one of our own was cut down. I think if you have not 
             served in law enforcement it is almost impossible to 
             explain to the American public how other law enforcement 
             officials feel when they lose one of their own. I know how 
             the men and women in the police force here on Capitol Hill 
             feel, but also how they feel all over the Nation. This is 
             a loss. This is a family, a fraternity, a sorority. It is 
             something that binds all law enforcement people together.
               I am joined with every single person who works on 
             Capitol Hill in an expression of appreciation to them and 
             to everybody who responded--all the police officers 
             responded, medical personnel responded. I will take just 1 
             minute more to express my personal appreciation to Senator 
             Bill Frist for what he did. I spoke with Senator Frist 
             yesterday and told him how much his actions meant to me, 
             to my wife, who is a registered nurse. She knows when 
             something like this happens, if you are a medical 
             personnel, you respond. But he responded not only with his 
             great skill as a cardiac surgeon, he responded when there 
             was gunfire erupting only moments before and there might 
             have been more, with no thought to his safety, but 
             thinking of only those who may have been injured.
               Mr. President, it is a sad day. Let us say also it is a 
             proud day to our country because this symbol of democracy 
             will not be closed down by the actions of one deranged 
             American, any more than it was in the 1980s when the bomb 
             went off outside this Chamber at night just minutes after 
             we recessed. I remember so well the next morning, every 
             single one of us was in our seats. We were here to show we 
             wouldn't stay home. And we will be here today, as will the 
             President and the Vice President, all of the House and 
             Senate leadership, and the Members, to show nothing closes 
             us down.
               I yield the floor, and I suggest the absence of a 
             quorum.

               The PRESIDING OFFICER. The clerk will call the roll.

               The bill clerk proceeded to call the roll.

               Mr. CAMPBELL. Mr. President, I ask unanimous consent 
             that the order for the quorum call be rescinded.

               The PRESIDING OFFICER. Without objection, it is so 
             ordered.

               Mr. KOHL. Mr. President, before I get started, I express 
             my deep sympathy to the families of Officers John Gibson 
             and Jacob Chestnut. I also want to express my thanks to 
             these brave heroes and to all the other law enforcement 
             officers here in the Capitol and all over our great 
             country who put their lives on the line every day to keep 
             the rest of us safe. The two fallen officers are true 
             heroes. They died protecting the Nation's most precious 
             symbol of democracy and protecting the people who work 
             here and who visit here. I hope their families take some 
             comfort in the deep respect, gratitude, and pride all of 
             us here feel for their acts of bravery.

               Mr. CAMPBELL. Mr. President, before I send the first 
             amendment to the desk, I would like to associate myself 
             with the remarks made by Senator Leahy, whom I found to be 
             very poignant and very moving in his tribute to the two 
             slain officers.
               Today, Mr. President, is sad day indeed for the 
             congressional family, because in just 30 minutes--in fact, 
             a little less than that--we will all participate in a 
             memorial for Detective John Gibson and Officer ``J.J.'' 
             Jacob Joseph Chestnut, who gave their lives in the line of 
             duty this past Friday.
               In fact, the Capitol Police patch which I wear today in 
             memory and honor was given to me by Detective Gibson just 
             a few weeks ago. As late as 2 weeks ago, he was kind 
             enough to come out all the way to Dulles Airport when I 
             had a delayed flight and get me here on time for a vote on 
             Monday night.
               I was a military policeman, Mr. President, and a deputy 
             sheriff in my younger days. Like most former law 
             enforcement officers, like Senator Leahy was, perhaps the 
             death of these two wonderful men touched us in a very 
             special way, because for law enforcement people, when a 
             law enforcement officer is killed, it is not like losing a 
             stranger or a colleague, it is like losing a brother or a 
             sister.
               But our system of democracy mandates that our citizens, 
             who own this building, have a right to enter it at any 
             time. I think that is the way it should be. Most of us 
             want to keep it that way, as Senator Kohl has alluded to.

               Mr. BYRD. Mr. President, we have just returned from a 
             most moving ceremony in the great Rotunda of the Capitol. 
             The flag-draped coffins of Officer Chestnut and Officer 
             Gibson, who died while doing their solemn duties 
             protecting the public, the employees, and the Members of 
             the institution they served, rested imposingly on 
             catafalques, mere yards from where these two brave men 
             were brutally cut down by an armed assailant on last 
             Friday. The sublime majesty of the great marble dome 
             rising above us was somehow magnified by the solemn and 
             eerie silence which was broken only by an occasional 
             cough. The sense of loss was palpable. Sadness permeated 
             the very air.
               Such times as these cause all of us to ponder anew the 
             fragile brevity and uncertainty of the human condition. 
             Officer Chestnut was apparently writing directions for a 
             tourist--doing a kind deed--when his life was suddenly 
             ended. I am sure that when he arose and dressed for work 
             on Friday morning he expected nothing more than an 
             ordinary day, followed by a night at home with his family 
             and the simple pleasures of a sunny weekend.
               Officer Gibson, as he began his day, likewise, probably 
             had no expectations of the bloody gun battle which would, 
             in just hours, mean his death. It is at times like these, 
             when we witness the anguish of families and friends trying 
             to cope with the incomprehensible reality of brutal and 
             sudden death, that some may wonder how a just God could 
             allow such seemingly mindless violence and misery. In the 
             face of such tragedies, some may even question the very 
             existence of a Creator. We reach for answers that elude 
             our grasp. Why do such things happen? What, after all, is 
             the point of human existence? It seems that our faith is 
             tested most severely when good men senselessly die.
               Yet, the proof of a living Creator is in abundant 
             evidence all around us. It is in the perfection and order 
             of the natural world in which we live. It is in the beauty 
             and endless variety of the millions of species which 
             inhabit the planet. It is in the mystery and complexity of 
             the human genetic code. It is in the intangible and 
             unconquerable bravery of the human spirit. It is in the 
             magnificence of the wonders which modern science daily 
             unveils. And I, for one, find no disparity between 
             scientific discovery and God's living word in the Holy 
             Bible.
               Genesis, the first book of the Bible, gives the account 
             of all creation, tells of the establishment of the family, 
             the origin of sin, the giving of divine revelation, the 
             development of the human race, and the inauguration of 
             God's plan of redemption through its chosen people. 
             Genesis takes the reader to the moment when the omnipotent 
             Creator spoke into being the matchless wonders of sun, 
             moon, stars, planets, galaxies, plants, and moving 
             creatures, and man, whom He made in His image. It is the 
             first book of the Pentateuch, which both Scripture and 
             tradition attribute to Moses.
               If a student expects to find in Genesis a scientific 
             account of how the world came into existence, with all 
             questions concerning primitive life answered in technical 
             language familiar to the professor or student of science, 
             he will be disappointed. Genesis is not an attempt to 
             answer such questions. It deals with matters far beyond 
             the realm of science. Yet, I have not personally read of 
             any disagreement within the science community concerning 
             the chronological order of the events of creation as set 
             forth in the book of Genesis. Instead of disagreement, it 
             has been my perception that there is agreement.
               The opening sentence of the first chapter of Genesis 
             states, ``In the beginning God created the heaven and the 
             earth.'' That is as far back in time as one can get--``in 
             the beginning.'' And it could include a billion years or 
             ten billion years or 500 billion years.
               The second sentence of Genesis, Chapter 1, reads as 
             follows: ``And the earth was without form, and void; and 
             darkness was upon the face of the deep.'' I doubt that any 
             scientist would disagree with this.
               According to the account in Genesis, God then divided 
             the light from the darkness, and scientists agree that 
             there could have been cosmic light before the sun, moon 
             and stars were created. The Creator then proceeded to 
             divide the waters and to let the dry land appear. The dry 
             land was called ``earth,'' and the gathering together of 
             the waters was called ``seas.''
               The next step as related by Genesis was the bringing 
             forth of grass, the herb yielding seed, and the fruit tree 
             yielding fruit.
               Then, according to Genesis, God said, ``Let the waters 
             bring forth abundantly the moving creatures that have 
             life, and fowl that may fly above the earth in the open 
             firmament of heaven.
               ``And God created great whales, and every living 
             creature that moveth, which the waters brought forth 
             abundantly, after their kind, and every winged fowl after 
             his kind.''
               On the scientific side, facts from fossils, plus other 
             data, have shown that mammals (animals with solid bones, 
             warm blood, lungs that breathe air, and nourish their 
             young with milk) form the final stage in a long series of 
             development, which began with tiny sea-dwelling creatures. 
             Scientists seem to think that an early type of fish was 
             the ancestor of amphibians and thereafter evolved into 
             mammal-like reptiles. The primitive amphibians also 
             branched into creatures with wings and thus became birds 
             and other fowl. Great changes occurred over time. 
             Primitive true mammals, according to science, lived during 
             the age of reptiles and these were the probable ancestors 
             of the mammals alive today.
               Returning, now, to the biblical account of creation, by 
             the conclusion of the ``fifth day,'' God had said: ``Let 
             the earth bring forth the living creatures after his kind, 
             cattle, and creeping thing, and beast of the earth after 
             his kind,'' and, in the ``sixth day,'' God said: ``Let us 
             make man in our image, after our likeness: and let them 
             have dominion over the fish of the sea, and over the fowl 
             of the air, and over the cattle, and over all the earth, 
             and over every creeping thing that creepeth upon the 
             earth.''
               We have reached the ``sixth day'' in the biblical 
             account. A day, in God's divine revelation to Moses, 
             evidently meant a period of some undetermined length. In 
             Psalm 90--a prayer of Moses--we are told: ``Before the 
             mountains were brought forth, or ever thou hadst formed 
             the earth and the world, even from everlasting to 
             everlasting, thou art God. . . . For a thousand years in 
             thy sight are but as yesterday when it is past, and as a 
             watch in the night.''
               Regardless of the length of the creation ``days,'' in 
             the sixth, all preparations had been completed for the 
             advent of man. ``So God created man''--we are told--``in 
             His own image, in the image of God created He him; male 
             and female created He them.''
               On the seventh day, God rested from his work. Hence, 
             both science and the Bible seem to agree, in broad terms, 
             regarding the chronological order of the events of 
             creation.
               The modern explanation of evolution dates from 1859, 
             when Charles Darwin published the ``Origin of Species.'' 
             According to Darwin, members of each species compete with 
             each other for a chance to live, as well as with members 
             of different species. In this competition any helpful 
             variation gives its owner an advantage over others in the 
             species that are not so well adapted. Members with such 
             variations, therefore, will win the struggle for 
             existence. They will live and reproduce their kind, while 
             forms not so well equipped will die. Darwin called this 
             process natural selection; it is also referred to as 
             ``survival of the fittest.''
               According to a national poll that was published earlier 
             this year, only 40% of the nation's scientists are said to 
             believe in God. I was amazed that 60% of the scientists, 
             according to the poll, share no belief in a Creator. 
             Darwin, however, apparently did not share such disbelief. 
             Some years ago, I read his ``Origin of Species.'' In this 
             brilliant work of a great British naturalist, I came 
             across this incisive question, posed by Darwin himself: 
             ``Have we any right to assume that the Creator works by 
             intellectual powers like those of man?''
               What a pertinent question? I think we human beings tend 
             to forget that the Creator, as Darwin observed, may work 
             by intellectual powers unlike those of man.
               In comparing the eye of a human being to an optical 
             instrument made by man, Darwin had this to say: ``If we 
             must compare the eye to an optical instrument, we ought in 
             imagination to take a thick layer of transparent tissue, 
             with spaces filled with fluid, and with a nerve sensitive 
             to light beneath, and then suppose every part of this 
             layer to be continually changing slowly in density, so as 
             to separate into layers of different densities and 
             thicknesses, placed at different distances from each 
             other, and with the surfaces of each layer slowly changing 
             in form. Further, we must suppose that there is a power, 
             represented by natural selection or the survival of the 
             fittest, always intently watching each slight alteration 
             in the transparent layers; and carefully preserving each 
             which, under varied circumstances, in any way or in any 
             degree, tends to produce a distincter image. We must 
             suppose each new state of the instrument to be multiplied 
             by the million; each to be preserved until a better one is 
             produced, and then the old ones to be all destroyed. In 
             living bodies, variation will cause the slight 
             alterations, generation will multiply them almost 
             infinitely, and natural selection will pick out with 
             unerring skill each improvement. Let this process go on 
             for millions of years; and during each year on millions of 
             individuals of many kinds''--this is the question that 
             Darwin poses--``and may we not believe that a living 
             optical instrument might best be formed as superior to one 
             of glass, as the works of the Creator are to those of 
             man?''
               Thus, Darwin appears to acknowledge a Creator back of 
             the creation--a master mind back of the work. I suggest 
             that the 60% of today's scientists today who, according to 
             the poll, doubt the existence of a Creator, read what 
             Darwin has to say in this regard, if they have not already 
             done so, and if they have already done so, it may be valid 
             for them to read Darwin's observation again.
               Darwin's work is sprinkled throughout with conjecture, 
             assumptions, presumptions, and, in some cases, just plain 
             guess work. For example: the reader often finds such words 
             and phrases as: ``Has probably played a more important 
             part'', ``there can be little doubt'', ``we may infer'', 
             ``seems probable,'' ``I have come to the conclusion,'' 
             ``it cannot be doubted,'' ``I am fully convinced''--this 
             is Darwin talking--``it must be assumed,'' ``seems to have 
             been,'' ``appears to have played an important part in the 
             origins of our breeds,'' ``seems to have been the 
             predominant power,'' ``it is probable that they were once 
             thus connected,'' ``thus it is, as I believe,'' ``bearing 
             such facts in mind, it may be believed,'' ``we may 
             conclude,'' ``seem to have been the chief agents in 
             causing organs to become rudimentary,'' ``is probably 
             often aided,'' ``is perhaps intelligible by the aid of the 
             hypothesis of pangenesis, and apparently in no other 
             way,'' ``it may be,'' ``every character, however slight, 
             must be the result of some definite cause,'' ``one chief 
             cause seems to be,'' ``some additional rudimentary 
             structures might here have been adduced,'' ``we have only 
             to suppose that a former progenitor possessed the parts in 
             question in a perfect state,'' ``the more complex 
             instincts seem to have originated independently of 
             intelligence,'' ``appears to have been gained,'' ``such 
             variations appear to arise from the same unknown causes,'' 
             ``it is not improbable,'' . . . and so on and so on.
               Darwin, posing the question, ``whether there exists a 
             Creator and Ruler of the universe,'' responds. Listen to 
             his response to his own question: ``And this has been 
             answered in the affirmative by the highest intellects that 
             have ever lived.''
               Twelve years after the publishing of the ``Origin of 
             Species,'' Darwin published ``The Descent of Man.'' In his 
             second book, Darwin applied his theory of evolution to the 
             human race. In Chapter IV, Darwin makes an interesting 
             admission. Here is what he said:

               I now admit . . . that in the earlier editions of my 
             ``Origin of Species,'' I probably attributed too much to 
             the action of natural selection or the survival of the 
             fittest. I have altered the fifth edition of the Origin so 
             as to confine my remarks to adaptive changes of structure. 
             . . . I may be permitted to say as some excuse, that I had 
             two distinct objects in view, firstly, to show that 
             species had not been separately created, and secondly, 
             that natural selection had been the chief agent of change, 
             though largely aided by the inherited effects of habit, 
             and slightly by the direct action of the surrounding 
             conditions. . . . Hence, if I have erred in giving to 
             natural selection great power, which I am far from 
             admitting, or in having exaggerated its power, which is in 
             itself probable, I have at least, as I hope, done good 
             service in aiding to overthrow the dogma of separate 
             creations.

               Darwin was not alone in his effort. Since the earliest 
             days of man's exploration of his universe, science and 
             religion--when not simply ignoring each other--have often 
             been at odds. Throughout the ages, it seems that the more 
             man has learned about the physical nature of the universe 
             and its creatures, the greater the gap between religion 
             and science has become.
               To many in the scientific community, the world has 
             largely become divided between that which can be 
             scientifically and mathematically explained away, and that 
             for which the mathematical equation or scientific basis 
             has not yet been discovered. The Creator has had no role. 
             He has been left out. The fabulously intricate pattern of 
             occurrences, which had to exist in order to account for 
             the strictly scientific view of the creation of the 
             universe, has been viewed as merely chance--a lucky 
             shot!--with no connection to any sort of greater 
             intelligence. How absurd!
               Mr. President, I have in my pocket a gold watch and a 
             golden chain. Watches are not in the habit of assembling 
             themselves. There has to be a designer. There has to be a 
             maker back of the watch, a creator back of the chain. 
             There has to be a greater intelligence, a Creator.
               On the other side, to many of those in the religious 
             community, too tightly held religious doctrine has 
             precluded all possibilities suggested by scientific 
             investigation of the physical world.
               Happily, however, scientists and men of the cloth both 
             appear to be rejecting doctrinal absolutism and 
             discovering some common ground.
               Recent articles in Newsweek and U.S. News and World 
             Report, point to a change in attitude among scientists and 
             theologians. Rather than opposing one another, the study 
             of science and the practice of religion may at last be 
             able to enhance one another. Science may be recognizing 
             that rules, or tangible events, or even the laws of 
             physics may not always be entirely explainable. As we 
             search for scientific truth we may also provoke a faith 
             that instills in the previously cynical, a wonder for the 
             unexplainable and a tacit admission that there must be a 
             higher power.
               In innumerable cases, science is apparently unearthing 
             instances of perfection in the physical world which are so 
             far beyond even the wildest imaginings of the human mind 
             that chance could not account for them, and even nondevout 
             scientists have tended to conclude that such minute 
             miracles can only have been wrought by some form of divine 
             design.
               Newsweek, in its edition of July 20, said, ``Physicists 
             have stumbled upon signs that the cosmos is custom-made 
             for life and consciousness. It turns out that if the 
             constants of nature--unchanging numbers like the strength 
             of gravity, the charge of an electron and the mass of a 
             proton--were even the tiniest bit different, then atoms 
             would not hold together, stars would not burn, and life 
             would never have made an appearance.'' As Nobel-prize-
             winning Physicist and Christian Charles Townes put it, 
             ``somehow intelligence must have been involved in the laws 
             of the universe.'' And, consider the words of Physicist-
             turned-priest John Polkinghorne, who said that the most 
             fundamental component in the belief in God ``is that there 
             is a mind and a purpose behind the Universe.''
               Similarly, Newsweek and U.S. News and World Report 
             relate the story of Allan Sandage, one of the world's most 
             preeminent, respected, and accomplished astronomers, who 
             spoke at a recent meeting of cosmologists gathered 
             together to consider the theological implications of their 
             work. Sandage, who reportedly admits to having been 
             ``almost a practicing atheist as a boy,'' has come to the 
             conclusion through his work that creation can only be 
             explained as a ``miracle''. ``It is my science that drove 
             me to the conclusion that the world is much more 
             complicated than can be explained by science. It is only 
             through the supernatural that I can understand the mystery 
             of existence.''
               I find it rather exhilarating that men like Sandage and 
             Townes and Polkinghorne, who have devoted so much of their 
             lives to questioning their universe in order to discover 
             its secrets, have come to a conclusion that to me was 
             answered long ago through simple, basic, unquestionable 
             faith, and simple, common-sense reasoning.
               There are those who will only ever be comfortable with a 
             world of rules and measurements, in which events are 
             quantifiable and reliable, and a ``miracle'' is defined 
             only as that which has not yet been thoroughly dissected 
             and concretely explained. There are also those who will 
             always reject scientific theory if it seems in any way to 
             challenge their religious doctrine.
               But it seems to me that scientists such as Allan 
             Sandage, who embrace both religion and science, can teach 
             a valuable lesson to us all. A black-and-white science of 
             stiff rules and blinders is fatally flawed. It is the 
             scientist who looks to the heavens for divine intervention 
             and is willing to admit that not all things are 
             explainable, who has the greatest opportunity to achieve 
             medical breakthroughs, uncover the mysteries of outer 
             space and develop life-changing technologies. His is an 
             intellect which is truly free, for he allows for all 
             possibilities.
               The two great disciplines of the world, science and 
             religion, represent the ceaseless human probing for 
             answers to the mysteries of life. They are, at their 
             cores, nothing more than man's quest for truth.
               As we search, may we never close our hearts to the 
             abundant evidence of His love and his miracles all around 
             us.
               Even in the midst of great sorrow and profound tragedy, 
             He is there and His love will prevail and will triumph. So 
             my heart goes out today to the families of the two brave 
             men whose lives and dedication we honored today in this 
             magnificent Capitol, itself a symbol of man's belief in 
             things which cannot be seen. And I hope that these loved 
             ones will remember the words of hope from the Scriptures 
             and the words of William Jennings Bryan:

               If the Father deigns to touch with divine power the cold 
             and pulseless heart of the buried acorn, to make it burst 
             forth from its prison walls, again the mighty oak, will He 
             leave neglected in the Earth the soul of man, created in 
             his own image?
               If He stoops to give to the rosebush whose withered 
             blossoms float upon the autumn breeze, the sweet assurance 
             of another springtime, will He refuse the words of hope to 
             the sons of men when the frosts of winter come?
               If matter, mute and inanimate, though changed by the 
             forces of Nature into a multitude of forms, can never be 
             destroyed, will the imperial spirit of man suffer 
             annihilation when it has paid a brief visit like a royal 
             guest to this tenement of clay?
               No, I am sure that He who, notwithstanding His apparent 
             prodigality, created nothing without a purpose, and wasted 
             not a single atom in all His creation, has made provision 
             for a future life in which man's universal longing for 
             immortality will find its realization. I am as sure that 
             we live again as I am sure that we live today.

               With those words of William Jennings Bryan, Mr. 
             President, I yield the floor.

               Mr. ROTH. Mr. President, I rise to express my profound 
             respect and appreciation for Officers John Gibson and 
             Jacob Chestnut, two men whose lives were tragically cut 
             short on Friday as they stood watch in the Capitol--a 
             building that is, as we have constantly been reminded this 
             weekend, ``the People's House.'' Officer Chestnut was 58--
             a loving husband, a veteran of Vietnam, the father of five 
             children, and the grandfather of another five.
               Officer Gibson was 42--a bright young man, full of 
             energy and good works, who had dedicated his life to 
             protecting others. Like Officer Chestnut, he, too, was a 
             loving husband and the father of three.
               Today, both men are gone. We mourn their loss and 
             express our deepest condolences to their families. We 
             acknowledge that we will never fully understand what would 
             motivate such a heinous act of violence against the 
             innocent in a building that is the icon of Democracy, but 
             we know that in stopping such brutality--in saving the 
             lives of how many tourists, staff members and Congressmen 
             we will never know--the names of John Gibson and Jacob 
             Chestnut are etched forever in the pantheon of heroes.
               All who are indebted to them--myself included--will from 
             this day forward speak their names in reverence. Their 
             courage will inspire those who will hear told the tale of 
             their sacrifices. While their children, their 
             grandchildren and great grandchildren will stand tall--
             living legacies of extraordinary men.
               In expressing our gratitude to these brave officers, we 
             also acknowledge the skill, professionalism, and 
             dedication of the other 1,250 members of the United States 
             Capitol Police Force. They are among the most highly 
             trained and well-respected law enforcement officers in the 
             world.
               Members of Congress, congressional staff, tourists, and 
             all those who come and go through these buildings are 
             blessed to have these men and women on the ramparts. Our 
             hearts are with them as well, as they mourn the loss of 
             their two distinguished colleagues and friends.
               It is never easy, Mr. President, to weather a tragedy of 
             this kind. There is little, if anything, that can be done 
             to console loved ones and to reassure the children of men 
             whose lives were lost that the principles and sense of 
             duty for which their fathers stood are the very virtues 
             which sustain life's goodness. But in time, they will be 
             assured.
               They will come to discover--as we all discover--that 
             such principles are eternal: service, selflessness, 
             sacrifice. Their meanings resonate beyond mortality. And 
             we come to acknowledge the simple truth written more than 
             2,000 years ago: Greater love hath no man than that he lay 
             down his life for a friend.

               Mr. WELLSTONE. Mr. President, I guess what I will say on 
             the floor of the Senate, in part, is an effort to speak to 
             the families of Officer Chestnut and Officer Gibson, but I 
             guess it is also an effort on my part not only to speak to 
             their families, but also to speak to the Capitol Hill 
             Police.
               Early Monday morning, Sheila, my wife, and I were 
             walking from our apartment, which is near the Hart Senate 
             Office Building, over to the doctor's office. Usually that 
             takes about 7 minutes. It took about 40 minutes because of 
             all of the officers who we ran into and all of the 
             embraces, the hugs and the tears, just the embrace of real 
             pain that people feel.
               I want to say--I don't really have any words--this is a 
             very sad day in Washington, D.C., but I want to say to the 
             Capitol Hill Police that all of us in the Senate--but I am 
             now speaking for myself as a Senator from Minnesota--want 
             you to know of our love and our support. We want Officer 
             Chestnut and Officer Gibson's families to know that their 
             husbands and fathers, sons, brothers were so courageous. I 
             wish personally that there is something I can do to change 
             everything. I wish that none of this had happened. It is 
             horrifying. It seems senseless.
               They were two wonderful men. I only knew them to say 
             hello. I know the Capitol Police much better on the Senate 
             side. It never should have happened, but these men deserve 
             all of our praise. Their families deserve all of our love 
             and support.
               Especially as a U.S. Senator, I say to the other police 
             officers--I guess that is mainly the one thing I want to 
             do today--I want them to know how much I appreciate what 
             they do. I want them to know how sorry I am that this 
             happened. I want them to know that I hope and pray it will 
             never happen again. And I want all of my colleagues to 
             know, Democrats and Republicans alike, that I think today 
             we are all together. Everybody can feel this, everybody 
             can understand this, and I think probably the best thing 
             we can do in memory of two very brave police officers is 
             to understand how precious each day is, understand how 
             precious people are, understand how important life is, 
             appreciate the people who help us and go out of our way to 
             make sure we live our lives in the most honest way 
             possible.
               To the Capitol Hill Police, thank you for some of you 
             being really great friends to Sheila and me. I know how 
             much pain you are in, but please know that you have our 
             support.

               Mr. BAUCUS. Mr. President, last week's deadly violence 
             in the halls of the United States Capitol touched the 
             conscience of a Nation. From coast to coast, Americans 
             gathered to talk about the shootings. The coverage has 
             dominated television, has dominated our newspapers, as 
             well it should. There has been much discussion about who 
             the assailant was, where he was born, where he lived, what 
             might have caused him to do this dreadful deed.
               I must say, Mr. President, with deep regret, that this 
             assailant spent a part of his life in my home State of 
             Montana. We in Montana are even more grieved, even more 
             touched, and find this tragedy even more tragic than 
             others in the Nation--if that is possible.
               This man was not from Montana. We pride ourselves that 
             those of us from our State have a great sense of honor, 
             pride, duty, sense of family, sense of community. This 
             person, unfortunately, spent some time in our State before 
             he perpetrated this dreadful, violent, evil act.
               We are deeply grieved. We are very deeply sorry. I am 
             speaking for the people of my State of Montana.
               Mr. President, there has been some conversation, too, 
             about why things like this happen. Did somehow the system 
             allow a person like this with some mental illness to fall 
             between the cracks? Was the system we have for treating 
             mental illness somehow not adequate?
               Frankly, I believe that the system is inadequate. That 
             is, there are many people who are homeless. We are not 
             properly treating people who are mentally disturbed, some 
             of whom are paranoid schizophrenic. They are not receiving 
             medication. They are not being properly treated, because 
             our system is not paying enough attention to people who 
             have this illness. I think if we do not remedy the 
             situation, we will have continued troubles on our hands. I 
             hope we do remedy it very quickly.
               Remember more than anything else the real heroes here. 
             The real heroes are the officers who were shot performing 
             their duty. Talking about the assailant and talking about 
             how we correct the system is meaningless--because the real 
             lesson here is the lesson of Jacob Chestnut and John 
             Gibson.
               All of us here personally know many of the Capitol 
             Police. We live with them. We see them daily. We talk with 
             them. We know many by their first names. We know something 
             about them personally.
               Tony, for example. Tony D'Ambrosio was a plainclothes 
             detective, first a uniformed policeman, on Capitol Hill 
             for many years. It wasn't too many years ago I received 
             several death threats--regrettably, in my home State of 
             Montana. Tony came out to Montana with me and we ran a 
             marathon together. I got to know Tony quite well and have 
             the highest regard for him.
               There is Steven out there. Many know Steven. Steven 
             stands by the door to the entrance of the Senate. We talk 
             with him, we joke with him. He is part of our family.
               Then there is Henry Turner. Henry is a policeman 
             originally from Alabama, who is also stationed out here at 
             the front door. I often talk to Henry about legislation on 
             the floor. ``This is a good bill to vote for,'' or ``This 
             is not a good amendment to vote for.'' Henry would know 
             more about the legislation before the Senate than a lot of 
             Senators, on occasion. A great man to talk to. A very 
             wise, very thoughtful man from Alabama.
               The same is obviously true for John and for Jacob. I did 
             not personally know them nearly as well as I know other 
             Capitol Police, but they are men, they are fathers, they 
             are parents. They have family just like all of us do, all 
             of us in the Senate, all of us in the country. We are all 
             bound together by the community of brotherhood, the 
             community of sisterhood, the community of family. We are 
             all together.
               Many people have said it in many, many ways, and I want 
             to share my deepest sympathy for them, John and Jacob, for 
             their families, and I want them to know that we all are 
             with them. We are now and we will always be.

               Mr. BIDEN. Mr. President, it is with some reluctance 
             that I rise this afternoon to speak of the tragic 
             occurrence, where two fine officers were gunned down here 
             in the Capitol. The reason I say it is with reluctance is 
             because, like many of us in this Chamber, I know from 
             personal experience that when a wife or husband or son or 
             daughter is taken from a family as a consequence of a 
             totally unexpected violent event, there is little that 
             anyone can say or do, no matter how well intended we may 
             be, that can in any way ease the pain of the family 
             members who survive--the children, the spouses, parents.
               So I debated with myself today whether or not to say 
             anything at all. Much has been said about the heroism 
             displayed in the performance of duty, and much more will 
             be said about the lives that these two men, in giving 
             theirs. All that need be said, but none of that in any way 
             is likely to produce any sense of relief on the part of 
             the children of the officers, on the part of their 
             spouses, on the part of their families. As a matter of 
             fact, it is likely to produce, initially, a sense of 
             anger; a feeling of ``Why my father?'' a feeling of ``Why 
             did it have to be my husband?''
               So, in a few moments each of us in our own ways will, as 
             we attend the memorial service, demonstrate our high 
             regard for and pay respects to the families as well as the 
             deceased officers. But I also note one other thing from 
             personal experience. Notwithstanding the fact that nothing 
             we say today can ease that horrible void that seems to 
             occupy the chest of the family members who can't fathom 
             why this occurred to their father or to their husband--
             nothing we do will make them feel any better today--but, 
             as time goes on, they will find a sense of comfort knowing 
             that so many people held their father, their spouse, in 
             such high regard. It will not occur for months, but it 
             will occur. And when it does, it will at that time help 
             ease, ever so slightly, that sense of loss. The pain will 
             never go away. The sense of loss will never be completely 
             abated. But it will become easier to live with. So, as I 
             said, although a lot of us in this Chamber know from 
             similar experiences the feeling, it is hard when you are 
             going through it to know one other thing that occurs and 
             that is that time will not erase the pain, but time will 
             make it livable.
               At this moment, I expect, family members feel that 
             nothing that will happen to them from this point on will 
             make life as worth living as it has been for them. But, 
             again from personal experiences, all of us know, who have 
             gone through similar things, that the time will come when 
             the memory of J.J. or John, the memory of their father or 
             husband, will bring a smile to their lips rather than a 
             tear to their eyes. My only prayer, on behalf of my wife 
             Jill and me--we talked a lot about this morning before I 
             came down--is that the moment will come sooner rather than 
             later.
               We ask a lot of those who serve this Nation. But few of 
             us, few of us ever have to give what these two officers 
             gave. Even fewer family members have to live with the 
             sacrifice they have made, the void that is created and the 
             pain that will endure for some time, like the families of 
             the two fallen officers. So, again, I have no illusions 
             that my words, as inadequate as they are, or the words of 
             any of us, will at this moment give much comfort. But in 
             time, in time I hope they will find some refuge in what 
             has been said, in the outpouring of respect, the 
             outpouring of emotion, the outpouring of just simple, 
             plain gratitude on the part of the staff, the Senators, 
             and all Americans for what these two men did.
               They did their duty. And, in doing so, they clearly 
             saved the lives of other innocent people. That is no 
             comfort now, but it will, in time, be some comfort.
               Let me close by saying, once again, in time the pain 
             will ease. In time, when they think of their father, when 
             they think of their husband, they will, in fact, smile 
             rather than cry. All that we can hope is that time will 
             come sooner than later.
               I yield the floor.

               Mr. HAGEL. Mr. President, I rise this afternoon to add 
             my tribute and honor to our fallen comrades and 
             colleagues, Officers Chestnut and Gibson, whose bodies lie 
             in state in the Capitol Rotunda just down the hall, where 
             Members of the House and Senate paid tribute this morning.
               I am not nearly eloquent enough to express the feelings, 
             certainly, that all of us have about what these two men 
             did mean to us, what all of our officers, protectors, men 
             and women who guard over us and our population that visits 
             this great and magnificent Capitol, this Capitol that 
             represents free men and women, this Capitol that 
             represents the best hope for mankind, mean to us.
               What I would like to offer is a saying that I have found 
             comforting over the years and I believe applies very much 
             to our fallen heroes. And that saying goes like this--that 
             man is a success who has lived well, laughed often, and 
             loved much; who has gained the respect of men and the love 
             of children, who leaves the world better than he found it, 
             whether through an improved poppy, a perfect poem or a 
             rescued soul, who never failed to appreciate the beauty of 
             nature, and always gave the best he had. Officers Chestnut 
             and Gibson gave the best they had and the America they 
             leave behind is a better place.
               Mr. President, I thank the Chair. I yield the floor.

               Mr. ABRAHAM. Mr. President, I rise to express my deep 
             regret over the deaths of the two capitol police officers 
             slain in the line of duty last Friday. Officers John 
             Gibson and Jacob Chestnut were family men; each was 
             married with three children. They also were dedicated 
             professionals and, as shown by their final acts, heroes.
               Officer Chestnut confronted the lone gunman whose weapon 
             set off the metal detector at the ``document door'' 
             entrance to the main Capitol building. Officer Chestnut 
             was fulfilling his duty to protect the people's building 
             and the thousands upon thousands of Americans who visit 
             their building, from violence. He paid for his dedication 
             with his life.
               The gunman mortally wounded Officer Chestnut, then went 
             into the building, firing his weapon and finding his way 
             to the office of the distinguished Majority Whip, 
             Congressman Tom DeLay. Congressman DeLay and his staff 
             were in mortal danger from this gunman. I know that every 
             one of them thanks God for the acts of Officer Gibson, 
             whose bravery and perseverance brought down the gunman at 
             the office door, even as Officer Gibson himself lay 
             mortally wounded.
               Each of us who serves in the United States Senate 
             depends on the bravery and dedication of men and women 
             like Officers Gibson and Chestnut. Every day they put 
             their lives on the line to protect the safety and well-
             being of Members of Congress and the public. Many of us 
             have become friends with particular officers over the 
             months and years we have served in this body, and that is 
             only right. But it certainly doesn't make it any easier 
             when we have to say goodbye to two such dedicated public 
             servants and members of our Capitol Hill family.
               My condolences go to the families of these brave men. It 
             is my hope that they will derive comfort from the 
             knowledge that Officers Gibson and Chestnut died 
             protecting people from a mad gunman, sacrificing 
             themselves for the greater good--a greater good to which 
             they had devoted their careers and their lives.

               Mr. LEVIN. Mr. President, I rise to join the people 
             across our Nation paying tribute to the heroic actions of 
             Officer Jacob J. Chestnut and Detective John M. Gibson. 
             These two men, who were killed during a senseless act of 
             violence last Friday, gave their lives in order to protect 
             the American people and their Capitol. They died 
             fulfilling their sworn duty to protect the men and women 
             who work in the Capitol compound and the multitudes of 
             visitors who tour each day. The loss of J. J. Chestnut and 
             John Gibson is like a death in the family. However, 
             despite the great loss that we will feel, our thoughts and 
             prayers are first with their families, who will bear the 
             greatest burden of this tragic event. We hope that they 
             may find some solace in knowing that the Nation joins them 
             in their grief.
               These fallen protectors were true heroes. They faced 
             gunfire and death in the line of duty. It is fitting that 
             we are able to pay our final respects to them today in the 
             very place where they worked and gave their lives. The 
             Capitol Police serve with pride, efficiency, and good 
             humor. They handle the enormous task of allowing the 
             multitude of people who visit our Capitol, the symbol of 
             freedom and democracy the world over, access to it without 
             a feeling of having to cross a barricade. This openness 
             and accessibility have a heavy price, as we mourn the loss 
             of these brave men.
               Today, J. J. Chestnut and John Gibson are being given an 
             extraordinary honor by the Congress when their caskets are 
             placed in the Capitol Rotunda. It is an honor that has 
             been bestowed upon very few of our Nation's exemplary 
             public servants and one which is entirely fitting for J. 
             J. Chestnut and John Gibson. They were public servants in 
             the most fundamental sense. Their sense of duty and 
             service were unmatched, and as we mourn the deaths of 
             these two outstanding men we can also feel a sense of 
             pride in the great sacrifice they made in the defense of 
             democracy, our Capitol, and its visitors.
               Mr. President, I know my Senate colleagues and Americans 
             everywhere join in honoring these two fallen heroes: Jacob 
             J. Chestnut and John M. Gibson.

               Mr. ALLARD. Mr. President, today, in a place where 
             President's have laid, Officers J.J. Chestnut and 
             Detective John Gibson lay in state under the Capitol dome, 
             the very symbol of freedom and democracy that they died to 
             protect.
               On Friday, July 24th, Mr. Gibson and Mr. Chestnut laid 
             down their lives for the people visiting their Capitol, 
             for our staffs, and for us. These two brave men are true 
             public servants. Their actions protected American lives 
             and our cradle of freedom, the Capitol.
               Even though I never had the opportunity to meet Mr. 
             Gibson and Mr. Chestnut, I do know many like them. They 
             are both husbands, fathers--Mr. Gibson has 3 children, and 
             Mr. Chestnut has 5, and J.J. Chestnut is a grandfather. I 
             also know them from the friendships that I and my wife 
             Joan have formed with the committed and selfless Capitol 
             Hill Police. I want to thank them for their service to me, 
             my family, my staff, and every visitor who enters this 
             Capitol.
               Our hearts go out to the families of these two loved 
             family men and the Capitol Hill Police for their two 
             fallen respected colleagues. My wife and I and my staff 
             offer our depest sympathies. These officers are heroes. 
             While no words can ever express the sorrow felt, our 
             prayers go out to their families, friends, and the Capitol 
             Hill Police.
               Thank you Officer John Gibson and Officer J.J. Chestnut 
             for your service to all of us and to this country. God 
             bless their memory and their families.

               Mr. CLELAND. Mr. President, I rise today to honor two 
             fallen heroes--U.S. Capitol Police Officer J.J. Chestnut 
             and U.S. Capitol Police Special Agent John Gibson--who 
             gave their lives to protect us. When I say ``us,'' I do 
             not refer only to Members of Congress, to the tourists who 
             visited the Capitol last Friday, or to staff members 
             working that afternoon, I refer to all Americans. J.J. 
             Chestnut and John Gibson gave their lives to protect our 
             house, the People's House, and our freedom.
               J.J. Chestnut, 58, joined the Capitol Police force in 
             1980, following 20 years of service in the United States 
             Air Force. He earned numerous commendations and awards for 
             both his military and police service, including a Vietnam 
             Service Medal, the Bronze Star for Meritorious military 
             service and countless letters of appreciation from 
             citizens and staff for assistance provided and attention 
             to duty. Officer Chestnut is survived by his wife, Wen 
             Ling, and five children.
               John Gibson, 42, also joined the Capitol Police force in 
             1980, and also earned numerous commendations. In 1988, 
             Gibson was commended for going to the aid of a citizen, 
             and saving their life by administering CPR. Special Agent 
             Gibson is survived by his wife, Evelyn, and three 
             children.
               It is horribly ironic to me that one of the fallen 
             officers, J.J. Chestnut, was a Vietnam veteran who 
             survived combat only to fall at the hand of a fellow 
             American. As a veteran he served his country so that we 
             could all have our freedom, a freedom which the gunman who 
             walked into the United States Capitol last Friday and 
             opened fire, did not understand, did not honor, and 
             certainly did not respect.
               In 1862, Nathaniel Hawthorne wrote: ``It is natural 
             enough to suppose that the center and heart of America is 
             the Capitol.'' He stated that the Capitol's combination of 
             dignity, harmony, and utility made it a fit embodiment of 
             the highest traits of our Nation. A year later, Sculptor 
             Thomas Crawford's 19\1/2\ foot, 7\1/2\ ton Statue of 
             Freedom was lifted and placed atop the Capitol Dome.
               Nearly every President since Andrew Jackson has been 
             inaugurated on its steps. The Capitol has hosted a cast of 
             American legends, as great Senators and great Members of 
             the House have presided and debated in each of two houses 
             over the years, including John Calhoun, Daniel Webster, 
             Henry Clay, Robert Lafollette, George Norris, Richard 
             Russell, John F. Kennedy, Sam Rayburn, Carl Vinson, Robert 
             Byrd.
               The Capitol has also been home to so many milestones in 
             American history. The Capitol was where the Civil Rights 
             Act was passed in 1964, and where women were granted the 
             right to vote. It was where war was declared after the 
             invasion of Pearl Harbor following upon the famous ``Day 
             of Infamy'' speech. It was where the Social Security Act 
             was enacted, and where legislation was passed to limit 
             child labor.
               More than anything, our Capitol has stood as a symbol of 
             our democracy, of our liberty, and of our freedom since 
             President George Washington laid the cornerstone for the 
             building in 1793.
               Let us not let the actions of the gunman last Friday 
             threaten our freedom, or our belief in our democracy. 
             Instead, let us focus on the heroic actions of officers 
             J.J. Chestnut and John Gibson, who last week gave the 
             ultimate sacrifice for their country.
               I am reminded of a passage from Thucydides' ``Funeral 
             Oration of Pericles'':

               So they gave their bodies to the commonwealth and 
             received, each for his own memory, praise that will never 
             die, and with it the grandest of all sepulchers, not that 
             in which their mortal bones are laid, but a home in the 
             minds of men, where their glory remains fresh to stir to 
             speech or action as the occasion comes by. For the whole 
             earth is the sepulcher of famous men; and their story is 
             not graven only on stone over their native earth, but 
             lives on far away, without visible symbol, woven into the 
             stuff of other men's lives. For you now it remains to 
             rival what they have done and, knowing the secret of 
             freedom a brave heart, not idly to stand aside from the 
             enemy's onset.

               We have a lot to learn from the selfless bravery and 
             public service displayed by these two men. Our thoughts 
             and prayers are with their families and friends at this 
             difficult time. God bless.

               Mrs. FEINSTEIN. Mr. President, my heart goes out to the 
             families of the two officers slain in Friday's brutal 
             shooting. These two men will be forever known for their 
             bravery, courage and heroism in laying down their lives to 
             protect all of us who pass through the halls of the United 
             States Capitol.
               The Capitol police officers, Jacob Chestnut and John 
             Gibson, made the ultimate sacrifice that any person can 
             give in laying down their lives so that others would be 
             spared. Their actions demonstrated the highest form of 
             bravery, selflessness, and professionalism.
               We must all remember that the price of democracy is 
             indeed, a high one. At times, the openness of our 
             government is sometimes challenged by events like those 
             that took place this past Friday. But even though our 
             democracy sometimes seems fragile when challenged by 
             senseless violence, we must all do our part to ensure that 
             this type of violence never happens again. I am confident 
             we will take those steps as a Nation.
               I had just landed in Colorado when I learned what had 
             happened in the Capitol building. When my plane arrived, I 
             received an emergency call from my office informing me of 
             the tragic events. In an instant, my mind fell back to 
             November 28th, 1978 when in City Hall in San Francisco the 
             double assassination of Mayor George Moscone and 
             Supervisor Harvey Milk took place. I knew the terrible 
             anguish--even anger--that accompanies events like this 
             one.
               This event also shows the depth to which America's 
             infatuation with weapons can lead to tragedy. Not only do 
             we now see youngsters shooting other youngsters, but also 
             the unthinkable slayings in what should be one of the 
             safest places in our Nation, the United States Capitol. In 
             this very difficult time, I am proud to say that Officers 
             Jacob Chestnut and John Gibson will always be remembered 
             as American heroes.

               Mrs. MURRAY. Mr. President, I rise humbly to pay tribute 
             to Officers Jacob Chestnut and Special Agent John Gibson--
             and all of their fellow Capitol Police officers and law 
             enforcement officers across the Nation and world.
               As I filed past the bodies of our slain officers in the 
             Rotunda this morning, I was overwhelmed by the sacrifice 
             they made to protect us, our families, and fellow 
             citizens. So many times, we take law enforcement for 
             granted because we see them every day monitoring 
             entrances, patrolling the Capitol, just being there. And, 
             thankfully, we don't often see events like the tragedy 
             that occurred on Friday.
               But such events do happen. They happen every day across 
             this great Nation. Law enforcement officers sacrifice 
             their lives so we can live more safely and freely. Every 
             time that happens, I remember the commitment they have 
             made and I thank them.
               When such madness strikes at our Nation's symbol of 
             democracy, it should remind us even more that freedom 
             comes at a price. Our citizens and people of all lands are 
             welcome to visit our capitol and participate in the 
             democracy that they help sustain. They can watch Members 
             of Congress undertake the people's business from the 
             galleries above the two house chambers. They can visit us 
             in our offices. They can visit sacred monuments and 
             historic sites.
               Just last Wednesday, at a coffee I held for visiting 
             constituents from Washington State, one tourist exclaimed 
             how impressed she was with the accessibility of the 
             Capitol, with the openness of the process and the ability 
             to meet and see her Senator and Representatives. I agreed 
             that we have a wonderful system and I praised her for 
             taking advantage of that openness and participating in our 
             great democracy.
               But we have defenders of this democracy and openness. 
             Those men and women are our police officers who try to 
             find that perfect balance of an open society and a safe 
             society. Sometimes that balance means lives are sacrificed 
             to protect those noble goals.
               My thoughts and prayers are with the families of Officer 
             Chestnut and Special Agent Gibson. This is such a tragedy. 
             As I have read about their lives and families and 
             commitment to their communities, their sacrifice was made 
             even more real. They are true heroes.
               So, I thank them and I thank the Capitol Police. I honor 
             their service. I will use this tragedy to make sure I 
             remember the tremendous commitment our law enforcement 
             officers have made to us: To keep us as safe and when we 
             are in danger, to lay down their lives for us.

               Mr. SANTORUM. Mr. President, I rise today to recognize 
             and mourn the passing of two cherished members of our 
             Capitol Hill community, Officer J.J. Chestnut and Officer 
             John Gibson, slain Friday in the line of duty.
               As we mourn their deaths and pay tribute to them, 
             perhaps we should recall the particular, even paradoxical, 
             quality of who they were and what they did: They stood 
             among us, as members of this community, but they also 
             stood apart.
               As many have noted since their deaths, both officers 
             were familiar to those of us who work in the Capitol. They 
             stood guard in these halls--and so they stood, literally, 
             among us. And their lives resembled many of our own lives; 
             they were husbands, fathers, sons, and brothers. They took 
             pleasure from their families and pride in their work. If 
             but for the sad events on Friday, they might have 
             continued to live as so many of us do: simply but 
             decently, content to be known and loved mostly by those 
             closest to them.
               But they stood guard in these halls--and so they also 
             stood apart. They belong to that small but remarkable 
             group of people whose profession requires the willing 
             forfeiture not just of their time and talent but, if 
             necessary, of their very lives. Unlike most of us, their 
             daily work was to offer their life in the place of 
             another's. More dramatically and compellingly than most of 
             us, they embodied the qualities that sustain our 
             democracy: selflessness and courage. In this, they stood 
             guard over our democratic tradition.
               As individuals and citizens, we are defined not only by 
             with whom we stand, but by when we choose to stand apart. 
             I am honored that these men stood among us everyday and 
             grateful that, when the critical moment came, they also 
             freely chose to stand apart. In tribute, in these halls 
             they guarded, we stand as one and grieve their deaths.

               Mr. JOHNSON. Mr. President, I rise to pay tribute to 
             Capitol Police Officers Jacob Chestnut and John Gibson who 
             sacrificed their lives last Friday safeguarding our 
             Nation's Capitol, Members of Congress, our staffs, and the 
             thousands of Americans who were visiting the Capitol on 
             that tragic day.
               We are privileged to work in these hallowed buildings 
             that are central to the greatest democracy in the world. 
             We are equally privileged that Officers Chestnut and 
             Gibson and their colleagues are willing to risk their 
             lives to defend us from harm and keep democracy alive.
               Capitol Police officers protect more than 7 million 
             visitors who come to our Nation's Capitol every year. 
             Often, they are the first to welcome these visitors to our 
             Capitol. I thank all the officers who secure our grounds 
             and dedicate their lives to our safety.
               Officers Chestnut and Gibson and their families are in 
             our thoughts and our prayers, but we also should remember 
             to pray for the safety of hundreds of other men and women 
             who protect us everyday as we do the business of the 
             American people. This tragedy should remind all of us that 
             our democracy and our Nation's security are ultimately 
             dependent upon the courage and commitment of individuals 
             such as Jacob Chestnut and John Gibson.

               Mr. FRIST. Mr. President, honoring those who die in the 
             service of others is a practice as old as life itself. 
             From ancient times to the present day, those who survive 
             pay tribute to those who have fallen with songs and 
             symbols, flowers and ceremonies.
               And it is a good thing, for it is at times like these 
             that words often fail us. Few memorial addresses have 
             outlived those who uttered them--not because of the 
             inadequacy of the speakers, but because of the inadequacy 
             of words themselves. To quote General James A. Garfield, 
             who spoke at the first memorial at Arlington National 
             Cemetery--where Officers Gibson and Chestnut will be 
             buried later this week--``If silence is ever golden, it 
             must be here beside the graves of men whose lives were 
             more significant than speech, and whose death was a poem 
             the music of which can never be sung.''
               John Gibson and Jacob Chestnut were such men, as their 
             countless friends and associates have testified, and so I 
             add my small tribute to the hundreds that have already 
             been offered in the hope that it may, in some small way, 
             console the hearts of those they leave behind.
               Mr. President, long after these men are laid to their 
             final rest, the memory of their warmth and their many 
             kindnesses, their lives and their heroic sacrifice will 
             live on in the hearts and minds of all of us--indeed, of 
             all who visit the soaring symbol of freedom and democracy 
             they died to defend. From this day forward it will stand, 
             like a silent sentry, guarding the memory of their valor 
             and courage.
               May the Almighty god who watches over all of us, comfort 
             and strengthen their wives and children in the days ahead, 
             and may He protect all who place themselves in harm's way 
             so that we may enjoy the blessings and benefits of 
             freedom.
               Mr. President, I thank the chair and yield the floor.
                 Messages from the House Received During Adjournment
               Under the authority of the order of the Senate of 
             January 7, 1997, the Secretary of the Senate, on July 27, 
             1998, during the adjournment of the Senate received a 
             message from the House of Representatives announcing that 
             the House has agreed to the following concurrent 
             resolution, in which it requests the concurrence of the 
             Senate:

               H. Con. Res. 311. Concurrent resolution honoring the 
             memory of Detective John Michael Gibson and Private First 
             Class Jacob Joseph Chestnut of the United States Capitol 
             Police for their selfless acts of heroism at the United 
             States Capitol on July 24, 1998.
                               Messages from the House
               At 5:39 p.m., a message from the House of 
             Representatives, delivered by Mr. Hays, one of its reading 
             clerks, announced that the House has passed the following 
             concurrent resolution, without amendment: S. Con. Res. 
             112. Concurrent resolution to authorize the printing of 
             the eulogies of the Senate and the House of 
             Representatives for Detective John Michael Gibson and 
             Private First Class Jacob Joseph Chestnut.
                   Submission of Concurrent and Senate Resolutions
               The following concurrent resolutions and Senate 
             resolutions were read, and referred (or acted upon), as 
             indicated:
               By Mr. CAMPBELL:

               S. Con. Res. 113. A concurrent resolution to rename the 
             Document Door of the Capitol as the Chestnut-Gibson 
             Memorial Door; to the Committee on Rules and 
             Administration.
              Senate Concurrent Resolution 113--to Rename the Document 
              Door of the Capital as the Chestnut-Gibson Memorial Door
               Mr. CAMBPELL submitted the following concurrent 
             resolution; which was referred to the Committee on Rules 
             and Administration:
                                  S. Con. Res. 113
               Whereas on Friday, July 24, 1998, a lone gunman entered 
             the United States Capitol building through the door known 
             as the Document Door, located on the first floor of the 
             East Front;
               Whereas while the gunman's intentions are not yet fully 
             known, nor may ever be known, it is clear that he would 
             have killed many more innocent people if Officers Chestnut 
             and Gibson had not ended his violent rampage;
               Whereas Officer Jacob Chestnut was the first Capitol 
             Police officer to confront the gunman just inside the 
             Document Door and lost his life as a result;
               Whereas Detective John Gibson was the next officer to 
             confront the gunman and also lost his life in the ensuing 
             shootout;
               Whereas the last shot fired by Detective Gibson, his 
             final act as an officer of the law, finally brought down 
             the gunman and ended his deadly rampage;
               Whereas this was the first time members of the Capitol 
             Police have been killed in the line of duty in the 170-
             year history of the police force;
               Whereas the Capitol Police represent true dedication and 
             professionalism in their duties to keep the Capitol 
             Building, the Library of Congress, and the Senate and 
             House of Representatives office buildings safe for all who 
             enter them;
               Whereas the Capitol shines as a beacon of freedom and 
             democracy all around the world;
               Whereas keeping the sacred halls of the Capitol, known 
             as the People's House, accessible for all the people of 
             the United States and the world is a true testament of 
             Congress and of our Nation's dedication to upholding the 
             virtues of freedom;
               Whereas the door where this tragic incident took place 
             is known as the Document Door; and
               Whereas it is fitting and appropriate that the Document 
             Door be renamed as the Chestnut-Gibson Memorial Door in 
             honor of Officer Jacob Chestnut and Detective John Gibson: 
             Now, therefore, be it
               Resolved by the Senate (the House of Representatives 
             concurring), That the Document Door located on the first 
             floor of the East Front is renamed as the Chestnut-Gibson 
             Memorial Door in honor of Officer Jacob Joseph Chestnut 
             and Detective John Michael Gibson.

               Mr. CAMPBELL. Mr. President, today I submit a Senate 
             concurrent resolution to rename the Document Door as the 
             Chestnut-Gibson Memorial Door. I feel that it is only 
             fitting that this door be named in honor of the two brave 
             Capitol Police Officers, Detective John Gibson and Officer 
             Jacob Chestnut, who just last Friday, gave their lives in 
             the line of duty while serving their country.
               Last Friday's shocking and senseless violence in the 
             halls of the U.S. Capitol both saddened our Nation and 
             took the lives of two of our finest.
               Officer Jacob Chestnut was posted at the Document Door 
             entrance on the Capitol's East Front. Officers posted to 
             this entrance are the first faces that many tourists see 
             when they come to visit the Capitol. Officer Chestnut's 
             post, which involves achieving a delicate balance between 
             the ensuring safety of those who visit the Capitol while 
             keeping the People's House as free and open as possible, 
             requires a very special combination of hospitality, humor, 
             patience, and professionalism. To his credit, Officer 
             Chestnut excelled in this endeavor.
               Detective John Gibson was the second Capitol Police 
             Officer to engage the gunman. I understand that it was 
             Detective John Gibson's last shot, his final act of a 
             defender of the peace, that brought the gunman down and 
             ended the violent rampage. The Detective's steadfast 
             valor, while already having been shot several times, was 
             the difference that saved many lives. We all owe him a 
             deep debt of gratitude.
               If it had not been for the heroic actions of these two 
             brave officers, this dangerous gunman would almost 
             certainly have killed many more innocent people. The two 
             officer's ultimate sacrifice saved many lives.
               This building, the U.S. Capitol, is far more than just a 
             building, it is a living monument to freedom and 
             democracy. It is perhaps the only building on earth that 
             simultaneously houses a healthy democracy at work, while 
             standing as a tribute to freedom that attracts millions of 
             visitors from all over the U.S. and the entire world each 
             year. The chambers, galleries, and halls of our Capitol 
             are full of statues, busts, paintings, and displays that 
             commemorate heroes and key events in our Nation's history. 
             The men and women honored under this magnificent dome have 
             served their country in a wide variety of ways. Some have 
             been great visionaries and statesmen. Some have been 
             leaders in science or adventurers, like Colorado's son, 
             astronaut Jack Swigert whose statue stands in these halls. 
             Each of these heroes has contributed and sacrificed in his 
             or her own very real and personal way.
               Some of these heroes have made the greatest sacrifice 
             for their Nation, giving their lives. Detective John 
             Gibson and Officer Jacob Chestnut have joined this honored 
             rank. They gave their lives for their Nation while 
             protecting our Nation's Capitol, and it is fitting that 
             they will lie in honor today in the Capitol's Rotunda 
             while a grateful Nation pays its respects.
               Not only is the Capitol the American People's House, it 
             stands as a bright beacon of hope to all of the world's 
             freedom loving people. While traveling this building's 
             halls, I have been regularly awed by the comments of 
             visitors from other countries about how open and free this 
             building is. They state how they would never be allowed to 
             walk so freely through the halls of their own capital 
             buildings back home in their respective countries. This is 
             an important part of what makes America great.
               Whenever I have heard such sentiments, I am reminded of 
             just how fortunate I am, and we all are, to be Americans. 
             Our Capitol is the People's House, and it must remain open 
             and accessible to all.
               Thanks to the sacrifices of Detective John Gibson and 
             Officer Jacob Chestnut, and the dedication and 
             professionalism of the entire U.S. Capitol Police Force, 
             our Nation's Capitol building is freely accessible and 
             continues to serve as a beacon of freedom.
               For these reasons I feel that it is only fitting that 
             the Document Door be renamed in honor of the two brave 
             Capitol Police Officers, Detective John Gibson and Officer 
             Jacob Chestnut, who gave their lives so that the Capitol 
             building could remain the People's House and open to all.
                                               Wednesday, July 29, 1998
               Mr. FEINGOLD. Mr. President, in the wake of the terrible 
             crime committed in the Capitol last Friday, I want to take 
             a moment to reflect on the courage exhibited by the 
             Capitol Police Force in the face of that attack at the 
             heart of America's democracy.
               The Capitol Police have guarded the U.S. Congress since 
             1828, but their finest, yet most tragic, moment came on 
             July 24, 1998, when two officers gave their lives to 
             defend their fellow citizens, and our Capitol and all that 
             it represents.
               Officer Jacob J. Chestnut and Detective John M. Gibson, 
             like all the quiet heroes of the Capitol Police Force and 
             their colleagues across America, came to work each day, 
             performing their duties with dedication and 
             professionalism, prepared at any moment to lay down their 
             lives so that others could be saved, and the security of 
             the Capitol could be preserved.
               In a few terrifying minutes on the afternoon of July 
             24th, that moment came, as Detective Gibson and Officer 
             Chestnut gave their lives for ours, and for countless 
             other people working and visiting here that day. As they 
             bravely defended the Capitol, Detective Gibson and Officer 
             Chestnut showed the enormity of their courage, the depth 
             of their character, and the fullness of their commitment 
             to duty as Capitol Police officers.
               As Americans, we owe Officer Chestnut and Detective 
             Gibson a debt that can never be repaid. Instead, we can 
             only offer our deepest sympathies to the families of these 
             two brave officers, and pledge to honor their memories 
             with the same enduring strength and vigilance with which 
             they defended our lives.
               I also want to recognize the other Capitol Police 
             officers involved in apprehending the gunman, rushing 
             people in the building to safety, and conducting the 
             subsequent investigation with such a high degree of 
             professionalism. We commend their service in protecting 
             our Capitol and reaffirm with confidence that under their 
             watch the House of the people will stay open to all the 
             people.
               Americans can take great pride in the heroism the 
             Capitol Police displayed last Friday, and in the bravery 
             they summon every day as they protect our Nation's 
             Capitol. To them I offer my thanks, and the thanks of my 
             staff and the people of the State of Wisconsin, for their 
             courageous work.
                                                  Friday, July 31, 1998
               Mr. LOTT. Mr. President, once again, I want to 
             acknowledge that our thoughts this morning are with the 
             family, friends and colleagues of Officer J.J. Chestnut. 
             He will pass before the Capitol one last time today and be 
             laid to rest. Our hearts continue to be heavy with sorrow 
             for the loss of this fine man. We certainly have his 
             family in our prayers today.

               Mr. KYL. Mr. President, as long as the majority leader 
             is still on the floor, let me repeat what I told him a 
             couple days ago. The remarks he made on the occasion of 
             the public ceremony in the Rotunda for the two fallen 
             Capitol Police officers, I thought, were extraordinary, 
             right on the mark, and I very much appreciate his 
             representation of the Senate at that occasion. This Nation 
             has now spent 1 week thinking very carefully about what 
             the meaning of the events of just a week ago are. I think 
             that his remarks and the remarks of other speakers on that 
             occasion certainly help to bring proper perspective to 
             those events for all Americans as well as those of us here 
             in the Congress.

               Mr. AKAKA. Mr. President, today Capitol Police Officer 
             Jacob J. Chestnut was laid to rest at Arlington National 
             Cemetery, concluding a week that has saddened and shocked 
             every American and touched the hearts of millions of 
             people around the world. I rise to express my profound 
             sorrow over the death of Officer Chestnut and Detective 
             John Gibson, and to extend my sympathy to the families, 
             friends, and fellow officers of these two brave men. The 
             tremendous outpouring of grief and respect we have 
             experienced and witnessed during the congressional 
             ceremony and honors on Tuesday, and in the requiem 
             services for Detective Gibson and Officer Chestnut over 
             the past two days are fitting tribute to the courage and 
             selfless sacrifice of these fallen heroes.
               The deaths of Officer Chestnut and Detective Gibson, 
             killed in the line of duty as they defended all of us who 
             are privileged to work and visit the Capitol, is a 
             testament to the fidelity and valor of these men, as well 
             as a reminder of the exceptional bravery and courage of 
             the men and women of the Capitol Police who protect the 
             Capitol complex and grounds. We are fortunate to have 
             these officers on the job, protecting all of us, willing 
             to confront the dangers and violence that too often 
             afflict our world today, so that our Capitol can remain 
             open and accessible to the public. The professionalism, 
             pride, and good-natured courtesy which these officers 
             bring to their duties, day in and day out, serves our 
             democracy by keeping the Capitol open to the people and 
             safeguarding, with their lives if necessary, the freedom 
             and liberty we cherish.
               On the Capitol dome, looking across the Capital City, 
             stands the Statue of Freedom Triumphant in War and Peace, 
             an emblem of democracy and hope, a symbol of America's 
             promise that every citizen has the freedom and opportunity 
             to realize their God-given potential. In her right hand 
             Freedom holds an olive branch, in her left, a sword, a 
             reminder that the preservation of freedom and democracy 
             often requires sacrifice.
               Over the course of our history, the Capitol has 
             witnessed stirring oratory and the passage of landmark 
             legislation which have inspired us, strengthened our 
             Nation, restored hope, preserved our Republic, and 
             maintained our resolve. The heroic actions of Officer 
             Chestnut and Officer Gibson, who acted to preserve and 
             protect life without regard to their own safety, bonds 
             deeds to the ideals and values we celebrate and honor here 
             at the heart of our democracy. The President said it best 
             when he stated that the actions of these brave men 
             sanctified the Capitol. May God bring comfort and peace to 
             the families, friends, and colleagues of Detective John 
             Gibson and Officer Jacob Chestnut.
                 Messages from the House Received During Adjournment
               Under the authority of the order of the Senate of 
             January 7, 1997, the Secretary of the Senate, on July 31, 
             1998, during the adjournment of the Senate, received a 
             message from the House of Representatives announcing that 
             House has passed the following bill, in which it requests 
             the concurrence of the Senate:

               H.R. 4354. An act to establish the United States Capitol 
             Police Memorial Fund on behalf of the families of 
             Detective John Michael Gibson and Private First Class 
             Jacob Joseph Chestnut of the United States Capitol Police.

               The message also announced that the House has agreed to 
             the following concurrent resolution, without amendment:

               S. Con. Res. 114. Concurrent resolution providing for a 
             conditional adjournment or recess of the Senate and a 
             conditional adjournment of the House of Representatives.
                                            Tuesday, September 22, 1998
               Mr. SARBANES (for himself, Ms. Mikulski, Mr. Robb, and 
             Mr. Warner) submitted the following concurrent resolution; 
             which was referred to the Committee on Rules and 
             Administration:
                                  S. Con. Res. 120
               Whereas the United States Capitol Police force has 
             protected the Capitol and upheld the beacon of democracy 
             in America;
               Whereas 3 officers of the United States Capitol Police 
             have lost their lives in the line of duty;
               Whereas Sgt. Christopher Eney was killed on August 24, 
             1984, during a training exercise;
               Whereas officer Jacob ``J.J.'' Chestnut was killed on 
             July 24, 1998, while guarding his post at the Capitol; and
               Whereas Detective John Gibson was killed on July 24, 
             1998, while protecting the lives of visitors, staff, and 
             the Office of the Majority Whip of the House of 
             Representatives: Now, therefore, be it
               Resolved by the Senate (the House of Representatives 
             concurring), That the United States Capitol Police 
             headquarters building located at 119 D Street, Northeast, 
             Washington, D.C., shall be known and designated as the 
             ``Eney, Chestnut, Gibson Memorial Building''.

               Mr. SARBANES. Mr. President, today I am submitting a 
             concurrent resolution to redesignate the United States 
             Capitol Police Headquarters as the ``Eney, Chestnut, 
             Gibson Memorial Building'' in honor of the three brave 
             United States Capitol Police Officers who have been killed 
             in the line of duty since the inception of the Capitol 
             Police.
               The United States Capitol Police are a very special 
             breed. They have a very special duty and a special trust. 
             They guard our Nation's Capitol and keep it safe and 
             secure for the citizens of the world. When Officers Gibson 
             and Chestnut were killed on July 24, 1998, I joined my 
             colleagues on the floor to express my profound shock, and 
             to express my very heartfelt sympathies to their families. 
             I quoted an editorial in Roll Call then and I want to read 
             from it again because I think it sums up the nature of our 
             Capitol Police Force:

               Sometimes, given the comparative low level of violence 
             around the Capitol complex and given that Capitol Police 
             Officers are usually seen cheerfully directing traffic or 
             gently herding tourists, it's forgotten that ours--meaning 
             the Capitol Hill Police Force--is a real police force. We 
             who live and work around the Capitol know--but others 
             don't--that our police also fight crime in the 
             neighborhood as well as watch the Capitol. But now all 
             America understands that the Capitol Police do not just 
             stand guard, but also stand ready to be heroes. That 
             knowledge was derived last week at a heartrending cost.

               So Mr. President, the purpose of this concurrent 
             resolution is not just to memorialize these three 
             officers, but to honor in perpetuity the bravery, and 
             acknowledge the sacrifice of the men and women who put 
             their lives on the line daily to protect this symbol of 
             democracy. I urge my colleagues to join me in support of 
             this measure.
                                              Thursday, October 1, 1998
                               MESSAGES FROM THE HOUSE
               The House has agreed to the following concurrent 
             resolution, in which it requests the concurrence of the 
             Senate:

               H. Con. Res. 317. Concurrent resolution expressing the 
             sense of the Congress that Members of Congress should 
             follow the examples of self-sacrifice and devotion to 
             character displayed by Jacob Chestnut and John Gibson of 
             the United States Capitol Police.
                 


                                  MEMORIAL SERVICES

                                         FOR

                                JACOB JOSEPH CHESTNUT

                                         AND

                                 JOHN MICHAEL GIBSON
                          A Congressional Tribute Honoring

                            Officer Jacob Joseph Chestnut

                                         AND

                            Detective John Michael Gibson





                                           


             3:00 p.m., Tuesday, July 28, 1998

             U.S. Capitol Rotunda

             Washington, D.C.
               MASTER OF CEREMONIES. Ladies and gentlemen, the 
             Congressional Tribute in the United States Capitol 
             Rotunda.
               The invocation will be delivered by the Chaplain of the 
             United States House of Representatives, Dr. James D. Ford.

               DR. FORD. Let us pray.
               With sadness and grief, oh, gracious God, we join the 
             members of our community expressing our sorrow that an act 
             of violence has taken two of the sons of this institution 
             who have given their lives so that others might live.
               The names of John Michael Gibson and Jacob Joseph 
             Chestnut are engraved upon our hearts and their memory is 
             etched in our very souls. Their noble service will ever 
             bring to mind the words of sacrifice and dedication, of 
             commitment and faithfulness, the motto of duty, honor, 
             country.
               We gather in this hallowed room, full of the memories of 
             days past, to praise their memory, to salute their 
             selfless deeds, to honor their sacrifice.
               As their colleagues and friends, we are humbled by their 
             deeds and inspired by their concern for others in ways 
             that we cannot measure. When we remember what they have 
             done, may we find our hearts lifted and our lives 
             inspired. Let us go forward more appreciative of the 
             sacrifice that law enforcement officers make to ensure 
             that the spirit of democracy continues strong in this 
             place and the light of freedom burns bright.
               May your rich blessing, oh God, be with the families of 
             these men and may your spirit strengthen their spirits and 
             may your grace be sufficient for all their needs. So dwell 
             with them and be their God until the day break and the 
             shadows flee away.
               As a family mourns when one is lost, so our community 
             mourns the loss of these men. Oh, gracious God, as our 
             heads are weighed by grief, our spirits take confidence 
             that you are the giver of everlasting life, and in that 
             confidence is our hope and our trust.
               May your peace, oh, God, that passes all human 
             understanding be with us now and evermore. Amen.

               MASTER OF CEREMONIES. Ladies and gentlemen, we will now 
             have the laying of the wreaths. The first wreath will be 
             laid by the United States Senate.
               The next wreath will be laid by the United States House 
             of Representatives.
               The President of the United States will lay the 
             Executive Branch wreath.
               Chief of Police Gary L. Abrecht will lay the United 
             States Capitol Police wreath.
               Ladies and gentlemen, the Honorable Trent Lott, Majority 
             Leader of the United States Senate.

               SENATOR LOTT. Members of the Chestnut family, members of 
             the Gibson family, and members of the Capitol Police Force 
             of the United States of America, this is truly a very 
             emotional moment for the United States Congress family. We 
             share the pain and the suffering of this family. We 
             struggle to find a way to express our feeling of grief and 
             sorrow and appreciation at the same time.
               These two men have proven that they are the very best of 
             friends because they have paid the ultimate price.
               In this room there are murals, pictures, statues of the 
             great men and women in our country's history. Today, we 
             honor two men that should rightly be recognized in this 
             hall of heroes.
               We have had Presidents lie in repose here, generals, 
             Members of Congress, unknown soldiers, but it is 
             appropriate today that we honor these two men who did 
             their job, who stood the ground and defended freedom, this 
             very room, and all of our lives, and that we honor them 
             here with these heroes.
               Abraham Lincoln in his most famous speech said it best 
             when he said that there is very little that we could say 
             to add or detract from the moment and the sacrifice that 
             these men have given, but we must try to express our love 
             and our appreciation.
               At the top of this dome is a statue. Many argue about 
             its symbolism, but it stands for the spirit of freedom. 
             And today the spirit of freedom is in this room because of 
             these men, and it will continue to live in this building, 
             in our hearts, as we maintain freedom and liberty for 
             future generations.
               The monument for these two heroes, J.J. Chestnut and 
             John Gibson, is the monument of freedom that is so 
             exemplified by this building.
               On behalf of the Congress, the Senate, and the American 
             people, we extend to you our sympathy, our love and our 
             appreciation.

               MASTER OF CEREMONIES. Ladies and gentlemen, the 
             Honorable Newt Gingrich, Speaker of the House.

               SPEAKER GINGRICH. I wish that I could say to the two 
             wives who are here and to the children that are here that 
             their fathers were going to come through the door. I wish 
             that we could say the terrible things did not happen. But 
             we can't.
               The most we can do is come together as a remarkable 
             extended family, really from all across the country as 
             people have called in, people who are watching now, people 
             who are concerned, people who have visited the Capitol, 
             people who see this as their centerpiece of freedom and 
             try to reach out to the wives, to the children, to all the 
             relatives who are here to say that your personal loss is 
             shared by a remarkable number of people; that in the case 
             of Officer Chestnut there were so many people who every 
             day walked right past that door, including me, my staff, 
             most of the leadership on the House side; to say of 
             Officer Gibson, there are so many people, as you know, who 
             literally believe that they today would be dead except 
             that he sacrificed his life for theirs; and to try to 
             extend to you some of our love, our concern, and our 
             caring.
               But, in addition, I wanted to suggest to you that, in 
             passing, your husbands and your fathers had in fact 
             brought together this Nation; that their devotion to duty, 
             their sacrifice to defend freedom, their commitment of 
             their life both on a daily basis and at the crisis that 
             occurred on Friday has in fact reminded millions and 
             millions of people that while this is the center of 
             freedom in the world and this building is the centerpiece 
             of freedom in our constitutional system, it only lasts as 
             long as there is courage.
               So, in part, on behalf of the family of freedom 
             worldwide, on behalf of all Americans and on behalf of the 
             congressional family, I want to say to both families that 
             your sacrifice is a painful but real building block of 
             freedom, and that for the rest of your lives you will in 
             fact know from people you see all around the country and 
             all around the world that your husbands and your fathers 
             did not die in vain. They in fact died in duty to the very 
             freedom that each of us cherishes.

               MASTER OF CEREMONIES. Ladies and gentlemen, the Vice 
             President of the United States.

               VICE PRESIDENT GORE. Today we honor two watchmen who 
             guarded not just a building, but an ideal; men who lived 
             and labored not only to keep our democracy free from harm, 
             but to keep it free and open to all our people.
               So many times, upon entering this building, I have been 
             greeted by Officer Chestnut, standing proudly at his post; 
             so many times, as I have walked through this Rotunda, I 
             have been accompanied and guarded by Detective Gibson and 
             the protective detail on which he served. I know I am not 
             alone among those here today in thinking how fragile is 
             the safety and security we take for granted, how thin the 
             blue line these brave men and women have drawn for us here 
             in the Capitol and in every American community.
               Soon two new names will be inscribed on the Law 
             Enforcement Memorial less than a mile from here, but 
             future generations will owe these men a debt outlasting 
             any monument. As much as any soldier who has landed on a 
             beach, last week the gatekeepers of the our Capitol became 
             the frontline guardians of our freedom. In defending each 
             citizen's right to cross through that doorway in safety 
             they were defending democracy itself at its core.
               It is written in the Scripture that whosoever will be 
             great among you, let him be your minister, and whosoever 
             will be chief among you, let him be your servant even as 
             the son of man came not to be ministered unto, but to 
             minister and to give his life as a ransom for many.
               I believe it is men like John Gibson and J.J. Chestnut, 
             who are in a sense ministers of our democracy, and who by 
             virtue of their extraordinary sacrifice are rightly 
             honored here today as chief among us. They also remind us 
             that for all those who suffer and die for righteousness' 
             sake, theirs is the kingdom of God.
               Let me say to the Gibson and the Chestnut families, we 
             know nothing can lift your loss; we do not forget that, 
             for you, each day forward the sacrifice will go on. But I 
             hope there is comfort and I know there is pride and truth 
             in the poet's words, ``How sleep the brave who sink to 
             rest by all their country's wishes bless'd!''
               God bless you and God bless America.

               MASTER OF CEREMONIES. Ladies and gentlemen, the 
             President of the United States.

               PRESIDENT CLINTON. To the Chestnut and Gibson families, 
             my fellow Americans:
               The Bible defines a good life thusly, ``To love justice, 
             to do mercy, and to walk humbly with thy God.''
               Officer J.J. Chestnut and Detective John Gibson loved 
             justice. The story of what they did here on Friday in the 
             line of duty is already a legend.
               It is fitting that we gather here to honor these two 
             American heroes here in this hallowed chamber that has 
             known so many heroes, in this Capitol they gave their 
             lives to defend.
               And we thank their families for enduring the pain and 
             extra burden of joining us here today, for they remind us 
             that what makes our democracy strong is not only what 
             Congress may enact or a President may achieve.
               Even more, it is the countless individual citizens who 
             live our ideals out every day, the innumerable acts of 
             heroism that go unnoticed; and especially it is the quiet 
             courage and uncommon bravery of Americans like J.J. 
             Chestnut and John Gibson, and, indeed, every one of the 81 
             police officers who just this year have given their lives 
             to ensure our domestic tranquility.
               John Gibson and J.J. Chestnut also did mercy in giving 
             their lives to save the lives of their fellow citizens. We 
             honor them today. And in so doing, we honor also the 
             hundreds of thousands of other officers, including all of 
             their comrades who stand ready every day to do the same.
               They make it seem so ordinary, so expected, asking for 
             no awards or acknowledgment, that most of us do not always 
             appreciate--indeed, most of the time we do not even see 
             their daily sacrifice. Until crisis reveals their courage, 
             we do not see how truly special they are.
               And so they walked humbly.
               To the Gibsons, to Elaine, Wendy, Kristin, Jack and 
             Danny; to the Chestnuts, Joseph, Janice, Karen and 
             William; to the parents, the brothers, the siblings here, 
             you always knew that John and J.J. were special. Now, the 
             whole world knows as well.
               Today, we mourn their loss and we celebrate their lives. 
             Our words are such poor replacements for the joys of 
             family and friends, the turning of the seasons, the 
             rhythms of normal life that should rightfully have been 
             theirs. But we offer them to you from a grateful Nation, 
             profoundly grateful that in doing their duty, they saved 
             lives, they consecrated this house of freedom, and they 
             fulfilled our Lord's definition of a good life.
               They loved justice. They did mercy. Now and forever, 
             they walk humbly with their God.

               MASTER OF CEREMONIES. Ladies and gentlemen, the Chief of 
             the United States Capitol Police, Gary L. Abrecht.

               CHIEF ABRECHT. There is no easy way to absorb the tragic 
             events of last Friday. For all of us, it is difficult to 
             comprehend why someone would commit such an egregious act 
             in the building which is at the core of our democracy.
               The American people hold a unique reverence for the 
             United States Capitol. Its soaring dome and marble columns 
             exemplify the strength of our Nation. When we look at this 
             grand building, our hearts swell with pride.
               Today our hearts are heavy with sorrow. When Officer 
             Jacob Chestnut and Detective John Gibson lost their lives, 
             it was in the defense of this building and all those who 
             work and visit here. They selflessly sacrificed their 
             lives so that others may live.
               We could not have asked any more of them. They would not 
             have given any less for us.
               The men and women of the United States Capitol Police 
             are committed to continuing to serve with the level of 
             dedication, professionalism, and bravery exhibited by 
             these two fine officers. We understand that there are 
             those who seek to disrupt the national legislative process 
             or come here to commit acts of violence. It is important 
             that those individuals understand that there are other 
             officers like J.J. and John who are determined to fill the 
             breach and hold tight the thin blue line which protects 
             our congressional community and allows the public to 
             safely visit their seat of government.
               It is therefore fitting that we gather in the Rotunda of 
             this great building to remember the lives of the officers 
             who made the ultimate sacrifice defending it.
               While what we say here will soon be forgotten, the 
             memory of the heroic actions of Officer Jacob Chestnut and 
             Detective John Gibson will become as timeless as the 
             building in which they died.
               To the Gibson and the Chestnut families, you have our 
             deepest sympathy and our never-ending gratitude.

               MASTER OF CEREMONIES. Ladies and gentlemen, the 
             benediction will be delivered by the Chaplain of the 
             United States Senate, Dr. Lloyd J. Ogilvie.

               DR. OGILVIE. Let us pray.
               Oh, gracious God, you have promised to keep us in 
             perfect peace when our minds are stayed on you. Do that 
             for us now, for we cannot do it for ourselves. Keep our 
             minds on you, invade our thinking with your peace, your 
             shalom, the peace that passes understanding, the peace 
             that places a balm of healing on our raw nerves, the peace 
             that makes us secure in your everlasting arms.
               You alone, dear Father, can heal our grief.
               You are the source of comfort for the immense loneliness 
             and pain that the families of Jacob Chestnut and John 
             Gibson have suffered and will endure. Oh, blessed God, be 
             the unseen but powerful presence in their homes, the 
             strength to their wives, the eternal Father to these 
             fatherless children. Mend their broken hearts and fill 
             them with courage.
               Thank you for the memory of these gallant officers who 
             gave their lives to protect others. May we never forget 
             their heroism and commitment.
               Help us to be much more sensitive to the Capitol Police 
             officers who daily serve to protect us and keep this 
             magnificent building, the center of democracy, open and 
             safe for those who work and visit here.
               Lord, your perfect love casts out fear.
               And now, J.J. and John, cherished friends and heroes, we 
             say an official good-bye, but you will always be in our 
             hearts. Death for you became no conqueror in the end. You 
             left your physical bodies to rise to meet your Saviour and 
             friend.
               In his name, Amen.

               MASTER OF CEREMONIES. Ladies and gentlemen, please 
             remain in place until the families and the President have 
             departed.
               Thank you.
                              A Service of Remembrance

             Celebrating the Life and Work of

                                Jacob Joseph Chestnut

                            April 28, 1940-July 24, 1998

              ``I know your works, your labor, your patience.''--Rev. 
                                         2:2


                          10:00 a.m., Friday, July 31, 1998

             Ebenezer A.M.E. Church
                                 7707 Allentown Road
                              Fort Washington, MD 20744
                                 This Is My Beloved
                 Remembrance is a gold chain, death tries to break,
                  but in vain. The years may wipe out many things,
                       but they will never wipe out the memory
                  of all those happy years, when we were together.

               Dramatically on Friday, July 24, while doing what he 
             loved, Jacob Joseph Chestnut, affectionately called 
             ``J.J.'' by those who knew him best, entered life 
             everlasting while guarding the citadel of freedom, the 
             Nation's Capitol.
               He was a product of the Jacksonville, North Carolina, 
             Public Schools and was born in Myrtle Beach, South 
             Carolina.
               ``J.J.'' enlisted into the United States Air Force in 
             June 1960. During his tenure of service he was awarded 
             numerous decorations and citations, including the Bronze 
             Star and the Air Force Commendation Medal as a military 
             policeman. He was honorably discharged in February 1980 
             having obtained the rank of Master Sergeant.
               While serving in Taiwan he met Wen-Ling, his wife of 
             twenty-three years. Out of this marriage there were two 
             children, William Liao and Karen Ling and granddaughter, 
             Jasmine. Other children include Joseph, twin daughters 
             Janet and Janece, and grandchildren Ashton, Brandy, and 
             Joyce. ``J.J.'' was a devoted father who gave good common 
             sense advice and taught them well.
               Also, remembering his kindness, love, and advice are 
             brothers Herman, Caleb, and Henry. Half-brothers include 
             David, Richard, and Daniel and two half-sisters, Marie and 
             Margaret. ``J.J.'' was a humble and yet proud professional 
             who served for 18 years as a National Capitol Police 
             Officer. His many years of mentoring, advice-giving, and 
             friendly spirit will leave a great void in the lives of 
             Officers of C-3. Standing guard at the gates of freedom 
             was his joy as he smiled and greeted daily the leaders of 
             our nation. Whatever he did, he did with enthusiasm and 
             professionalism.
               His enthusiasm was shared with his neighbors as he 
             shared the ``goods'' from his garden. Serving his 
             neighbors, he was active in the Tantallon Square Civic 
             Association. Whether running at 6 a.m. to keep in shape or 
             joking with family or friends at work, he gave it his all. 
             Nothing was done except completely and with great 
             excitement.
               We thank God today for the quiet, dedicated, and 
             purposeful life of ``J.J.'' Chestnut. A life filed with 
             caring and sharing. He lived, he loved, and he made us 
             whole and happy.
                                  Order of Service




                                   Organ Prelude

                                   Processional

                                   Call to Worship                                            Pastor Grainger Browning
                                                                                              Ebenezer A.M.E. Church

                                   Invocation

                                   Opening Hymn                                               ``To God Be the Glory''

                                   The Readings                                               Chaplain David Lothrop
                                     Isaiah, 40:28-31                                         National Chaplain,
                                     Romans, 12:9-18                                          Federal Law Enforcement
                                                                                              Association

                                   ``Amazing Grace''                                          Metropolitan Police Choir
                                                                                              Washington, D.C.




                                        Tributes
                                          Chief Gary L. Abrecht, National Capitol Police
                                          Henry Chestnut, Brother
                                          Karen Chestnut, Daughter




                                   Prayers for the People                                     CH (Col) Edward T. Grogan
                                                                                              United States Air Force

                                   ``The Lord's Prayer''                                      The Mass Choir of Ebenezer

                                   Meditation                                                 Pastor Jack A. Marcom, Jr.
                                     ``Good & Faithful Servant''                              Fort Washington Baptist Church

                                   Blessing

                                   Recessional


             Interment
                             Arlington National Cemetery
             Pallbearers
                       National Capitol Police Ceremonial Unit

             Music Provided by:
                               The Voices of Ebenezer
                               Ebenezer A.M.E. Church
                              Metropolitan Police Choir
                                  Washington, D.C.

             Acknowledgments

               We are most appreciative for your visits, prayers, and 
             all acts of kindness extended to the family during this 
             time by the President, Vice President, and the 
             congressional leadership. Especially we wish to thank 
             Liaison Officers Investigator Richard Lopez and Officer 
             Kevin Jackson. To a grateful Nation and to the Capitol 
             Police, we will always be blessed by your caring.
                              In Memory of John Gibson

             Born 29 March 1956

             Born to eternal life 24 July 1998



             St. Elizabeth Ann Seton

             Catholic Church
                           Funeral Liturgy for John Gibson


                                   Entrance Rite

                                   Opening Hymn:                                              ``Old Rugged Cross''

                                   First Reading:                                             Wisdom, 4:7-15
                                                                                              Deborah Hemenway

                                   Responsorial Psalm:                                        Judy Snopek & Jeff Schuller

                                   Second Reading:                                            Thessalonians, 4:13-18
                                                                                              Eileen Sheenan

                                   Gospel Acclamation:                                        Deacon Emil Myskowski


                   God loved the world so much, he gave His only Son,
                   that all who believe in Him might have eternal life.


                                   Gospel:                                                    Gospel of John, 15:12-16
                                                                                                Deacon Emil Myskowski

                                   Homily:                                                    Father Daniel Hamilton

                                   Presentation of Gifts:                                     Members of Gibson Family

                                   Presentation Hymn:                                         ``Peace in the Valley''

                                   Eucharistic Prayer

                                   Our Father

                                   Sign and Exchange of Peace

                                   Communion

                                   Communion Hymn:                                            ``Now behold the Lord''
                                                                                              ``Total Praise''




                                   ``Ave Maria'':                                             Judy Snopek & Mark Forrest

                                   Eulogy:                                                    Jack DeWolfe

                                   Final Commendation Rites

                                   Closing Hymn:                                              ``Amazing Grace''
                                                                                              ``Battle Hymn of the Republic''



               We offer our sincerest condolences to the family members 
             of Officer Jacob Chestnut who are here with us today.
               The Eucharist is the sign of our faith and unity, 
             therefore we ask only Catholics to come forward to receive 
             Holy Communion.
               The family wishes to thank the Metropolitan Police Choir 
             for the music today, to all who joined here and to all who 
             have remembered and honored John, husband, loving father 
             and police officer who gave his all.

                                     

                                            

      

</pre></body></html>
